<html>
<title> - NATIONAL SECURITY AND FOREIGN POLICY PRIORITIES IN THE FISCAL YEAR 2012 INTERNATIONAL AFFAIRS BUDGET</title>
<body><pre>[Senate Hearing 112-361]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 112-361

NATIONAL SECURITY AND FOREIGN POLICY PRIORITIES IN THE FISCAL YEAR 2012 
                      INTERNATIONAL AFFAIRS BUDGET

=======================================================================

                                HEARING

                               BEFORE THE



                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 2, 2011

                               __________

       Printed for the use of the Committee on Foreign Relations






<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>






      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
73-904 PDF                WASHINGTON : 2012
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001






                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
BARBARA BOXER, California            RICHARD G. LUGAR, Indiana
ROBERT MENENDEZ, New Jersey          BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   MARCO RUBIO, Florida
JIM WEBB, Virginia                   JAMES M. INHOFE, Oklahoma
JEANNE SHAHEEN, New Hampshire        JIM DeMINT, South Carolina
CHRISTOPHER A. COONS, Delaware       JOHNNY ISAKSON, Georgia
RICHARD J. DURBIN, Illinois          JOHN BARRASSO, Wyoming
TOM UDALL, New Mexico                MIKE LEE, Utah
              Frank G. Lowenstein, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                              (ii)        








                            C O N T E N T S

                              ----------                              
                                                                   Page

Clinton, Hon. Hillary Rodham, Secretary of State, U.S. Department 
  of State, Washington, DC.......................................     6
    Prepared statement...........................................    10
    Responses to questions submitted for the record from the 
      following:
        Senator John F. Kerry....................................    47
        Senator Richard G. Lugar.................................   111
        Senator Barbara Boxer....................................   148
        Senator Robert Menendez..................................   149
        Senator James E. Risch...................................   162
        Senator Bob Corker.......................................   165
        Senator Robert P. Casey, Jr..............................   175
        Senator Mike Lee.........................................   177
Kerry, Hon. John F., U.S. Senator from Massachusetts, opening 
  statement......................................................     1
Lugar, Hon. Richard G., U.S. Senator from Indiana, opening 
  statement......................................................     3

              Additional Material Submitted for the Record

Hon. Michael S. Lee, U.S. Senator from Utah, prepared statement..    46

                                 (iii)

  

 
NATIONAL SECURITY AND FOREIGN POLICY PRIORITIES IN THE FISCAL YEAR 2012 
                      INTERNATIONAL AFFAIRS BUDGET

                              ----------                              


                        WEDNESDAY. MARCH 2, 2011

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 9:34 a.m., in 
room SD-106, Dirksen Office Building, Hon. John F. Kerry 
(chairman of the committee) presiding.
    Present: Senators Kerry, Boxer, Menendez, Cardin, Casey, 
Webb, Shaheen, Coons, Durbin, Lugar, Corker, Rubio, DeMint, and 
Lee.

            OPENING STATEMENT OF HON. JOHN F. KERRY,
                U.S. SENATOR FROM MASSACHUSETTS

    The Chairman. Good morning. This hearing will come to 
order.
    Madam Secretary, it's wonderful to welcome you here today. 
I know you're freshly back from a quick trip and we appreciate 
enormously all of your efforts on our behalf. I can't think of 
a more relevant moment in many ways for you to appear before 
the committee, so we're happy to have you here.
    Let me just say up front that we have joined with our 
allies and we've heard loudly and clearly from you, Madam 
Secretary, that Colonel Qaddafi must go. He has lost all 
legitimacy, and I think it's important to be clear that we 
can't be halfway committed to that goal.
    The people of Libya are not asking for foreign troops on 
the ground. They are committed to doing what is necessary. But 
they do need the tools to prevent the slaughter of innocents on 
Libyan streets. I believe that the global community cannot be 
on the sidelines while airplanes are allowed to bomb and 
strafe. A no-fly zone is not a long-term proposition, assuming 
the outcome is what all desire, and I believe we ought to be 
ready to implement it as necessary.
    It is clear that we are living through one of the most 
important transformations in the history of the modern world. 
Some have likened the wave of protests sweeping the Middle East 
to the revolutions of 1848, which changed Europe's political 
landscape forever. There is no doubt that the events of this 
year will be studied for decades to come.
    But in this moment, at this time as we gather here and as 
the events unfold in the region, the full ramifications of the 
upheaval that has happened from Tunis to Tahrir Square, in the 
streets of Manama and Sanaa, in Tripoli and beyond, we don't 
understand yet exactly how that outcome is going to be defined.
    What we do know is that this is a time of great challenge, 
particularly for the people there, but also for people in other 
countries with interests and with families and connections 
there. Events this powerful demand a powerful response. Our 
commitment now to the ordinary people who are risking their 
lives to win human rights and democracy will be remembered for 
generations in the Arab world. We have to get this moment 
right.
    We are working here in the Senate with colleagues on both 
sides of the aisle to create a package of longer term financial 
assistance. As contrary as some might think that is in the 
context of our budget today, which we will discuss, it is in 
fact an imperative, because it is key to helping to turn the 
new Arab Awakening into a lasting rebirth.
    In the event that our involvement is not about sending 
troops or tanks to remake the region in our image, it's about 
sending economists and election experts and humanitarian aid to 
help a region remake itself. We have not yet worked out any 
numbers or details and obviously we'll work with the 
administration. But I am convinced that a significant financial 
commitment by the United States to assist in this monumental 
and uplifting transformation is key to its long-term outcome 
and to our relationship to it.
    We're being called upon to forge new relationships in a 
part of the world that has been and will remain vital to our 
national security. We've been given the opportunity to 
demonstrate conclusively to the young men and women of the 
Muslim world and beyond that al-Qaeda's belief that change 
requires violence and radicalization is just plain wrong. In 
fact, that is one thing that really stands out in the events of 
the last 6 weeks or so. The Arab Awakening is an unambiguous 
repudiation of al-Qaeda's poisonous doctrine.
    We now have one of history's greatest opportunities to 
affirm the universal appeal of democratic values to people 
across cultures and across religions, and to encourage an 
entire region to move toward reform and away from violence.
    Now, as I mentioned--and the Secretary knows this better 
than anyone--we all understand we face a budget crisis in our 
own country. But we can either pay now to help brave people 
build a better democratic future for themselves or we will 
certainly pay later, in much higher terms, with increased 
threats to our own national security.
    The budget that we're here to discuss this morning lays the 
foundation for our ability to fulfill our responsibilities to 
the American people and our responsibilities on a universal 
basis to people that keep faith with our values. The $53 
billion in core funding that the President has requested for 
international affairs is in fact a very small investment for 
the kind of return that we get.
    Consider this. We're going to spend certainly $700 billion 
plus this year on our military. By contrast, the international 
affairs budget is less than one-tenth of what the Pentagon 
spends. As Secretary Gates himself pointed out, if you took the 
entire Foreign Service roster you could barely staff one 
aircraft carrier.
    Yet our diplomats are serving on the front lines of 
multiple revolutions and wars. They're making vital 
contributions in Afghanistan and in Iraq they're planning the 
transition from a military mission to a diplomatic one, so that 
we can cement the political progress that has cost hundreds of 
billions of dollars and thousands of American lives. In Africa 
they are helping to midwife the birth of a new nation in South 
Sudan, to resolve the situation in Darfur, to forge a new 
relationship with the government in Khartoum. They're leading 
the fight against global challenges like nuclear proliferation 
and climate change, and in countless communities around the 
world they are providing essential humanitarian assistance, 
preventing the spread of cholera in Haiti, distributing food to 
refugees from the conflict in northern Kenya, and providing 
shelter to flood victims in Pakistan.
    This is simply not the time for America to pull back from 
the world. It is time to step forward. Yet, just last week the 
House sent us a continuing resolution for fiscal year 2011 that 
imposes draconian cuts. The budget would slash our humanitarian 
aid by 50 percent, decimating our ability to provide food, 
shelter, and medicine after natural disasters, and putting 
hundreds of thousands of lives at risk. It would cut nearly 
two-thirds of the funds devoted to promoting clean energy and 
increasing resilience to climate change in the most vulnerable 
regions of the world. It would cut over $1 billion in global 
health funding, which means that over 400,000 people who would 
have received lifesaving treatment through PEPFAR will now 
linger on waiting lists as their HIV diagnosis becomes a death 
sentence. And it would slash food and education for the world's 
poorest children by 50 percent.
    There's something about these cuts that I think does 
violence to the Judeo-Christian ethic by which so many people 
claim to be guided in their private and their public lives. 
These cuts are not abstractions. These are people, and they 
also are the values of our country. Cutting these programs will 
do almost nothing to rein in our budget deficit, but it will 
cost thousands of lives and certainly cost us our reputation 
and our commitment in the world. By reducing our diplomatic 
capacity around the globe, believe me, we will increase the 
threats to our own country.
    I know Secretary Clinton feels just as strongly, 
powerfully, about these issues and about the necessity of 
maintaining our global commitment. She's been an ardent 
advocate and tireless practitioner of American diplomacy. So 
we're very pleased to have her here today to discuss this 
budget with the committee.
    Senator Lugar.

          OPENING STATEMENT OF HON. RICHARD G. LUGAR,
                   U.S. SENATOR FROM INDIANA

    Senator Lugar. Thank you, Mr. Chairman, and I join you in 
welcoming Secretary Clinton, as always, to our committee. I 
look forward to her thoughts on State Department and foreign 
policy priorities for the coming year.
    Our hearing today is taking place in the context of deep 
economic uncertainty at home, coupled with extraordinary 
upheaval overseas. The American people are still suffering from 
high unemployment, with 9.5 percent out of work in my home 
State. The fiscal year 2010 budget deficit registered about 
$1.3 trillion, or 9 percent of GDP.
    Under President Obama's proposed budget, the fiscal year 
2011 deficit would be at least that high. Our total national 
debt has climbed above $14 trillion. Some businesses are 
returning to profitability, but long-term economic growth is 
threatened by numerous forces, including the skyrocketing 
national debt, high energy prices, and increased competition 
for export markets.
    Now, let me just say, overseas almost 100,000 American 
military personnel are fighting a difficult war in Afghanistan. 
More than 1,380 of our troops have been killed in Afghanistan 
with almost 10,500 wounded. Meanwhile, we are entering our 
eighth year in Iraq, a deployment that has cost more than 4,400 
American lives and wounded roughly 32,000. We still have more 
than 46,000 troops deployed in that country.
    As we discussed in our hearing yesterday, tensions on the 
Korean Peninsula are extremely high with no resolution to the 
problem of North Korea's nuclear program. We continue to pursue 
international support for steps that could prevent Iran's 
nuclear program from producing a nuclear weapon. We remain 
concerned about stability in Pakistan and the security of that 
country's nuclear arsenal. We are attempting to counter 
terrorist threats emanating from Afghanistan, Pakistan, East 
Africa, Yemen, and many other locations.
    In recent months, this tenuous security environment has 
been further complicated by the mass movements in Tunisia, 
Egypt, Libya, and elsewhere that are reshaping the Middle East 
with unpredictable results. People who have been alienated from 
their governments with no political power are beginning to 
believe that they have a personal stake in their country's 
direction.
    While this comes with high risks, especially in the short 
term, we know that the long-term prospects for stability, 
prosperity, and moderation are better in a Middle East in which 
populations actively participate in their own governance. These 
conditions at home and abroad necessitate that all government 
agencies, including the State Department, prioritize 
initiatives that invigorate and protect the American economy 
and fundamental U.S. security. Secretary Clinton and our 
diplomats, aid workers, security personel, and others are on 
the front lines of these issues. We appreciate very much the 
sacrifices that they make and the risks that they take daily on 
behalf of the American people.
    I would observe that the situation in Libya and the broader 
Middle East underscores the importance of three ongoing 
objectives of United States foreign policy that extend beyond 
management of immediate problems and crises.
    First, the State Department and other agencies must be 
devoted to U.S. energy security. The disruption of oil from 
Libya has impacted world markets causing the price of oil to 
spike above $100 a barrel and raising the prices Americans pay 
at the pump. Volatile oil prices are a threat to the U.S. 
economic recovery, and dependence on foreign oil limits our 
foreign policy choices. We are living in an age of extreme 
vulnerability to oil supply disruptions from war, instability, 
terrorism, or embargo.
    To end this dangerous overreliance on oil imports, we must 
find more domestic resources, improve, vastly improve, our 
efficiency, and improve international cooperation. I believe 
the administration should reverse its de facto prohibition on 
new offshore oil drilling, develop new forms of liquid fuels 
from domestic feedstocks such as biomass and coal, and 
dramatically increase the fuel efficiency of our vehicles.
    As this occurs, the State Department must work to diversify 
supply routes, and boost our energy trade with reliable and 
transparent allies such as Canada, in place of shaky and 
sometimes hostile suppliers.
    Second, although the situation in Libya is extremely 
dangerous, we can be thankful that the upheaval is occurring 
without a nuclear weapons dimension. The Bush administration 
was successful in coaxing Libya to give up its nuclear weapons 
program about 8 years ago. The importance of that success has 
been magnified by the current crisis. Although the Defense 
Department is responsible for a large share of global 
nonproliferation and counterproliferation efforts, including 
the so-called Nunn-Lugar programs, the State Department also 
plays a key role in working with other governments to overcome 
the proliferation threat.
    As we discussed yesterday in the context of North Korea, 
regime instability--wherever it occurs--heightens the chances 
that governments or individuals will seek leverage or profit 
that might come with transferring weapons of mass destruction 
technology. The consequences of even one WMD attack by 
terrorists or a rogue state could be devastating for our 
economy, our budget, our children, and perhaps our freedoms.
    Last fall, I led a United States Government delegation to 
East Africa to strengthen Nunn-Lugar outreach to several 
governments on improving security related to biological 
pathogens. Officials and programs throughout our national 
security apparatus must redouble efforts to deal with 
proliferation threats wherever they may occur.
    Third, food shortages and high prices for commodities have 
been issues in almost every Middle Eastern country that has 
experienced recent demonstrations. This underscores again the 
pivotal position of the United States as the largest and most 
diverse grower and exporter of food. This role comes with both 
enormous economic opportunities and national security 
imperatives.
    The world will experience explosive growth in demand for 
food as large populations in China, India, and elsewhere become 
more affluent. Meanwhile, countries throughout Africa and Asia 
suffer from severe hunger and malnutrition. The United States 
must give high priority to executing a global food policy that 
both creates export opportunities for our farmers and 
agricultural businesses and addresses hunger in volatile 
regions that could negatively impact our national security. I 
am grateful for the Secretary's personal interest in this topic 
and encourage her to continue to work with the Congress on this 
issue.
    We appreciate very much the timely appearance of the 
Secretary before us today in the midst of a very demanding 
schedule. I admire her stamina and we look forward to our 
discussion.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Lugar. Thank you very 
much.
    Madam Secretary, again we are delighted to have you here. 
Thank you.

 STATEMENT OF HON. HILLARY RODHAM CLINTON, SECRETARY OF STATE, 
            U.S. DEPARTMENT OF STATE, WASHINGTON, DC

    Secretary Clinton. Well, thank you. I want to begin by 
thanking you, Chairman Kerry, and you, Ranking Member Lugar, 
for not just those two eloquent statements of our priorities 
and our needs as a nation, but for your service, your lifetime 
of leadership on issues that really do matter to America's 
security interests and values. It's an honor to appear before 
you.
    I recently took part in emergency meetings in Geneva to 
discuss the events unfolding in Libya and I'd like to begin by 
offering a brief update. As the chairman said, we have joined 
the Libyan people in demanding that Colonel Qaddafi must go 
now, without further violence and bloodshed. We are working to 
translate the world's outrage into action and results. Marathon 
diplomacy at the United Nations and with our allies has yielded 
quick, aggressive steps to pressure and isolate Libya's 
leaders.
    We welcome yesterday's decision to suspend Libya from the 
Human Rights Council, as I had urged a day earlier. USAID is 
focused on Libya's food and medical supplies and is dispatching 
two expert humanitarian teams to help those fleeing the 
violence into Tunisia and Egypt. Our combatant commands are 
positioning assets to prepare to support these critical 
civilian missions. And we are taking no option off the table so 
long as the Libyan Government continues to turn its guns on its 
own people.
    As both the chairman and the ranking member have noted, the 
region is changing and a strong, strategic American response 
will be essential. In the years ahead, for example, Libya could 
become a peaceful democracy or it could face protracted civil 
war or fall into chaos. The stakes are high.
    This is an unfolding example of using the combined assets 
of smart power, diplomacy, development, and defense, to protect 
our interests and advance our values. This integrated approach 
is not just how we must respond to the crisis of the moment. It 
is the most effective and most cost effective way to sustain 
and advance our security, and it is only possible with a budget 
that supports all the tools in our national security arsenal, 
which is what I am here today to discuss.
    I understand and agree that the American people are rightly 
and justifiably concerned about our national debt, about our 
economy, and about unemployment. But I think also Americans 
understand the need for responsible investments in our security 
for the future to make us safer, to keep markets open, to 
ensure that we remain the leader in the world.
    Just 2 years after President Obama and I first asked you to 
renew our investment in development and diplomacy, we are 
already seeing tangible returns. In Iraq, almost 100,000 troops 
have come home and civilians are poised to keep the peace. In 
Afghanistan, integrated military and civilian surges have 
helped set the stage for our diplomatic surge to support 
Afghan-led reconciliation that can end the conflict and put al-
Qaeda on the run.
    We have imposed the toughest sanctions yet to rein in 
Iran's nuclear ambitions. We have reengaged as a leader in the 
Asia Pacific region and in our own hemisphere. We have signed 
trade deals to promote American jobs and nuclear weapons 
treaties to protect our people. We worked with northern and 
southern Sudanese to achieve a peaceful referendum and prevent 
a return to civil war. And we are working to open up political 
systems, economies, and societies at this remarkable moment in 
history in the Middle East, and to support orderly, peaceful, 
irreversible democratic transitions.
    Our progress is significant, but our work is ongoing. These 
missions are vital to our national security and now would be 
absolutely the wrong time to pull back.
    The FY 2012 budget we discuss today will allow us to keep 
pressing ahead. It is a lean budget for lean times. I launched 
the first ever Quadrennial Diplomacy and Development Review, 
the so-called QDDR, to help us maximize the impact of every 
dollar we spend. We scrubbed this budget. We made painful but 
responsible cuts.
    For example, we cut economic assistance to Central and 
Eastern Europe, the Caucasus and Central Asia by 15 percent. We 
cut development assistance to over 20 countries by more than 
half.
    This year for the first time, our request is divided into 
two parts. Our core budget request is $47 billion. That 
supports programs and partnerships in every country but North 
Korea. It is essentially flat from 2010 levels.
    The second part of our request funds the extraordinary 
temporary portion of our war effort. This is the same way the 
Pentagon's request is funded, in a separate overseas 
contingency operations account, known as OCO. Instead of 
covering our war expenses through supplemental appropriations, 
we are now taking a more transparent approach that reflects our 
fully integrated civilian-military effort on the ground.
    Our share of the President's $126 billion request for these 
exceptional wartime costs in front-line states is $8.7 billion. 
Let me walk you through a few of the key investments. First, 
this budget funds vital civilian missions in Afghanistan, 
Pakistan, and Iraq. In Afghanistan and Pakistan, al-Qaeda is 
under pressure as never before. Alongside our military 
offensive, we are engaged in a major civilian effort to help 
build up the governments, economies, and civil societies of 
both countries and therefore help undercut the insurgency.
    These two surges, the military and civilian, now set the 
state for the third surge, a diplomatic push in support of an 
Afghan process to split the Taliban from al-Qaeda, bring the 
conflict to an end, and help stabilize the entire region.
    Our military commanders are emphatic: They cannot succeed 
without a strong civilian partner. Retreating from our civilian 
surge in Afghanistan with our troops still in the field would 
be a grave mistake.
    Equally important is our assistance to Pakistan, a nuclear-
armed nation with strong ties and interests in Afghanistan. 
This is a complicated and often frustrating relationship, as 
the chairman knows very well, and we are grateful to him for 
his constant attention and very helpful interventions. We are 
working to deepen that partnership and keep it focused on 
addressing Pakistan's political and economic challenges as well 
as our shared threats.
    After so much sacrifice in Iraq, we have a chance to help 
the Iraqi people build a stable, democratic country in the 
heart of the Middle East. What we are hoping will happen in 
Egypt and in Libya and in Tunisia is happening in Iraq, and it 
is imperative that as our troops come home our civilians take 
the lead, helping Iraqis resolve conflicts peacefully, training 
police, and inculcating the habits of the heart that are at the 
root of any kind of democratic society.
    Shifting responsibilities from soldiers to civilians 
actually saves taxpayers a great deal of money. The military's 
total OCO request worldwide will drop by $45 billion from 2010, 
while our costs in State and USAID will increase by less than 
$4 billion for Iraq. Every businessowner I know would gladly 
invest $4 to save $45.
    Second, even as our civilians help bring today's wars to a 
close, we are working to prevent tomorrow's. This budget 
devotes over $4 billion in sustaining a strong U.S. presence in 
volatile places where our security and interests are at stake. 
In Yemen, it provides security, development, and humanitarian 
assistance in the midst of the headquarters for al-Qaeda on the 
Arabian Peninsula. It focuses on those same goals in Somalia. 
It has helped the northern and southern Sudanese chart a 
peaceful future and we need to stay on that path. It helps 
Haiti rebuild and it proposes a new global security contingency 
fund that would pool resources and expertise with the Defense 
Department. We are trying to tear down the walls and the 
bureaucratic jurisdictional obstacles that too often prevent 
the U.S. Government from being as efficient as it can be by 
bringing all of our government assets together.
    This budget also strengthens allies and partners. It trains 
Mexican police to take on violent cartels and secure our 
southern border. It provides nearly $3.1 billion for Israel and 
supports Jordan and the Palestinians. It does help Egypt and 
Tunisia and it supports security assistance to over 130 
nations.
    Now, over the years these security funds have created 
valuable ties with foreign militaries. We saw that in real time 
when it came to Egypt. Because the United States military has 
trained a generation of Egyptian officers, because that 
experience built relationships between American military 
leaders and Egyptian military leaders, we saw the Egyptian 
military refuse to fire on their own people, and there were 
many, many conversations going on between people who weren't 
picking up the phone for the first time, but who had trained 
together, lived together, worked together.
    Across the board, we are trying to ensure that all who 
share the benefits of our spending also share the burdens of 
addressing common challenges.
    Third, we are making targeted investments in human 
security. We have focused on hunger, and thank you so much, 
Senator Lugar, for your constant, constant pointing out that 
this is in America's interest as well as the world's interest. 
We have invested in preventing and ameliorating the effects of 
disease, climate change, humanitarian emergencies.
    These challenges not only threaten the security of 
individuals and increasingly in our world individuals here at 
home, but they are the seeds of future conflict. If we want to 
lighten the burden on future generations, we have to make the 
investments that will make our world more secure.
    Our largest investment is in global health programs, 
including those launched and led by President George W. Bush. 
These programs stabilize entire societies that have been 
devastated by HIV, malaria, tuberculosis, and other diseases. 
They save the lives of mothers and children and they halt the 
spread of deadly diseases.
    Global food prices are approaching an all-time high. Three 
years ago this led to protests and riots in dozens of 
countries. Food security is a cornerstone of global stability. 
We are helping farmers to grow more food, drive economic 
growth, and turn aid recipients into trading partners, and I 
look forward to working closely with the Congress as we try to 
really sharpen this program.
    Now, climate change we know threatens food security, human 
security, and national security. Our budget helps to build 
resilience against droughts, floods, and other weather 
disasters. It promotes clean energy and it preserves tropical 
forests. It gives leverage to us to persuade China, India, and 
other nations to do their part as well.
    Fourth, we are committed to making our foreign policy a 
force for domestic economic renewal. We are working 
aggressively to promote sustained economic growth, level 
playing fields, open markets, and create jobs here at home. And 
we are fighting for companies large and small. For example, our 
economic officers in the Philippines helped Jarden Zinc win a 
$21 million raw materials contract that will create and 
preserve jobs throughout Senator Corker's home State of 
Tennessee.
    Fifth and finally, this budget funds the people and 
platforms that make possible everything I've described. It 
allows us to sustain diplomatic relations with 190 countries. 
It funds political officers who are working to defuse crises 
and promote our values, development officers spreading 
opportunity and stability, economic officers who wake up every 
day thinking about how to put Americans back to work.
    Several of you have asked the Department about the safety 
of your constituents in the Middle East. Well, this budget also 
helps fund the consular officers who evacuated over 2,600 
Americans from Egypt and Libya and nearly 17,000 from Haiti. 
They issued 14 million passports last year and served as our 
first line of defense against would-be terrorists seeking visas 
to enter our country.
    I'd like to say just a few words about our funding for the 
rest of 2011. As I have told Speaker Boehner and Chairman 
Rogers and many others, the 16-percent cut for State and USAID 
that passed the House last month would be devastating to our 
national security. It would force us to scale back dramatically 
on critical missions in Iraq, Afghanistan, and Pakistan.
    As Secretary Gates, Admiral Mullen, and General Petraeus 
have all emphasized to the Congress time and again, we need a 
fully engaged and fully funded national security team, 
including State and USAID. Now, there have always been moments 
of temptation in our country to resist obligations beyond our 
borders. But each time we have shrunk from global leadership, 
events have summoned us back to reality. We saved money in the 
short term when we walked away from Afghanistan after the cold 
war. But those savings came at an unspeakable cost, one we are 
still paying 10 years later in money and lives.
    Generations of Americans have grown up successful and safe 
because we chose to lead the world in tackling its greatest 
challenges. We're the ones who invested the resources to build 
up democratic allies and vibrant trading partners in every 
region. We did not shy away from defending our values, 
promoting our interests, and seizing the opportunities of each 
new era.
    I believe as I have traveled around the world--and I am now 
the most traveled Secretary of State in history--the world has 
never been in greater need of the qualities that distinguish us 
as Americans--our openness and innovation, our determination, 
our devotion to universal values. Everywhere I travel, I see 
people looking to us for leadership. This is a source of 
strength, a point of pride, and a great opportunity for the 
American people. But it is an achievement, not a birthright. It 
requires resolve and it requires resources.
    So I look forward to working closely together with all of 
you to do what is necessary to keep our country safe and 
maintain American leadership in a very fast-changing world.
    Thank you, Mr. Chairman.
    [The prepared statement of Secretary Clinton follows:]

    Prepared Statement of Secretary of State Hillary Rodham Clinton

    I want to thank Chairman Kerry, Ranking Member Lugar, and all of 
you on this committee for your leadership and your partnership--across 
the aisle and with the administration--to meet our most pressing 
challenges.
    I recently took part in emergency meetings in Geneva to discuss the 
events unfolding in Libya. I would like to begin by offering you a 
brief update.
    We have joined the Libyan people in demanding that Qaddafi must 
go--now, without further violence or delay--and we are working to 
translate the world's outrage into action and results.
    Marathon diplomacy at the U.N. and with our allies has yielded 
quick, aggressive steps to pressure and isolate Libya's leaders. We 
welcome yesterday's decision to suspend Libya from the Human Rights 
Council, as I had urged a day earlier. USAID is focused on Libya's food 
and medical supplies and dispatching two expert humanitarian teams to 
help those fleeing the violence into Tunisia and Egypt. Our combatant 
commands are positioning assets to prepare to support these critical 
civilian missions. And we are taking no options off the table so long 
as the Libyan Government continues to turn its guns on its own people.
    The entire region is changing, and a strong and strategic American 
response will be essential. In the years ahead, Libya could become a 
peaceful democracy, or it could face protracted civil war. The stakes 
are high. And this is an unfolding example of using the combined assets 
of diplomacy, development, and defense to protect our interests and 
advance our values. This integrated approach is not just how we respond 
to the crisis of the moment. It is the most effective and cost-
effective--way to sustain and advance our security across the world. 
And it is only possible with a budget that supports all the tools in 
our national security arsenal--which is what we are here to discuss.
    The American people today are justifiably concerned about our 
national debt, but they also want responsible investments in our 
future. Just 2 years after President Obama and I first asked you to 
renew our investment in development and diplomacy, we are already 
seeing tangible returns for our national security.
    In Iraq, almost 100,000 troops have come home and civilians are 
poised to keep the peace. In Afghanistan, integrated military and 
civilian surges have helped set the stage for our diplomatic surge to 
support Afghan-led reconciliation that can end the conflict and put al-
Qaeda on the run. We have imposed the toughest sanctions yet to rein in 
Iran's nuclear ambitions. We have reengaged as a leader in the Pacific 
and in our own hemisphere. We have signed trade deals to promote 
American jobs and nuclear weapons treaties to protect our people. We 
worked with northern and southern Sudanese to achieve a peaceful 
referendum and prevent a return to civil war. And we are working to 
open political systems, economies, and societies at a remarkable moment 
in the history of the Middle East and to support peaceful, irreversible 
democratic transitions in Egypt and Tunisia.
    Our progress is significant, but our work is ongoing. These 
missions are vital to our national security, and now would be the wrong 
time to pull back.
    The FY 2012 budget we discuss today will allow us to keep pressing 
ahead. It is a lean budget for lean times. I launched the first-ever 
Quadrennial Diplomacy and Development Review to help us maximize the 
impact of every dollar we spend. We scrubbed this budget and made 
painful but responsible cuts. We cut economic assistance to Central and 
Eastern Europe, the Caucasus and Central Asia by 15 percent, and we cut 
development assistance to over 20 countries by more than half.
    This year, for the first time, our request is divided in two parts: 
Our core budget request of $47 billion, which supports programs and 
partnerships in every country but North Korea, is essentially flat from 
2010 levels.
    The second part of our request funds the extraordinary, temporary 
portion of our war effort the same way the Pentagon's request is 
funded: in a separate Overseas Contingency Operations account known as 
``OCO.'' Instead of covering our war expenses through supplemental 
appropriations, we are now taking a more transparent approach that 
reflects our fully integrated civilian-military effort on the ground. 
Our share of the President's $126 billion request for these exceptional 
wartime costs is $8.7 billion.
    Let me now walk you through a few of our key investments.
    First, this budget funds vital civilian missions in Afghanistan, 
Pakistan, and Iraq. In Afghanistan and Pakistan, al-Qaeda is under 
pressure as never before. Alongside our military offensive, we are 
engaged in a major civilian effort to help build up the governments, 
economies, and civil society of both countries and undercut the 
insurgency. These two surges set the stage for a third: a diplomatic 
push in support of an Afghan process to split the Taliban from al-
Qaeda, bring the conflict to an end, and help to stabilize the entire 
region.
    Our military commanders are emphatic that they cannot succeed 
without a strong civilian partner. Retreating from our civilian surge 
in Afghanistan--with our troops still in the field--would be a grave 
mistake.
    Equally important is our assistance to Pakistan, a nuclear-armed 
nation with strong ties and interests in Afghanistan. We are working to 
deepen our partnership and keep it focused on addressing Pakistan's 
political and economic challenges as well as our shared threats.
    After so much sacrifice in Iraq, we have a chance to help the Iraqi 
people build a stable, democratic country in the heart of the Middle 
East. As troops come home, our civilians are taking the lead, helping 
Iraqis resolve conflicts peacefully and training police.
    Shifting responsibilities from soldiers to civilians actually saves 
taxpayers a great deal of money. The military's total OCO request 
worldwide will drop by $45 billion from 2010, while our costs will 
increase by less than $4 billion. Every businessowner I know would 
gladly invest $4 to save $45.
    Second, even as our civilians help bring today's wars to a close, 
we are also working to prevent tomorrow's. This budget devotes over $4 
billion to sustaining a strong U.S. presence in volatile places where 
our security and interests are at stake. In Yemen, it provides 
security, development, and humanitarian assistance to deny al-Qaeda a 
safe haven and to promote stability and progress. It focuses on those 
same goals in Somalia. It helps northern and southern Sudanese chart a 
peaceful future. It helps Haiti to rebuild. And it proposes a new 
Global Security Contingency Fund that would pool resources and 
expertise with the Defense Department to respond quickly as new 
challenges emerge.
    This budget also strengthens our allies and partners. It trains 
Mexican police to take on violent cartels and secure our southern 
border. It provides nearly $3.1 billion for Israel and supports Jordan 
and the Palestinians. It helps Egypt and Tunisia build stable and 
credible democracies. And it supports security assistance to over 130 
nations. Over the years, these funds have created valuable ties with 
foreign militaries and, for example, trained a generation of Egyptian 
officers who refused to fire on their own people. Across the board, we 
are working to ensure that all who share the benefits of our spending 
also share the burdens of addressing common challenges.
    Third, we are making targeted investments in human security. We 
have focused on hunger, disease, climate change, and humanitarian 
emergencies because these challenges not only threaten the security of 
individuals--they are the seeds of future conflict. If we want to 
lighten the burden on future generations, then we must make the 
investments that will leave them a more secure world.
    Our largest investment is in global health programs, including 
those launched by President George W. Bush. These programs stabilize 
entire societies that have been devastated by HIV, malaria, and other 
illnesses. They save the lives of mothers and children and halt the 
spread of deadly diseases.
    Global food prices are approaching an all-time high. Three years 
ago, this led to protests and riots in dozens of countries. Food 
security is a cornerstone of global stability, and we are helping 
farmers to grow more food, drive economic growth, and turn aid 
recipients into trading partners.
    Climate change threatens food security, human security, and our 
national security. Our budget builds resilience against droughts, 
floods, and other weather disasters, promotes clean energy and 
preserves tropical forests. And it gives us leverage to persuade China, 
India, and other nations to do their essential part to meet this urgent 
threat.
    Fourth, we are committed to making our foreign policy a force for 
domestic economic renewal. We are working aggressively to promote 
sustained economic growth, level playing fields, open markets, and 
create jobs here at home. And we are fighting for companies large and 
small. For example, our economic officers in the Philippines helped 
Jarden Zinc win a $21 million raw materials contract that will create 
and preserve jobs throughout Senator Corker's home State of Tennessee.
    Fifth and finally, this budget funds the people and platforms that 
make possible everything I've described. It allows us to sustain 
diplomatic relations with 190 countries. It funds political officers 
defusing crises and promoting our values; development officers 
spreading opportunity and stability; and economic officers who wake up 
every day thinking about how to put Americans back to work.
    Several of you have asked the Department about the safety of your 
constituents in the Middle East. Well, this budget also helps fund the 
consular officers who evacuated over 2,600 people from Egypt and 
Libya--and nearly 17,000 from Haiti. They issued 14 million passports 
last year and served as our first line of defense against would-be 
terrorists seeking visas to enter our country.
    I'd also like to say just a few words about our funding for the 
rest of 2011. As I told Speaker Boehner, Chairman Rogers, and many 
others, the 16-percent cut for State and USAID that passed the House 
last month would be devastating to our national security. For example, 
it would force us to scale back dramatically on critical missions in 
Iraq, Afghanistan, and Pakistan.
    As Secretary Gates, Admiral Mullen, and General Petraeus have all 
emphasized to you, we need a fully engaged and fully funded national 
security team--including State and USAID.
    Now, there have always been moments of temptation in our country to 
resist obligations beyond our borders. But each time we have shrunk 
from global leadership, events summoned us back to reality. We saved 
money in the short term when we walked away from Afghanistan after the 
cold war. But those savings came at an unspeakable cost--one we are 
still paying, 10 years later, in money and lives.
    Generations of Americans have grown up successful and safe because 
we chose to lead the world in tackling its greatest challenges. We 
invested the resources to build up democratic allies and vibrant 
trading partners in every region. And we did not shy away from 
defending our values, promoting our interests, and seizing the 
opportunities of each new era.
    The world has never been in greater need of the qualities that 
distinguish us--our openness and innovation, our determination, our 
devotion to universal values. Everywhere I travel, I see people looking 
to us for leadership. This is a source of strength, a point of pride, 
and a great opportunity for the American people. But it is an 
achievement, not a birthright. It requires resolve--and it requires 
resources.
    I look forward to working closely together with you to do what is 
necessary to keep our country safe and maintain American leadership in 
a changing world.

    The Chairman. Well, thank you, Madam Secretary. I think 
that was a terrific, important statement and overview of the 
issues that are at stake here and we really thank you for it.
    Let me just ask you quickly if I can and perhaps you might 
comment. We received the unsettling and sad news that Minister 
Shahbaz Bhatti, the Minister of Minorities, was assassinated 
this morning in Islamabad, Pakistan. He was the only Christian 
member of the Cabinet. I wonder if you would comment on the 
implications of that and where we find ourselves at this moment 
with respect to that relationship.
    Secretary Clinton. Well, thank you, Mr. Chairman, because, 
like you, I was shocked and outraged by the assassination, 
reportedly by al-Qaeda-linked terrorists, of Pakistan's Federal 
Minister for Minorities Affairs, Shahbaz Bhatti. I think this 
was an attack not only on one man, but on the values of 
tolerance and respect for people of all faiths and backgrounds 
that had been championed by Muhammad Ali Jinnah, the founder of 
Pakistan.
    I recently had the opportunity to meet with Minister 
Bhatti. He was a very impressive, courageous man. He was a 
patriot. He was a man of great conviction. He cared deeply for 
Pakistan and he had dedicated his life to helping the least 
among us.
    When I spoke with him, he was well aware of the drumbeat of 
threats against him. Despite those threats, when the Pakistan 
Government was recently reshuffled and the Cabinet shrunk, he 
agreed to continue his work as the Minister for Minorities 
Affairs. On behalf of the United States, I extend our deepest 
condolences to his family, his friends, and his colleagues.
    I have to say, Mr. Chairman, as I spoke yesterday before 
the House Foreign Affairs Committee, the intolerance toward 
minorities, particularly religious minorities, that we are 
seeing, not only in Pakistan, but elsewhere in the region, the 
attack on Christians in Iraq, the attack on the Copts in Egypt, 
the attack on minority Islam sects in Pakistan and elsewhere, 
is a matter of deep distress to me personally and to our 
government. It runs against all of our values and we are going 
to be doing all we can to support the freedom of religion, the 
freedom of conscience, and to work with governments everywhere 
so that they uphold universal values.
    The Chairman. Well, thank you. That's a strong and 
appropriate response, and I think all the members of the 
committee associate themselves with your comments, and we thank 
you for them.
    You gave a very comprehensive and I think important 
overview of the implications of the budget cuts with respect to 
our foreign policy interests. I wonder if you'd simplify it and 
personalize it in some ways for the average person as these 
choices come before the Congress. As you know, Madam Secretary, 
there's a huge misconception out there across the country. I 
had a town meeting recently, and I'm sure others have done 
this, and you ask people how much foreign aid do we give. It's 
just stunning. People think it's a huge amount, and they're 
shocked when they hear that it's just over 1 percent. It's 
variant. It's about 1.5 to 1.6 of our total budget, which is so 
minuscule.
    Can you give just a simple grassroots kind of explanation? 
What's at stake here for Americans? What do we risk losing with 
this kind of a reduction at this moment of transformation in 
the world?
    Secretary Clinton. Well, first let me speak about a lot of 
the specifics. You included a number of those in your opening 
statement, Mr. Chairman. We will be cutting back on our support 
for global health, in particular, support through the PEPFAR 
Project, which was started by President Bush, which has been 
continued and very strongly supported by President Obama. 
Hundreds of thousands of people will be cut off of their life-
sustaining drugs. Others will never have access to them.
    We will see a decrease in the number of people who are 
treated for other diseases, including malaria and tuberculosis. 
We will see, unfortunately, a stop in the outreach for women 
and children. A woman dies of pregnancy-related complications 
every minute in the 
world. We had made maternal and child health one of our 
priorities.
    We are certainly backing off from the commitments to food 
security, the Feed the Future initiative that Senator Lugar 
referred to. We really worked hard to get the inputs right 
because what we had done over the last 20 years was move away 
from working with farmers in their own countries so that they 
would better produce for themselves and then the United States 
would be providing expertise and technology and certainly we 
would create healthier societies where our own exports would 
increase. Instead, what we had been doing was just providing 
emergency food relief, which was not teaching anybody how to 
fish or anybody how to farm.
    We began to reverse that, and that would be severely 
impacted, in fact zeroed out, in the CR or the budget that was 
passed.
    We have also seen a complete dismissal of the work on 
climate change and energy security, which I think is a grave 
mistake. I'll give you just a quick example. We have a lot of 
support in the Pacific Ocean region. A lot of those small 
countries have voted with us in the United Nations. They are 
stalwart American allies. They embrace our values. And they 
believe, contrary to what some might think, that they are 
sinking, and they have a lot of evidence that they are sinking, 
and that the oceans are rising.
    All they've asked for us is some recognition, some help 
with their efforts to be more resilient when it comes to the 
effects of climate change. We had a small amount of $21 million 
that we were going to spread across many of these island 
countries. Obviously, that would not be possible.
    We are in a competition for influence with China. Let's put 
aside the moral, humanitarian, do-good side of what we believe 
in and let's just talk straight realpolitik. We are in a 
competition with China. Take Papua-New Guinea. A huge energy 
find, to go to one of Senator Lugar's very strong points. Exxon 
Mobil is producing it. China is in there every day in every way 
trying to figure out how it's going to come in behind us, come 
in under us. They're supporting the dictatorial regime that 
unfortunately is now in charge of Fiji. They have brought all 
of the leaders of these small Pacific nations to Beijing, wined 
them and dined them.
    If anybody thinks that our retreating on these issues is 
somehow going to be irrelevant to the maintenance of our 
leadership in a world where we are competing with China, where 
we are competing with Iran, that is a mistaken notion.
    So I would strongly support this on humanitarian, moral, 
values-based grounds, that we do the right thing, we get credit 
for it. But I also look at this from a strategic perspective 
and it is essential.
    The Chairman. Senator Lugar.
    Senator Lugar. Madam Secretary, you have called for the 
reprogramming of $150 million of our existing assistance funds 
to Egypt. There has been some skepticism about our advocacy and 
it's not clear precisely what these programs are intended to 
do. Worse still is the question of who supervises the 
expenditure of the money, and who spends it in the country. 
That is, in the case of the Egyptians, who would we deal with 
currently who has a governance function in Egypt? Or, for that 
matter, in Pakistan, who are we dealing with with regard to the 
$1.5 billion or so that has been authorized?
    Now, a large portion of these funds pertaining to Pakistan 
obviously has not been spent and is not being spent, although 
it is of importance diplomatically, and you've had to face 
public meetings in Pakistan explaining all of this, during 
which you finally asked on one occasion whether they wanted the 
money or not, as I recall.
    But could you try to trace through with us how you are 
attempting to bring closer objectives and supervision so that 
the implementation of these programs can be more transparent to 
the American people, as well as to the Egyptians and the 
Pakistanis? I ask this because I think that a confidence level 
is critical in terms of furthering these programs.
    Secretary Clinton. Well, thank you. I agree with that 
completely, Senator Lugar. Let me start with Egypt. We plan to 
use those funds to support an array of efforts that are under 
way by Egyptians themselves to prepare for constitutional 
amendments, for free and fair elections, for setting up 
political parties, to support civil society groups that are 
working toward those ends.
    We are certainly looking for ways to support the economic 
conditions in Egypt because there have been a lot of economic 
consequences of what has been happening. Their tourist 
industry, which is a major part of the economy, employs a lot 
of Egyptians, has dried up. Other parts of the economy are 
under stress.
    So we intend to use some of that to help support the 
economic recovery in Egypt. We're looking at creative ways of 
doing that.
    We started on this before Tahrir Square occurred with an 
entrepreneurial program that we use to reach out to primarily 
young people in Muslim majority countries, including Egypt. We 
set up a Web site through which they could obtain business 
advice and mentoring. We'd like to link what we're doing in 
economic aid with university sites, where we can continue to 
help young people become entrepreneurs. You know, there are so 
many university graduates the economy cannot absorb them. We 
want to look for ways to help them understand how to support 
and start their own businesses.
    We're looking to identify local businesses that we think 
have greater capacity. We'd like to look at partnering for some 
job training skills with some of the unions that have arisen, 
because they've been a leader for secular change in the 
economic arena.
    So I think there's a lot that we have on the drawing boards 
that is promising. The Egyptian Government right now, which is 
run by the Supreme Council of the Armed Forces, is very 
cautious about taking outside help of any sort except economic 
help. That's a message they've given to us, they've given to 
the Europeans, they've given to everyone who has approached 
them.
    I sent Under Secretary Bill Burns to Cairo. He had a number 
of meetings with people in and outside of the government, 
particularly the opposition and civil society, and there is a 
wariness across the Egyptian society about not looking like 
they are being influenced by or directed by any outside force.
    So we are working to be as careful and as sensitive to 
those needs while being effective, so that whatever money we 
put in we can trace and point to.
    In Pakistan, when I was here the first time testifying 2 
years ago, at that time there was no doubt that the Taliban was 
in--had the momentum, that the extremists in Pakistan were in 
the driver's seat. As you recall, the government had made a 
deal to permit their own extremists, Pakistani Taliban, in 
Bunir and Swat and other places to basically govern. I said at 
that time that was a terrible mistake for them. Thankfully, 
they began to reverse that policy of appeasement. They began to 
go after the extremists.
    If you look, 2 years is a lot of time to us because we're 
an impatient people. Two years in Pakistani terms is not much 
at all, and from their perspective they've moved troops off the 
Indian border, they've gone into Waziristan, they have targeted 
extremists, they have worked with us to target the guys who are 
our adversaries and the Afghans' adversaries. So they have 
moved on the military front.
    Now, economically and politically it's a much more complex 
story. They have made some decisions that we support and the 
Kerry-Lugar-Berman was intended to encourage, but they've also 
run into a lot of political difficulties, because this is a 
political system that is dominated by the rich. They don't want 
to pay a penny in taxes, if that sounds familiar. They want to 
keep their big landed estates, don't want anybody asking them 
to support education, support health, to support anything for 
their people. As a result, those powerful interests dominate 
the politics of Pakistan.
    So we have been working with those ministries that we 
believe are on the right track for reform. We've been working 
with NGOs, both Pakistani, American, and international, that we 
think can support those kinds of changes. And the floods came 
along and just up-ended everything, because they were so 
devastating and they cost so much money.
    But I would say that on balance, despite how challenging 
the relationship is and how much internal pressure their 
government faces every day, we're in a better position than we 
were 2 years ago in actually confronting the real problems. 
We're not papering over them, we're not pretending that they 
can somehow be ignored.
    Senator Lugar. I thank you for that answer. Let me just add 
one thought. You've spoken eloquently about our international 
broadcasting efforts and the Broadcasting Board of Governors, 
and I think Walter Isakson taking hold of that is a 
constructive thing. I would hope that we would be more 
successful in moving more money toward communication with China 
and, as we heard with our North Korean hearing yesterday, more 
complex as to how you get the message out. But this is still a 
great force of diplomacy, to get our message into distant and 
difficult places.
    We're doing better in Iran. We're doing better in the 
Middle East, as we saw in Tunisia, Egypt, and so forth. But I'm 
hopeful you can bring us good news about more aggressive 
policies with regard to the BBG and others.
    Secretary Clinton. Senator, I want to thank you for the 
report that you did on the Broadcasting Board of Governors and 
all of the problems that it has experienced. I agree with you, 
Walter Isakson is an excellent choice. The board is a very 
invigorated group of Republicans and Democrats. They understand 
we are engaged in an information war. During the cold war we 
did a great job in getting America's message out. After the 
Berlin Wall fell we said, OK, fine, enough of that, we've done 
it, we're done. And unfortunately, we are paying a big price 
for it.
    Our private media cannot fill that gap. In fact, our 
private media, particularly cultural programming, often works 
at counterpurposes to what we truly are as Americans and what 
our values are. I remember having an Afghan general tell me 
that the only thing he thought about Americans is that all the 
men wrestled and the women walked around in bikinis, because 
the only TV he ever saw was Bay Watch and Worldwide Wrestling.
    So we are in an information war. And we are losing that 
war. I'll be very blunt in my assessment. Al-Jazeera is 
winning. The Chinese have opened up a global English language 
and multilanguage television network. The Russians have opened 
up an English language network. I've seen it in a few countries 
and it's quite instructive.
    We are cutting back. The BBC is cutting back. So here's 
what we are trying to do. In the State Department, we have 
pushed very hard on new media. So we have an Arabic Twitter 
feed, we have a Farsi Twitter feed. I have this group of young 
techno experts who are out there engaging on Web sites, and 
we're putting all of our young Arabic-speaking diplomats out so 
that they are talking about our values.
    Walter is working hard with his board to try to transform 
the broadcasting efforts, because most people still get their 
news from TV and radio. So even though we're pushing on line, 
we can't forget TV and radio.
    So I would look very much toward your cooperation to try to 
figure out how we can get back in the game on this, because I 
hate ceding what we are most expert in to anybody else.
    Senator Lugar. Thank you.
    The Chairman. Thank you very much, Senator Lugar.
    Senator Boxer.
    Senator Boxer. Thank you so much, Mr. Chairman.
    Secretary Clinton, we welcome you. You are working so hard 
and you're doing a tremendous job at advancing U.S. interests 
at a time when there's just change, it seems like, every hour 
on the hour.
    Your response to Senator Kerry's question on why the 1.6 
percent of the budget you're responsible for is important--I 
just thought it was on the mark. I can't even do it justice by 
trying to summarize it. I'd like to put it up on my Web site. 
Is it OK with you?
    Secretary Clinton. Of course, and I can give you more 
information as well, especially on women and girls. I know 
that's one of your highest priorities, Senator.
    Senator Boxer. I just feel when Senator Kerry asked you to 
speak to the grassroots folks out there, you did that. I 
wouldn't change a thing about it. I'd just like to put it up, 
because I would like every American to read it.
    It seems like there's more change sweeping the world at 
this very moment than at any time in recent memory. We all have 
our theories on why. People are crying out for freedom because 
they know more about it. Some are looking to us, some are 
looking to other parts of the world, and some are looking 
inside. It's a delicate issue and it's different in every 
country. In the meantime, we're winding down our war in Iraq 
that is entering its eighth year and has cost the United States 
more than $750 billion. You know, when we look at the fact that 
it has cost $750 billion. It has also cost more than 4,400 
American lives.
    President Obama states his intention to begin the 
withdrawal of combat forces from Afghanistan this July, a war 
in its nineth year that has cost the United States more than 
$336 billion and nearly 1,500 American lives. Both the 
administration and Congress have worked tirelessly to enact the 
toughest sanctions to date in Iran, but Iran is continuing its 
reckless pursuit of nuclear weapons, and we all know we can't 
rest until we see an abandonment of that program.
    Despite repeated attempts by the United States to bring 
lasting peace to the Korean Peninsula, Korea seems to be doing 
everything to encourage conflict.
    In Egypt, prominent opposition leader Mohamed ElBaradei 
just last week voiced concern about a 6-month election time 
line which was put forward by the military, saying, ``If we go 
too fast, if we organize elections in 4 or 5 months, it will be 
all over for the revolution. The old regime will perpetuate 
itself in another guise.''
    Secretary Clinton, do you share Mr. ElBaradei's concern 
about the proposed time line for transition to a new civilian 
government which was announced by the Egyptian military?
    Secretary Clinton. Well, Senator, we are trying very hard 
to support the Egyptians in what they are doing, because 
obviously this was Egyptian-instigated and it is Egyptian-led 
and it should be, and we are mindful of that. I do think that 
being prepared for elections, doing the constitutional changes 
that are necessary, the legislative changes that are necessary, 
setting up the apparatus, being prepared to actually implement 
an election, is quite an undertaking.
    There are many, not just the United States, but the United 
Nations, other nations, who are engaging with their Egyptian 
counterparts to go through what it will take to launch an 
election that has a fighting chance of producing a democratic 
outcome.
    We've also made clear that one election is not enough. A 
lot of regimes have one election, then they declare that that's 
enough of that, they're just going to stay in power. Or 
somebody hijacks the election. So there are many yellow 
blinking caution lights that I think Egyptians themselves are 
raising, and the United States, as always, stands ready to 
assist.
    Senator Boxer. Thank you. I'll take that as an answer that 
essentially says we hear the concerns and it's up to the people 
there to make the decision.
    In a much-quoted comment, Secretary of Defense Gates said: 
``Any future Defense Secretary who advises the President to 
again send a big American land army into Asia or into the 
Middle East or Africa should have his head examined.'' 
Secretary Gates has also said that, although he initially 
opposed publicly committing to the July 2011 withdrawal 
deadline, he was ``ultimately convinced,'' because he believed 
it would pressure Afghan President Karzai to take 
responsibility for the war.
    My question is this. In your opinion, has President Karzai 
taken more responsibility for the future of Afghanistan since 
President Obama's announcement and commitment to begin the 
redeployment of American troops out of there in July 2011?
    Secretary Clinton. Yes; I believe that is a fair 
conclusion. I agree with Secretary Gates. I think starting the 
transition in July 2011 put the Afghans on notice. It also has 
contributed to the improvement in the training, retention, and 
performance of the Afghan Security Forces.
    Senator Boxer. Madam Secretary, I introduced legislation 
with several other Senators that would require the 
administration to submit to Congress a plan for redeployment 
that includes an end date for the withdrawal of combat forces 
from Afghanistan. I'm not going to ask you your opinion of 
that, but on an intellectual level I would ask you this. If, in 
fact, telling President Karzai that we're going to begin 
redeployment, which Secretary Gates' supports and has stated 
was a signal to President Karzai that he should take 
responsibility for the defense of his own country, wouldn't 
setting an end date, even with benchmarks on it, continue to 
move President Karzai in the right direction?
    Secretary Clinton. I agree with that, Senator, and we have 
said, and it was adopted by our NATO ISAF allies at Lisbon, 
that the withdrawing of combat troops under this mission will 
be completed in 2014.
    Senator Boxer. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much, Senator Boxer.
    Senator Corker.
    Senator Corker. Thank you, Mr. Chairman.
    Thank you, Madam Secretary. As always, it's a pleasure to 
have you here. We thank you for the great work you are doing. I 
want to thank you personally for the way that you work with our 
office, you and your staff. I know you're working hard, have 
got a lot of complex issues. Again, we thank you for that.
    I know the chairman mentioned early on how some of the 
things that are happening offend Judeo-Christian principles. I 
don't normally like for those kind of things to enter into our 
discussions as it relates to this, but the fact is we do have 
this rub. One of the principles we're violating just of common 
decency right now as a country is spending $3.7 trillion when 
we're taking in $2.2 trillion.
    So obviously as a country we cannot, we cannot do what 
we're doing any longer to future generations. I think all of us 
believe that's morally reprehensible.
    So what's really happening right now is, because we've 
chosen so far not to really deal with those issues of 
entitlements, trying to sustain them for the future, all of 
those things, if you will, being off the table has put intense 
pressure on discretionary spending. So you're in here today, 
you're in here today really fighting for your programs, as one 
would expect you to do. But the reason there's so much pressure 
on your programs is our inability as a Congress thus far--I 
have hope we're going to deal with this over the next 3 or 4 
months; there are a certain number of people here at the dais 
that are working on that. So far we haven't shown the knowledge 
or the courage to deal with all of those other issues, which 
basically are crowding out your programs.
    Would you agree that that's a problem?
    Secretary Clinton. Well, I think that, Senator, plus the 
idea that only defense spending is national security, so that 
when we talk about cuts they often are phrased in nondefense 
discretionary spending.
    Senator Corker. So as long as we lack the will to deal 
intelligently with our fiscal issues, you're going to be under 
incredible pressure. My guess is there will be cuts in State 
Department spending and I think you know that. And they're 
going to be disproportionate to the overall budget because we 
don't have the courage, the knowledge, something, to deal 
appropriately with our spending issues. It's my hope that we'll 
do that.
    But I just want to point that out, that this pressure is 
because of our inability to deal with all the real spending 
that is really creating the unsustainable situation which deals 
with entitlements and putting them on a longer term path.
    So with that, let me move on to--and I think the 
administration, not your pay grade, is missing a tremendous 
opportunity to lead on this issue, and I think the country has 
recognized that. My hope is that the President will come to the 
table and with all of us together solve this problem, which is 
the only way we can do it. Divided government, as you well know 
due to the 1990s, is a great opportunity for us to solve these 
problems.
    So with that, Afghanistan. I was just there and also in 
Pakistan. I think the administration generally speaking has 
done a good job in communicating, and I'm willing to--I want to 
support this fighting season in Afghanistan, when we finally 
have everything on the ground, both civilian and military. That 
fighting season will end in October and hopefully there will be 
great gains.
    But one area where I think the administration has not 
communicated clearly with the American people is the amount of 
state-building and nation-building that's taking place. This is 
far from a narrowed mission. We are engaged in all-out state 
and nation-building.
    I know you referred to while we have troops in the field we 
need to have civilian efforts. Secretary Gates has talked about 
our ticket out of Afghanistan being when we turn it over to the 
Afghan forces. I am very concerned that we are going to be 
there for a long, long time doing things--we've raised the 
expectations beyond what is sustainable in Afghanistan. Even 
tribal elders believe we're going to be there for generations.
    I'd like for you--are we going to move out quickly, as soon 
as our troops move out, with the nation-building efforts that 
are under way there now?
    Secretary Clinton. Well, Senator, I think that I would 
characterize what we are doing in Afghanistan as capacity-
building. It may have been 10 years ago an idea in the minds of 
decisionmakers on both sides of the aisle, in both 
administrations, that we could nation-build or state-build. I 
think that our assessment now is that we have to get to a level 
of stability where al-Qaeda is degraded and hopefully defeated, 
unable to operate out of the tribal border areas, that the 
Taliban is not able to bring down the Government of 
Afghanistan, take over population centers, including Kabul, and 
that there is enough of a governing stability--now, we're not 
talking about France or Germany or the United States, but 
enough of a governing stability to maintain its independence 
and its sovereignty against continuing threats.
    So what we are doing is aimed at trying to help it get its 
finances straight, trying to help it get basic services and 
governance operating. After 2014 NATO, including the United 
States, has said there will be some kind of a continuing 
relationship with Afghanistan, in a supportive role, to make 
sure that these goals for them are achievable and sustainable.
    What that's going to look like we are just beginning the 
conversation about. Not so dissimilarly from what the Bush 
administration concluded was necessary in Iraq--you know, the 
status of forces agreement, which President Obama sped up and 
without any loss of our ability to maintain stability. But then 
the strategic partnership agreement, which talks about an 
enduring relationship with Iraq.
    So in both Iraq and Afghanistan, that's what we're working 
on and trying to get the inputs right to figure out what the 
end state is that we can support.
    Senator Corker. My time is up, unfortunately. I won't ask a 
long question. I'll just make a statement. I think the people 
on the ground in Kabul and throughout the country that we have 
that are doing great work, I think that we need to move quickly 
to change the expectations of what we're going to be doing in 
Afghanistan.
    We are paying cash--we have cash for work programs, where 
we're paying the Taliban to work in vineyards instead of take 
up arms. The security forces on the ground, their security 
forces, are over $7 billion a year in expenditures. They only 
have a $1.3 billion budget. So when we talk about contingency 
operations, these are not contingency. They're going on for a 
long, long time.
    I really do believe that we have given expectations to the 
Afghan people that are way beyond what we're going to be able 
to sustain as a country. I hope that we'll move quickly to 
recalibrate that.
    Thank you, Mr. Chairman.
    Thank you for your service.
    Secretary Clinton. Thank you.
    The Chairman. Thank you. I look forward to having a good 
discussion with my colleague about how the ethic applies to the 
debate on the budget. I think it's an important one to have, 
but probably not here at this particular instant.
    Senator Menendez.
    Senator Menendez. Thank you, Mr. Chairman.
    Madam Secretary, I want to congratulate you for your 
statement yesterday that the United States is considering 
seeking the prosecution of Muammar Qaddafi for the 1988 Pan Am 
103 bombing that killed 189 Americans, including 33 of my 
fellow New Jerseyans. That comes on the heels of reports by the 
ex-justice minister of Libya that Qaddafi personally ordered 
the attack.
    I hope that as events progress you'll give us a sense of 
how we're going to verify this information. Hopefully we will 
gain access to the justice minister soon, and decide on whether 
we will seek to prosecute Qaddafi for that heinous crime.
    Also, you know that I and several colleagues, one of whom 
sits on this committee, issued a report on the release of the 
convicted Pan Am 103 bomber, al-Megrahi, who we believe was 
released from a Scottish prison on false pretenses. I want to 
urge you to consider requesting of any potential new Libyan 
Government that may come out as a result of what is going on in 
Libya--I know it's a little premature to say that, but I want 
to put it on your radar screen--the extradition of al-Megrahi 
to finish serving his sentence, instead of sitting in the lap 
of luxury.
    Secretary Clinton. Well, first, Senator, thank you for your 
continuing focus on this terrible crime. I represented New York 
and of course many of the victims were from Syracuse 
University. I have met, like you, many times with family 
members, and it is just a heartbreaking experience. And justice 
must be served.
    So what we are doing is reaching out, based on these recent 
reports, to the FBI and the Justice Department, which have the 
jurisdiction over any continuing prosecution, to ask that they 
immediately try to take whatever actions are possible. I was 
given a letter yesterday by two of the family members in the 
House hearing which outlines a number of ways that we could 
proceed, and I have sent that over to Justice and the FBI.
    I don't think it's only Qaddafi. I think that there may be 
others as well who were involved in some way. Like you, I would 
like the families to have whatever information they can finally 
get, and then whatever legal action we can take.
    Senator Menendez. If we have a new Libyan Government, we 
must consider that if we send a message that you can kill 
Americans and ultimately walk away from jail, then we send a 
message that is horribly wrong in our global fight against 
terrorism.
    I want to change to Iran. I am concerned that in light of 
what is happening in Egypt and across North Africa and the 
Middle East, the world's attention will be diverted from the 
dangers of Iran's nuclear programs. I am worried that Iran will 
use this opportunity to speed up its nuclear program and crack 
down on opposition and human rights activists. And I am 
concerned, as someone who is supportive generally of the 
administration's budget for this Department, to find that we 
have not even sanctioned one non-Iranian foreign company for 
its investments in Iran's energy sector.
    You know, the administration has yet to sanction a non-
Iranian bank, despite the reports that several Turkish, South 
Korean, Ukrainian, Chinese banks continue to deal with Iran's 
financial institutions in violation of the law. And I know, 
based upon previous testimony here by former Under Secretary 
Burns, that there were a series of violations appearing to be 
going on.
    I'm wondering the status of those violations. There's a 
180-day clock. How many investigations are currently open and 
when will we see sanctioning of some of these companies that 
are clearly in violation of the law?
    Secretary Clinton. Well, Senator, first, as you know, I 
became the first Secretary of State to impose any sanctions. 
And you're right, it was on a Swiss-based Iranian-owned firm. 
But we are moving as expeditiously as we can to review any 
cases.
    We have also used SOSADA, the sanctions that you passed 
last year, to convince a number of companies, including Shell, 
ENI, Total, Enpex, and others, to withdraw from Iran and not do 
further business. We have also monitored a lot of activity and 
as a result we are seeing some decisions made by companies. A 
number of shipping companies have discontinued services to 
Iran. Several maritime shipping insurers have said they will no 
longer provide coverage for Iran-bound vessels from wherever. 
Major energy traders have discontinued sales of refined 
products to Iran.
    As a result, we have seen Iran have to take steps that we 
think is adding to their economic mismanagement and 
instability. Now, we will continue to gather information, work 
with our allies and partners on this matter. Since we are the 
first administration to ever rigorously enforce any sanctions 
against Iran, we have a lot of catchup to do. There are cases 
that are still in the review process and we are using, as 
Deputy Secretary Steinberg said last September, we are using 
the information we have to have opened investigations in 
several cases. We've been engaged with a lot of those companies 
to try to get them to discourage further investments or 
withdraw. Last week I made a certification as to how we were 
going to treat a couple of companies. That is classified, which 
of course we can brief you on.
    So we are moving, but here is the challenge. We have the 
United Nations sanctions, which we've been more successful than 
many thought we could be in getting the world to enforce. We 
have additional sanctions. The European Union has additional 
sanctions. Other countries like Japan, Korea, et cetera, have 
added on sanctions. Trying to get some of our partners to 
follow sanctions that are not U.N. sanctions has been 
challenging, but we literally are at it every single day and 
we're going to keep it up. There will be more to report to you 
in the near future.
    Senator Menendez. Well, I thank you for that. I hope you 
will submit subsequently for the record how many are under 
review and what the 180-day tolling period is looking like as 
it relates to those reviews.
    Thank you, Mr. Chairman.
    [The answer supplied for the record to the requested 
information follows:]

    We have met with family members of the victims and understand their 
anguish over this heinous act of terrorism. We shared their outrage at 
the release of Megrahi to Libya. We are also committed to seeing that 
justice is served. We have seen the recent public statements from a 
former Libyan official concerning Qadhafi's responsibility for the 
bombing. The investigation into the Pan Am 103 bombing remains open and 
we are committed to assisting law enforcement efforts in obtaining and 
evaluating any new information relating it. We are coordinating closely 
with the Department of Justice on this sensitive law enforcement matter 
and are committed to assisting with any appropriate approaches to 
relevant Libyan officials. As this is an ongoing investigative matter, 
please refer to the Department of Justice for any further details. 
Additional information in response to this question will be made 
available in a classified response.

    The Chairman. Thank you, Senator Menendez.
    Senator DeMint--oh, excuse me. Senator Rubio.
    Senator Rubio. Thank you, Mr. Chairman.
    Good morning, Madam Secretary.
    Secretary Clinton. Good morning.
    Senator Rubio. I have a couple of quick questions. I want 
to talk to you briefly about the national debt in light of 
Admiral Mullen's recent statement that it was a major issue 
with regards to national security. I was hoping you would share 
some of your views on the impact that the national debt and its 
unsustainable nature is having on our foreign policy, in 
particular our ability to impact events around the world.
    Secretary Clinton. Senator, I have spoken out about that as 
well, and I think it's an incredibly important issue. I clearly 
agree that the United States must be strong at home in order to 
maintain our strength abroad, and at the core of our strength 
is our economic strength. So I'm well aware, having sat where 
you are now sitting for 8 years, of the necessity for us to 
take action to begin to rein in our debt, and particularly our 
indebtedness to foreign countries, the top of the list being 
China.
    I also know quite a bit about how challenging it is because 
it was at the end of the 1990s in my husband's administration 
that a bipartisan deal was struck that put us on a path where 
we had a balanced budget, where we had decreasing deficits. We 
were on a glide path for actually, as hard as it is to believe, 
ending our national debt.
    I sat on the Budget Committee of the Senate in early 2001 
and I believe that we made decisions starting in 2001 that 
undermined our capacity to actually do what I think both of us 
agree must be done. So I hope there is an appetite for a 
bipartisan agreement that will deal with our debt without 
undermining our strength, which is so needed in the world 
today. That's the balancing act and it's a tough one, but 
certainly I support efforts to do that.
    Senator Rubio. Just I think to summarize, what we're both 
saying is it's your belief that the United States could 
establish a plan to deal with our debt, to begin to make it 
manageable again, that that would help us carry out foreign 
policy, it would strengthen our hand in the world.
    Secretary Clinton. Yes. It won't surprise you to know that 
I think some things have to be done on the revenue side as 
well. You know, I go to a lot of countries where rich people 
will not pay a penny to support the services of their 
government, where they are at, in my view, a mistaken belief 
that somehow people in the 21st century are not going to demand 
more. I think there has to be a compromise on a bipartisan 
basis, like we did in the late 1990s, where we put spending and 
revenues and entitlements on the table.
    Senator Rubio. Briefly, if I could turn your attention to 
the Western Hemisphere for a moment. In the hemisphere, it 
appears that basically countries are heading in one of two 
directions. There's the rise of these autocratic type 
situations that we see in Nicaragua and Bolivia and Venezuela. 
Of course, they're joining Cuba on that list. On the other 
hand, there's the promising development in places like Brazil, 
Chile, and Colombia.
    All of this I think is kind of colored by a growing loss of 
influence in the region by the United States vis-a-vis other 
nations stepping up. Earlier I think you used the phrase we're 
in a competition of influence with China. I think that's 
especially true in the Western Hemisphere. Even Iran has tried 
to play in some of these countries.
    I was hoping you could outline some of the steps that we're 
taking to reengage the region, in particular encouraging 
nations to follow the route of Brazil, Chile, and Colombia, and 
in particular the free trade agreement with Colombia, which I 
know has languished for some time and hope we can get some 
update on where that is and exactly what are we waiting for to 
consummate that.
    Secretary Clinton. Well, Senator, thank you for turning our 
attention to the Western Hemisphere, which often does not get 
the attention it deserves. The countries in our hemisphere are 
our biggest trading partners, our biggest energy suppliers. 
They have, with notable exceptions like Cuba and a few others 
like Venezuela and Nicaragua, they have moved into an era of 
sustainable democracy and economic growth. So there's a lot for 
the United States to be very proud and grateful for.
    But again, I underscore your point. There are other nations 
that are competing with us. Take Colombia, for example. This 
Congress and previous administrations invested a lot of money 
in the effort to support Colombia in the fight against the FARC 
and the drug traffickers, and by and large that has been a 
successful American partnership. Yet we're watching Colombia 
sign free trade deals with Canada, with the European Union. I 
think they're either in negotiation or about to be with China. 
And we have a free trade agreement that we are still not able 
to act on.
    So certainly this administration is moving as rapidly as 
possible to resolve outstanding issues. I want to get that up 
this year. I think it is definitely in American business 
economic interests. I feel the same way about Panama. Those are 
tangible signs that the United States is really engaged with 
our friends in the region.
    You talk about Brazil. One of the things that Brazil did--
and I don't want to sound like a broken record--they have the 
highest tax to GDP ratio in the hemisphere, and they've used 
that money to invest in social inclusion, to improve their 
education and health care systems. And Brazil is booming and we 
view it now as a real success story.
    Other nations, like Chile, which you point to, have 
similarly had good leadership, good investments, and Chile 
makes a free trade agreement with everybody they can, including 
us, and it benefits them and it benefits us, and it provides an 
economic base of stability that allows democracy to flourish.
    So we are looking at how we can enhance security assistance 
to our friends in Central America. We're using the Merida 
Initiative to work with Mexico. President Calderon will be here 
tomorrow. Let's not forget our friends in the Caribbean, 
because a lot of those small nations are struggling against 
crime, drug trafficking influence.
    So there's a big agenda for us to do and I'm very pleased 
that President Obama will go to Brazil, Chile, and El Salvador 
this month, but we have to do even more to tighten the bonds of 
friendship and partnership.
    The Chairman. Thank you, Senator Rubio.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman.
    Secretary Clinton, thank you very much for your incredible 
service to our country. I share your view about global 
development policies being one of national security, and that 
it is important that we have adequate resources. I think it 
also speaks to our values, as you pointed out. And it's also 
cost-effective. We'd much rather use development assistance 
than have to use our military. So I think that from every point 
of view you're absolutely correct that this needs to be part of 
our discussions about national security, and which we need to 
make sure that we have adequate resources, and the amount of 
money that we're spending on our international development 
programs are relatively small. So I hear that.
    I want to, though, move to a second part of this equation 
that you and I have talked about before. In this Congress I'm 
going to be chairing the subcommittee here that deals with 
international development assistance. I want to know a little 
bit more about accountability. We've talked about this several 
times, that our involvement in other countries needs to advance 
gender equity, needs to make sure that we're not participating 
in corruption so the money ends up in the pockets of some 
despot rather than going to the development of the nation.
    Can you share with us ways in which you can engage this 
committee to make sure that we get the proper return in regards 
to American values as we participate in other countries?
    Secretary Clinton. Well, Senator, thank you, and thanks for 
your long-term attention to this issue. In the first ever 
Quadrennial Diplomacy and Development Review, the QDDR, we set 
forth a number of recommendations, many of which are already 
under way, to improve how we deliberate, how we hold it 
accountable, how we vet partners, how we move contract 
functions inside and thereby save money.
    The USAID forward agenda that Raj Shah is implementing is a 
result of the work that went into the analysis. We're seeing 
some results. We're seeing procurement changes. We are seeing 
those who had gotten contracts held responsible, some of them 
prohibited from further contracts because of their financial 
irregularities. We are looking to streamline aid delivery so 
that we're not duplicating throughout the U.S. Government. That 
was one of the goals behind our efforts to have a whole of 
government approach with our ambassadors, our chiefs of 
mission, responsible for everyone, so that if we have aid going 
in through Justice or Agriculture or Commerce it's not off in a 
separate direction, that we try to focus it and better organize 
it.
    We are doing that as well in the State Department, where we 
are vetting a lot of our programs, trying to better organize 
them, making progress, but not yet enough.
    Senator Cardin. Let me mention part of the jurisdiction of 
this committee, which is international investment, protection 
of intellectual property and technology transfer. I mention 
that because I think you mentioned trade agreements, which 
obviously can be very beneficial to America. But we don't have 
a level playing field on protection of intellectual property 
and it's costing us jobs, thousands of jobs, if not more, in 
this country.
    So I just want to put that on your radar screen as you have 
your discussions internationally to make sure that we make that 
a priority also.
    Secretary Clinton. I agree completely. I think there's a 
grand bargain to be had here on trade. In addition to the free 
trade agreements with Korea, Panama, Colombia, we have trade 
adjustment assistance. We have the Andean preferences. We have 
the Generalized System of Preferences. All of that should be 
looked at as our comprehensive trade policy. Embedded in those 
are and should be protections for intellectual property rights. 
We worked hard with the Chinese to begin to get more protection 
and frankly, to make the case that as China develops they're 
going to want intellectual property protection, which up until 
now they haven't seen as in their interest. So there's a lot of 
work on that front going on.
    Senator Cardin. I could point out that China is very 
efficient at stopping information getting to its citizens when 
it wants to, but seems to be very lax when it comes to stopping 
piracy, which is thievery against American interests.
    Secretary Clinton. Absolutely. I've been jammed by the 
Chinese several times, starting in 1995 and most recently with 
my Internet speech. So they are quite efficient and I 
understand that completely.
    But in all of our dealings with them and other of our 
trading partners we are making this case, because you're right, 
our intellectual property is the lifeblood of American 
innovation and it is jobs, it is economic opportunity, and it 
is the leading edge of where we go in the 21st century. We've 
got to do a better job of protecting it.
    Senator Cardin. I also want to thank you for your attention 
to the Iraqi refugee issue. I think we have made some progress, 
but we still are not there yet. Obviously, as our role is 
changing in Iraq I think it's important that we continue to 
point out to the Iraqis the refugee problems as it relates to 
Iraqi refugees being in Syria and Jordan and other neighboring 
countries. But I do appreciate the attention that you've given.
    I want to ask you one last question, and that deals with 
the circumstances in Libya. Each of the countries are different 
and you point out the Egyptians, and rightly so, do not want to 
see outside forces dictating how their governments are going to 
be formed. In Libya those who are standing up to Qaddafi are 
asking for international assistance. Can you tell us what role 
the United States or the international community can play in 
regards to Libya?
    Secretary Clinton. First, Senator, we are sending 
humanitarian teams to both the Tunisian and Egyptian borders 
with Libya. We are working with the United Nations to stand up 
humanitarian operations. We've done a survey of medical 
supplies and food supplies that are in the region that we can 
quickly move to assist the people in Libya.
    The tough issues about how and whether there would be any 
intervention to assist those who are opposing Libya is very 
controversial within Libya and within the Arab community. The 
Arab League just issued a statement today, early today, saying 
that they disapproved and rejected any foreign interference 
within Libya on behalf of the opposition, even though they have 
called for Qaddafi to leave.
    So we're working closely with our partners and allies to 
try to see what we can do, and we are engaged in very active 
consideration of all the different options that are available.
    Senator Cardin. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Let me just say we have a vote. Senator Lugar's going over 
to vote. We want to try to keep everything going--I don't know, 
Senator Shaheen or Webb, you may want to vote and then come 
back quickly, and then we'll keep--we can probably get two 
question rounds in between that.
    Senator DeMint.
    Senator DeMint. Thank you, Mr. Chairman.
    Madam Secretary, thank you for being here. It's been very 
informative.
    The chairman as well as you have mentioned the apparently 
growing problem with religiously motivated violence in 
different places in the world. I know those of us who live in 
freedom understand that there is a strong link between 
political, economic, and religious freedom. As we look at 
countries where we're shedding blood and treasure, in Iraq and 
Afghanistan, obviously very concerning when apparently the 
governments we support appear to be at least complicit, in 
Afghanistan where someone converted to Christianity is 
threatened with execution. Even allies, democratic allies like 
India, where we see religious violence, the government has 
resisted visas for congressional delegations to come in and try 
to observe what's happening.
    The U.S. Commission on International Religious Freedom in 
2010 reports that, just on Afghanistan, Afghanistan's on a 
watch list, and they concluded that, ``The U.S. policy has not 
sufficiently prioritized human rights, including religious 
freedom, in Afghanistan. Promoting respect for freedom of 
religion or belief must be an integral part of U.S. strategy, 
particularly as the Government of Afghanistan pursues a peace 
or reconciliation process with antigovernment insurgents.''
    So my question to you is, while we hear these reports and 
the media seems to informally document them, is the State 
Department actually trying to track and quantify these crimes 
in Afghanistan and other countries where we support with 
foreign aid? What are we doing, what can we do, to stop it, to 
express our concern?
    Secretary Clinton. Senator, thank you for raising that, and 
I know this is an issue of great importance to you, as it is to 
me. We are tracking it. We are trying to make it a major part 
of our human rights reporting. We are trying to increase our 
attention paid to it and speaking out forcefully against it and 
engaging with governments.
    It's a foreign concept, unfortunately, to many people 
around the world. We are trying to work with a lot of our 
fellow nations in crafting a proposal that says we support 
religious freedom and we support freedom of expression, because 
there's been a move to try to criminalize what is called 
defamation, leading, as you say, all the way up to execution in 
some places.
    We've worked steadily on this for 2 years. We're slowly I 
think making some progress. But it has been a very hard 
discussion, because a lot of other cultures just--their idea of 
religious freedom is you get to be our religion, that's 
religious freedom. And the idea that we enshrine in our 
Constitution and that we respect here at home is a hard one for 
many to accept.
    So this is certainly on the top of my personal list and I 
would welcome any suggestions you would have, because we're 
going the do everything we can to raise the alarm where 
necessary and keep the conversation going.
    Senator DeMint. Well, I hope a lot of our aid and 
assistance in the future to countries will be conditional on an 
understanding that these principles of freedom--that while we 
do have different cultures that we certainly have to respect, 
that when our soldiers are dying the idea that they couldn't 
practice the faith that they believe in these countries they're 
dying for is a concern to many. As we look ahead, and I'm sure 
you know how complex the situation in the Middle East is 
getting, and Northern Africa and with what's happening in 
Egypt, organizations like the Muslim Brotherhood--there have 
been mixed signals from the administration on whether they're 
secular or not. The record seems to show that they are much 
less than secular.
    But as you look at Egypt and how we're going to deal with 
that, I know you can't give a clear answer and we're certainly 
not in control of what happens, but how do we deal as a nation 
and hopefully as an ally with groups like the Muslim 
Brotherhood? What signals do you plan to send to them as far as 
the U.S. support of Egypt in the future?
    Secretary Clinton. Well, we've been consistently saying 
that any political party that participates in an electoral 
process must respect democratic institutions, the rights of 
minorities, including religious minorities, has to be 
supportive of independent judiciary, independent media, cannot 
have an armed wing or a militia associated with it.
    You know, it's been interesting because we've been getting 
a lot of reporting back, not just from our diplomats, but from 
European and others who have gone into Egypt. They've been 
meeting with a lot of the opposition groups, including young 
members of the Muslim Brotherhood. And I think they are in an 
internal debate about exactly how they're going to participate 
in a democracy.
    So we want to encourage what we would view as answers that 
would protect the inclusive nature of Muslims and Coptic 
Christians living peacefully together in Egypt, that would 
recognize a political process in a democracy. You have to be 
able to get along with people who have differing opinions, 
different religious beliefs.
    Again, this is going to be an ongoing effort. One thing, 
Senator, is we could use help in confirming our Ambassador for 
religious freedom. I know you've raised some questions. Part of 
the reason why the administration and I personally support 
Reverend Cook is because she's got a personality, she's got an 
ability to connect with people. Sending her into places where 
she would be listening and talking I think would give us a face 
for religious freedom that isn't necessarily expected and 
could, based on what I know of her and her work and how she's 
been accepted as a woman preacher by her male counterparts and 
broken new ground in so many areas in New York, in the Baptist 
Convention, et cetera, she would be somebody who I think would 
be especially well suited to dealing with a lot of these issues 
now--not in a threatening way, but in a persuasive way that 
would build upon personal relationships.
    Senator DeMint. Thank you, Senator.
    Absent a chairman, I will yield to the Senator from 
Pennsylvania.
    Senator Casey [presiding]. Thank you, Senator DeMint.
    Secretary Clinton, thank you for your testimony today and 
for your great work here and around the world. It's a 
remarkable schedule you keep and we're grateful for your time 
here.
    I was especially grateful for what you said at the 
beginning of your testimony regarding Minister Bhatti, someone 
I have met on two different occasions, and just demonstrated--I 
don't know how you say it--uncommon, remarkable courage in the 
face of a threat and seemed to have--when I spoke to him a 
number of weeks ago--seemed to have been at peace with that, 
that he knew he was under threat and was not going to allow 
that threat to prevent him from doing the good work he did.
    So we're grateful for your recognition of that and your 
work to advance the same causes and the same goals that he--the 
same values, I should say, that he espoused.
    I wanted to ask you about maybe two or three areas, one, 
first and foremost, on ammonium nitrate. You and the Department 
and the late Richard Holbrooke and others have worked long and 
hard on this issue. For those who haven't paid close attention 
to it, it's really just the main ingredient in improvised 
explosive devices. It's outlawed in Afghanistan, but 
unfortunately not in Pakistan, and it's coming over the borders 
in kind of--almost like a rushing current of ammonium nitrate 
coming from Pakistan, as well as other places, into 
Afghanistan.
    I guess I wanted to ask you about two areas. One is if you 
could tell us a little about and also maybe if after the 
hearing you could provide a report, your team can provide a 
report on it, in terms of our own work and progress report; and 
then second, on the legislative efforts within the Government 
of Pakistan to not just impose statutory remedies, but also to 
better regulate it.
    Secretary Clinton. Well, Senator, thank you for your 
leadership on this important issue, because this is a direct 
deadly threat to our troops and also to the people of 
Afghanistan and Pakistan.
    In November 2010 the United States launched what we're 
calling Operation Global Shield, and it is a multinational law 
enforcement effort involving 60 countries and international 
organizations aimed at stemming the flow of IED components, 
including ammonium nitrate. Sixty countries are participating, 
including the U.N. Office of Drugs and Crime and the World 
Customs Organization and Interpol.
    Since its inception, approximately 68,000 kilograms of 
explosive precursors have been seized. Now, in addition we are 
increasing our intelligence sharing on ammonium nitrate and 
other deadly ingredients. We continue to work with the 
Governments of Afghanistan and Pakistan to get them to take 
more concrete actions to disrupt the flow of these chemicals. 
We're working with them. Pakistan established last November a 
counter-IED forum to bring a whole of government approach.
    We've pressed them to do more on the regulatory and 
legislative framework. Because ammonium nitrate even in our 
country is a legal substance, we have to figure out how to stop 
its flow but not cut it off from construction and agriculture. 
That's obviously much harder in a country like Pakistan that 
doesn't have a regulatory framework really, where a lot of this 
could already be housed.
    But we remain absolutely committed to this. We're going to 
do everything we can, and we welcome your leadership and any 
other suggestions that you have as to how we can be more 
effective.
    Senator Casey. Thank you very much.
    I know we have limited time because of the vote, and it may 
allow you to have a little bit of a break, I hope. Maybe just 
one more question. We'll have a few others we'll submit for the 
record. But I wanted to ask you about Lebanon. When I was there 
in July for the first time, I was stunned by--and maybe I 
shouldn't have been--but stunned by the overarching and 
dominant presence that Hezbollah has in that country. Of 
course, the world has changed. Now you've got a Prime Minister 
moved out in essence because of the strength of Hezbollah.
    I wanted to get a sense of your--because I know your 
Department has statutory obligations based upon the 2009 
Supplemental Appropriations Act, where I guess you're directed 
to report on the procedures in place--and I'm reading here--
``to enforce that no funds are provided to any individuals or 
organizations that have any known links to terrorist 
organizations, including Hezbollah.''
    I just want to get a sense of that in light of the change 
there and what you can tell us about that?
    Secretary Clinton. Senator, as you know, the government is 
not yet formed and we are waiting so that once it is we will 
review its composition, its policies, and its behavior to 
determine the extent of Hezbollah's political influence over 
it. It is important that we continue planning so that we'd be 
ready if there is an opportunity to work with this new 
government.
    I believe still at this point we should continue supporting 
the Lebanese Armed Forces. I know that's been a subject of some 
debate here in the Congress. It is considered a nonsectarian 
institution that is national in scope. It has the respect of 
the Lebanese people from all sects. It continues to state its 
support for Security Council Resolution 1701, which is our 
primary security-related goal in Lebanon. It cooperates with 
the United Nations mission in the south to try to keep the 
peace there.
    We worry that if the United States does not continue 
supporting the Lebanese Armed Forces its capabilities will 
rapidly deteriorate, security in the south and along the border 
with Israel will be at risk. We do have a good relationship. 
Our military-to-military ties with the Lebanese Armed Forces is 
strong. That's served us well with the Egyptian military. So I 
hope as the Congress is looking at the budget we will think 
seriously about continuing our support for the Lebanese Armed 
Forces.
    Senator Casey. Thank you.
    The Chairman [presiding]. Senator Casey, thank you.
    Senator Webb.
    Senator Webb. Thank you, Mr. Chairman.
    Secretary Clinton, I'm sorry I missed the exchange because 
I had to vote, so I hope I don't ask you anything that's 
redundant of what you've already said.
    First let me, as I've said many times, express my 
admiration for the intellect you have brought to your job and 
for the energy that you put into it. You really have given 
great service to our country.
    There was an exchange earlier with Senator Rubio about the 
free trade agreements in this hemisphere, and then you briefly 
mentioned afterward, the Korean Free Trade Agreement. Just as a 
comment, I have two questions in a very short period of time. I 
can't overstate my hopes that we can get this Korean Free Trade 
Agreement in place for strategic as well as economic reasons. 
The Northeast Asia area is the only place in the world where 
the interests of China, Russia, Japan, and the United States 
directly intersect, and right in the middle of that is the 
bulls eye of a divided Korean Peninsula.
    We have every reason for the economic well-being of the 
country, but also for the strategic interests in that region, 
to move forward on that agreement with all due haste.
    There was a comment by Senator Boxer about the situation 
with ending our involvement in Iraq. I would like to echo my 
concerns about that issue. We tend to focus on the crisis of 
the moment, as we are doing now with these other issues in that 
region, rather than on conclusively ending ongoing commitments 
that were not intended to be permanent. We've been in Iraq for 
8 years. The war as a war, meaning ending Saddam Hussein's 
regime, was over in a matter of weeks. We have been involved in 
a very costly occupation since that period.
    I've read the Strategic Framework Agreement and also the 
Status of Forces Agreement and it's clear that we should be out 
by the end of 2011, but there is also language in there that 
allows an extension. I would like to hear from you whether you 
believe there are any circumstances that should compel us to 
stay longer?
    Secretary Clinton. First, Senator, I agree completely with 
you about the Korean Free Trade Agreement and I think it is 
very much in America's strategic and economic interests, and I 
hope that that agreement will be submitted soon and acted on 
soon by the Congress.
    I think with respect to Iraq there are no plans that I'm 
aware of. But you're right that the Iraqi Government does have 
certainly the opportunity to request additional assistance on 
the military side. We have committed to civilian assistance, 
which I think is appropriate. At this point I do not have any 
insight into whether or not the Iraqis have any interest in 
making such a request. They seem to have their hands full 
getting their government set up, which they haven't yet 
accomplished.
    The only point I would make--and it is not in any way meant 
as a statement of approval or disapproval--is, you know, we 
made long-term commitments to a country like Korea, for 
example. We were there while they had a less than perfect 
democracy, with coups and assassinations and corruption of the 
most egregious kind. And would we say that 50-plus, I guess 60, 
years of expenditure was worth it or not? Well, I think many 
people would argue that it probably was. Could it have been cut 
short? Probably, under certain circumstances. Is it still one 
of the most dangerous places in the world? Absolutely.
    So I think each of these situations has to be looked at and 
evaluated independently. I think Iraq is a very important piece 
of the puzzle about what happens in the Middle East, because we 
are all asking ourselves, can Egypt and Tunisia become 
democracies? Well, an equally important question is, Can Iraq 
remain a democracy and move to improve that democracy? Can it 
withstand pressures from Iran? I don't know the answers to 
those questions.
    So as we move forward with Iraq, I do think we have to 
factor in any kind of ongoing involvement in what is in our 
strategic interest as well.
    Senator Webb. Well, I would just like to reiterate my long-
held view that there are completely different strategic reasons 
when we look at the Korean Peninsula versus that part of the 
world. I believe it's a negative for us to be an occupying 
power in that part of the world, whereas if you look at, again, 
Northeast Asia, the volatility of that part of the world over 
history has been because of the interactions of China, Russia, 
and Japan. The presence of the United States since World War II 
has largely given us a stability that they have not seen 
previously.
    I only have 1\1/2\ minutes. I want to make sure I ask you 
this other question because it regards the comments that have 
been made regarding the potential use of military force in 
Libya. We can all agree on the negative characteristics of the 
current regime. I found your comment earlier regarding the 
statement from the Arab League warning about an American 
military involvement. I'm also very conscious of the 
unpredictability of history in this part of the world when it 
comes to situations after these opposition movements run their 
course. Iran is the classic example where we traded the Shah of 
Iran for the Ayatollah Khomeini.
    What I'm really concerned about is hearing what are the 
characteristics of the rebel forces, for lack of a better term, 
in Libya that would commend them to our government to the level 
that we would actually consider military intervention in 
cooperation with them?
    Secretary Clinton. Senator, that's the key question, and I 
think it is fair to say, as you probably heard from Secretary 
Gates and Admiral Mullen yesterday, there is a great deal of 
caution that is being exercised with respect to any actions 
that we might take other than in support of humanitarian 
missions.
    There may well be a role for military assets to support 
getting equipment and supplies into areas that have need of 
them and where we are welcome. But I think that it is a big 
reminder to us that we don't know the outcome of this. We don't 
know these players. We just opened an Embassy for the first 
time in years in 2009. We were just getting to know a lot of 
these people. We are not as aware even of what went on in Egypt 
and Tunisia, and I have to admit to a certain level of opacity 
about both of those circumstances.
    So I take your caution, and certainly our military 
leadership does as well. The only point that I would make is, 
we faced a similar situation in the Balkans, where there were 
many, many reasons why it was not viewed with favor that we 
would set up a no-fly zone for a lot of similar reasons--the 
difficulty of it, the maintenance of it, the appearance of it. 
And eventually it was determined that it was in the interests 
of the peace and stability of the region, et cetera.
    I think that we are a long way from making that decision. I 
believe that your statement is certainly very much in the minds 
of those in our government who have to make this decision.
    But I wanted to just end on something about Iraq, because I 
value your opinion greatly. As I say, I'm not advocating this. 
I just think we need to have a debate about it. Our troops will 
leave. Our troops are leaving. They will be gone. That is in 
accordance with the status of forces agreement. We will not be 
an occupying country any longer in Iraq.
    Now, if the Iraqi Government comes to the United States 
Government and says, you know, we have no air defenses, we have 
no air force, we have no intelligence abilities, we have no 
surveillance abilities, we've got this hungry big neighbor on 
our border and we don't want to be taken over by them any more 
than they're already influencing us, can you stay in some 
capacity at our invitation, I think that's a debate we need to 
have, because at that point you could take the position it's 
not in our national interest, it is not a strategic region, 
although I would disagree with that, and that what we are now 
facing in the environment with Iran is as much a competition 
for our future positioning as what we faced in the past with 
China and Russia.
    So I just think that this is a debate. We're nowhere near 
it because nobody's asked us for anything and they may never 
because of their own internal politics.
    Senator Webb. That's a debate for another time, and as long 
as I'm in the Senate I would be happy to participate in it.
    Thank you very much for your testimony.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Webb.
    Senator Shaheen.
    Senator Shaheen. Thank you.
    Thank you, Secretary Clinton, for being here today and for 
the face that you represent for America around the world. We 
are all very grateful.
    I would be remiss if I didn't at the outset of my time 
comment on the back and forth we heard from some of our 
colleagues about the debt and the importance of addressing the 
debt. I think all of us here recognize how critical an issue 
that is for the country. But I think, as Senator Corker so 
rightly pointed out, trying to address dealing with the debt on 
the 12 percent of the budget that is nondefense discretionary 
spending I don't think makes sense. I very much appreciated and 
am in agreement with your comments, that not only do we have to 
look at the spending side of our budget, and entitlements and 
defense are a big piece of that, but we also need to look at 
revenues and tax reform.
    We are not going to get where we need to go unless we 
address that as well. So thank you for making that point and 
for pointing out the history of how we got here.
    I want to go back to Afghanistan, because yesterday we 
heard at Armed Services from General Mattis, the CENTCOM 
commander, that we're looking at actually increasing the 
numbers of Afghan security forces above the original or the 
recent target of 305,000. I think there is an acknowledgment 
that the cost of sustaining this kind of a force would be over 
$10 billion a year, while the government takes in about a 
billion dollars in revenue a year.
    I know that the point has been made by a number of people 
that it's cheaper for the Afghans to be fighting this battle 
than for us to be paying for American soldiers to fight it. But 
that still doesn't address the long-term costs of developing 
and maintaining this kind of a security force. So as we look 
into the future and think about how the forces continue to be 
paid for, what do we think is going to happen here?
    Secretary Clinton. Well, Senator, first thank you for your 
opening comments about the need to put everything on the table 
as we try to deal with our deficit and most particularly our 
debt.
    With respect to the Afghan National Security Forces, there 
is an ongoing analysis--you heard from General Mattis--about 
what it would take for Afghanistan after 2014 to be able to 
defend itself. And that is not only their military, but their 
police forces, and then however you factor in the local village 
protective forces that they are creating.
    I think that one of the ways we are trying to address this 
is by working with the Afghan Government to help them increase 
their revenues. There has been a lot of work done about the 
resources that Afghanistan has, its mineral resources in 
particular. If those are managed correctly--and that's a big 
if, but if they are managed correctly, there would be a steady 
stream of increasing revenues for the Afghan Government, which 
would give it the capacity it needs to take on greater and 
greater responsibility for defending itself in the future.
    Senator Shaheen. Are we talking to our allies on the ground 
there about potentially helping to pick up the costs for a 
longer period of time as well?
    Secretary Clinton. Well, at the NATO summit in Lisbon at 
the end of last year, there was a position adopted that NATO 
would have a continuing relationship with Afghanistan after 
2014. The content of that is in process, being developed by 
Secretary General Rasmussen and our NATO allies. So we are all 
looking toward 2015 when we want to see Afghanistan defending 
itself, but I think it is fair to say that there will have to 
be continuing support from the United States, from other 
nations, and from NATO.
    Senator Shaheen. As we're looking at the civilian efforts 
on the ground in Afghanistan, I was pleased to see the creation 
of the Senior Civilian Coordinator and I'm pleased to see the 
appointment of the new Ambassador Simon Gast, but concerned 
that the coordinator still lacks the authority to really 
provide the overall coordination that was envisioned when this 
position was created. I wonder if you could speak to that and 
whether we think there needs to be more authority given to this 
position and how to accomplish that if so?
    Secretary Clinton. I think there will be increasing 
authority and the exercise of it by the civilian coordinator 
over the next years. Really, we just got the inputs on the 
military surge right for the first time about 6 months ago. I 
think it is fair to say that when President Obama came into 
office he inherited a deteriorating military situation in 
Afghanistan. The Taliban had the momentum. There wasn't any 
doubt of that. Sitting on his desk waiting for him was a 
request for additional troops that had not been acted on by the 
prior administration.
    So we believe that the military surge is finally operating 
as it was intended to. The civilian is getting up to speed and 
I think you'll see with the civilian coordinator more of an 
effort to be sure that we are doing all we can to maximize the 
international civilian presence.
    Senator Shaheen. President Karzai has made a number of 
statements in the last month or so that have raised questions 
in my mind about how he envisions reintegration and 
reconciliation efforts. I wonder if you could speak to whether 
we are actually on the same page with President Karzai or if we 
think there are better ways to address this piece?
    Secretary Clinton. I think we are on the same page, but 
there are many pages to go in trying to figure out how to bring 
about an end to the conflict in a way that does not undermine 
any future stability in Afghanistan. Clearly we want this to be 
Afghan-led, but the United States has to play a major role.
    Our new special representative for Afghanistan and 
Pakistan, Ambassador Mark Grossman, is in consultations as we 
speak, met with Karzai I think yesterday, where Karzai was in 
London, is meeting with the contact group of about 47 nations, 
including 13 Muslim nations, hosted by the Organization of the 
Islamic Conference in Jiddah, Saudi Arabia. So there are many 
voices that are involved in trying to organize and move forward 
with this process, and we are conscious of the need for Afghan-
led, but it can't be only Afghans involved because it has 
regional implications, and we're very much aware of that and 
working to try to help facilitate it.
    Senator Shaheen. Thank you.
    The Chairman. Senator Coons.
    Senator Coons. Thank you, Mr. Chairman.
    I want to thank the Secretary for your leadership in 
focusing on the critical nexus between development, diplomacy, 
and defense. I just returned from a week-long trip to 
Afghanistan and Pakistan, Israel, and Jordan. Senator Corker 
was one of the two other Senators with me. I saw firsthand the 
critical and essential partnership between our military and 
civilian missions in all four of those countries.
    In Afghanistan, I would agree with your characterization. 
Our troops are making remarkable and steady progress in 
degrading the strength of the Taliban and in standing up an 
Afghan National Security Force and local police forces. Our 
troop morale is good. The Afghans we met with were grateful for 
our commitment and sacrifice, which I considered significant.
    But the progress in Afghanistan in my view was matched with 
a lack of real sustained progress in Pakistan. I had some real 
concerns about their either unwillingness or disinclination to 
go after extremists and to essentially close this deal and give 
us a sustainable opportunity for success.
    My first question for you, Madam Secretary, is what are we 
doing as a nation to ensure that the very extremists who 
slipped through our fingers in Afghanistan and crossed over to 
Pakistan are not already able to find promising second fronts 
to move to in Yemen, in Somalia, and in other states? There 
were disturbing developments even today in Yemen. What are we 
doing, given the huge scale of our investment in Afghanistan, 
to ensure that we're paying sufficient attention to sub-Saharan 
Africa, to the Horn of Africa, to the Maghreb, to make sure 
that we are partnering military and civilian to prevent their 
moving into a whole other base of operations?
    Secretary Clinton. Senator, that's a really critical 
question, made more so by the events of the last weeks. We are 
working on counterterrorism efforts in all the places that you 
have mentioned. We are supporting the African Union in support 
of the transitional federal government in Somalia against the 
al-Shabaab group that is allied with al-Qaeda. We have 
alliances with a number of North African and sub-Saharan 
African countries against al-Qaeda and related groups that are 
part of a syndicate of terrorists.
    It is a very big order indeed. There is a lot that we are 
trying to do in order to degrade and defeat al-Qaeda and 
undermine all of its related organizations. We have made 
progress against core 
al-Qaeda. Core al-Qaeda does not have the reach or the 
capacity. It still serves as a financing mechanism, as an 
inspirational focal point for a lot of jihadists around the 
world. But it doesn't have quite the impact.
    However, al-Qaeda in the Arabian Peninsula, al-Qaeda in the 
Maghreb, al-Qaeda here, al-Qaeda there, particularly in Iraq, 
where we think we still have about a thousand al-Qaeda 
sympathizers or members, which is another reason why we have to 
keep our eye on Iraq, it is the highest priority of this 
government, of this administration. It is a whole of government 
effort, and we are literally working as hard as we can every 
single day, because there's no doubt that al-Qaeda and its 
affiliates continue to plot against us, plot against our 
European allies, plot against many other countries.
    One of our biggest concerns is Libya descending into chaos 
and becoming a giant Somalia. It's right now not something that 
we see in the offing, but many of the al-Qaeda activists in 
Afghanistan and later in Iraq came from Libya and came from 
eastern Libya, which is now the so-called free area of Libya.
    So there is a lot of moving parts to this that are very 
difficult to put in neat little boxes and stack up somewhere. 
So your question goes to the heart of what we're doing in 
Afghanistan and Pakistan and many other places, and that is 
trying to go after those who attacked us and put them out of 
business.
    Senator Coons. As you have assembled your budget for this 
year, I and many on this committee respect the fact that we're 
under significant spending pressures. We have to make cuts, we 
have to trim and eliminate and focus our spending. But in sub-
Saharan Africa there were 19 countries that face significant 
cuts or complete elimination of United States aid. How do you 
strike the priorities? How do you strike the balance in 
deciding which countries in such a fluid environment should 
continue to receive U.S. assistance and where we simply say we 
can no longer afford it?
    Secretary Clinton. Well, it's a multipronged analysis. I 
doubt that we have zeroed out any country in sub-Saharan 
Africa, because there are other funding streams that go into 
those countries and other programs that are present. But these 
are really hard choices. You know, what we always are trying to 
balance is what is the right amount of American presence 
diplomatically, developmentally, defensively, in order to 
protect our security, advance our interests, and further our 
values.
    You know, it's as much an art as a science, and we are 
constantly calibrating it. But one thing I know for sure is 
where we are no longer present, others will be. We just had 
Senegal expel the Iranian Ambassador and diplomats because they 
found them selling arms to people, not only through Senegal, 
but within Senegal. Iran is very active in Africa.
    You know China is extremely active diplomatically and 
commercially. There are many different forces at work. I wish 
we were back--some days, I believe it would have been a lot 
nicer being Secretary of State during the cold war. We had a 
really clear view. You were with us or you were against us, and 
here's how we calculated. It's much more complicated right now.
    Therefore, I don't want us to lose ground, even while we 
work on trying to get our budget. Our Africa budget, I was just 
handed by my very able staff, it grows by 10 percent over FY 
2010. That's because we think we've got to stay very active and 
involved in Africa.
    Senator Coons. One more question, Mr. Chairman? I also was 
very encouraged by what I saw in Jordan and in the Palestinian 
Authority in terms of progress around security, around 
improvement in the economy, and in particular the training 
center at JBTC, to see how U.S. and allied trainers are 
delivering sustained high-quality training that's helping the 
Palestinian Authority to deliver more security on the ground.
    That particular program is one that really is a joint 
Defense and State program, where it's under State leadership 
but they are Defense-affiliated folks in leadership. I had 
dinner with General Muller there.
    Can you give me some other examples of some encouraging 
exemplars of how the military and civilian or diplomatic-led 
missions are collaborating effectively, given that I think 
we're going to see more and more need for this in these sorts 
of fluid environments going forward?
    Secretary Clinton. Well, that is certainly the case in 
Iraq, Afghanistan, and Pakistan. It is the case in the Horn of 
Africa. It is the case in many parts of Latin America. It is 
the case in our efforts in certain parts of Asia, where we're 
cooperating.
    So really it is most visible in the front-line states of 
Iraq, Afghanistan, and Pakistan, but the example you're giving 
of our joint training for the Palestinian security forces along 
with a partner like Jordan is what we're going to have to do 
more of. It is my goal that we better integrate our civilian 
and military capacities, which is why I'm so adamant that you 
can't talk about national security and leave out the State 
Department and USAID.
    We have a tradition where foreign military financing goes 
to the State Department for a reason. We want to build broader 
relationships with militaries that give them some sense of why 
it's important that there be civilian control of a military.
    There's just reason after reason why what we do really 
requires a whole of government approach. By cutting us, we are 
also diminishing that message and those values, which are 
really important to the final outcome.
    Senator Coons. Thank you, Madam Secretary. Thank you for 
your answers.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Coons.
    Madam Secretary, we're almost at the end here. I just 
wanted to follow up with a couple quick questions if we can. 
First of all, if you were to list a priority of some of the 
cuts that have been made in terms of restoration, where would 
you begin?
    Secretary Clinton. Well, one thing I'm really worried 
about----
    The Chairman. What's the most damaging?
    Secretary Clinton. What I'm worried about, Senator, is that 
with this very large cut coming out of the House, there will be 
pressure for us to try to meet as much of our mission in Iraq, 
Afghanistan, and Pakistan to the detriment of the entire rest 
of the budget. We will see a very serious impact on all of the 
initiatives--global health, Feed the Future, climate change, 
clean energy technology. Those were specifically zeroed out in 
the House.
    We will also see a great decrease in our ability to fulfill 
our commercial and economic missions. We will have to close aid 
programs in a number of countries where we think it will be to 
our disadvantage to do so.
    We have, unfortunately, a combination of threats here with 
such a large cut coming out of the House that will severely 
undercut our ability to really meet any of our requirements. 
The idea of cooperating with the military, which I think is one 
of the real advances we've made over the last 2 years, the 
military will probably go and get that money. You know, they'll 
say, OK, well, you know, the poor old State Department budget 
couldn't get the money, but give us the money. And then they'll 
be doing functions that should much more be done, not with a 
military American face, but a civilian American face.
    So I think on specifics as well as on the general needs, it 
would have a very serious impact on us.
    The Chairman. I know when you came in initially one of your 
goals was to expand language capacity and representation 
itself. Have you been able to do that? Is this now going to 
mean we're going backward from the advances we've made?
    Secretary Clinton. Well, we will go backward in the numbers 
of personnel that we have. We will go backward in the talents 
and the skills that we are training them to have. One of my 
goals has been to save money by better integrating State and 
USAID training, so we now have a lot of the AID development 
experts getting language skills out at the Foreign Service 
Institute.
    We had been woefully underresourced and, thanks to your 
support and Senator Lugar's support, we were beginning to build 
up our capacity again. But it will be very difficult for us to 
put people where we need them.
    As you know, we tripled the number of civilians going to 
Afghanistan. When I got there there were about 300 and they had
6-month rotations. So they weren't even in the country long 
enough to figure out what it is they were supposed to do. We 
now have about 1,100. They have full-term deployments. They are 
full partners with the military. We're going to have to make 
cuts all over the place in order to try to meet budgetary 
restraints, and we're going to lose a lot by doing that.
    The Chairman. Now, I want to ask you again--we touched on 
it before and you gave a terrific answer and Senator Boxer 
referred to it. But I want to kind of bear down just for a 
moment if I can. You're at a town meeting anywhere in American 
and somebody says to you: Well, you know, that's all well and 
good, Senator; it's nice to be able to save a life there; but 
I've got some people here who need a better school; I've got 
some people here who are having a hard time putting food on the 
table, and so forth.
    Balance for them what the cost is to them by not doing 
this, that in fact they're not getting out from under 
something. In your role you have a lot of examples of that, and 
I think it would be good to share a couple.
    Secretary Clinton. Well, first I would say what you have 
said in your townhalls: The foreign aid, diplomacy budget of 
the United States of America is approximately 1 percent if you 
look at the State and USAID. If you add Treasury, the Peace 
Corps, the Millennium Challenge Corporation, it's maybe 1.5 
percent.
    So it's not the 10 or 20 percent.
    The Chairman. Raw budget.
    Secretary Clinton. Yes, raw budget. It's not the 10 or 20 
percent that most Americans think it is. So let's start with 
some kind of factual base about what we're talking about.
    That it is a leverage with our military; that cuts of the 
level that are being discussed would profoundly compromise our 
national security. First, half of the State-USAID budget 
increase from the FY 2008 base has funded our military to 
civilian efforts in Iraq, Afghanistan, and Pakistan, which we 
knew we had to fund if we weren't going to see a deterioration 
in security in both of those--in all three of those countries.
    In the Middle East, proposed cuts would force us to scale 
back our help and undercut our influence at the very time when 
the United States needs to step up and try to influence the 
course of events in the Middle East. We would sacrifice 
economic opportunities for American businesses. We work every 
day on trying to bring jobs and create economic growth in the 
United States. We would sacrifice American safety 
opportunities. We would no longer have as many consular 
officers doing that first line of defense against those 
requesting visas and making sure that they weren't coming here 
for bad purposes.
    We would be cutting back our peacekeeping efforts. You 
know, we get a considerable advantage by working with the 
international community, making our contribution, in Darfur, 
the Congo, and elsewhere.
    We would weaken our efforts to prevent disease and prevent 
it from being essentially exported to the United States. We 
would dramatically cut our efforts to combat climate change, to 
help lead the world to a clean energy future. We would cut back 
really severely on what we were doing for children and women 
around the world and denying them treatment. We would walk away 
from our humanitarian aid and food security efforts.
    There is something in all of this for nearly everybody. If 
you think that American should be standing up for our national 
security, which I think is our primary priority, we're going to 
be undermining that. If you think we should be looking to open 
up markets and create jobs for Americans, we're going to be 
undermining that. If you think we have a humanitarian moral 
mission in the world, we're going to be walking away from 5 
million children and family members who we will not treat for 
malaria. We're going to be walking away from 3,500 mothers and 
more than 40,000 children under 5 who die because they don't 
get an effective child survival intervention. And we're going 
to be turning away people from programs like PEPFAR and HIV-
AIDS, or 16 million people will be denied treatment for 
debilitating tropical diseases.
    So people in America are very generous and we respond to 
disasters, and we often say, why isn't our government doing 
more on X, Y, or Z. And unfortunately, I think we were making 
progress in delivering aid and having a diplomatic presence in 
a more cost-effective way, and we will be undermining a lot of 
that work.
    The Chairman. I'm sorry I caught you unprepared for that. 
[Laughter.]
    Secretary Clinton. I could go on and on, but the time is 
running, I see.
    The Chairman. That was a superb answer and I'm glad I asked 
the question and appreciate the answer very, very much.
    Secretary Clinton. Could I add one more thing, because I 
think this really does go to the heart of it? We will also cut 
back on--we'll have 18.8 million fewer polio vaccinations and 
26.3 million fewer measles vaccinations. Yesterday on the news 
there was an announcement here in Washington about some visitor 
from somewhere who had measles. This person had been seen on 
this bus and this person had been seen in this restaurant, so 
if you were there between the hours of 3 and 5 o'clock or you 
were on the bus between 6 and 7 o'clock you need to be checked.
    This all comes home. We don't live in a world any longer 
where we are effectively protected by these two great oceans on 
each side of us. We are now fully integrated and 
interdependent, and if we don't lead on these issues I don't 
know what will happen.
    The Chairman. I'm not going to ask my--I had a couple other 
questions. I'm going to reserve those for the next hearing. We 
do want to get a date if we can, Madam Secretary, pinned down 
for you and Secretary Gates on Afghanistan. We can talk about 
that maybe afterward.
    Secretary Clinton. OK.
    The Chairman. Are there any other questions? Senator Lugar.
    Senator Lugar. I don't want to preempt the thought the 
chairman just mentioned about having a hearing with you and 
Secretary Gates on Afghanistan. But let me ask this question. 
Our foreign policy in recent times has been characterized by 
the fact that we were attacked by al-Qaeda and therefore we 
responded by going into Afghanistan. President Bush 
subsequently sent United States troops into Iraq, either 
because there was a belief that Iraq had nuclear weapons or 
even, if they didn't, that we really needed to have a nation-
building exercise in Iraq so that there would be another state 
in the Middle East that shared our values and could possibly 
influence its neighbors. We then increased our commitments in 
Afghanistan because, al-Qaeda or not, the instability
of the country was apparent from the actions of the Taliban and
the problems across the border in Pakistan, which invited our 
attention.
    President Obama, when he met with congressional leaders 
after he came into office, indicated we would take the 
necessary measures to leave Iraq at a time fairly consistent 
with the timetable that is currently being implemented. One 
year or so later--and I'm sure you were engaged in this 
frequently--he had meetings with congressional leaders in which 
he talked about a time of departure from Afghanistan and 2011 
was mentioned.
    There was great pushback from many people, who said you're 
simply signaling to the enemy that you're going to leave, this 
is totally unacceptable. I wouldn't say the President changed 
his mind, but on the other hand he said: Well, this is sort of 
the beginning of the process. And then, after conferring with 
our allies, the administration indicated that we would 
implement a plan in which responsibilities are to be gradually 
transitioned to Afghan authorities beginning in July of this 
year and ending in 2014.
    Now, at some point there appeared to be a promise of some 
type of evaluation by the President, Secretary Gates, and 
yourself, perhaps all of you together, of what the course of 
activity in Afghanistan is to be. Given the fact we have a 
significant number of troops there and considerable resources 
flowing there now, where are we headed?
    Anecdotally, press accounts province by province are not 
very promising on some occasions. At other times, there is 
testimony by our military officers that they've made a great 
deal of headway. Members of Congress, including recently 
Senator Corker, have assessed the situation on the ground in 
person. He can speak for himself. But others returning find 
very disturbing their conversations with President Karzai about 
what his course of action is and what he's about, quite apart 
from the perspective of others in the country.
    So in short, there is unease as to where our strategy will 
take us and how long it will take to get there. And in the 
midst of this, all of the rest of what's occurring in the 
Middle East has come along, quite apart from our problems with 
Iran, North Korea, and the rest. So, what I think this 
committee needs from you from time to time, are some sort of 
summary judgments, as opposed to there being a sense of either 
policy drift or an inability to take decisive action. This is 
compounded, simply, either because our military is suffering 
losses, or the losses with regard to our budget and so forth.
    So it does lead, as you point out, to the type of problem 
we have with this hearing this morning. Here the State 
Department budget is being compressed some more. That trend has 
been evident in this committee for at least a decade, if not 
longer. The thought was that diplomats just simply don't get 
it, but that you need hard military force, and this is where 
you put your money, and there are other things that might be 
done in a humanitarian way. But the thought that Secretary 
Gates has expressed, that there are many things State 
Department should be doing better, is almost compelling them to 
try to push money out the door that we've been appropriating to 
that office to get over here, and that really needs to be 
discussed very candidly.
    We're not going to be able to resolve all these problems 
this morning. But I would just simply say that I sense a drift 
with regard to the Afghanistan situation, with regard to 
Pakistan. I don't know what will happen in Iraq, but even after 
all of our nation-building the Pew polls and others of the 
Iraqi people indicate a very great deal of unhappiness with the 
United States.
    On the one hand, the leaders are afraid we will leave, 
while a good number of their people say: You better get out; 
we're tired of you. And the American people say: After all we 
put into this; rebuilt your country, tried to do the 
infrastructure, and on and on and on, this is just not working 
well, what are we doing?
    So I throw this out maybe for our next time together, 
either in a public conference or in private meetings, because I 
think these are basic issues that merit further discussion. 
Absent that, I think we're going to have some very strange 
votes in the Senate and the House, and they will be reflected 
sometimes in budget items simply because people don't know 
where to strike and make their voices heard, as opposed to a 
rational discussion of where the country is going and where 
we've been.
    Secretary Clinton. Senator, I really appreciate your 
putting into words what I think are the concerns and feelings 
of many in this body and even outside. I do think we need both 
the hearings that Chairman Kerry has referred to and maybe some 
private discussions.
    But very briefly, let me say that, you know, the strategy 
that President Obama adopted after very serious consideration--
and I can guarantee you that when he came into office the last 
thing in the world he wanted was to be faced with having to 
increase our military and civilian resources and assets in 
Afghanistan. But he concluded, and I agreed with that 
conclusion, that we were in kind of a never-never land. We were 
not succeeding, we were not failing. We were just marking time, 
and it was not a good position to find the United States of 
America in.
    As a result, the President made what I think were very 
difficult choices, and then had to make some additional 
difficult choices, removing commanders and saying very clearly 
to our allies, who had the same kinds of concerns that you're 
expressing.
    Where are we today? Well, I do believe that the military 
inputs are right, the civilian inputs are far closer to right 
than they were. We not only believe that ourselves, but we have 
convinced our NATO allies, who have also very questioning 
publics, to put in a lot more troops and a lot more civilian 
assets. We now have a total of 150,000 troops, 100,000 
Americans, 50,000 NATO ISAF. We have convinced 13 Muslim 
majority countries to participate, because they now see this 
more in line with their interests than they ever did before.
    That is not in any way to discount the difficulty of the 
road ahead, because there is no doubt that it is. But we are in 
a much better position to achieve our goal of transitioning out 
by the end of 2014 with some confidence that what we are going 
to be leaving behind has got a fighting chance for success.
    Now, you reference Iraq. You know, certainly no point in 
going back and reliving the history of how we got there and 
what we did, but as American troops withdraw you don't see 
Americans fighting over it. There is a recognition and an 
acceptance that we've done whatever we could do, at great cost 
in life and treasure. We are leaving. We're leaving them a 
fighting chance for a democratic future, which is not bred in 
the bone at all, but which they're going to have to figure out 
how to do.
    The significance of having a Shiite majority country that 
is trying to be a democracy, trying to balance the Sunni, the 
Kurd, and the other interests, is being looked at and followed 
very closely.
    So I think in Afghanistan we want to position ourselves to 
be in a similar place in the next 3 years. I'm well aware of 
all the pressures, the budgetary pressures, the public 
questioning, just as I lived through what we did in Iraq, and 
am well aware of how difficult in many ways that was.
    So I think your cautions, your questions, are incredibly 
timely and well do our best to try to answer them.
    Senator Lugar. Thank you.
    The Chairman. Thank you, Senator Lugar.
    Senator Corker.
    Senator Corker. Mr. Chairman, thank you and thanks for your 
patience.
    Also to you, Madam Secretary. I just want to add on a 
little bit more to what Senator Lugar was talking about and in 
my earlier round of questioning. It feels we went into 
Afghanistan early on probably with not enough troops. Things 
happened. I agree with your assessment that when the President 
came in we were in a place that was sort of twixt and twoe; I 
agree with that. As I mentioned earlier, certainly I support 
this fighting season, to see them with all the resources in 
place.
    Here's what I'm concerned about, though. I don't think that 
we have articulated yet and pressured down the things we're 
going to need to pressure down, regardless of whether we have 
budgetary constraints or not. We've been there a long time. We 
have to deal with the partners we have. None of them are ever 
perfect. Let's face it, the President there is a great 
politician and plays both sides against the middle, and that's 
what he's doing right now. We all understand that and 
understand, by the way, why he does that.
    But I do think I just want to reemphasize, we have got to 
put downward pressure on our effort. I think we had mission 
creep. We went from a place of not knowing exactly what we were 
going to do to all of a sudden this overpowering effort on both 
sides. Again, I understand why, but that downward trajectory on 
the building side, the development side, to me has to accompany 
the troop withdrawal process, too. I think we need to be honest 
with ourselves about the budgetary support that's going to be 
necessary just to maintain their security forces. I mean, they 
couldn't pay one-seventh of their security forces with their 
own, with their own budget.
    So I do hope we'll have some hearings and we'll talk about 
that more clearly.
    Just to emphasize one other, Pakistan. In order to maintain 
appropriate relations, I will not publicly articulate my 
feelings after meeting with the leadership there.
    Secretary Clinton. Thank you, Senator.
    Senator Corker. But it has to----
    The Chairman. That's well said, Senator. I think we can 
move on from there.
    Senator Corker. It is the most disheartening place in the 
world to be when you're talking about the type of relationship 
we have. These again are editorial comments. I understand that 
we wanted to show that we were partners, that our relationship 
was not transactional. But it is kind of transactional.
    In every place--Kandahar, Helmand province, Kabul--every 
place that we meet with our military, they're fighting 
criminality. Really, they're fighting criminality in 
Afghanistan. You go to a prison there, we have 80 people there 
that are probably zealots and the rest of the 1,500 folks there 
are just criminals.
    So our forces, this huge footprint that we have, is 
basically fighting criminality in Afghanistan, because all of 
the command and control is taking place in Pakistan. It's 
just--you want to pull your hair out. They want to pull their 
hair out. And I know they're watching to see what kind of 
success we're going to have. I understand that.
    But there's been some discussions about additional funding 
to Pakistan, and I understand the country is a mess in many 
ways regardless of our relationships. I just want to tell you 
as one Senator, I supported the Kerry-Lugar efforts and I thank 
the two leaders for taking--making the strides they did. I will 
be very, very slow, because it is transactional and our side of 
the transaction is the only side that to me is being fulfilled.
    I think that in many ways we get played like a piece of 
music sometimes. Bad actors end up getting--not that the 
leadership is--bad actions, let me put it that way, end up 
getting more U.S. money.
    I just want to say again, I think in private conversations 
and other places I hope we'll talk a little bit more about this 
situation and be very, very slow to talk about additional 
funding until we see a different behavior pattern. And I know 
we've created our own problems. We've got a decade of generals 
coming behind Kayani that don't have relationships with 
America. The unintended consequences of previous legislation 
has left us with a major problem there, I understand. And I'm 
not criticizing you.
    I'm just saying it is hugely disheartening to see what 
we're doing in Afghanistan taking place, knowing that the 
center of all of it is really in Pakistan and there's no real 
effort to deal with it on their part.
    Secretary Clinton. I look forward to our discussions both 
in a hearing setting and privately. And I very much appreciate 
the seriousness of the comments that you've made, Senator.
    The Chairman. Madam Secretary, thank you.
    Senator, let me just say very quickly that I also 
appreciate the seriousness of the comments. As the Secretary 
knows, we are engaged in a lot of that conversation right now 
with the folks in Pakistan. I do think, in fairness--and the 
Secretary alluded to this earlier--they have also made a lot of 
choices that one didn't expect. The IMF and other things have 
forced some very difficult political decisions.
    They've raised prices and they've done a lot of other 
things in terms of their economy that create problems for them 
internally. They've done without a huge amount of assistance 
because the Kerry-Lugar money only really began to flow in this 
last year. They have put 147,000 troops in the western part of 
their country and taken a lot of casualties, which nobody fully 
thought would necessarily happen.
    So there's a balance here and it is a very complicated 
place, with some extraordinary down sides to some of the 
options. So I think we do have to have a very serious 
conversation about the choices that we face with respect to it. 
I look forward to having those with you. I know you always 
approach this very seriously and listen carefully and work at 
it hard. So I think we can all do this in a very thoughtful 
way.
    But your message is an important one today and I'm 
confident the Secretary welcomes it as I do in terms of what 
we're trying to work through here.
    That said, Madam Secretary, if we could spend a minute 
maybe back aft here. And we appreciate again, let me say it 
publicly. I think you've done a superb job today and certainly 
made it clear to the Senate what is at stake here. We're going 
to have an interesting budget debate and you've helped us to 
frame that. So I thank you very much.
    Secretary Clinton. Thank you very much.
    The Chairman. With that, we stand adjourned.
    [Whereupon, at 12:12 p.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


   Prepared Statement of Hon. Michael S. Lee, U.S. Senator From Utah

    As a member of the Foreign Relations Committee, I take seriously 
our responsibility of shaping U.S. foreign policy. In my opinion, our 
top priority in shaping foreign policy must be our national security, 
and I will always support necessary funding for our military operations 
and national security interests abroad.
    At the same time, I agree with Admiral Mike Mullen, who recently 
said at a Senate Armed Services Committee hearing on the defense 
budget, ``I believe that our debt is the greatest threat to our 
national security.''
    U.S. security abroad is increasingly related to investment in 
antiterrorism measures in the Middle East and our allies in the Middle 
East, Asia, and elsewhere. I am concerned, and will be ever vigilant in 
ensuring that the spending in which we engage today does not impede our 
ability to secure our nation tomorrow.
    Although the requested International Affairs budget represents 
``only'' 1.7 percent of the total FY 2012 budget, we have the 
responsibility to examine each funding stream and trim or cut those 
programs that are inefficient, overfunded, or have little connection to 
our national security interests.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions
                   Submitted by Senator John F. Kerry

    Question #1. Overseas Contingency Operations: Why did the 
administration decide to present a portion of the FY 2012 request as 
overseas contingency funding that is distinct from the core State 
Department and USAID budget?

    Answer. The Department and USAID FY 2012 request of $8.7 billion in 
the Overseas Contingency Operations (OCO) budget reflects the 
exceptional, extraordinary costs incurred in Iraq, Afghanistan, and 
Pakistan to achieve our high-priority national security objectives in 
these states. This approach, similar to the Department of Defense's OCO 
requests in these three countries, achieves several goals. First, by 
separating our OCO budget from the Department's base request, we 
provide greater transparency about the significantly higher costs 
encountered by our operations and foreign assistance programs as a 
result of the high-risk security environment in such ``Front-Line 
States.'' Second, we emphasize that these extraordinary costs are 
temporary and can be phased out over time as our resource needs change. 
Finally, our OCO budget presents a more whole-of-government approach, 
better aligning our costs with those of DOD while highlighting savings 
across the U.S. Government that occur as we shift from military to 
civilian-led missions.

    Question #2 & #3. Why is all funding for Afghanistan, Iraq, and 
Pakistan not included under the OCO budget? (3) How was it determined 
which activities in these countries were considered OCO and which are 
core functions?

    Answer. Your second and third questions are very closely related 
and I would like to answer them together as they are mutually 
reinforcing. By requesting $8.7 billion in an Overseas Contingency 
Operations (OCO) budget, the Department of State and USAID strive to be 
as transparent as possible about the extraordinary and temporary 
resource demands we face due to operating in frontline states (Iraq, 
Afghanistan, and Pakistan)--treating these exceptional requirements as 
the Department of Defense (DOD) has been treating them for several 
years. At the same time, we must recognize that there will continue to 
be enduring diplomatic presences and base assistance programs in all 
three states, consistent with our past relations, and to ensure that 
the gains made by the Department of State and the DOD are not reversed 
as we foster long-term strategic partnerships. These expenses are 
included in the FY 2012 core budget request of $5.3 billion for the 
frontline states.
    Our efforts to stabilize the frontline states and transition from 
military-to-civilian led missions in Afghanistan and Iraq, has led the 
Department and USAID to take on extraordinary roles and costs, that are 
greater than our operations and assistance programs in other regions of 
the world. We anticipate that as these missions mature and the 
political, economic, and security fortunes of these countries change, 
these resource demands will ebb.
    Specifically, the OCO costs for the Department and USAID include 
higher personnel expenses, enhanced security to operate in a high-
threat environment, new facilities to support expanded operations, and 
the greater logistical demands such as fuel costs and transportation of 
personnel. In Iraq, foreign assistance OCO costs are specifically 
related to the transition of police training and military assistance 
from the DOD to the Department of State. In Pakistan and Afghanistan, 
OCO directly supports civilian-led counterinsurgency efforts--the 
Pakistan Counterinsurgency Capability Fund and economic and development 
programs tied to counterinsurgency efforts. Specific criteria are 
detailed below:


------------------------------------------------------------------------
                  Number                             Description
------------------------------------------------------------------------
1.........................................  Temporary in nature.
2.........................................  Particular to the unique
                                             operational hazards in a
                                             frontline state such as
                                             security to cover
                                             transition activities, life
                                             support and vehicle/
                                             aviation recovery,
                                             acquisition of aviation and/
                                             or secure vehicles for
                                             transition activities.
3.........................................  Specific to supporting
                                             counterinsurgency
                                             operations and provincial
                                             stability, such as PRT
                                             funding in Afghanistan and
                                             the EBOs in Iraq.
4.........................................  Transitioning programs from
                                             military-to-civilian
                                             responsibility, such as the
                                             police training and
                                             military assistance
                                             programs in Iraq.
5.........................................  Extraordinary in terms of
                                             scale required to meet
                                             political imperatives such
                                             as infrastructure programs
                                             in Afghanistan and the
                                             interagency civilian
                                             uplift.
------------------------------------------------------------------------


    The core components of the request are those programs with the 
primary objective of promoting sustainable solutions in Afghanistan, 
beyond our stabilization objectives. These programs primarily focus on 
longer term capacity-building and sustainable solutions that will help 
ensure the irreversibility of transition from international to Afghan 
lead. The rule of law and governance programs, for example, are 
critical to building Afghan institutions that are responsive to 
citizen's needs after military-led efforts have scaled down. Under 
infrastructure, the physical construction of projects is considered OCO 
because of the extraordinary size of the near-term investment. But the 
sustainability components of the project that focus on 
commercialization of electricity delivery and the capacity-building 
within the government to manage these programs are part of the core 
program. Health and education fall under the core program because they 
are cornerstone investments that will ensure a stable and productive 
society, but also build the capacity of the Afghan Government to 
provide these services independently.
    Similar considerations were used in developing the State Operations 
requests. The enduring program component covers the anticipated longer 
term platform that resembles our presence in comparable posts the 
region. For example, while the static guard force in Iraq is made up 
largely of third-country nationals (TCNs) that require sustainment, the 
longer term force is anticipated to consist of local guards, as is the 
case at other posts. The extraordinary costs associated with the 
contracts to provide the TCNs and their sustainment is considered to be 
in OCO, while the component of the current contracts that are estimated 
to cover the cost of a future local guard program in Iraq is part of 
the enduring portion of the request. In Afghanistan and Pakistan, the 
enduring request supports long-term programs, permanent facilities, and 
staffing at the level prior to the civilian uplift. The enduring 
funding level was initially based on post requirements and staffing at 
FY 2007 levels, with adjustments for the operating costs of new 
consulates and other permanent facilities. The extraordinary costs 
above and beyond the enduring presence would be considered OCO. The 
enduring and OCO split will be continuously reviewed as policy 
decisions dictate what the future enduring presence will be.

    Question #4. House of Representatives Continuing Resolution (H.R. 
1). The House FY 2011 Continuing Resolution severely cuts funding for 
the Department of State and USAID. It funds Department of State, 
Foreign Operations, and Related Programs at $44.95 billion, which is a 
cut of $9.99 billion (18 percent) below FY10 levels, $11.7 billion (21 
percent) below President Obama's FY11 Request, and $5.8 billion (12 
percent) below the current CR level. Can you comment on what effect 
these cuts, if enacted, would have on State and USAID's ability to 
deliver key diplomatic, development and humanitarian programs?

    Answer. The House for Representatives Continuing Resolution (H.R. 
1) would have dire consequences for the Department of State and the 
U.S. Agency for International Development (USAID) and their programs. 
The $43.2 billion provided in H.R. 1 for State/USAID is nearly a 20-
percent cut from the FY 2011 President's request, and over 15 percent 
below FY 2010 enacted levels. This deep reduction would put at risk 
major national security priorities, including stabilization efforts in 
the frontline states, keeping Americans safe at home and abroad, and 
responding to the transformational changes taking place throughout the 
Middle East.
    Some specific impacts of these funding levels on State/USAID 
programs are identified below:
    Economic Support Fund (ESF): The House CR cuts ESF by $2.1 billion 
(27 percent) from the FY 2011 President's Request. At this level, if 
the Department/USAID chose to fully fund the vital war needs for ESF 
for Afghanistan, Pakistan, and Iraq, there would barely be enough 
resources left to meet bilateral commitments to Egypt and Jordan; and 
economic assistance programs worldwide, including those in Mexico, 
Yemen, the West Bank, Sudan, and Liberia, would be shuttered. 
Initiatives, such as Feed the Future--a program funded through ESF and 
Development Assistance (DA)--would be curtailed, hampering the 
Department's efforts to promote food security, drive economic growth, 
turn aid recipients into trading partners, and mitigate destabilizing 
trends such as escalating food prices.
    Humanitarian Assistance: At a time when the United States is 
responding to three new, urgent humanitarian crises in Libya/Tunisia, 
Japan, and Cote D'Ivoire/Liberia, the House CR would cut Humanitarian 
Assistance by 40 percent from the FY 2011 President's Request. This 
level would severely curtail our ability to maintain required levels of 
assistance to address ongoing disasters and respond to large 
emergencies. For example, this level would force us to withhold life-
saving food assistance from up to 15 million people; jeopardize U.S. 
support for 1.6 million Afghan refugees in Pakistan and 100,000 Afghan 
refugees returning to Afghanistan this year alone; and endanger 
security in the Horn of Africa by curtailing assistance to Somalis 
fleeing to Kenya and Darfuris in Sudan and Chad. This level would 
severely constrain our ability to react to future unforeseen 
emergencies with the timeliness and strength of our response in Haiti 
this past year.
    Global Health: The House CR cuts the Global Health Initiative by 
$1.5 billion (18 percent) from the FY 2011 President's Request. If 
enacted, this funding level would force the Department to make deep 
reductions to a bipartisan program that has helped to: save and improve 
the lives of millions of people worldwide; stabilize societies that 
have been devastated by HIV, malaria, tuberculosis, malnutrition, and 
other diseases; and limit the global spread of diseases that might 
otherwise reach Americans, such as pandemic influenza, HIV, and 
tuberculosis. A cut of this magnitude would lead the United States to 
turn away at least 400,000 people from HIV/AIDS treatment under PEPFAR; 
deny malaria treatment and preventive interventions to 5 million 
children and family members; and deprive more than 500,000 children of 
highly effective nutrition interventions.
    Diplomatic and Consular Program: Diplomatic and Consular Programs 
is the backbone of the Department of State operational programs, 
supporting Foreign Service and Civil Service workers and diplomatic 
missions in almost every country. The proposed House funding level is 
19 percent below the President's request of $10.33 billion. This would 
significantly weaken this key foundation for the Department. We would 
be forced to cut necessary infrastructure and security from the Iraq 
transition plan from a military to civilian-led mission; new Foreign 
Service and Civil Service hiring would not be possible; and we would 
fail to keep up with Foreign Service attrition, creating nearly 400 new 
vacancies.
    Overseas Building Operations: Overseas Building Operations 
maintains over $47 billion in U.S. infrastructure assets and ensures 
that U.S. diplomats and other government officials abroad are housed in 
a safe and secure work environment. The largest cut in the House bill 
for this account is in Worldwide Security Upgrades, which would incur a 
$50.8 million reduction from FY 2010 and a $137 million reduction from 
the FY 2011 request. The House bill would also cause the Department to 
fall short of its capital security cost-sharing contribution and fund 
one fewer new embassy construction. Facility management, repair, and 
improvement would also be curtailed.
    International Organizations: Under the proposed House FY 2011 
budget, the Department would be forced to breach its commitments to 
many of the more than 40 international organizations it belongs to. The 
lower levels would require the administration to renege on its treaty 
obligations and financial obligations for membership to these 
organizations and force FY 2011 arrears of more than $100 million even 
after available credits are exhausted.
    Education and Cultural Exchange Programs (ECE): Education and 
cultural exchanges are a principal way the nation engages with the rest 
of the world. The proposed House CR represents a 21-percent cut from 
the President's Request of $633.2 million. These cuts would force the 
Department to scale back the scope of many of these programs at a time 
when the United States cannot afford to pull back from a rapidly 
changing world. The reductions would cut 18,000 participants from the 
57,000 that took part in ECE programs in FY 2010; cut by 72 percent the 
number of English Access Micro-scholarships for teaching English 
abroad; and eliminate 1,000 Gilman scholarships for undergraduate 
overseas study.

    Question #5. What are the national security implications of these 
potential cuts?

    Answer. The proposed cuts for the Department and USAID outlined in 
the House Continuing Resolution (H.R. 1) would seriously hamper our 
national security mission.
    Along with Defense Secretary Gates and Chairman of the Joints 
Chiefs of Staff, Admiral Mullen, I have tried to emphasize that we need 
a fully engaged and fully funded national security team--one that 
includes State and USAID as full partners. We can only be successful in 
meeting our national security objectives through the combined power of 
defense, diplomacy, and development.
    The proposed funding levels would put at risk the integrated 
civilian-military approach needed to meet our national security 
priorities, including stabilization efforts in the frontline states of 
Iraq, Afghanistan, and Pakistan. It would harm our efforts to keep 
Americans safe at home and abroad, and our ability to respond to the 
transformational changes taking place throughout the Middle East. Our 
critical work securing our borders and protecting against those who 
would harm us at home could be weakened. Reductions in food security 
assistance, economic aid, and health programs could lead to further 
instability in developing countries, presenting potential national 
security challenges in the future.
    I fully recognize the extraordinary fiscal challenges we face as a 
country. Elected Members of the Congress, representing American people, 
have to make tough budget decisions. However, we must resist the 
temptation to reduce funding for critical elements our national 
security agenda. This means focusing on the full scope of national 
security, including development and diplomacy.
    The current funding levels for State Department and USAID programs 
in the Continuing Resolution (H.R. 1) do not support this approach.

    Question #6. Winners & Losers. The administration requested 
significant new resources for several accounts, including global health 
($9.8 billion: 11 percent increase), development assistance ($2.9 
billion: 16 percent increase), food security ($1.41 billion: 42 percent 
increase), and climate change ($1.33 billion: 30 percent increase). 
Concurrently, a number of accounts face significant cuts: assistance 
for Europe, Eurasia, and Central Asia ($626.7 million: 15 percent 
decrease), international organizations--voluntary ($348.7 million: 11 
percent decrease), and foundations (National Endowment for Democracy, 
independent exchange programs--$131.5 million: 19 percent decrease).

  <bullet> Please comment on how the administration determined which 
        programs to plus up and which to decrease.

    Answer. We recognize that that we are in an exceptionally tight 
budget environment. With the resources outlined in this budget, the 
State Department and USAID can continue to make the American people 
safer, promote economic growth at home and abroad, and project our 
interests and values. National security is a fundamental objective of 
development and diplomacy. By protecting our interests and promoting 
security and prosperity abroad, we shape the world in a way that 
ensures the security and prosperity of Americans at home.
    The FY 2012 budget is a lean budget for lean times. We launched the 
first-ever Quadrennial Diplomacy and Development Review (QDDR) to 
maximize the impact of every dollar we spend. We scrubbed this budget 
and made painful but responsible cuts. We cut economic assistance to 
Europe, the Caucasus and Central Asia by 15 percent, and we cut foreign 
assistance to over 20 countries by more than half. These are important 
relationships but we are reorienting our resources toward more volatile 
regions. As part of our top-to-bottom commitment to finding 
efficiencies and making better use of every dollar in our budget, we 
have committed to reduce our reports to Congress to save tens of 
thousands of person-hours while still meeting our legal obligations.
    We built our budget through heavy input from every level of the 
Department of State and USAID using guidance from missions worldwide. 
We considered our budget using the Presidential Policy Directive on 
Development and our QDDR to help focus and concentrate our resources 
where they would be most effective and efficient.
    Generations of Americans have grown up successful and safe because 
we chose to lead the world in tackling its greatest challenges. We 
invested the resources to build up democratic allies and vibrant 
trading partners in every region. Whether negotiating arms treaties, 
brokering talks with belligerent states, fostering stability through 
development projects, helping to rebuild countries shattered by war, 
countering nuclear proliferation, enhancing economic opportunity for 
U.S. businesses abroad in order to create jobs here at home, protecting 
our Nation's borders and Americans abroad, or serving as the platform 
from which the entire U.S. Government operates overseas, our diplomatic 
and development work is dedicated to strengthening national security.
    The FY 2012 budget request for the Department of State and USAID 
clearly reflects this essential mission. Our work in Iraq, Afghanistan, 
and Pakistan is focused on promoting stability in these three nations, 
to keep them from becoming havens for extremists who threaten the 
United States. The request promotes conflict prevention and crisis 
response in other fragile states, from helping Haiti stabilize after a 
devastating earthquake to civilian and military efforts to strengthen 
governance and security capacity in places battling terrorist groups. 
Human security is a major goal of our budget and a critical part of 
supporting global productivity and prosperity, supporting programs that 
promote health, education, and nutrition and counteract infectious 
diseases, like pandemic flu, tuberculosis, and HIV/AIDS, which directly 
threaten America. By funding new technologies and research, we increase 
agricultural productivity and promote food security with the goal of 
preventing economic and political crises that can arise from food 
shortages and price spikes. Finally, we help nations adapt to the 
effects of climate change, efforts meant to ensure that these shifts do 
not disrupt vital trade and economies.
    These goals represent a wise investment for the American taxpayers. 
By supporting diplomacy and development, the Nation is able to respond 
to problems before they escalate into crises that require a more 
significant, and usually much more expensive, response. It costs far 
less to deploy a diplomat or development expert than a military 
division. And by using a preventive approach to global issues, we are 
able to stave off potential threats before they become major risks to 
our national security.
    Assistance that addresses global climate change, food security, and 
health challenges helps to create the conditions in developing 
countries for the growth of democracy, economic expansion, and 
ultimately, increased stability. If we want to lighten the burden on 
future generations, we have to make the investments that will make our 
world more secure.
    As you note, we are in a tight, austere budget climate this year 
and our budget reflects this. In order to target specific increases for 
key national security priorities that I have highlighted above, we had 
to make some tough tradeoffs. Cutting across all of our endeavors is a 
serious and sustained focus on reform, efficiency, and savings to the 
American taxpayer. We are serious about making tough tradeoffs to 
sustain the programs and operations that are most vital.

    Question #7. Has top-level corruption in Afghanistan increased, 
decreased, or remained unchanged since November 2009?

    Answer. Corruption in Afghanistan remains a serious concern for the 
United States and Afghan Governments, as well as for the broader 
international donor community. It is difficult to measure 
quantitatively whether top-level corruption has increased, decreased, 
or remained unchanged since November 2009 in Afghanistan. According to 
the Asia Foundation survey conducted in 2010, the number of Afghans who 
reported that corruption exists in Afghanistan as a whole remained 
unchanged from 2009 to 2010, but the number of Afghans who felt that 
corruption exists in their provincial governments increased by 5 
percent from 2009 to 2010.
    At the same time, the increased capacity of Afghan law enforcement 
investigators working on anticorruption cases has also revealed more 
accounts and allegations of official corruption that were not easy to 
detect before this capacity was developed. U.S. officials at all levels 
continue to raise this issue with Afghan officials, and we maintain a 
high level of vigilance in oversight over U.S. taxpayer dollars.
    Kabul Bank, the largest bank in Afghanistan, recently suffered a 
run due to concerns of fraud and mismanagement at the bank. These 
fraudulent practices resulted in enormous losses which the IMF 
estimates to be at least $500 million and perhaps as much as $900 
million. Additionally, there is evidence that Kabul Bank paid bribes to 
Da Afghanistan Bank (Afghan Central Bank) regulators and other 
government officials to secure favorable treatment. The Central Bank 
has placed the bank into conservatorship and is working to fully 
uncover the role corruption played in this financial crisis. The United 
States has no plans to bail out Kabul Bank. Furthermore, all U.S. funds 
that have passed through the bank to pay for civilian and military 
salary payments can be accounted for.

    Question #8. Has corruption at the provincial and local level 
increased, decreased, or remained unchanged since November 2009?

    Answer. We are not able to measure local and provincial corruption 
quantitatively. However, the perception of corruption at the provincial 
level has increased among the local population since November 2009. 
According to the Asia Foundation survey of the Afghan population in 
2010, the percentage of people who viewed corruption as a problem in 
Afghanistan as a whole stayed the same in 2010 as 2009, while the 
number of Afghans who viewed corruption as a problem in their 
provincial governments increased by 5 percent in 2010 from 2009. 
Corruption at both the national and local levels negatively impacts our 
counterinsurgency (COIN) efforts. The perception that the government is 
not working in the best interests of its people undermines trust in 
local and national-level government officials and structures and 
ultimately helps the Taliban exploit these grievances to recruit from 
the local population.

    Question #9. In which provinces has it increased, and in which has 
it decreased? [Referring to Corruption in Afghanistan]

    Answer. We do not have data on which provinces have experienced an 
increase or decrease in corruption, particularly because of the 
difficulty that exists in measuring corruption quantitatively in each 
province. However, according to the Asia Foundation survey in 2010 of 
the Afghan population, the number of people who viewed corruption as a 
problem in Afghanistan stayed the same in 2010 as 2009. According to 
the same survey, the number of Afghans who viewed corruption as a 
problem in their provincial governments increased by 5 percent in 2010 
from 2009.
    Embassy reporting indicates that the provincial leadership in 
Khost, Kunar, Herat, Kandahar, and Helmand have taken steps address 
``predatory'' corruption, which alienates many local residents and 
denies them from receiving support from the government. These Governors 
highlighted the useful role of the Afghan Social Outreach Program 
(ASOP) that reestablished district councils and gave the area 
leadership a role in addressing corruption at the local level. Poor 
provincial leadership in Uruzgan and Kapisa were noted by the Embassy 
as a key reason why corruption in those areas has not been addressed 
and local and national power brokers faced no serious challenge from 
the government structure.

    Question #10. What are the most significant specific, concrete 
actions taken by the Government of Afghanistan to combat corruption 
since November 2009?

    Answer. The Afghan Government has taken some steps to remove 
corrupt or ineffective government officials, and we continue to press 
for full accountability and further action. For example:

  <bullet> In mid-December 2010, President Karzai relieved the Afghan 
        National Army Surgeon General, the National Military Hospital 
        (NMH) Commander, the Deputy Commander, and 19 other senior 
        staff officers, after he was briefed on corruption problems at 
        the NMH. In Kandahar province, the provincial chief of police 
        fired the chief of police of an Internally Displaced Persons 
        camp, and the Minister of Finance terminated the head of 
        customs at Kandahar airport. In Helmand province, the district 
        governor of Kajaki was removed. Taken together, these decisions 
        may indicate increased Afghan Government awareness of the risk 
        posed by ineffective or corrupt officials.
  <bullet> In November 2010, the Afghan Attorney General announced 
        investigations of at least 20 senior officials, including two 
        sitting members of the Cabinet. The Afghan Government has not 
        requested international assistance with these investigations 
        and few additional details have been provided since the 
        November 2010 announcement.
  <bullet> The Afghan Interior Ministry has dissolved seven private 
        security companies connected to Afghan officials, citing its 
        ``commitment to transparency and the rule of law.'' The 
        ministry also disclosed the names of 45 other companies that 
        will remain open for another year, but will then be replaced by 
        Afghan public protection forces.
  <bullet> With regard to Kabul Bank, the Central Bank has removed the 
        former chairman and president of the bank, established 
        conservatorship over the bank, and the Attorney General 
        launched an investigation into corruption at the bank. There 
        have been no prosecutions thus far, but select individuals have 
        been barred from leaving the country during the investigation. 
        The USG continues to convey the message to Afghan authorities 
        that they must take aggressive, concrete steps to address Kabul 
        Bank issues, strengthen the Afghan financial sector, and 
        qualify for a strong IMF program. We have been encouraging the 
        Afghan authorities to take prompt action and we are working 
        with international donors to speak with one voice regarding the 
        need for Afghan action on Kabul Bank.
  <bullet> The Afghan Government is making progress toward improving 
        fiscal transparency. The Ministry of Finance drafted a Public 
        Financial Framework in July 2010 to strengthen budget execution 
        and fiduciary controls. Budget execution rates continue to be a 
        concern, due largely to weak capacity in line ministries and 
        security. The Ministry of Finance continues to post annual 
        Afghan Government budgets online, as it has since 2004, in 
        addition to mid-year reviews of the national budget. The Afghan 
        Government's execution and disbursement reports are also 
        available online.
  <bullet> The Afghan National Police commander for Kandahar was 
        convicted on charges related to having hundreds of ghost 
        officers on the books and embezzling public funds.
  <bullet> The Ministry of the Hajj's treasurer was prosecuted for 
        misuse of Ministry funds.
  <bullet> In March 2011, the Attorney General's Office arrested the 
        former Minister of Transportation and Aviation Enayatollah 
        Qasimi on charges of misusing public funds in a corruption case 
        that cost the Afghan Government more than $9 million.
  <bullet> Seven security companies connected to Afghan officials were 
        dissolved by the Afghan Interior Ministry, citing its 
        ``commitment to transparency and the rule of law.'' This is the 
        latest in a series of moves by President Karzai to curb the use 
        of private security companies and transition, as possible, to 
        Afghan forces.
  <bullet> Since its establishment, the Anti-Corruption Unit (ACU) has 
        submitted 416 cases to the courts, including 149 cases of 
        misuse of power and 71 cases of bribery. Eight warrants have 
        been issued for high level officials to prevent them from 
        leaving the country. In February 2011, Major Crimes Task Force 
        (MCTF) investigators initiated a preliminary inquiry on a 
        district police chief in Herat and presented enough evidence to 
        prosecutors for them to issue an arrest warrant for the Afghan 
        Border Police Commander in charge of all the eastern provinces.

    Question #11. If the level of corruption and government 
effectiveness in Afghanistan remain relatively stable over the next 2 
years, what impact, if any, would this have on the ability of the U.S. 
Government to ensure that development and reconstruction assistance is 
responsibly spent?

    Answer. Over the next 3 years, Afghanistan will be undertaking a 
well-publicized transition process ending in Afghan security lead. In 
parallel, enhanced and targeted U.S. Government efforts will continue 
to have an impact in combating corruption, improving governance, and 
ensuring that U.S. taxpayer funds are effectively tracked, spent, and 
accounted.
    U.S. Government development and reconstruction assistance addresses 
needs across a range of sectors. Despite substantial challenges, many 
successes have been secured over the course of our involvement in 
Afghanistan, from large increases in children in school to significant 
improvements in health indices. At any given time, some sectors may be 
more impacted than others by corruption and other governance 
deficiencies. While the current state of corruption and government 
effectiveness in Afghanistan presents serious challenges which must be 
addressed, progress in many sectors continued during this same period.
    USAID operates multiple oversight systems to ensure U.S. taxpayer 
money is spent properly. These include: pre-award conferences (to set 
oversight and reporting standards); regular monitoring and evaluation 
actions (to track expenses against work plans and services delivered); 
site visits; and reviews of payment claims (which require invoices for 
work completed).
    We have seen positive results from having more civilian personnel 
in ministries and PRTs, whether they are auditors, technical advisors, 
or Foreign Service officers. They can identify and report on specific 
allegations of corruption for further investigation.
    We also support a robust role for the Special Inspector General for 
Afghan Reconstruction (SIGAR) and the USAID Inspector General in 
Afghanistan to investigate vigorously any allegations of diversion of 
U.S. taxpayer funds from our programs. SIGAR's role in evaluating 
internal controls and implementation of assistance programs, and the 
State OIG Regional Inspector General's expanded role in shaping program 
design and implementation, have helped us reduce fraud and improve 
accountability.
    We are also closely scrutinizing the process by which we award 
contracts to local entities. This is at the Afghan Government's 
request. Our goal is to ensure that our contracting procedures 
reinforce our support for the Afghan Government and do not 
inadvertently distort local economic and political circumstances by 
disproportionately benefiting one party.
    A substantial portion of our funding and programs are designed to 
address the very issues of corruption and diversion of assistance that 
you have highlighted. For example, we have introduced performance-based 
implementation mechanisms and significantly decreased the overall 
percentage of multiyear contracts to U.S. entities.

    Question #12. How much of FY 2009 and FY 2010 funds have we already 
disbursed in Afghanistan?

    Answer. USAID obligated $2,095,601,081 and disbursed $1,066,484,881 
of the FY 2009 Economic Support Fund and Global Health and Child 
Survival funding as of December 31, 2010. Of FY 2010 base funds, USAID 
obligated $1,810,791,190 and disbursed $286,510,285 as of December 31, 
2010. This does not include USAID funds transferred to other U.S. 
Agencies.
    An additional $1.3 billion of FY 2010 funds became available for 
obligation on December 27, 2010. Of this, approximately $951.36 million 
is unavailable for obligation pending resolution of the reporting 
requirements within the FY 2010 supplemental.
    INL obligated $483,876,000 and disbursed $142,494,000 of FY 2009 
International Narcotics Control and Law Enforcement (INCLE) funds as of 
February 24, 2011. Of the FY 2010 base funds, INL obligated 
$290,269,000 and disbursed $31,871,000.
    Seventy million dollars of the FY 2010 funds and $169,000,000 of FY 
2010 supplemental funds are pending the completion of legislative 
reporting requirements and are not available for obligation.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question #13. What percentage of FY 2009 and FY 2010 funds was 
direct assistance (on budget) to the Government of Afghanistan?

    Answer. For FY 2009, approximately $347 million--21 percent of 
USAID's development budget in Afghanistan--went to on-budget 
assistance, including major initiatives such as the World Bank-managed 
Afghanistan Reconstruction Trust Fund (ARTF) and the National 
Solidarity Program (NSP). In FY 2010, approximately 35 percent of 
USAID's development assistance, distinct from stabilization programs, 
was planned for on-budget assistance. Additionally, 16 percent of INL's 
FY 2010 assistance was planned for direct assistance activities. State 
and USAID funds for direct assistance were contingent upon several 
factors, including the growth of existing on-budget mechanisms, the 
creation of new on-budget mechanisms, the completion of Ministry 
assessments, and the prioritization of new on-budget programs in 
cooperation with the Government of Afghanistan.

    Question #14. What percentage of FY 2011 and FY 2012 funds is 
estimated to be provided as direct assistance (on budget) to the 
Government of Afghanistan?

    Answer. For FY 2011, we estimate that between 37-45 percent of 
State and USAID development assistance, distinct from stabilization 
programs, will be on-budget, based on our FY 2011 base appropriation 
request level. In 2012, State and USAID aim to meet the London 
Conference goal of channeling at least 50 percent of development aid 
through the Afghan Government's core budget. The 50-percent goal is a 
shared responsibility, however, in that it requires the Government of 
Afghanistan to take critical steps to ensure its ministries and 
agencies are prepared to effectively and accountably implement 
assistance.

    Question #15. Which Afghan Government ministries and entities 
currently receive funding from the United States?

    Answer. The following Ministries and Agencies receive direct 
assistance from the Department of State and USAID:
USAID Supported Ministries and Agencies:\1\
---------------------------------------------------------------------------
    \1\ Please see responses to QFR #20 for an overview of the process, 
criteria, and methods by which these entities receive U.S. funding.
---------------------------------------------------------------------------
Ministry of Finance
Ministry of Communications and Information Technology (MoCIT)
Ministry of Public Health
USAID Salary Sup Special Posts
Ministry of Agriculture, Irrigation, and Livestock (MAIL)
Independent Directorate of Local Governance (IDLG)
Ministry of Finance & World Bank
Ministry of Education
Ministry of Transport and Civil Aviation
INL Supported Ministries and Agencies:\1\
Ministry of Counter Narcotics
Ministry of Women's Affairs
Ministry of Justice
Attorney General's Office
Ministry of Interior

    Question #16. How much funding do [the Ministries/entities] receive 
and for what purposes?

    Answer. As of December 2010, USAID/Afghanistan's on-budget 
assistance activities with the Government of Afghanistan included:

                                           [U.S. dollars in millions]
----------------------------------------------------------------------------------------------------------------
                                                                                              Total
             Ministry/Agency                On-budget assistance--current    Start    End      est.    Obligated
                                                 status program title        date    date    funding    to date
----------------------------------------------------------------------------------------------------------------
Ministry of Finance......................  Civilian Technical Assistance      2009    2011      $30.0       $5.5
                                            Program (CTAP).
Ministry of Communications and             The Policy Capacity Initiative     2009    2010        1.0        1.0
 Information Technology (MoCIT).            Activity and Information
                                            Technology.
Ministry of Public Health................  Provision of Health Services...    2008    2013      236.5       56.0
USAID Salary Sup Special Posts...........  Salary Support to GIRoA........    2010    2011        2.0        1.0
Ministry of Agriculture, Irrigation, and   Agriculture Development Fund       2010    2014       85.0        0.0
 Livestock (MAIL).                          (ADF).
Independent Directorate of Local           District Delivery Program (DDP)    2010    2011       38.2        0.0
 Governance (IDLG).
Ministry of Finance & World Bank.........  Afghanistan Reconstruction         2002    2011    2,079.5      972.0
                                            Trust Fund (ARTF).
Ministry of Education....................  Text Book Printing (DANIDA)*...    2005    2012       25.0       23.8
Ministry of Transport and Civil Aviation.  Regional Airport Construction..    2010    2011        6.0        6.0
                                                                                           ---------------------
                                                 Totals...................  ......  ......   $2,503.2   $1,089.8
----------------------------------------------------------------------------------------------------------------
* Assistance to the Ministry of Education to print textbooks is provided through the Danish Development Agency,
  which has a Limited Scope Grant Agreement with USAID.


    Question #17. What is the current budget execution rate for the 
Afghan Government?

    Answer. Recently, Embassy Kabul initiated a review of the Afghan 
Government's budget execution rate. A final determination is not yet 
complete, but early analysis shows that ``Execution Rate'' as a measure 
of funds utilization effectiveness is an inaccurate indicator. The 
Execution Rate is a ratio of actual disbursements against budgeted 
project funds. This measurement does not account for funds being 
committed or obligated to a project. Funds that are committed to a 
project are not reflected as a reduction in the budget balance because 
of the cash accounting system used by the Government of Afghanistan. An 
accrual system would permit accounting for anticipated disbursements. 
In addition, some budgeted projects are based on donor pledges, though 
no actual funds are ever received from the donor. Recently the Afghan 
Ministry of Finance presented a restatement of their most recent year's 
execution rate, discounting several of the factors above, and indicated 
that their core development rate could be as high as 65 percent.
    Additionally, carry over cash balances in the government's budget 
are overstated, as projects run from year to year and do not go through 
a validation process. For example, a prior year project may be 
reflected in the budget supported by a donor pledge. However, no funds 
have been provided by the donor and the donor may never follow through 
on the pledge. Rather than being dropped from the rolls, the project 
remains on the rolls, and leads to an inaccurate budget balance.
    It is worth noting that, according to the World Bank, domestic 
revenue collection in Afghanistan reached $1.65 billion in 2010/2011--
double the 2007/2008 rate--as a result of significant efforts by the 
Ministry of Finance. Afghanistan's core budget, a combination of 
domestic revenue and off-budget expenditures, in this period was $4.6 
billion, and its external budget (donor-financed off-budget 
expenditures) was reported by the Ministry of Finance to be $6 billion, 
though the actual amount may be as high as $16 billion.

    Question #18. Which Afghan Government ministries and entities have 
been certified to receive U.S. funding?

    Answer. To date, $307 million has been transferred and the 
capacities of the Ministries of Finance, Communications, and Public 
Health confirmed for specific projects. The U.S. Government is the 
largest contributor to the World Bank-administered Afghanistan 
Reconstruction Trust Fund (ARTF), which overseas important and 
successful on-budget programs such as the National Solidarity Program 
(NSP).

    Question #19. Which Afghan Government ministries and entities are 
being considered to receive U.S. funding?

    Answer. There are three Afghan Government ministries currently 
being considered: Ministry of Agriculture, Irrigation and Livestock 
(MAIL), the Ministry of Rural Rehabilitation and Development (MRRD), 
and the Ministry of Education (MOE).
    A new water program will provide $50 million to MAIL and MRRD for 
watershed rehabilitation design and implementation, forestry, sediment 
control structures, on-farm water management, and agriculture 
technology.
    Direct USAID funding of MOE programs will strengthen its capacity 
to develop and oversee education services, improve education sector 
governance and accountability, and improve the quality of education 
services that are valued and increasingly demanded by the Afghan 
public. Possible areas of support include teacher training; community-
based education; literacy training and productive skills training for 
youth; and capacity-development within the education sector.

    Question #20. What are the criteria for being certified?

    Answer. Ministry certification is for specific activities, not an 
overall certification. USAID's assessments and certifications are valid 
only for USAID funding.
    Assessment is the first step. USAID examines a given Ministry's 
capability, capacity, and integrity to account for USAID funds and to 
carry out a given program from beginning to end. Assessments examine 
six variables:

  <bullet> Whether the organizational structure of the Ministry is 
        adequate for the purpose of managing USAID direct grants;
  <bullet> Whether the Ministry's operating systems, accounting and 
        recording policies and procedures are adequate to account for 
        USAID assistance;
  <bullet> Whether internal controls are in place to provide reasonable 
        assurance that USAID funds are protected from unauthorized use, 
        abuse, and loss;
  <bullet> Whether the Ministry has procurement systems and procedures 
        that meet the procurement standards of USAID;
  <bullet> Whether the Ministry's policies allow USAID access to its 
        books and records in accordance with USAID's audit 
        requirements; and
  <bullet> Whether the Ministry is capable of advancing 30-day cash 
        disbursement needs of a project from internally generated 
        resources.

    Certification for a given activity, the second step, only takes 
place if the Ministry conducts procurements with U.S. foreign 
assistance. Based on the assessment, USAID certifies whether the 
Ministry has the capability and integrity to carry out the specific 
activity financed by USAID. It is important to reiterate that a 
certification is for a specific activity, not a general certification 
of a Ministry overall.
    Monitoring & Implementation is the third step, which includes site 
visits, progress reviews by COTRs and periodic Financial Reviews.
    USAID has third party auditing rights for all direct assistance 
arrangements. For ARTF funding USAID does not have authority to 
directly audit ARTF and its programs, but this is mitigated by overall 
World Bank supervision of the fund and USAID's ability to audit line 
ministries receiving ARFT funding.

    Question #21. Please break down FY 2009 and FY 2010 spending by 
province in Afghanistan.

    Answer. Please see the following table for an estimate breakdown of 
USAID funding by province in Afghanistan for FY 2009-10:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    INL's current contracts with its implementers are designed to 
deliver assistance on a nationwide scale, and reporting is not 
currently broken out by province or district. INL is working to change 
this mechanism so more discrete reporting data can be made available in 
the future.
    In June 2009, USAID developed an interagency system to track 
foreign assistance and CERP implemented in Afghanistan. USAID worked 
with ISAF, the Office of the Director of Foreign Assistance, and the 
Coordinating Director for Development and Economic Assistance (CDDEA) 
to develop such an interagency system. USAID formally launched the 
system, known as Afghan Info, in November 2009. The purpose of Afghan 
Info is to provide a comprehensive and transparent interagency picture 
of how implementers (i.e., USG partners) use foreign assistance 
resources to support United States foreign assistance objectives in 
Afghanistan. Afghan Info includes implementer budget and programmatic 
summaries that describe the use of foreign assistance resources. The 
Afghan Info system addresses the following questions:

    1. How do assistance activities support foreign policy and 
assistance objectives in Afghanistan?
    2. Where are assistance programs located in Afghanistan?
    3. How much assistance is implemented in each region? What are the 
expected results of these activities?

    With support from CDDEA, Afghan Info will include all Embassy 
resources. CDDEA has also reached out to the Military Knowledge 
Management community to get information on CERP funded projects, which 
will also be included in Afghan Info.

    Question #22. Please estimate FY 2011 and FY 2012 spending by 
province in Afghanistan.

    Answer. Please see the following table for an estimate breakdown of 
USAID funding by province in Afghanistan for FY 2011. Projections for 
FY 2012 have not yet been established.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Question #23. What percentage of FY 2009 and FY 2010 funds have 
been audited by the State Inspector General, USAID Inspector General, 
and/or the Special Inspector General for Afghanistan?

    Answer. The Middle East Regional Office for the U.S. Department of 
State's Office of Inspector General (MERO) has reviewed FY 2009 funding 
valued at approximately $559 million, and plans to review an additional 
$210 million. This totals more than 82 percent of all FY 2009 funding 
the Department received under the 150 account. MERO has also reviewed 
FY 2010 funding valued at more than $567 million, and plans to review 
an additional $588 million. This totals approximately 76 percent of all 
FY 2010 funding received under the 150 account. In addition, MERO has 
reviewed more than $267 million of FY 2009 and FY 2010 funds 
transferred from the Department of Defense to the Department of State 
in support of training for the Afghan National Police and the Major 
Crimes Task Force at Camp Falcon.

    Question #24. What percentage of FY 2011 and FY 2012 funds are 
estimated to be audited by the State Inspector General, USAID Inspector 
General, and/or the Special Inspector General for Afghanistan?

    Answer. The Middle East Regional Office for the U.S. Department of 
State's Office of Inspector General (MERO) has currently completed no 
evaluations of FY 2011 or FY 2012 funding. MERO plans to evaluate the 
Worldwide Protective Services (WPS) task order for Kabul and the Kabul 
Embassy Security Force task order once they are awarded and the funding 
is obligated. Based on past task orders, we anticipate these combined 
obligations would be approximately $500 million, or about 45 percent of 
the 150 account requested for FY 2011. In FY 2011 and FY 2012, MERO 
also plans to begin new evaluations of the Correction System Support 
Program, as well as evaluations of internal management controls of 
funds provided to Embassy Kabul, the Antiterrorism Training Assistance 
program for Afghanistan, anticorruption training provided to 
Afghanistan, and the WPS task orders for consulate security in Mazar-i-
Sharif and Heart. The amount of funding for these programs has not yet 
been determined.
    In FY 2011, the Office of Audits audited $323.8 million in 
interagency cost transfers and payroll costs relating to the 
Implementation and Sustainability of the U.S. Civilian Uplift in 
Afghanistan. This was a joint audit with Special Inspector General for 
Afghanistan Reconstruction. These audited funds derive from FY 2009-
2011. The Office of Audits also has a joint audit underway with DOD IG 
regarding the Afghan National Police Training Program. However, program 
funding is not from the Function 150 Account.

    Question #25. How much of FY 2009 and FY 2010 funds were spent on 
capacity-building in Afghanistan?

    Answer. Capacity-building is a key component, if not the primary 
objective, of almost every assistance project of the USG in 
Afghanistan. Because capacity-building is incorporated into almost all 
of the work we do, it is not possible to break out to the exact dollar 
how much funding is spent on capacity-building in a given year. Some 
projects like the Civilian Technical Assistance Project, which helps 
train civil servants and place them in key bureaucratic positions 
throughout the national and subnational government, is exclusively 
capacity-building. Many demining programs that we do, on the other 
hand, have a primary objective of clearing areas of explosive remnants 
of war, but a focus of the projects is also to build the capacity of 
local entities to carry on this work and take over responsibility for 
it in certain areas as early as FY 2013. Similarly, INL's Drug Demand 
Reduction program builds the capacity and human capital of Afghan NGOs 
to deliver drug treatment services within their provinces and 
communities, using an Islamic-based model developed in partnership with 
Afghan specialists. The program builds capacity to curtail addiction 
rates and to disseminate information on drug use and addiction on a 
broad, nationwide scale.
    In order to derive an estimate of the level of funding going toward 
capacity-building, we reviewed the project descriptions for 156 
projects planned for FY 2010. Of these projects, approximately 143 (92 
percent) included capacity building among their primary or secondary 
objectives. While it is impossible to break out exactly what proportion 
of the budget goes specifically toward capacity-building, these 143 
projects represent approximately $2.47 billion (94 percent) of the 
$2.62 billion appropriated in the FY 2010 base. Projects that had no 
capacity-building objectives were largely projects that purchased 
commodities, such as USAID's Central Contraceptive Procurement project, 
or provided some sort of support to ongoing projects such as INL's 
aviation program that provides air support to USG efforts in 
Afghanistan. Although exact allocations to programs will not be 
available for FY 2011 and FY 2012 until funds are appropriated, it is 
expected that similar trends for capacity-building as a core part of 
almost every project will continue.

    Question #26. How much of FY 2011 and FY 2012 funds are estimated 
to be spent on capacity-building in Afghanistan?

    Answer. Please see answer to question #25. Although exact 
allocations to programs will not be available for FY 2011 and FY 2012 
until funds are appropriated, it is expected that similar trends for 
capacity-building as a core part of almost every project will continue.

    Question #27. Which Afghan Government ministries and entities 
receive funds for capacity-building, and how much does each receive?

    Answer. A central objective of all of State and USAID's on-budget 
assistance programs is to build and strengthen capacity within the 
Government of Afghanistan so that the Afghan Government can assume 
increasing leadership for ongoing assistance. USAID currently has nine 
on-budget programs. Longstanding partnerships include the Afghanistan 
Reconstruction Trust Fund (ARTF) and our host country contract with the 
Ministry of Public Health (MoPH); newer ones include the Civilian 
Technical Assistance Plan (CTAP) and the Agriculture Development Fund 
(ADF), which is administered by the Ministry of Agriculture, 
Irrigation, and Livestock (MAIL). State/INL is in the process of 
formalizing assistance with the ministries of Counter Narcotics (MCN), 
Interior (MOI), Women's Affairs (MoWA), Justice (MOJ), and the Attorney 
General's Office (AGO).
    Over the next several years, State and USAID seek to expand 
existing on-budget programs and create new ministry partnerships. 
Embassy Kabul and the Ministry of Finance are working to ensure that 
on-budget programs are pursued with the ministries most committed to 
achieving defined performance goals and with the understanding that 
Afghan Government partners must achieve the necessary reforms to 
strengthen their public financial management systems, reduce 
corruption, improve budget execution, and increase revenue collection 
to finance key National Priority Programs.

    Question #28. Are funds distributed to governors pursuant to the 
Performance Governors program being increased, and if so, please 
explain the changes being made to the program.

    Answer. Yes, the Performance-Based Governors' Fund (PBGF) is being 
expanded. This is being done in line with (1) Embassy Kabul's strong 
belief in the importance of empowering Provincial Governors and 
strengthening provincial administrations more broadly (to include the 
provincial departments of line ministries, Provincial Councils and 
Provincial Development Committees) in advance of Transition; (2) the 
USG's subnational governance orientation; and (3) our direct assistance 
commitments.
    The PBGF is expected to strengthen subnational governance via the 
development of provincial institutions and enhanced local 
decisionmaking and financial transparency. This effort will provide a 
critical tool and incentive in the transition toward full Afghan 
sovereignty and away from ``parallel institutions.'' PBGF is being 
expanded to provide development funding to Provincial Development 
Committees and Provincial Councils, in addition to the current program 
which provides operational funding to Provincial Governors' Offices. 
Total monthly funding levels available per province would increase from 
$25,000 to $106,500.
    The extended and expanded PBGF is currently in procurement and is 
with USAID's Office of Acquisition and Assistance. Provided requisite 
approvals in Kabul and Washington are granted, we expect this to be 
active around April 20, 2011.

    Question #29. What steps are being taken to improve oversight over 
the disbursement of ARTF funds?

    Answer. To ensure transparency, the World Bank provides quarterly 
and annual reports to donors, including detailed disbursement 
information. The United States and other donors have increasingly 
earmarked ARTF funds for specific programs (``preferenced funds'') in 
an effort to improve donor oversight over disbursement.
    A number of mechanisms are already in place to ensure that funds 
disbursed from the ARTF are properly used. ARTF expenditures can be 
found eligible only if they are included in the Afghan Government's 
budget. ARTF's share of financing for the yearly budget is approved by 
the ARTF Management Committee (MC). All goods and services must be 
procured and accounted for in accordance with Afghan Government law and 
regulations, and noncompliance with Afghan government regulations 
results in ineligibility for financing by the ARTF.
    The ARTF MC consists of the World Bank, the Islamic Development 
Bank (IDB), the Asian Development Bank (ADB) and the U.N. (UNAMA and 
UNDP). The MC meets regularly in Kabul, with the Ministry of Finance as 
an observer, to carry out the day-to-day business of the fund. Once a 
quarter, ARTF Donors meet to discuss broader strategy with the 
government and ARTF management.

    Question #30. Has the Afghan Government met the ARTF benchmark that 
requires it to enact an Audit Law that complies with international best 
practices?

    Answer. At the Kabul Conference in July 2010 the Afghan Government 
pledged to, among other steps, submit an audit law within 6 months to 
ensure the strengthening and the independence of the Control and Audit 
Office (CAO), Afghanistan's supreme audit institution, which has audit 
authority over state and donor funds.
    An external audit law has been drafted and approved by the Afghan 
Cabinet, though it has not yet passed into law; the Afghan Government 
has invited the donor community to provide comments before it is 
enacted. The U.S. Government and donor community alike are currently 
analyzing the law to determine if it meets the ARTF benchmark.

    Question #31. If not (referring to question 30), what will be the 
result of failure to meet that benchmark?

    Answer. Failure to fully meet the Audit Law benchmark may result in 
the eventual forfeiture by the Afghan Government of $17.5 million (25 
percent) from the Incentive Program window of the ARTF. The U.S. 
Government and donor community are currently analyzing the draft law to 
determine if it meets the ARTF benchmark. Overall, the Incentive 
Program totals $70 million and is contingent on the Afghan Government's 
meeting a number of benchmarks and having an IMF Country Program in 
place.

    Question #32. Please describe steps the Department and USAID are 
taking to better communicate how U.S. funds are being spent in 
Afghanistan. Please include a timeline for implementation of these 
steps as well.

    Answer. Over the past year Embassy Kabul and USAID have instituted 
measures to better oversee and provide information on the status of 
U.S. assistance programs and funds:

  <bullet> The Embassy has established a Program Analysis and 
        Evaluation Unit (PA&E) to monitor and provide information on 
        USG assistance activities in Afghanistan.
  <bullet> The Embassy has established a structure to coordinate USG 
        gender activities in Afghanistan.
  <bullet> The Embassy is partnering with the International Security 
        Assistance Forces (ISAF), the Department of Defense (DOD), and 
        other State implementers (INL and USAID) to develop a structure 
        for oversight of USG contracting to ensure program efficiency.
  <bullet> Within the office of the Coordinator Director for 
        Development and Economic Affairs, a position to enhance the 
        Embassy's donor coordination efforts has been created and 
        filled.
  <bullet> The Embassy recently initiated an effort to bring together 
        USG-funded technical advisors who work in Afghan Government 
        ministries and agencies on a regular basis to share lessons 
        learned and coordinate activities.
  <bullet> The Embassy's Executive Working Group (EWG) has been 
        reinvigorated. This group is cochaired by the CDDEA Ambassador 
        and the Deputy Chief of Staff for Stability Operations at ISAF. 
        The EWG plays a key role, under the Principals group, in 
        overseeing civilian-military cooperation, including issues 
        identified by the 15 National Level Working Groups which serve 
        under it.
  <bullet> A single Embassy section has been designated to respond to 
        all SIGAR, OIG, GAO Audits.
  <bullet> State and USAID are in the process of making the information 
        collected through the Afghan Info system available to the 
        public. Project information is currently available at http://
        afghanistan.usaid.gov/en/projects. This Web site will expand to 
        include the location of assistance activities, the level of 
        effort directed to each district and province, the number of 
        people benefiting from assistance activities, and performance 
        indicators that measure project performance (including progress 
        against set targets). Displaying the information geographically 
        and providing public access to the information will increase 
        transparency of assistance programs and enhance communication 
        and coordination with GIRoA and other donor governments.
  <bullet> USAID and the Department of State recently launched the 
        Foreign Assistance Dashboard (www.foreignassistance.gov), which 
        was created in response to the principles of the Paris 
        Declaration on Aid Effectiveness and President Obama's Open 
        Government Initiative. Its goal is to enable a wide variety of 
        stakeholders, including U.S. citizens, civil society 
        organizations, the Congress, U.S. Government (USG) agencies, 
        donors, and partner country governments, the ability to 
        examine, research, and track USG foreign assistance investments 
        in an accessible and easy-to-understand format. The Dashboard 
        is still in its early stages of development. Future versions 
        will incorporate budget, financial, program, and performance 
        data in a standard form from all USG agencies receiving or 
        implementing foreign assistance, humanitarian, and/or 
        development funds. The Dashboard currently contains Department 
        of State and USAID budget and appropriation data.

    Question #33. The following questions refer to the Kabul 
International Conference on Afghanistan Communique from July 20, 2010:

  <bullet> Please describe the steps the Afghan Government has taken to 
        successfully achieve the necessary reforms to strengthen its 
        public financial management systems, reduce corruption, improve 
        budget execution, and increase revenue collection to finance 
        key National Priority Programs as listed below:

          8.  To implement these principles of effective partnership, 
        international Participants:
             -- In line with the London Conference Communique, restated 
        their strong support for channeling at least 50% of development 
        aid through the Afghan Government's core budget within two 
        years while, as committed at the London Conference, the Afghan 
        Government achieves the necessary reforms to strengthen its 
        public financial management systems, reduce corruption, improve 
        budget execution, and increase revenue collection to finance 
        key National Priority Programmes;

    Answer. While considerable steps still need to be taken by the 
Afghan Government to strengthen its public financial management 
systems, reduce corruption, improve budget execution, and increase 
revenue collection, there have been indicators of progress.
    The Afghan Government is making progress toward improving fiscal 
transparency. The Ministry of Finance drafted a Public Financial 
Framework in July 2010 to strengthen budget execution and fiduciary 
controls. Budget execution rates continue to be a concern, due largely 
to weak capacity in line ministries and security. The Ministry of 
Finance continues to post annual Afghan Government budgets online, as 
it has since 2004, in addition to mid-year reviews of the national 
budget. The Afghan Government's execution and disbursement reports are 
also available online.
    In terms of revenue collection, the Ministry of Finance has 
established regional Taxpayer Offices and other initiatives to increase 
collection rates in the districts. Nonetheless, the Afghan national 
budget is growing at a faster rate than revenue collection, leaving a 
deficit which is paid for by donors. This remains a major concern.

    Question #34. Given the Kabul Bank crisis, low budget execution 
rates, and other indications of financial incompetence or malfeasance 
within the Afghan Government, is delaying the commitment to increase 
on-budget funding to up to 50 percent under consideration?

    Answer. The United States and other major donors continue to make 
it clear to the Afghan Government that in order to meet the 50 percent 
mark for assistance to Afghanistan's core budget by 2013, as defined at 
the Kabul Conference, the Afghan Government needs to make significant 
additional progress toward instituting public sector financial reform, 
addressing anticorruption, ensuring better budget execution, and 
increasing revenue collection. This means continued improvements in 
capacity not only at the Ministry of Finance, but other line 
ministries, as well as at the Provincial and District levels.
    The U.S. Government continues to support the IMF in its 
negotiations with the Afghan Government. We believe that an IMF country 
program is essential to ensuring that the mechanisms of the Afghan 
economy function properly. U.S. officials, other donor nations, and the 
United Nations have made it clear that the absence of a country program 
jeopardizes aid disbursement.

    Question #35. Please explain the current approach to this issue 
(referring to question 34).

    Answer. We continue to convey the message to Afghan authorities 
that they must take aggressive, concrete steps to address Kabul Bank-
related issues, strengthen the Afghan financial sector, and qualify for 
a strong IMF program. We are working with international donors to 
ensure that we are all speaking with one voice on these issues.
    The IMF has identified a number of important steps that the Afghan 
authorities should take in order to address the problems at Kabul Bank 
and to strengthen the financial sector more broadly. These steps are 
currently preconditions for a new IMF Country Program, and would help 
restore Afghanistan's credibility with the international community. 
Credible law enforcement action on the part of the Afghan Government 
against those responsible for the crisis at Kabul Bank is one of the 
preconditions set out by the IMF for a program.
    The United States has been working with the Afghan Central Bank to 
address fraud and mismanagement at Kabul Bank, and to enhance the 
Central Bank's ability to supervise the Afghan financial sector more 
broadly. However, the United States did not, and indeed should not, 
have an operational role in supervising Afghan banks. U.S. efforts are 
appropriately focused on capacity-building, particularly with regard to 
strengthening those supervisory authorities responsible for 
safeguarding the integrity of the financial system.

    Question #36. Please assess how successfully the Government of 
Afghanistan has implemented its Kabul commitments by providing specific 
examples of steps it has taken or not taken regarding sections in the 
communique that cover ``Principles of Effective Partnership,'' 
``Governance, Rule of Law, and Human Rights,'' and ``Economic and 
Social Development.''

    Answer. The Afghan Government's fulfillment of its Kabul Conference 
commitments is an ongoing process, as the timeline for commitments 
varies. Since the July 2010 Kabul Conference, the Afghan Government has 
made progress in undertaking a series of reforms to improve governance, 
promote economic and social development, and strengthen Afghan security 
capacities. The next Joint Coordination and Monitoring Board (JCMB) 
meeting (date to be determined) will provide an opportunity for the 
donor community and the Afghan Government to jointly assess progress on 
the London and Kabul Conference benchmarks.
    With regard to ``Principles of Effective Partnership,'' the Afghan 
Government has made strides in implementing ambitious public financial 
management reforms, but needs to take steps to further strengthen this 
area. In particular, the Afghan Government must improve budget planning 
and execution in order to effectively use domestic and international 
resources to implement its National Priority Programs. Strengthened 
internal and external audits, and other anticorruption measures, will 
also enhance the government's credibility. However, there has been 
progress. Over the past 3 years, domestic revenues grew on average 20 
percent per year, and Afghanistan's rating in the Open Budget Index 
improved to 21 percent in the most recently released index in December 
2010.
    With respect to ``Governance, Rule of Law, and Human Rights,'' the 
Afghan Government has made some progress on its Kabul Conference 
commitments, but we are concerned about slow progress on some key 
actions in anticorruption and rule of law. The Government of 
Afghanistan has established the statutory basis of the Major Crimes 
Task Force (MCTF) and the Anti-Corruption Tribunal (ACT) through 
decrees. A committee has been formed to finalize the draft of the law, 
which we would like to see improved in the areas of function and 
status. The Afghan Government continues to struggle with existing 
criminal and civil legal codes to bring them in line with the country's 
international commitments on freedom of religion and broader human 
rights.
    With respect to the Afghan Government's commitment to improve 
audits of ministries and subnational government offices, an external 
audit law has been drafted and approved by the Afghan Cabinet. The U.S. 
Government and donor community alike are currently analyzing the law to 
determine if it meets international standards. The Afghan Government 
also committed to augmenting the number of ministries using transparent 
and merit-based appointment processes, and has begun to use such 
procedures for selection at the district governor level and recently 
for some deputy provincial governor positions. With regard to the 
commitment to provide budgetary support to the Afghan Independent Human 
Rights Commission (AIHRC), the Council of Ministers has approved AIHRC 
inclusion in the state budget, though not as a permanent budget unit 
and with a very modest amount of support ($500,000).
    An important commitment that still needs to be met is the 
initiation of a strategy for long-term electoral reform by the Afghan 
Government, particularly addressing the sustainability of the election 
process, which has not been completed. With respect to the London 
Conference commitment to work closely with the U.N. to build on lessons 
learned from the 2009 elections to deliver improvements to the 
electoral process in 2010 and beyond, the Independent Election 
Commission (IEC) drew on a number of lessons learned from 2009 to 
improve technical aspects of the 2010 election process. The IEC and the 
Electoral Complaints Commission (ECC) conducted lessons learned 
workshops in January 2011, which could feed into technical electoral 
reform efforts and a broader electoral reform debate.
    Under ``Economic and Social Development,'' the Afghan Government 
committed to further the framework of the government's National 
Priority Programs (NPPs) by October 2010, including implementation and 
costing plans. A robust consultation process on the NPPs, and on 100-
day progress reports to demonstrate accountability, is ongoing among 
the donors and government. The NPPs focus on six areas: Governance, 
Human Resources Development, Agriculture and Rural Development, 
Infrastructure Development, Private Sector Development, and Security.
    The Afghan Government is making progress toward improving fiscal 
transparency. To meet its commitment, the Ministry of Finance published 
a Public Financial Management Roadmap in July 2010. This document laid 
out a comprehensive plan to strengthen the Afghan Government's capacity 
to improve planning and prioritization, increase budget execution, and 
to increase its Open Budget Index rating. The Ministry of Finance 
continues to post annual Afghan Government budgets online, as it has 
since 2004, in addition to mid-year reviews of the national budget. The 
Afghan Government's execution and disbursement reports are also 
available online. Budget execution rates continue to be a concern, due 
largely to weak capacity in line ministries, security concerns, and 
donor practices that create an uncertain budgetary environment for the 
Afghan Government.

    Question #37. Please describe steps our Embassy in Kabul is taking 
to coordinate regional policy issues such as water, trade, and security 
with our Embassies in Central Asia.

    Answer. Cooperation and coordination between our Embassies in the 
region happens routinely, at both working and senior levels. Inter-
Embassy coordination and cooperation occurs primarily between our 
Border Coordination, Economic, Political, Political-Military and INL 
sections. In 2010, Embassy Kabul expanded the role of the Afghanistan-
Pakistan border coordinator to Regional Coordinator, and this person is 
tasked with increasing cooperation and coordination between Embassy 
Kabul and our Embassies in Central Asia. The Regional Coordinator 
participated in the U.S.-Kazakhstan Annual Bilateral Consultation 
meeting in Astana March 17-18. In addition, we hold monthly regional 
economic cooperation calls between Washington, Kabul, and Central Asian 
countries to coordinate our cross-border and regional economic efforts.
    The Regional Coordinator has also developed a virtual regional 
border coordination network to coordinate current and future cross-
border and regional initiatives. The Coordinator also is working 
closely with the international community in Kabul to promote productive 
dialogue on cross-border issues with Afghanistan's neighbors to the 
north.
    In recent months, the State Department, in conjunction with the 
Department of Defense, has undertaken high-level consultations on 
Afghanistan with the governments in Central Asia. In January, an 
interagency delegation that included CENTCOM's General Mattis, Bureau 
of South and Central Asian Affairs Deputy Assistant Secretary Susan 
Elliot, Office of the Secretary of Defense for Policy Deputy Assistant 
Secretary David Sedney, and Embassy Kabul's Regional Coordinator 
traveled to all five Central Asian countries to brief on U.S. policy in 
Afghanistan.
    We are actively engaging Central Asian countries to consider 
joining the Afghanistan Pakistan Transit Trade Agreement (APTTA), which 
was ratified in January 2011, and is currently being implemented. 
Afghanistan's northern neighbors have expressed interest in signing 
similar agreements, most recently Turkmenistan.
    We also continue to encourage progress on the TAPI pipeline, which 
would bring natural gas from Turkmenistan through Afghanistan to 
markets in Pakistan and India. Officials from the four countries signed 
an MOU regarding the 1,200-mile pipeline, and the countries are 
aggressively engaged to further define the project.
    The U.S. Embassy in Kabul, the Bureau of South and Central Asian 
Affairs, and the Office of the Special Representative for Afghanistan 
and Pakistan are currently planning a conference for U.S. Ambassadors 
in Central Asia to meet in Kabul in June for further coordination on 
regional policy issues.

    Question #38. Who at Embassy Kabul is responsible for day-to-day 
coordination with our Embassies in Central Asia?

    Answer. The Regional Coordinator is responsible for day-to-day 
coordination between Embassy Kabul and our Embassies in Central Asia. 
In 2010, Embassy Kabul expanded the role of the Afghanistan-Pakistan 
Border Coordinator to Regional Coordinator and this person is now 
tasked with increasing cooperation and coordination between Embassy 
Kabul and our Embassies in Central Asia. In addition, there are monthly 
regional economic cooperation calls between Washington, Kabul, and 
Central Asian Embassies to coordinate our cross-border and regional 
economic efforts.
    The U.S. Embassy in Kabul, the Bureau of South and Central Asian 
Affairs, and the Office of the Special Representative for Afghanistan 
and Pakistan are currently planning a conference for U.S. Ambassadors 
in Central Asia to meet in Kabul in June for further coordination on 
regional policy issues.

    Question #39. What was the cost of operating the Embassy in 2010, 
including the cost of security, danger pay, and other benefits for 
State Department personnel, housing (including the cost of expanding 
housing), 3,161 contractors, armored vehicles, and all other expenses 
necessary to maintain the current diplomatic effort in the country?

    Answer. The cost of the Afghanistan operations for nonsecurity 
requirements in FY 2010 totaled $475 million. This included personnel 
salaries and allowances, infrastructure and life support, equipment and 
vehicles, Afghanistan consulates fit-out costs, personnel costs, and 
support funding transferred by the Department of State to other USG 
civilian agencies for the Afghanistan civilian uplift, air mobility 
costs, and public diplomacy/strategic communications programs.
    The total security cost to support the Diplomatic Mission in 
Afghanistan for FY 2010 was $347.3 million. This includes the Kabul 
Embassy Security Force guard contract for Afghanistan in FY 2010 which 
totaled $120.6 million. The total security cost also includes housing, 
armored vehicles and equipment costs for the guard force in Kabul and 
security contract for Camp Sullivan.

    Question #40. What is the projected cost for 2011?

    Answer. The projected cost for the FY 2011 for Afghanistan 
nonsecurity requirements is between $550 million and $650 million. The 
total cost will be dependent on a number of potentially significant 
costs, including the continuing increase in civilian personnel being 
deployed this year (including other USG agencies' personnel), the 
resources that could be required for diplomatic activities in a 
transition phase of reduced U.S. military operations/support, and 
additional infrastructure, life support, and air mobility requirements.
    The projected total security costs to support the Diplomatic 
Mission in Afghanistan for FY 2011 are estimated to be $344 million. 
This includes the Kabul Embassy Security Force guard contract for 
Afghanistan in FY 2011 which is estimated to cost $118 million. This 
total includes housing, armored vehicles, and equipment costs for the 
guard force in Kabul.

    Question #41. What are the three most important policy goals for 
the United States-India relationship for the medium term (3-5 years), 
and what specific, concrete deliverables can serve as benchmarks for 
progress in achieving these goals?

    Answer. The historic visit to India of President Obama in November 
2010 reaffirmed our shared values and increasing convergence of 
interests. We are off to a fast start in implementing many of the 
decisions and agreements outlined in the Joint Statement of the 
President and Prime Minister Singh. Looking ahead over the medium term, 
our primary objective is to continue to develop our strategic 
partnership to, among other things, ensure the security and openness of 
shared domains, such as space, maritime and cyber; to promote closer 
consultation and greater convergence in regional and multilateral 
policy, and cooperate in third countries on democracy and development 
initiatives. Increasing defense trade (the United States is presently 
India's third-largest defense supplier, after Russia and Israel), 
exchanges and joint exercises will underpin our strategic partnership, 
with the added benefit of bolstering our high technology and commercial 
relationship, driving U.S. exports and growing both economies. We also 
seek to elevate our government-to-government economic partnership to be 
commensurate with our global strategic partnership.
    Our Top Three Medium-term Goals and our Benchmarks of Progress:

  <bullet> 1. Build a Truly Global Strategic Partnership. Benchmarks 
        include U.S.-India development projects in regions beyond South 
        Asia, such as Africa, greater convergence on multilateral 
        policy, engagement on Asia Pacific issues, climate change 
        coordination, and continued nonproliferation dialogue and 
        cooperation.
  <bullet> 2. Deepen our Defense Trade and Cooperation. Benchmarks 
        include increased defense sales, joint production and research, 
        broadened joint exercises, and expanded maritime security 
        cooperation.
  <bullet> 3. Energize our Trade and Economic Relationship. Benchmarks 
        include continued expansion of U.S. exports, greater Indian 
        investment in the United States, partnerships in the expansion 
        of clean and conventional energy, and commercial space 
        cooperation.

    Question #42. Do any of these goals require specific action from 
Congress?

    Answer. Yes, in a few cases. A bilateral investment treaty (BIT), 
for example, would require Senate advice and consent in order to enter 
into force.
    In addition, the United States has committed at least $50 million 
over 5 years to the Partnership to Advance Clean Energy (PACE); 
continued congressional support of international climate cooperation 
funding will be instrumental to continuing our joint work on PACE--our 
signature initiative to advance clean energy research and deployment.
    More generally, we depend on sustained and concerted congressional 
advocacy to help us advance many of our top priorities with India, as 
well as our overarching goal of continuing to grow our robust people-
to-people ties. To that end, we continue to welcome congressional and 
staff travel to India and encourage engagement with visiting Indian 
officials, business executives, and civil society representatives.

    Question #43. The attempt to sell advanced fighter aircraft to 
India (whether F-18s or F-16s) is regarded by many as a key goal for 
the administration. This goal, however, appears to be at odds with the 
administration's attempt to persuade Pakistan to shift more of its own 
military resources from the Indian border and Line of Control to the 
western theater of operations in the Federally Administered Tribal 
Areas. What are the administration's plans for reconciling these 
apparently contradictory imperatives?

    Answer. We do not agree that these goals are contradictory. Our 
security relationships with India and Pakistan are both significant, 
but substantively different. This is reflected in our bilateral 
engagement. We do not view these relationships in zero-sum terms and 
support broad engagement with all countries in South Asia, including 
India and Pakistan. Military sales to India buttress the U.S.-India 
Strategic Partnership and support our desire to foster a deeper 
security relationship with India that complements India's expanding 
global influence. They do not alter the prevailing military balance in 
the region. At the same time, the United States is investing in 
programs such as the Pakistan Counterinsurgency Capability Fund, which 
has helped Pakistan to focus on the counterinsurgency raging on its 
western border. Pakistan has demonstrated an understanding of this 
threat by increasing the number of troops engaged in counterinsurgency 
operations along its border with Afghanistan from 80,000 (2001-03) to 
148,000 in (2009-10).

    Question #44. A key Indian request of the United States has been 
prioritization of counterterrorism efforts aimed at groups 
(particularly Lashkar-e-Tayyiba, and to a lesser extend Jaish-e-
Muhammad) with a history of anti-India attacks. To what extent has this 
goal moved higher on our priority list in discussions with Pakistan 
since the 2008 Mumbai attacks?

    Answer. Regional South Asian extremists groups remain a key issue 
in our security discussions with the Government of Pakistan (GoP) and 
other South Asian governments. Many of these groups, including Lashkar-
e-Tayyiba (LeT), pose a serious risk to regional stability and also 
cite American interests as targets. Since the 2008 Mumbai attacks, we 
have consistently highlighted to our Pakistani partners the dangers 
posed by regional extremists. Through several bilateral channels, 
including the U.S.-Pakistan Strategic Dialogue, we clearly stress to 
the GoP that these groups are a direct threat to American lives, 
regional neighbors and, increasingly, Pakistan itself. We also 
encourage all South Asian partners to take aggressive, coordinated 
action against these extremists, including LeT.

    Question #45. What has had to move lower on the list in response?

    Answer. We have no such rankings or a priority list. As threats 
continue to evolve, we must focus on the muliple dangers we face. While 
we have increased focus on South Asia's regional extremists since the 
2008 Mumbai attacks, we added them to our ongoing discussions of other 
terrorist groups with the Government of Pakistan (GoP). In these 
discussions, we cite the dangerous potential of these regional groups 
and their ability to syndicate with other high-priority threats, such 
as al-Qaeda.

    Question #46. The Senate recently passed a resolution calling on 
the administration ``to develop a comprehensive policy toward Sri Lanka 
that reflects United States interests, including respect for human 
rights, democracy and the rule of law, economic interests, and security 
interests.''

  <bullet> Does the administration plan to develop such a policy, and 
        is there a specific timeline for doing so?

    Answer. The State Department has developed and implemented a policy 
toward Sri Lanka that centers on supporting a peaceful, united, and 
democratic Sri Lanka. To this end, the United States Government engages 
the Sri Lanka Government, civil society, and diaspora to improve human 
rights, to strengthen democratic institutions, to develop a political 
framework that respects the rights of all Sri Lankans, and to address 
the root causes of the conflict, including a full accountability into 
allegations of violations of human rights law and international 
humanitarian law that may have occurred during the war. As the 
situation in Sri Lanka is dynamic, aspects of our policy are 
continually under review but our overall goal remains.
    Key to our strategy is maintaining channels of dialogue and 
cooperation with the Sri Lankans to advocate these objectives. Our 
engagement extends to all levels of society, inside and outside the 
government. For example, we have provided nearly $62 million in food 
aid to the Sri Lankan people over the last 2\1/2\ years and $11 million 
for support, training, and equipment for the demining efforts of the 
government and its NGO partners,
    Earlier this year we opened a new American Corner in Jaffna, a 
place where Sri Lankans can meet and share ideas, and help connect 
Jaffna with the rest of Sri Lanka, the United States and the world. We 
have provided more than $4 million in immediate assistance for victims 
of recent floods in northern and eastern Sri Lanka.
    With respect to security, we work with the Government of Sri Lanka 
to identify sources of terrorist financing to ensure that no terrorist 
organization uses our financial systems. Broadly speaking, the ability 
of the United States Government to advance our interests, including 
respect for human rights, democracy and the rule of law, economic 
interests, and security interests, depends on our success in supporting 
a peaceful, united and democratic Sri Lanka while maintaining these 
channels of dialogue and cooperation.

    Question #47. The same resolution called on the Sri Lankan 
Government, the U.N. and the international community to establish an 
independent international accountability mechanism. What has been the 
Sri Lankan Government response, if any?

    Answer. The Sri Lankan Government is aware of the recent Senate 
resolution. The Sri Lankan Government maintains that it has in place a 
suitable mechanism for addressing matters related to post-conflict 
reconciliation, including accountability, in the Lessons Learnt and 
Reconciliation Commission (LLRC) established in May 2010. The Sri 
Lankan Government views attempts to establish an international 
commission as premature, as the LLRC has not yet completed its work and 
issued its report to President Rajapaksa.

    Question #48. What further measures is the U.S. Government prepared 
to take to ensure that the Sri Lankan Government is committed to the 
peace process?

    Answer. We are continuously and closely engaged with the Government 
of Sri Lanka (GSL) both in Colombo and in Washington. In addition to 
our discussions with the GSL on issues of accountability for alleged 
violations of international humanitarian law and human rights law--
which we believe is essential to lasting peace--we also strongly 
encourage the GSL to move forward in talks with the Tamil National 
Alliance on political reconciliation with concrete measures to devolve 
power and provide the Tamil people with a greater voice in matters that 
pertain to them. Our private efforts include meetings between our 
Ambassador and the Sri Lankan President, Foreign Minister, and others. 
Our public efforts include Assistant Secretary Blake's February 2011 
interview with an international media outlet in which he outlined the 
U.S. view on areas in which the GSL has made progress and ways in which 
we feel much more must be done, particularly with respect to 
accountability. Assistant Secretary Blake also stressed accountability 
and reconciliation in a March 14 panel at the Asia Society in New York 
with Sri Lanka's Permanent Representative to the U.N. Ambassador 
Butenis has also emphasized these points in media interviews. We 
support a range of programs through our NGO partners on livelihood 
development, legal aid clinics, peace education, human rights, and 
national reconciliation.

    Question #49. The Constituent Assembly in Nepal is scheduled to 
draft and ratify a new constitution by May 2011. News reports suggest 
that the country is unlikely to meet this deadline and Maoist leader 
Pushpa Kamal Dahal (also known as ``Prachanda'') is reportedly 
advocating for an extension of the Constitutional Assembly's term. What 
assistance has the United States provided to help the constitution 
drafting and peace process?

    Answer. The United States has provided extensive support to the 
Constituent Assembly, the body charged with drafting the new 
constitution by May 2011. The Department of State, USAID and their 
partners have supported projects that provided legal expertise and 
constitutional drafting training. Constituent Assembly members, 
government officials, civil society organizations, and community 
leaders have participated in our assistance programs. In addition, the 
U.S. Government has funded trainings and facilitated dialogue for key 
political party leaders, including through The Asia Foundation (TAF) 
and Karuna Center for Peacebuilding, to facilitate discussions and 
build consensus on the outstanding constitutional and security issues. 
We will continue to assist Nepal as it works toward completing the 
constitution and fulfilling all elements of the Comprehensive Peace 
Agreement.

    Question #50. What is the basis for continuing to keep the 
Communist Party of Nepal (Maoist) on the Specially Designated Terrorist 
Groups list after the organization has joined the political process and 
won a plurality of votes in the subsequent election?

    Answer. The Communist Party of Nepal (Maoist) remains a designated 
Specially Designated Global Terrorist under Executive Order 13224 and 
is included on the Terrorism Exclusion List, pursuant to the 
Immigration and Nationality Act. We view their participation in the 
electoral process as a positive step that we would weigh in any 
consideration to remove them from these lists, but we continue to have 
areas of concern. We share these concerns with Maoist leaders through 
our Ambassador who has been engaged in an active ongoing dialogue in 
Kathmandu. Primarily, we remain troubled by the failure of the Maoists 
to complete the peace process and give up the substantive control they 
have over their approximately 19,000 former fighters in cantonments 
across Nepal and of the weapons that remain under their control. During 
discussions, we have told Maoist leaders that it is difficult for us to 
accept their assertions of a commitment to multiparty democracy and the 
peaceful resolution of political differences as long as they retain 
what is, in essence, a private army under their control. We also 
continue to call on the Maoist leadership to act on their promised 
reforms to their youth wing, the Young Communist League (YCL), and to 
formally renounce violence as a political tool.
    We believe that the Maoists have made some progress on the path to 
transforming themselves into a democratic political party, and we urge 
them to continue to work with the other parties on the drafting and 
implementation of a democratic constitution. Until the issues related 
to their former fighters and their militant youth wing are addressed, 
however, we believe it would be premature for us to pronounce the 
transformation from terrorist organization to democratic political 
actors to be complete.

    Question #51. What actions, if any, has the Communist Party of 
Nepal (Maoist) taken since joining the political process in 2006 that 
can be fairly described as terrorist actions?

    Answer. Following the signing a Comprehensive Peace Agreement with 
the government in 2006, the level of Maoist violence has decreased 
significantly. Nonetheless, there is evidence that extortion, 
abduction, and intimidation by the Maoist party or Maoist-affiliated 
organizations continue in some regions of the country. Political party 
representatives, police, nongovernmental organization (NGO) workers, 
and journalists have reported threats and intimidation by Maoists and 
Maoist-affiliated organizations.

    Question #52. A recent event at the United States Institute of 
Peace highlighted the difficulties of reintegration of Maoist ex-
combatants--particularly women ex-combatants--back into civilian life. 
How does the Nepalese Government plan to ensure that ex-combatants are 
successfully integrated?

    Answer. The Government of Nepal currently lacks a comprehensive 
plan for reintegrating ex-combatants into civilian life. The 19,600 
Maoist ex-combatants remain in camps at seven sites around the country, 
as they have for more than 4 years. However, we have seen some progress 
on the integration and rehabilitation process in recent months, 
including in January the handing over of control of the ex-combatants 
to the Special Committee on the Integration and Reintegration of Maoist 
Combatants. Discussions between the key parties continue, and the 
Special Committee's Secretariat is working with the U.N. and other 
partners to build capacity and prepare for reintegration.
    On women ex-combatants, the Government of Nepal (GON) recently 
approved a Plan of Action (Plan NAP) on the implementation of U.N. 
Security Council Resolutions 1325 and 1820, which provides 
encouragement both for the specific challenges of reintegration of 
female ex-combatants as well as an archetype for how the GON should 
approach the reintegration of all ex-combatants. Plan NAP is built on 
five pillars: (1) participation; (2) protection and prevention; (3) 
promotion; (4) relief and recovery and resource management and 
monitoring; and (5) evaluation. Plan NAP seeks to increase the 
participation and leadership of women at all levels of decisionmaking, 
conflict transformation and peace processes, including taking measures 
to address specific needs of women and girls in the design and 
implementation of relief and recovery programs.

    Question #53. What type of support is the United States providing 
and does it address the specific challenges faced by women ex-
combatants?

    Answer. Because the demobilization and reintegration process for 
the 19,600 Maoist ex-combatants is stalled at the encampment phase, 
U.S. support has been mostly limited to engagement with key political 
contacts with a view to influencing, through technical advice, future 
plans and implementation of the reintegration process. Embassy Nepal 
engaged a USAID Civilian Response Corps-Active specialist in 
disarmament, demobilization, and reintegration (DDR) to strengthen 
Embassy Nepal's operational contacts with key national actors as well 
as the international donor community. Direct support at this stage has 
been limited to increasing public dialogue about the demobilization and 
reintegration process in Nepal through support to national and 
community radio programs on the peace process, as well as new linkages 
between existing USAID programs in education and vocational training 
with current and future plans by the U.N. and other donors to support 
similar efforts for ex-combatants. USAID programming for community 
based reintegration, which is the most effective method to address 
challenges faced by female ex-combatants as well as other, often 
marginalized conflict-affected populations, is contingent on an 
official demobilization process for some or all of the 19,600 Maoist 
ex-combatants, as well as the availability of fresh funds.

    Question #54. During his visit to Indonesia in November 2010, 
President Obama identified education as a key focus of our bilateral 
relationship for the near future. How is this priority reflected in the 
2012 budget request?

    Answer. Close cooperation in education is a fundamental element of 
our Comprehensive Partnership with Indonesia. In addition to support 
for basic education, in 2010 President Obama announced a Higher 
Education Partnership in which the United States will invest $165 
million over 5 years to help build Indonesian capacity to provide 
world-class university education and to help significantly increase the 
number of American and Indonesian students who study in each other's 
country.
    The FY 2012 budget request includes $35.5 million toward this 5-
year commitment, including $15.5 million for exchange programs managed 
by the Bureau of Educational and Cultural Affairs, and $20 million 
managed by USAID to improve the quality of higher education in 
Indonesia, including through partnerships with U.S. universities.
    In addition, the FY 2012 request includes $32.177 million for basic 
education programs managed by USAID to support improvements in 
institutional autonomy, academic quality, private sector engagement, 
and science and technology advancement.

    Question #55. What specific programs does the administration plan 
to expand or initiate?

    Answer. Under the Higher Education Partnership, the State 
Department's Bureau of Educational and Cultural Affairs (ECA) manages 
the Fulbright Indonesia Research, Science and Technology (FIRST) 
Program. The FIRST program is a 5-year, $15 million initiative that 
provides scholarships for Indonesians to study in the United States and 
conduct research in priority science and technology fields. It also 
allows Americans to study, teach, and conduct research in Indonesia in 
similar areas. The FIRST program expands the overall U.S. contribution 
to the Fulbright program in Indonesia to $8.5 million in FY 2012, 
making it one of the largest Fulbright programs in the world. In fall 
2010, the first 10 American and Indonesian Fulbright students and 
scholars began studies under FIRST.
    A second important effort is the Community College Initiative, 
which provides $2.5 million in funding per year for scholarships for 
approximately 50 Indonesian students to study in the United States in 
1-year certificate programs. The initiative also funds professional 
development for approximately 15 Indonesian faculty and administrators 
at U.S. community colleges. In 2010, the first expanded cohort of 50 
young Indonesians began their studies at U.S. community colleges 
through this initiative.
    To encourage Indonesian students and American students to study in 
each other's country, ECA increased funding in FY 2012 to $4.5 million 
for English-language training, student advising services, and other 
exchanges. In 2010-11, the number of English Access Microscholarships 
awarded doubled, to more than 400, for after-school English classes for 
disadvantaged 14-18-year-olds. In 2010, the first cohort of 17 
Americans studied Indonesian in intensive summer institutes in Malang, 
strengthening their language skills while deepening their understanding 
and respect for Indonesian society and culture.
    USAID's FY 2012 request of $20 million will fund the Higher 
Education University Partnership, the Higher Education Leadership 
Management Program, and several other programs outlined below.

  <bullet> First, USAID's FY 2012 request of $8.2 million for the 
        Higher Education University Partnership program will support 
        collaboration between U.S. and Indonesian higher education 
        institutions by enabling selected institutions to improve the 
        quality of teaching, research, and community service. In 2010, 
        USAID awarded four of 25 planned university partnerships, in 
        areas including marine biodiversity, tropical plant curriculum 
        development, child protection, and training in public health 
        and applied research.
  <bullet> Second, USAID's FY 2012 request of $8.7 million will support 
        the Higher Education Leadership, Management, and Policy 
        program. This program will assist the Indonesian Ministry of 
        Education in introducing quality assurance systems into the 
        organizational structure of the higher education system, raise 
        overall quality, introduce fiscal sustainability, and enhance 
        the efficiency of the system's use of resources.
  <bullet> Third, the FY 2012 request of $3.1 million will support 
        USAID's New Higher Education Initiative, the Aceh Polytechnic 
        program, the Innovation Fund, the Participant Training Project, 
        and program support.

    Finally, USAID's FY 2012 request of $32.177 million for basic 
education programming will support greater institutional autonomy, 
academic quality, private sector engagement, and science and technology 
advancement. The largest component of the request ($28.4 million) will 
assist the Indonesian Government in replicating Decentralized Basic 
Education (DBE) modules and methodologies in targeted regions. 
Additional basic education programs will focus on helping Indonesian 
youth complete primary and secondary school, and include $3.8 million 
in funding to support opportunities for vulnerable children, 
innovation, participant training, and program support.

    Question #56. Another key focus of the U.S.-Indonesia engagement is 
climate change. How does the 2012 budget request deal with this 
priority, with specific reference to the REDD program, the Coral 
Triangle Initiative, and other programs tightly linked to Indonesia?

    Answer. U.S. foreign assistance plays a critical role in the 
implementation of the U.S.-Indonesia Comprehensive Partnership, which 
includes combating and adapting to climate change as one of its key 
focus areas. In addition to potential resources provided by the 
Millennium Challenge Corporation (MCC) and other U.S. Government 
agencies, the President's FY 2012 budget request includes $28 million 
in Development Assistance funds for the United States Agency for 
International Development (USAID) to strengthen the capacity of the 
Government of Indonesia to manage Indonesia's diverse terrestrial and 
marine resources sustainably and to catalyze its clean-energy 
development potential. All of USAID's activities support Indonesia's 
national strategies, including the national Reducing Emissions from 
Deforestation and forest Degradation (REDD+) efforts and other national 
climate change initiatives.
    U.S. assistance supported by funding in the FY12 proposed budget 
request will be designed to foster sustainable forest management, 
reduce carbon emissions, support community livelihoods, and promote 
low-carbon economic development. USAID programs will be implemented in 
partnership with national and local governments, NGOs, the private 
sector, and communities who are dependent upon forest resources. 
Assistance will focus on reducing environmental threats, improving 
governance, developing sustainable land and resource use, and 
increasing access to markets and financing for sustainably managed 
natural resource products. USAID programs will strengthen community 
resilience to the effects of climate change while reducing the risks 
associated with disasters in highly vulnerable areas. Priority areas 
will include high conservation value landscapes and seascapes, 
orangutan habitats, and primary lowland forests.
    USAID forestry projects will support Indonesia's national REDD+ 
strategy by implementing changes in land use and improved forest 
management. Forestry and climate change activities support U.S. 
commitments made at Copenhagen, and they will also support the 
implementation of Low Emissions Development Strategies (LEDS) for 
Indonesia. Projects will also extend work already started with previous 
years' funding that supports the Indonesian Climate Change Center to 
bring science and objective analysis to the policy decisionmaking 
process.
    Indonesia, as well as other countries, will also benefit from 
separately budgeted Asia regional programs totaling $32.95 million for 
clean energy, REDD+, and biodiversity implemented by USAID's Regional 
Development Mission-Asia (RDMA). RDMA will also continue to strengthen 
capacity in managing coastal and marine resources, including through 
support of the Coral Triangle Initiative (CTI).

    Question #57. The insurgency in the southern Thai provinces of 
Narathiwat, Pattani, and Yala (along with parts of Songkhla) has taken 
several thousand lives since 2004, but to date does not appear to have 
an international agenda or focus. It often falls between the 
bureaucratic cracks: Thai experts are unfamiliar with the Malay 
language and culture (the language and culture of the insurgents), 
Malaysia experts see it as a Thailand issue, and counterterrorism 
officials see it as a local rather than a transnational phenomenon. 
Within the State Department, which Bureau or Office has the lead on 
tracking this insurgency?

    Answer. The State Department remains deeply concerned about 
violence in southern Thailand that has claimed thousands of lives over 
the past 7 years. We closely monitor the human rights environment in 
southern Thailand and report on it in the annual human rights report. 
We support the Royal Thai Government's efforts to counter separatist 
violence in southern Thailand, and we encourage the investigation and 
prosecution of those responsible for violent acts. The Bureau of East 
Asian and Pacific Affairs is the lead Bureau for tracking developments 
in southern Thailand, working in concert with other Offices and 
Agencies. Embassy Bangkok is also actively engaged on this issue.

    Question #'s 58-61. Under Section 203 subsection (a) of the 
Enhanced Partnership with Pakistan Act of 2009, it states ``no 
security-related assistance may be provided to Pakistan in a fiscal 
year until the Secretary of State, under the direction of the 
President, makes the certification required under subsection (c) for 
such fiscal year.''

  <bullet> Has the Secretary of State made such a certification for FY 
        2011?
  <bullet> If so, on what date?
  <bullet> Has any security-related assistance been provided to 
        Pakistan in FY 2011?
  <bullet> If so, on what date?

    Answer. The Secretary made this certification for FY 2011 on March 
18 and delivered the certification package to Congress on March 30. In 
accordance with Section 203, no security-related assistance (defined as 
FMF in the legislation) has been provided to Pakistan in FY 2011. The 
administration has requested $296 million in FY 2011 FMF funding for 
Pakistan.

    Question #62. The following questions refer to U.S. assistance from 
the Function 150 Account. Answers should reflect funding streams from 
both the State Department (i.e., INL) and USAID.

    Answer. As Congress weighs appropriation of the administration's 
request for Kerry-Lugar-Berman funds for FY 2012, it will be very 
helpful to understand how the funds already appropriated have been 
spent. How much of the funds authorized by the Enhanced Partnership 
with Pakistan Act of 2009 have been spent on following line-items (for 
expenditures over $10 million, please provide the specific project, 
amount, and date of completion):

  <all> Energy
  <all> Bridges
  <all> Roads
  <all> Medical clinics
  <all> Schools
  <all> Dams/Irrigation
  <all> Other agricultural programs
  <all> Flood reconstruction (apart from items listed in categories 
            above)

    Answer. It is important to note that the Enhanced Partnership with 
Pakistan Act of 2009 authorizes FY 2010-FY 2014 funding for Pakistan. 
The United States disbursed about $1.7 billion for Pakistan from 
October 2009 (when the legislation was passed) through December 2010, 
including over $1.1 billion in bilateral civilian assistance for 
Pakistan. However, most of the funds disbursed in that timeframe were 
FY 2009 and prior year funding. Below is what was disbursed from FY 
2010 funds as of March 2010, authorized under the Enhanced Partnership 
with Pakistan Act:

  <bullet> Energy/Dams: $37.5 million (includes Gomal Zam Dam, $26.4 
        million, completion estimated June 2013);
  <bullet> Schools: $45 million for the Higher Education Commission and 
        $19.5 million for Fulbright exchanges;
  <bullet> Other Agricultural Programs: $31.2 million (for seeds, 
        agricultural inputs, flood-related cash-for-work programming in 
        Sindh and KP);
  <bullet> Flood Reconstruction (apart from items listed above): $30.8 
        million (includes $20 million for health services provided 
        through Agha Khan University, WHO, UNICEF, and UNFPA); and
  <bullet> Social Sector Support: $75 million for the Benazir Bhutto 
        Income Support Program (BISP).

    Question #63. How much of FY 2009 and FY 2010 funds have we already 
obligated in Pakistan?

    Answer. As of December 31, 2010, USAID had obligated approximately 
$2.23 billion of FY 2009 and FY 2010 civilian assistance appropriations 
in Pakistan. INL has obligated $253.7 million of FY 2009 and FY 2010 
funding.

    Question #64. How much of FY 2009 and FY 2010 funds have we already 
disbursed in Pakistan?

    Answer. The USG has disbursed about $1.7 billion of civilian 
assistance since the October 2009 passage of Kerry-Lugar-Berman (KLB) 
legislation, including funding in accounts covered by the KLB 
legislation and about $550 million in emergency humanitarian response 
funds for flood relief.
    Recent developments include:

  <bullet> $19.6 million disbursed toward signature initiatives 
        throughout Pakistan, many of which the Secretary announced in 
        past visits: Gomal Zam Dam, Tubewell Efficiency Improvement 
        Program, Satpara Dam, Tarbela Dam, and Muzzaffargarh and 
        Jamshoro Thermal Power Stations.
  <bullet> $8.0 million disbursed to the FATA Secretariat for 
        construction of roads in South Waziristan that contribute to 
        stabilization and security by linking the remote region with 
        outside markets.

    As of March 2011, INL and USAID had disbursed $585 million of FY 
2009 and $221 million of FY 2010 nonemergency civilian assistance to 
Pakistan, as well as a considerable amount of prior-year funds. We 
anticipate additional disbursements in the relative near term, 
including implementation of flood reconstruction activities and 
disbursement of $190 million for the Citizens' Damage Compensation 
Fund, once all accountability measures are in place.

    Question #65. What percentage of FY 2009 and FY 2010 funds will go 
toward direct assistance to the Government of Pakistan?

    Answer. We are committed to building Pakistani capacity to address 
Pakistan's most critical needs, and this includes coordinating closely 
with the Government of Pakistan and implementing programs when possible 
through Pakistani mechanisms.
    We expect that about 48 percent of FY 2009 Pakistan civilian 
assistance funds (Economic Support Funds or ESF) will be implemented 
with direct assistance through Pakistani Government agencies, whether 
federal or provincial. In FY 2010, under current planning we anticipate 
that roughly 50 percent of Kerry-Lugar-Berman civilian assistance to 
Pakistan will be implemented through direct assistance to the 
government.

    Question #66. What percentage of FY 2011 and FY 2012 funds is 
estimated to be provided as direct assistance to the Government of 
Pakistan?

    Answer. As we do not yet have a year-long appropriation for FY 2011 
and FY 2012, we have not yet determined the percentage of civilian 
assistance funds that would be implemented through the Government of 
Pakistan. However, the United States remains committed to providing a 
substantial portion of its assistance through Pakistani entities. We 
anticipate that the general trends would be in line with our current 
practices in Pakistan, with roughly half of civilian assistance being 
implemented through Pakistani Government institutions, whether federal 
or provincial.

    Question #67. What percentage of FY 2009 and FY 2010 funds will go 
to Pakistani entities outside of the Government of Pakistan?

    Answer. The United States has made a deliberate effort to change 
its model for assistance to Pakistan, toward implementing a greater 
portion of U.S. civilian assistance through Pakistani institutions. 
This is critical to strengthening our partnership with Pakistan and 
building the long-term capacity of Pakistani organizations. As of 
December 31, 2010, USAID has made 64 awards to Pakistani 
nongovernmental organizations (NGOs), totaling approximately $260 
million, which is approximately 12 percent of USAID's FY 2009 and FY 
2010 civilian assistance funding for Pakistan. For assistance to 
Pakistan managed by the Bureau of International Narcotics and Law 
Enforcement, $2 million of FY 2009 and FY 2010 funding will go to 
Pakistani NGOs, for narcotics demand reduction programs.

    Question #68. What percentage of FY 2011 and FY 2012 funds is 
estimated to be provided to Pakistani entities outside of the 
Government of Pakistan?

    Answer. As we do not yet have a year-long appropriation for FY 2011 
and FY 2012, we have not yet determined the percentage of civilian 
assistance funds that would be provided to Pakistani entities outside 
the Government of Pakistan. However, we would expect to maintain or 
increase from FY 2010 levels, given our positive experience with 
Pakistani NGOs and the importance of aligning our assistance 
implementation with our strategic goals of building Pakistan civil 
society.

    Question #69. How much of FY 2009 and FY 2010 funds will go toward 
flood assistance?

    Answer. As of March 2010, the United States had provided a total of 
$690.8 million for flood assistance using both emergency and bilateral 
assistance funds in the International Disaster Assistance (IDA), PL-480 
food assistance, Economic Support Funds (ESF), Migration and Refugee 
Assistance (MRA), U.S. Emergency Refugee and Migration Assistance Fund 
(ERMA), International Narcotics Control and Law Enforcement (INCLE), 
and Overseas Humanitarian, Disaster and Civic Action (OHDACA) accounts. 
Funding from FY 2009 and FY 2010 amounted to $30.8 million and $559.5 
million, respectively, in emergency and bilateral assistance accounts. 
In line with the public pledge of November 2010, in addition to 
emergency humanitarian assistance, $500 million of FY 2010 bilateral 
assistance funds to Pakistan will be redirected or reprogrammed for 
flood reconstruction and recovery.

    Question #70. Why has only $23.3 million been disbursed for flood 
assistance so far from Kerry-Lugar-Berman funds?

    Answer. The initial U.S. response to the flooding was to bring to 
bear the full panoply of emergency humanitarian assistance available, 
and indeed the U.S. was ``the first with the most'' among donor 
response to the floods. The USG interagency, including State, USAID, 
DOD, and USDA teamed up and coordinated the delivery of over $550 
million in emergency relief assistance.
    In addition, we have enhanced the effectiveness of the flood 
assistance by working to meet priorities identified by the Pakistani 
Government (GOP). When Richard Holbrooke announced in November 2010 
that the U.S. would redirect $500 million of FY 2010 Kerry-Lugar-Berman 
(KLB) funding for flood reconstruction priorities identified by the 
GOP, this required a reorientation of our assistance to find funding 
for this effort. By December 31, 2010, only 1 month later, $23 million 
was reoriented and disbursed, meeting the critical needs outlined by 
the Pakistani Government. We expect substantial disbursements in 
calendar year 2011, based on discussions with our Pakistani 
counterparts. As of April 2010, USAID has disbursed $64.3 million of FY 
2010 KLB (bilateral) funds for flood assistance. USAID has also 
disbursed $30.8 million of FY 2009 funds for flood assistance.

    Question #71. How long will it take for this [KLB flood] money to 
be disbursed?

    Answer. We are moving to disburse flood reconstruction funding as 
activities are in place, and notifications/certifications are processed 
as required. Even as flood reconstruction is a time-sensitive response, 
it is a separate and distinct effort from emergency flood relief, where 
absorptive capacity and consultations with the Pakistani Government are 
important considerations. We expect substantial disbursements of KLB 
flood money in calendar year 2011. However, we anticipate that it may 
take 24 months from the onset of the floods until all flood assistance 
funds are expended, with projects such as road and school 
reconstruction spanning multiple years. We have already disbursed over 
$62 million (in FY 2010 and prior year bilateral funds) for agriculture 
recovery, providing seeds and agricultural inputs to farmers devastated 
by flooding in Sindh, Baluchistan, Punjab, and Khyber Pakhtunkhwa 
provinces. This has in many places increased wheat crop yields by 60-70 
percent. We envisage disbursing the $190 million U.S. contribution to 
the Citizen's Damage Compensation Fund by mid-2011. However, our 
contributions to school, irrigation, and road reconstruction, requiring 
reorientation of our programming, renotification, and working with 
Pakistan's provinces, may take somewhat longer.

    Question #72. How much of FY 2011 and FY 2012 funds is estimated to 
go toward flood assistance?

    Answer. At this time, $96 million in FY 2011 of emergency food aid 
(IDA) and Food for Peace (P.L. 480) have been obligated for flood 
assistance in Pakistan. As $500 million of FY 2009 and FY 2010 funds 
are expected to be directed to go toward flood reconstruction, we have 
not planned for the use of any FY 2011 or FY 2012 funds authorized 
under the Enhanced Partnership for Pakistan Act for flood assistance at 
this time.

    Question #73. Please describe plans for how the Department will 
apply operations research as defined in the Enhanced Partnership with 
Pakistan Act of 2009 as ``the application of social science research 
methods, statistical analysis, and other appropriate scientific methods 
to judge, compare, and improve policies and program outcomes, from the 
earliest stages of defining and designing programs through their 
development and implementation, with the objective of the rapid 
dissemination of conclusions and concrete impact on programming'' to 
funds spent in Pakistan.

    Answer. The Enhanced Partnership with Pakistan Act of 2009 has been 
critical both in articulating a multiyear vision of U.S. civilian 
assistance to Pakistan in support of a long-term strategic partnership, 
and in encouraging best practices for assistance. Here are a few 
examples of how the United States uses such ``operations research'' 
analysis to improve program effectiveness.
    USAID guidelines require all programs to utilize a variety of types 
of analyses, including quantitative studies or other types of social 
science methods, during the design stage. Before committing any money 
to a project, USAID conducts environmental assessments that take into 
consideration the environmental, social, and economic background of the 
intended beneficiaries and geographic locations and how the project in 
consideration could impact their lives and their communities. A special 
focus is placed on gender and how the project may impact women of the 
community. In addition, the U.S. Government carefully researches the 
various ways to disburse funding to determine the most appropriate 
benchmarks to use in order to achieve the intended results of the 
project under consideration. For example, before committing to support 
the Citizens' Damage Compensation Fund, U.S. Embassy Islamabad embedded 
an officer with the World Bank Assessment team to assess the program 
and its social, economic, and environmental impact, as well as the 
accountability and transparency of the delivery methods. Only when we 
were satisfied with the results of the assessment did we consider 
obligating funds towards the activity, pending certification.

    Question #74. Please describe the communications strategy for how 
the Department is communicating and will communicate our intent with 
respect to Kerry-Lugar-Berman funds in Pakistan.

    Answer. The United States seeks to maintain and deepen its long-
term bilateral strategic partnership with Pakistan. That partnership is 
advanced by addressing Pakistan's economic and social challenges, 
particularly with civilian assistance.
    Under the direction of the Mission Director of Communications in 
Islamabad, State and USAID communications teams work together to 
amplify the impact of civilian assistance in Pakistan and reinforce the 
U.S. message about its commitment to a long-term partnership with 
Pakistan. A number of engagements--the U.S.-Pakistan Strategic 
Dialogue, Secretary Clinton and Administrator Shah's visits, renewed 
branding of U.S. assistance, high-level leaders discussing the 
importance of economic assistance--have helped increase the Pakistani 
public's confidence and trust in the United States.
    In communications about the Kerry-Lugar-Berman (KLB) authorization 
and civilian assistance, the objective is not simply to promote the 
size and dollar value of our civilian assistance program, but to show 
how it is improving the lives of average Pakistanis. For example, 
reducing energy outages across the country is essential for both 
society and industry in Pakistan to prosper. Last year, Secretary 
Clinton announced funding for the Gomal Zam dam, a hydroelectric dam 
that will serve 250,000 people in Waziristan. For projects that are 
still ``in the pipeline,'' efforts will be made to highlight progress 
throughout the development timetable--from announcement of the 
commitment through groundbreaking and production, as well as connecting 
back to the local populace to highlight results that are evident on the 
ground.
    Media engagement on KLB includes outreach across multiple mediums 
in English and the local language (Urdu, Sindhi, and Pashto), including 
robust engagement with the DC-based press corps and facilitating 
reporter access to project development sites across the country. We 
have undertaken substantial outreach on U.S. civilian assistance, 
including:

  <bullet> Print Media: We have proactively built relationships with 
        journalists from local language publications, facilitated 
        exchanges and project access for Pakistani journalists to see 
        progress firsthand, and provided interviews with experts who 
        can discuss assistance programs in the local language.

  <bullet> Radio: USAID coordinates a biweekly 30-minute live radio 
        talk show, ``Aap Hum Aur Behtar Zindagi'' (``Together, for a 
        better future--from the American people''). On this Urdu 
        language program, U.S. Government officials serve as technical 
        experts to explain how our projects benefit ordinary 
        Pakistanis. The Pakistan Broadcasting Corporation, which 
        reaches more than 80 stations around the country, regularly 
        hosts roundtables with visiting U.S. officials that include 
        call-ins from local residents.
  <bullet> Television: Visits by principals to Pakistan are amplified 
        through television roundtables. We have coordinated with a 
        speakers' bureau to facilitate U.S. Government and third party 
        surrogates in the United States to speak on television stations 
        in Pakistan via satellite and in the local languages. USAID has 
        also begun filming project implementation across the country, 
        with footage available for use by Pakistani television stations 
        and produced into short films.
  <bullet> Internet: The State Department has an active presence on 
        Facebook, YouTube, Twitter, and other social media outlets 
        dedicated to informing communities in both countries about 
        developments in the United States-Pakistan relationship. USAID 
        is creating a series of web pages to show how funds authorized 
        under KLB legislation are being used.
  <bullet> Diaspora Outreach: State and USAID have regularly organized 
        speaking engagements with think tanks, held a series of seven 
        Pakistan Open Houses nationwide that attracted hundreds of 
        Pakistani Americans, and attended community events and 
        conferences. In the wake of the 2010 floods in Pakistan, the 
        Department led weekly conference calls with the Pakistani-
        American diaspora community. Sometimes including several 
        hundred participants, these calls were a critical channel for 
        exchange of information.

    Question #75. Please describe steps the Department and USAID are 
taking to improve their Web sites in English and Urdu to better 
communicate how Kerry-Lugar-Berman funds are being spent in Pakistan.

    Answer. U.S. Embassy Islamabad has recently hired a staff member in 
Islamabad who will focus on improving Web presence and USAID is in the 
process of hiring a Web editor to focus on this as well. In addition to 
increasing staff capacity, USAID is coordinating an effort to create 
Web pages dedicated to projects authorized under the Enhanced 
Partnership for Pakistan Act, and to have those cross-posted throughout 
the interagency network of Pakistan pages. These new pages aim to 
provide answers and information on a variety of frequently asked 
questions, such as the legislation text, how the money is being used, 
its benefits and how it is distributed, how to apply for grants and 
contracts, and where to report concerns about funds being spent.

    Question #76. Please include a timeline for implementation of these 
steps as well.

    Answer. We intend to have the beta Web site live by the end of 
April for comment and suggestions.

    Question #77 & #78. Legislation to reauthorize the State Department 
for FY 2012-2013 and strengthen U.S. diplomatic capabilities would 
authorize funds for the state operations account, include important 
increases to our diplomatic corps, provide vital funds and resources to 
international organizations, address critical pay equity issues for 
Foreign Service officers, and enhance our public diplomacy and consular 
efforts.

  <bullet> How big a priority is passing State Department authorization 
        legislation to you?

    Answer. In any budget discussion the State Department's 
authorization and appropriation is a priority for both our national 
security and our national well-being. In our current fiscal 
environment, the Department's budget becomes an imperative. I have 
noted often that American leadership in the world is more essential 
than ever. From the rise of emerging powers and transformations of the 
Arab Awakening to global challenges like proliferation and climate 
change, we are witnessing dramatic developments that demand America's 
engagement. Such challenges--and the notable opportunities that they 
present--make us an indispensible partner with many countries for 
resolving such issues.

  <bullet> How will this legislation support the Department's broader 
        foreign policy goals?

    Answer. The activities and programs of the Department of State and 
the United States Agency for International Development (USAID) play an 
especially vital role in driving America's leadership and protecting 
our well-being at home. We are managing America's response to the Arab 
Awakening. We are working to secure America's preeminent role as a 
power in the Asia-Pacific, the most consequential region of the 21st 
century, while upholding our strategic commitments elsewhere. We are 
elevating the role of economics in foreign policy and empowering women 
and girls around the world.
    The work of State and USAID makes Americans safer and more 
prosperous. We help build the peace that underwrites global economic 
growth. At our Embassies and Consulates from Beijing to Bogota, we 
engage with friends and adversaries, reducing the risk of conflict; we 
help American businesses find new markets and lay the conditions for 
creating jobs at home; we provide training to allies and partners to 
improve our collective security; and we promote effective, democratic 
governance around the world. Continued investment in long-term global 
stability is more important than ever.
    In such a difficult, demanding context, our budget must reflect our 
unique role in protecting our Nation's security. Our budget is 
constructed to allow us--in a time of constraint--to continue building 
the relationships and investing in the programs necessary to protect 
our country.

    Question #79. Please explain what Overseas Comparability Pay is, 
and what the base salary difference is currently between a diplomat 
serving in Washington and a diplomat serving overseas.

    Answer. The State Department has implemented ``overseas 
comparability pay'' to address pay inequities that resulted from the 
exclusion of U.S. Government employees serving abroad from locality 
pay. The current locality pay system for all U.S. Government employees 
was implemented in 1994. Locality pay is intended to recognize the 
differences in the cost of labor, not the cost of living, in various 
cities in the United States where the U.S. Government competes with 
private industry to recruit and retain employees. The system excludes 
most civilian employees overseas, including members of the Foreign 
Service, in effect creating two different basic pay rates: one for 
employees assigned domestically and one for those assigned overseas.
    The State Department has worked since early 2000 to resolve this 
disparity in pay for our Foreign Service employees when stationed 
abroad. The Supplemental Appropriations Act, 2009 (Pub. Law 111-32) 
included a temporary authority to make overseas comparability payments, 
up to the locality pay rate for Washington, DC, to Foreign Service 
generalists and specialists at grade FS-01 and below who are assigned 
overseas. Subsequent appropriations acts have extended the authority 
and provided funding to implement the first phase of the Department's 
planned three-phase implementation schedule, despite opposition from 
Members of Congress who believed that these employees already received 
adequate compensation for overseas service through various allowances 
and differentials.
    Before the introduction of overseas comparability pay in 2009, an 
entry- or mid-level Foreign Service employee transferring abroad 
experienced a significant cut in basic pay as a result of the exclusion 
of these positions from locality pay. For example, a Foreign Service 
employee serving in Washington, DC, made more that employees in serving 
in many hardship posts. In 2009, the reduction due to the loss of 
locality pay was 23.10 percent of base salary. Since 2009, we have 
closed the gap between rates of basic pay in Washington, DC, and abroad 
by nearly 70 percent. Entry and mid-level Foreign Service employees 
serving in Washington, like most other Federal employees working in 
Washington, earn their base salary plus 24.22 percent locality pay. 
Their counterparts overseas currently earn base salary plus 16.52 
percent comparability pay. The Department has worked to close this gap 
in phases, the third and final of which was scheduled to be implemented 
this August and would have increased comparability pay to the 
Washington, DC, locality pay rate.
    The pay disparity does not just result in a short-term reduction in 
pay for Foreign Service employees serving abroad; rather, the effects 
are long-lasting and compound over the course of an employee's career. 
Retirement contributions to the Federal Thrift Savings Plan (TSP) are 
based on an employee's basic pay, which includes locality pay. This 
means that without overseas comparability pay, Foreign Service 
employees who spend large portions of their careers representing and 
protecting their country's interests abroad, would receive smaller 
employer contributions than their colleagues who remained in 
Washington.
    Overseas comparability pay is not a pay raise, nor is it an 
additional allowance or benefit. It corrects a 17 year-old unintended 
inequity in the worldwide Foreign Service pay schedule. Without 
overseas comparability pay, the disparity in basic pay between overseas 
and domestic assignments would continue to grow once annual locality 
adjustments are reinstituted after the current Federal pay freeze, and 
would increasingly undermine existing incentives to serve overseas.

    Question #80. Please explain what Overseas Comparability Pay is, 
and what the base salary difference is currently between a diplomat 
serving in Washington and a diplomat serving overseas.

    Answer. The State Department has implemented ``overseas 
comparability pay'' to address pay inequities that resulted from the 
exclusion of U.S. Government employees serving abroad from locality 
pay. The current locality pay system for all U.S. Government employees 
was implemented in 1994. Locality pay is intended to recognize the 
differences in the cost of labor, not the cost of living, in various 
cities in the United States where the U.S. Government competes with 
private industry to recruit and retain employees. The system excludes 
most civilian employees overseas, including members of the Foreign 
Service, in effect creating two different basic pay rates: one for 
employees assigned domestically and one for those assigned overseas.
    The State Department has worked since early 2000 to resolve this 
disparity in pay for our Foreign Service employees when stationed 
abroad. The Supplemental Appropriations Act, 2009 (Pub. Law 111-32) 
included a temporary authority to make overseas comparability payments, 
up to the locality pay rate for Washington, DC, to Foreign Service 
generalists and specialists at grade FS-01 and below who are assigned 
overseas. Subsequent appropriations acts have extended the authority 
and provided funding to implement the first phase of the Department's 
planned three-phase implementation schedule, despite opposition from 
Members of Congress who believed that these employees already received 
adequate compensation for overseas service through various allowances 
and differentials.
    Before the introduction of overseas comparability pay in 2009, an 
entry- or mid-level Foreign Service employee transferring abroad 
experienced a significant cut in basic pay as a result of the exclusion 
of these positions from locality pay. For example, a Foreign Service 
employee serving in Washington, DC, made more that employees in serving 
in many hardship posts. In 2009, the reduction due to the loss of 
locality pay was 23.10 percent of base salary. Since 2009, we have 
closed the gap between rates of basic pay in Washington, DC, and abroad 
by nearly 70 percent. Entry- and mid-level Foreign Service employees 
serving in Washington, like most other Federal employees working in 
Washington, earn their base salary plus 24.22 percent locality pay. 
Their counterparts overseas currently earn base salary plus 16.52 
percent comparability pay. The Department has worked to close this gap 
in phases, the third and final of which was scheduled to be implemented 
this August and would have increased comparability pay to the 
Washington, DC, locality pay rate.
    The pay disparity does not just result in a short-term reduction in 
pay for Foreign Service employees serving abroad; rather, the effects 
are long-lasting and compound over the course of an employee's career. 
Retirement contributions to the Federal Thrift Savings Plan (TSP) are 
based on an employee's basic pay, which includes locality pay. This 
means that without overseas comparability pay, Foreign Service 
employees who spend large portions of their careers representing and 
protecting their country's interests abroad, would receive smaller 
employer contributions than their colleagues who remained in 
Washington.
    Overseas comparability pay is not a pay raise, nor is it an 
additional allowance or benefit. It corrects a 17-year-old unintended 
inequity in the worldwide Foreign Service pay schedule. Without 
overseas comparability pay, the disparity in basic pay between overseas 
and domestic assignments would continue to grow once annual locality 
adjustments are reinstituted after the current Federal pay freeze, and 
would increasingly undermine existing incentives to serve overseas.

    Question #81. Explain what that cut would mean to the diplomats 
serving in places like Egypt, Libya, Afghanistan, and Iraq.

    Answer. Foreign Service employees serving overseas generally 
receive certain allowances and differentials that are not part of basic 
pay but are intended to offset the higher costs and different and 
dangerous living conditions that exist overseas. Before the 
implementation of overseas comparability pay, a Foreign Service 
employee serving in Washington, DC, made more than employees serving in 
many hardship posts. This created a significant financial disincentive 
to overseas service--a disincentive not ameliorated, as critics argue, 
by existing incentives and allowances. Hardship differential and danger 
pay are designed to compensate employees for extraordinarily difficult 
living conditions and for the threat of physical harm in specific 
circumstances; they are not intended to serve the same purpose as 
locality pay. But, for the sake of comparison, even the 25 percent 
combined hardship differential allowance and danger pay of posts such 
as Egypt would barely surpass Washington, DC's 24.22 percent locality 
pay.
    While the existing hardship differentials and danger pay for 
service in our most difficult overseas posts would remain if overseas 
comparability pay is reduced, their value as incentives to overseas 
service and compensation for hardships endured would diminish. Most 
allowances and differentials provided at overseas posts are calculated 
based on an employee's rate of basic pay (including any applicable 
comparability pay). Accordingly, if a cut to Foreign Service basic pay 
is made, the value of hardship and danger pay differentials in 
Afghanistan or Iraq will be significantly diminished from their current 
levels, and, as in the case of Egypt, cease to be the incentives they 
were designed to be for those undertaking the hardship and risk of 
these posts relative to Washington.
    Like all of their colleagues serving overseas, our entry- and mid-
level diplomats serving in these arduous assignments would suffer 
reductions in their basic pay and in applicable hardship differentials 
and danger pay. At a time when we are asking these employees to do more 
on the front line to advance our Nation's interests, we would be 
damaging their--and their families'--financial well-being.

    Question #'s 82-84. On December 16, after a 17-month review, the 
Department released the long-awaited Quadrennial Diplomacy and 
Development Review (QDDR), which provides a broad assessment of how 
State and USAID can become more efficient, accountable, and effective 
in a world in which rising powers, growing instability, and 
technological transformation create new challenges and opportunities. 
It specifically focuses in four areas: (1) Build America's civilian 
power by bringing together unique contributions of civilians across the 
Federal Government to advance U.S. interests, (2) elevate and transform 
development by focusing on results, targeting investments, and 
supporting innovation, (3) build civilian capacity to prevent and 
respond to crisis and conflict, (4) change the current business model 
by seeking efficiencies, planning and budgeting to accomplish our 
priorities, and measuring results of U.S. investments.

  <bullet> Can you please describe efforts at the State Department and 
        USAID to implement the recommendations in the QDDR? Is there a 
        timeline? What are the next steps in the process?

    Answer. Implementing the QDDR's many recommendations, given the 
breadth and depth of culture change much of this effort compels, will 
be challenging. Elevating the role of civilian power in our national 
security efforts and reinvigorating the responsibility and 
accountability of State and USAID will require more than just moving 
boxes on an organizational chart.
    The Department of State and USAID are approaching implementation in 
a structured, phased manner, the goal of which is to fully 
institutionalize our efforts within the next year. At State, QDDR 
working groups identified 19 objectives that we plan to implement. 
USAID working groups identified 24, several of which fall under USAID 
Forward, an institutional renewal effort which was an early outcome of 
the QDDR process. Multiple QDDR objectives share equities between 
agencies, so joint consultation and collaboration efforts have and will 
continue to take place. I will continue to call on senior officials 
from throughout both agencies to lead and deliver these reforms and 
results. In January, I convened the first-ever worldwide Chiefs of 
Mission Conference in order to specifically target the views and 
insights of these CEOs of diplomacy and development.

    Question #85. HAITI: The runoff election for the Haitian Presidency 
is scheduled to be held on March 20, 2011. Are you confident that the 
sweeping allegations of fraud that marred the first round of elections 
will not occur for the March runoff?

    Answer. Initial assessments suggest that the March 20 elections 
took into consideration some of the lessons learned from the November 
28 elections and were largely peaceful. While there were limited 
problems with voting supplies in a number of polling stations in Port-
au-Prince, most of them appeared to have been corrected in a timely 
fashion and hours extended at those locations to accommodate all 
voters. There have been allegations of fraud, though fewer than in the 
last round, and observer groups and we are still evaluating the extent 
of any wrongdoing.
    The OAS electoral observation mission believes turnout may have 
been slightly higher than November 28.
    Haiti's Provisional Electoral Council (CEP), with assistance from 
major electoral donors including the United States, implemented a 
series of measures to tackle some of the major problems encountered 
during the first round. These included improving the accuracy of the 
voter lists, expanding voter outreach activities and services to ensure 
that voters know ``where'' and ``how'' to vote, dismissing poll workers 
implicated in malfeasance during the first round, and implementing a 
number of the Organization of American State (OAS) recommendations 
regarding streamlining and institutionalizing processes in the vote 
tabulation center (CTV).
    For its part, the USG focused its on-the-ground capacity on 
minimizing voter disenfranchisement by supporting activities which 
helped voters locate their names on voter lists, and find their polling 
stations; improved organization and transparency at the polling 
stations with the aim of increasing the credibility of the electoral 
results; and promoted transparency and credibility of the tabulation 
process. Some of our specific areas of support included the expansion 
and the launch of the CEP call center, and support for a UNDP and CEP 
led ``SMS push'' to send texts to thousands of voters via their cell 
phones inviting them to text back their ID card numbers, free of 
charge, to receive their polling station location information. These 
efforts yielded positive results as reflected by the success of the CEP 
call center, which fielded over 247,000 calls between its February 21 
launch and March 18, and the fact that over 1 million voters, out of an 
estimated 4 million total, received their voting center information 
thanks to the SMS messaging campaign. As a result of these efforts, 
observers noted much less confusion over the location of polling places 
compared to the first round.

    Question #86. What impact might the election of either Manigat or 
Martelly have on relations with the United States and on reconstruction 
and humanitarian assistance efforts?

    Answer. The United States looks forward to a timely, peaceful 
transition from one democratically elected President of Haiti to the 
next. We are confident that both Madame Manigat and Mr. Martelly will 
want to continue Haiti's solid partnership with the United States in 
post-earthquake recovery efforts. A government that enjoys public 
support and legitimacy will be crucial in order to make the difficult 
decisions necessary for Haiti's reconstruction.

    Question #87. Is it fair to hope that the pace of reconstruction 
programs will pick up?

    Answer. As President Obama has made clear, the United States 
commitment to Haiti will be sustained. We and our international 
partners have made progress, and will make more. It often takes 18 
months or more for a foreign assistance to hit its stride, particularly 
in an environment with as many challenges as Haiti faces.
    We know progress in Haiti's recovery is not always obvious, and we 
understand people's frustration, but it is nevertheless there. Thanks 
in part to efforts of the United States, the Haitian Government led a 
proactive preparation and response to Hurricane Tomas, and the Ministry 
of Public Health, including its National Laboratory, identified cholera 
as soon as it appeared and since then has been coordinating the 
international response to the outbreak. We have employed over 350,000 
people through temporary employment programs, which have injected 
needed cash into the economy. Our agricultural programs have increased 
crop yields by up to 75 percent among participants. For several months 
after the earthquake, the U.S. Government, working with the U.N. World 
Food Programme and other partners, provided food for over 4 million 
people--the largest emergency urban food distribution in history--and 
continue to provide 1.9 million Haitians with targeted food assistance.
    The U.S. Government and international partners provided basic 
shelter materials to 1.5 million people before the start of the rainy 
season in May. Since the earthquake, the U.S. Government has supported 
the immunization of more than 1 million Haitians against highly 
communicable disease including polio and diphtheria.
    The unprecedented collaboration between governments, multilateral 
organizations, and the private sector to marry development dollars and 
private investment to create permanent jobs likewise takes place out of 
the spotlight. The Department of State signed two Memoranda of 
Understanding with the Government of Haiti, the Inter-American 
Development Bank and two of the world's largest garment manufacturers 
from Korea. These MOUs laid the groundwork for an industrial park that 
will provide tens of thousands of permanent jobs, permanent housing for 
thousands of Haitians, and a significant economic bump for the nation.
    There is still much to do. The best chance Haitians have of 
transforming their country and embarking on a path toward economic 
opportunity is now. To support this path, we are planning and 
implementing our assistance in such a way that it empowers the 
Government of Haiti and strengthens its core institutions of 
governance, while ensuring accountability to the Haitian people. One of 
our most valuable assets in this effort will be a democratically 
elected government that enjoys public confidence and can therefore make 
difficult decisions. As that next government gains experience, the pace 
of Haiti's recovery should increase.

    Question #'s 88-90. Global Security Contingency Fund.--For fiscal 
year 2012, the administration is proposing a ``Global Security 
Contingency Fund'' that would provide very broad authority for the 
Departments of State and Defense to pool up to $500 million per year to 
train and equip foreign military, internal security, and--in some 
cases--law enforcement forces.

  <bullet> Can you cite specific examples from your time as Secretary 
        where the United States missed an opportunity to shape events 
        in a particular crisis because it did not have the authority 
        you are proposing?

    Answer. There have been several occasions in the past when this 
fund would have been useful. For example, in Yemen, counterterrorism 
(CT) responsibility lies with multiple organizations including some 
that do not report to the Ministry of Defense (MOD). To be effective, 
assistance programs must also target these non-MOD civilian security 
providers as well, not just the military. State accounts like FMF could 
accomplish this but did not have sufficient funding. DOD's 1206 account 
had sufficient funding, but lacked the authority to provide assistance 
to non-MOD CT forces in Yemen. Consequently, the administration had to 
seek a new authority for DOD to provide assistance to non-MOD CT forces 
in Yemen, thereby delaying the provision of assistance. The Global 
Security Contingency Fund (GSCF) would have allowed us both to engage 
earlier and to avoid seeking additional niche assistance authorities.
    We envision specific uses of the GSCF in the future will vary 
depending on the emergent threat or opportunity and operating 
environment. Current events in the Middle East suggest increased 
flexibility and agility in U.S. Government responses within the budget 
cycle will certainly be necessary to respond to rapidly changing 
circumstances in regions critical to U.S. interests. We believe that 
the GSCF would enable the U.S. Government to respond more rapidly and 
more comprehensively to emergent requirements through programs that 
provide assistance to both security forces and the governmental bodies 
responsible for such forces. We envision that such assistance would 
often include instruction on accountability, human rights, and resource 
management to help develop responsible security forces.

  <bullet> Many times last year during the New START debate we used 
        that old phrase from nuclear arms control, ``trust but 
        verify.'' If Congress trusts the executive branch with this 
        flexible authority to equip foreign military and internal 
        security forces, how should we go about verifying that this and 
        future administrations will use this authority effectively and 
        will at the same time uphold other key values and principles, 
        such as human rights, controls over sensitive military 
        technologies, and preventing a destabilizing proliferation of 
        small arms and light weapons?

    Answer. We will continue to collaborate with Congress as this fund 
is established and put to use. In a manner similar to that of the 
Complex Crisis Fund, we expect to conduct regular consultations with 
Congress on the use of the Global Security Contingency Fund (GSCF). We 
will report to Congress on the use of GSCF funds on a quarterly basis 
so that you can indeed verify that our use of the authority provided in 
the GSCF is both prudent and effective. We have drafted this initiative 
as a pilot program in order for both the administration and Congress to 
evaluate its use and confirm its utility before extending the duration 
of the authority. We believe these steps are in keeping with a ``trust 
but verify'' approach.

  <bullet> Why do you see a need to insulate this proposed account from 
        limits on support to gross violators of human rights, state 
        sponsors of terrorism, or military coups that overthrow duly 
        elected governments?

    Answer. The Global Security Contingency Fund is not being 
insulated. We are requesting, as we do for all funds related to crises, 
urgent circumstances, or emergent needs, special flexible authority 
(e.g., ``notwithstanding'' authority). Such flexibility does not mean 
that the fund would be isolated from existing limits; rather, it 
provides us the ability to overcome such limits should the need arise.

    Question #91. Separate from this pooled resources proposal, what 
other steps are the Departments of State and Defense taking to improve 
their ability to work together in response to complex security 
situations?

    Answer. A strong partnership between the State Department and the 
Department of Defense (DOD) is critical to address the serious 
international challenges that the United States faces today. Whether it 
is referred to as Smart Power, the three-legged stool of diplomacy, 
development, and defense (3D), or simply interagency collaboration, the 
goal is the same: to fully use the talents of all our people and our 
resources in the most effective and efficient way possible in pursuing 
U.S. national interests.
    When most people think of State and DOD coordination, they focus on 
what occurs in Washington, but it is also important to appreciate what 
has long been the case outside the Beltway, in the field. Country Teams 
at each of our embassies reflect close, productive State-DOD 
collaboration. Interagency cooperation takes place very effectively 
under the leadership of our Chiefs of Mission around the globe.
    Our partnership with the Department of Defense spans the full 
spectrum of regional and functional diplomacy at the Department of 
State. On a daily basis State and DOD collaborate on issues ranging 
from global defense posture to energy security and from partner 
capacity-building to countering weapons of mass destruction. 
Counterterrorism, counterpiracy, counternarcotics, counterproliferation 
and countertrafficking are just some of the areas where we work 
together to address threats to our national interests. Our 
collaboration and cooperation occurs daily and crosses the full 
spectrum of activities from contingency planning to humanitarian 
relief, and from coordinating strategic, diplomatic messages to 
evacuating our citizens in danger overseas. In the broad area of 
foreign policy in the security sector, it is impossible to find an 
instance where State-DOD dialogue is not occurring.
    Our partnerships with DOD's Combatant Commands (COCOMs) are a key 
component of a seamless, whole-of-government approach to national 
security. We partner with COCOMs to achieve the peaceful resolution of 
conflict, promote democracy and good governance, and address 
transnational challenges worldwide. We work diligently to provide State 
Department personnel to all COCOMs. We have COCOM personnel working 
inside U.S. embassies and State Department employees working at COCOM 
headquarters to coordinate programs and improve partner nations' 
security capacity. We detail personnel to those commands through a 
robust and growing State-Defense exchange program and through our 
Foreign Policy Advisor (POLAD) program so commanders can be better 
informed by foreign policy as they pursue military or civilian-military 
activities, often in support of State-led activities. The commanders of 
U.S. Southern Command, U.S. Africa Command, and U.S. European Command 
have gone so far as to empower three Ambassadors as Deputies to the 
Commander, giving them unprecedented oversight responsibilities. U.S. 
Southern Command tells us that having our POLAD serve as a civilian 
Deputy to the Commander helped them coordinate a fast and effective 
response to the heartbreaking earthquake in Haiti.
    Back at the State Department our Bureaus benefit from having 
military advisors on our staff and we coordinate with DOD in a number 
of ways, not least of which is State participation in DOD planning here 
in Washington--a means to ensure DOD plans, force posture, and 
operations are fully informed by foreign policy considerations.
    True interagency coordination cannot be realized if two of the legs 
in the 3-D stool are perennially short and unstable. We have had no 
greater champion than Secretary Gates in stressing the need for this 
balance and support, especially when thinking about efficiency and 
long-term effectiveness. Given the range of dynamic national security 
challenges facing our country and the budget constraints we all face, 
there is no alternative for the State Department and the Defense 
Department, but to continually work to improve interagency coordination 
every day and at every level. We owe the American people--and our 
talented, hard-working, and dedicated professionals, whether soldiers, 
diplomats, or development experts--nothing less.

    Question #92. When you visited Ecuador last year, you stressed the 
Andean countries' political progress and economic growth, much of which 
was enabled by ATPDEA. The program expired on February 12. Do you 
support a renewal of ATPDEA, and do you agree that a longer extension 
would better support U.S. foreign policy priorities than a short one?

    Answer. We urge the Congress to reauthorize the Andean Trade 
Promotion and Drug Eradication Act (ATPDEA), as well as the Generalized 
System of Preferences (GSP), at the earliest opportunity, and for the 
longest period possible. These programs support U.S. jobs, promote 
economic development overseas, and provide greater certainty for 
American businesses and investors. The lapse in GSP and ATPDEA 
authorization has already cost U.S. businesses millions of dollars in 
additional import duties, has increased costs to American manufacturers 
and consumers, and has undercut efforts by Peru, Colombia, and Ecuador 
to grow their economies and fight poverty. If the programs are not 
reauthorized soon, many U.S. importers may be forced to find other 
sources for their GSP and ATPDEA imports, raising costs for all, and 
undermining the development objectives of the programs. Failure to 
renew the ATPDEA program has already adversely affected a number of 
Ecuadorian exporters through lost sales and damaged business 
relationships as U.S. importers have sought alternate suppliers.
    Ecuador is a significant transit country for cocaine and heroin 
with a final destination in the United States. Counternarcotics 
cooperation with Ecuador in recent years has led to numerous multi-ton 
interdictions and other successes, such as the seizure of the world's 
first fully submersible submarine used for drug trafficking. Losing 
ATPDEA could potentially reduce the Government of Ecuador's willingness 
to cooperate with the United States on counternarcotics.

    Question #93. Peru has an FTA, and the administration has declared 
a commitment to secure an FTA for Colombia. Looking down the road, what 
are the implications of those FTAs for Ecuador and others in the region 
that do not have FTAs with the United States?

    Answer. The administration is committed to working with our 
partners around the world and in the region to foster a trade-based 
prosperity that is more widely shared. Increased trade holds the 
promise of boosting economic development and improving lives in poor 
and developing countries around the world. The Andean Trade Promotion 
and Drug Enforcement Act (ATPDEA) would give Ecuador limited 
preferential access to the U.S. market and is therefore vital to 
Ecuador's ability to remain competitive in the U.S. market, as the 
United States trade promotion agreement with Peru and our pending 
agreement with Colombia give those countries much broader opportunities 
for growth and development. Failure to renew and extend ATPDEA has put 
in jeopardy the economic development efforts of Colombia and Ecuador, 
and has negatively affected U.S. businesses and consumers. Therefore, 
we urge Congress to reauthorize ATPDEA, as well as the Generalized 
System of Preferences (GSP), at the earliest opportunity, and for the 
longest period possible.

    Question #94. In the absence of ATPDEA, what other mechanisms of 
trade engagement is the administration considering?

    Answer. The United States continues to engage Ecuador on trade 
matters through the U.S.-Ecuador Bilateral Dialogue. This dialogue 
covers a range of topics of common interest under four broad themes--
security, migration, trade, and issues involving investments, 
cooperation, and technical assistance. The range of issues highlights 
the depth and breadth of bilateral relations between the United States 
and Ecuador. A more focused discussion of trade issues is also 
conducted within the U.S.-Ecuador Trade and Investment Council process 
managed by the Office of the U.S. Trade Representative. The next 
Bilateral Dialogue and Trade and Investment Council meetings are 
presently scheduled for June 2011 in Quito.

    Question #95. What will the money be spent on?

    Answer. The focus of our assistance programs in Cuba remains on 
providing humanitarian assistance to political prisoners and their 
families, strengthening Cuban civil society and encouraging civic 
participation, and promoting fundamental freedoms and basic human 
rights, including free expression.
    We continue to stress the importance of access to information and 
the free circulation of information to, from, and within the island. To 
improve human rights conditions on the island, our programs will 
increase the capacity and professionalism of civil society groups to 
monitor and document human rights abuses. Programs also provide for 
dissemination of information about market economies. All such programs 
will be designed to reach a broad range of Cuban society.

    Question #96. What lessons have been learned from the case of USAID 
contractor Alan Gross?

    Answer. As you know, program implementation in Cuba presents unique 
challenges. After the detention of Mr. Gross, USAID and Department of 
State developed and formalized guidelines designed to improve 
implementation of the programs. In addition, collaboration between U.S. 
foreign assistance agencies has also substantively improved, 
particularly in terms of communication about grantee relationships and 
information-sharing. We are confident that these programs are receiving 
proper oversight and are meeting their key objective of supporting the 
Cuban people's desire to freely determine their own future.

    Question #97. Kyrgyzstan has experienced tremendous upheaval over 
the past year. Following the ouster of President Kurmanbek Bakiyev last 
April, violence erupted between ethnic Kyrgyz and Uzbek communities. 
Over 400,000 people were displaced from their homes, many of whom took 
refuge in neighboring Uzbekistan, and more than 400 were killed. The 
situation has stabilized but remains precarious.

  <bullet> What is the status of plans to assist with reconciliation 
        efforts in Kyrgyzstan?

    Answer. The United States is working with the people of the Kyrgyz 
Republic through a broad spectrum of engagement and assistance 
programming to build democracy and promote peace and reconciliation. 
Following the June 2010 violence, the United States directed 
significant emergency resources to address humanitarian needs and begin 
the process of reconciliation. Shortly after the conflict, USAID's 
Office of Transition Initiatives began a $20 million community-level 
stabilization project which is working to relieve tension between 
ethnic communities through local-level economic development. In 
addition, $15.88 million of Section 1207 FY 2010 funding will be used 
to address underlying causes of instability, support local sources of 
resilience, and develop the capabilities of Kyrgyz security and 
governance institutions in southern Kyrgyzstan to respond accountably 
and effectively to conflict. Two million dollars in DRL funding for 
FY09 and FY10 are targeted to increase discussion of human rights 
issues and ease access to independent sources of information.
    Many portions of the funding requested for FY 2012 will assist in 
the reconciliation process, including approximately $2 million for a 
USAID Youth Empowerment Program aimed at reducing the potential for 
conflict and addressing reconciliation and a significant portion of the 
expected $750,000 budget for Embassy-sponsored small grants. In 
addition, $3.8 million will be used to facilitate reform of security 
forces including the goals of improving police respect for human 
rights, and greater representation of ethnic minorities in police 
forces. The USG will also use $2.2 million to support reform and 
training for prosecutors and judges to improve professionalism and 
reduce the occurrence of ethnically motivated prosecutions. Programs 
focused on the educational sector will use $2.3 million to ensure 
universal access to primary and secondary education for children in 
conflict affected areas of southern Kyrgyzstan. In addition, the $10.6 
million food security and agricultural improvement project will include 
activities focused on conflict affected areas to ensure equitable 
access to water for irrigation and agribusiness partnerships between 
Uzbeks and Kyrgyz to increase farmer incomes in all communities.

    Question #98. Kyrgyzstan has experienced tremendous upheaval over 
the past year. Following the ouster of President Kurmanbek Bakiyev last 
April, violence erupted between ethnic Kyrgyz and Uzbek communities. 
Over 400,000 people were displaced from their homes, many of whom took 
refuge in neighboring Uzbekistan, and more than 400 were killed. The 
situation has stabilized but remains precarious.

  <bullet> In particular, what measures are we considering to bolster 
        economic cooperation between ethnic Kyrgyz and Uzbek 
        communities?

    Answer. Shortly after the June 2010 violence, the United States 
directed emergency resources to initiate the process of reconciliation 
and facilitate economic recovery in the most violence-prone areas of 
southern Kyrgyzstan. USAID's Office of Transition Initiatives (OTI) 
established a $20 million community-level stabilization project known 
as the Kyrgyzstan Confidence Building Initiative , which seeks to 
relieve tension between ethnic communities through local-level economic 
development. This effort provides small grants to civil society, local 
government, and private sector partners to facilitate reconciliation 
and stability. The project supports community-defined, high-impact, 
short-term activities in volatile communities to enhance public 
services, engage youth and other potentially restive populations, and 
provide an injection of income and employment into marginalized 
communities. To date, the OTI has completed or initiated a total of 103 
activities totaling $5.5 million.
    One focus of the program is to build or emphasize economic links 
between Kyrgyz and Uzbek businesses to increase connections between the 
two communities. Recent projects have helped to mitigate conflict 
through increased access to irrigation water in Tashbulak; engaged at-
risk youth during the April 2010 anniversary; brought together Kyrgyz 
and Uzbek entrepreneurs and government representatives for a 2-day 
economic recovery roundtable in Osh; improved street lights to restore 
citizens' confidence in Jalalabad city; and built community cohesion by 
rehabilitating Osh's Kelechek Youth Center.

    Question #99. On February 8, 2011, the United States and Kyrgyzstan 
signed an amendment to the Manas Transit Center's (MTC) leasing 
agreement that will allow a Kyrgyz state-owned enterprise, the Manas 
Refueling Complex, to supply up to 50 percent of the fuel consumed at 
MTC. Can you update the committee on these negotiations and the steps 
the United States is taking to encourage the Kyrgyz Government to 
handle fuel payments in a transparent and accountable manner?

    Answer. The agreement signed on February 8, 2011, is a new 
bilateral agreement which will allow the United States to contract with 
a Kyrgyz Government-designated entity or entities to supply a portion 
of the fuel requirements of the Manas Transit Center (MTC). The 
February 2011 agreement awaits ratification by Kyrgyzstan's Parliament 
and has not yet entered into force. The Defense Logistics Agency 
altered the most recent fuel solicitation, which was awarded 
competitively in November 2010, to allow for a second organization to 
supply 20-50 percent of the fuel requirement.
    A Defense Logistics Agency team recently traveled to Bishkek to 
advise Kyrgyzstani officials on how to meet technical requirements for 
fuel supply to the Transit Center. After the agreement enters into 
force, we will expeditiously seek to conclude a commercial contract 
with a Kyrgyz Government-designated entity to supply fuel.
    The United States is working with the Government of Kyrgyzstan to 
provide maximum transparency in all aspects of the bilateral 
relationship with special emphasis on fuel contracts for the Manas 
Transit Center. The United States has published details of the impact 
of the MTC on the Kyrgyz economy, including all quarterly access 
payments made to the Government of Kyrgyzstan since fiscal year 2008 on 
the MTC and U.S. Embassy Web sites. Similarly, both the U.S. Embassy 
and MTC Web sites now publish current data on the volume, price, 
quantity, and vendor for fuel shipments to the MTC. The United States 
also encourages the Government of Kyrgyzstan to publish detailed data 
on its budget and budget adoption process to give citizens of 
Kyrgyzstan a better understanding of their country's fiscal situation. 
These and other enhanced transparency measures are an essential first 
step toward eliminating public corruption and waste. The United States 
has encouraged the Government of Kyrgyzstan for its initial steps and 
will continue to look for other opportunities to promote transparency 
in our relations.

    Question #100. The United Nations Office on Drugs and Crime 
estimates that the extent of drug trafficking in Central Asia is 
``significantly higher than the volume seized and increasing 
annually.'' Could you highlight for the committee what steps are being 
taken to reverse these trends?

    Answer. We have also noted with concern that seizure rates in 
Central Asia are not very high considering the extent of the traffic 
through that region. There have been increases in some countries but 
they have been offset by decreases in others. In particular, the change 
in government and subsequent interethnic violence in southern 
Kyrgyzstan, the locus of most trafficking in that country, has had a 
serious negative impact on seizure rates. However, while seizures are 
important, they are only one tool toward addressing the problem of 
narcotics trafficking. Even in developed countries, including the 
United States, only a small portion of illicitly trafficked drugs are 
seized. More effective is targeting and breaking up the organized 
criminal rings that oversee the trafficking. We therefore work to 
promote intelligence collection and sharing, and counternarcotics 
vetted units in our assistance to governments in the region. The aim is 
to use intelligence collection and analysis, and effective 
investigative teams, including police, prosecutors and judges, to 
target organized traffickers, seizing and confiscating their assets and 
bringing them to justice. We will further our goals by employing 
lessons learned and successful strategies from our counternarcotics 
program in Afghanistan, and will work with international institutions 
including the U.N. Office on Drugs and Crime and the Central Asian 
Regional Information and Coordination Center. In addition to promoting 
the development of counternarcotics intelligence-sharing and vetted 
units, we also work to build the political will of governments to 
support such activities.

    Question #101. The United Nations Office on Drugs and Crime 
estimates that the extent of drug trafficking in Central Asia is 
``significantly higher than the volume seized and increasing annually.

  <bullet> How do we translate the Paris Pact Initiative into 
        sustainable action on the ground?

    Answer. Under the Paris Pact umbrella, the U.N. Office on Drugs and 
Crime (UNODC) operates three major tools for participants: a 56-member 
consultative mechanism to define regional policy priorities and develop 
expert-level recommendations for combating the drug trade; an online 
database, called the Automated Donor Assistance Mechanism (ADAM), 
through which U.N. Member States and other international organizations 
exchange information on bilateral and multilateral capacity-building 
programs; and a network of research analysts that work with major 
transit and destination countries to improve data collection and 
information-sharing on the drug trade.
    Since 2003, the Paris Pact has helped consolidate regional 
political agreement regarding the primary causes and effects of the 
Afghan drug trade, and has guided donor support to Afghanistan and 
other countries affected by Afghan narcotics. Over the past 2 years, 
the United States has worked with the UNODC Secretariat and other Paris 
Pact members to focus expert-level working groups on emerging, critical 
issues that can only be addressed via a regional response. Several 
examples include combating the diversion of heroin precursor chemicals 
from neighboring states into Afghanistan; examining the domestic and 
international legal framework for engaging in controlled deliveries 
between Afghanistan and its neighbors; and recommending improvements to 
joint cross-border law enforcement operations in the region.
    The United States continues to view the Paris Pact as a mechanism 
to bridge political differences surrounding the Afghan drug trade and 
to engage in collaborative responses to this transnational challenge. 
Based on guidance and feedback from Paris Pact members in 2008, UNODC 
produced a series of thematic strategy papers--on precursor chemical 
control, border management, illicit crop eradication, drug demand 
reduction, and other relevant issues--called the Rainbow Strategy, 
which generally form the basis for UNODC-led programmatic responses to 
the Afghan drug trade today. While not all of these papers have been 
implemented as originally envisioned, concrete examples of progress to 
date include three iterations of a regional law enforcement operation 
to seize heroin precursor chemicals under the Targeted Anti-Trafficking 
Regional Communication, Expertise and Training (TARCET) initiative; the 
development of a highly successful Container Control Program to 
strengthen law enforcement capacity at major commercial ports in 
Afghanistan, Pakistan, and Central Asia; and the establishment of the 
innovative Central Asian Regional Information and Coordination Center 
(CARICC), an intelligence hub that promotes information-sharing and 
joint operations between Central Asian law enforcement and drug control 
agencies. The Paris Pact has also supported the Triangular Initiative's 
efforts to build political will and technical capacity for Iran, 
Afghanistan, and Pakistan to engage in cross-border counternarcotics 
activities to combat the estimated 255 Metric Tons of opiates that exit 
Afghanistan via Pakistan and Iran.
    On March 17, the Paris Pact's Policy Consultative Group approved a 
proposal by the Russian Federation for UNODC to host a Third 
Ministerial Meeting of the Paris Pact in late 2011. The United States 
joined consensus during these deliberations, and on March 25, 
cosponsored a resolution at the U.N. Commission on Narcotic Drugs 
endorsing the Paris Pact's decision to convene Foreign Ministers.

    Question #102. Given the complicated relationship with Pakistan, 
alternate supply routes into Afghanistan are critical to our national 
security interests. How are we balancing the need for reliable access 
to such routes with our responsibility to protect the fundamental 
rights and freedoms of the people of Central Asia and of Uzbekistan in 
particular?

    Answer. We highly value the contributions that Central Asian 
countries have made toward our goals in Afghanistan, including 
providing critical transit routes for non-lethal cargo and 
reconstruction efforts. At the same time, we continue to urge the 
governments in the region to create more space for freedom of the 
press, civil society, freedom of religion, and independent political 
parties. In 2009, the United States began holding annual bilateral 
consultations (ABCs) with each of the Central Asian countries to 
broaden and deepen our cooperation across the full range of bilateral 
issues, including in the areas of security and human rights. Senior 
representatives from the Bureau of Democracy, Human Rights and Labor 
and the Helsinki Commission participated in the February 17-18 ABCs in 
Tashkent . The United States has also spoken out on human rights issues 
in multilateral fora such as the Organization for Security and 
Cooperation in Europe. Senior U.S. Government visitors to the region 
make it a point to meet with representatives from civil society and the 
independent media and also have frequent wide-ranging and detailed 
discussions on human rights with the senior Central Asian government 
leaders.
    In addition to meetings and consultations, the State Department 
issues annual reports on human rights, religious freedom, and 
trafficking in persons that identify shortcomings and note progress. 
U.S. assistance programs in the region include significant support for 
democracy, rule of law, antitrafficking, and human rights along with 
strengthening border controls and security cooperation. In the case of 
Uzbekistan, the United States is pursuing cooperation through 
independent NGOs and the government to realize President Karimov's 
stated desire, expressed in his November 2010 speech, to strengthen 
civil society, the media, and the rule of law in Uzbekistan.

    Question #103. According to Reporters without Borders' 2010 Press 
Freedom Index, the countries of Central Asia have seen a net decline in 
press freedom over the past year. Do you agree with their conclusions?

    Answer. Yes. In recent years, the general trend across Central Asia 
has seen media freedom increasingly restricted, though there have been 
limited exceptions, such as in Kyrgyzstan.
    A free media is a vital cornerstone of modern democratic society, a 
benchmark for respect of freedom of expression, including the reporting 
of news and competing views on policy options. Free and independent 
media enables consumers of news to know their rights, to be informed, 
and thus to be able to effectively exercise their rights. Wherever 
independent media are under threat, accountable governance and human 
freedom tend to be undermined.
    For the last 35 years, the United States has produced the ``Country 
Reports on Human Rights Practices,'' providing the most comprehensive 
record available of the condition of human rights around the world. 
Each country-specific report includes a robust section on freedom of 
speech, including for the press and on the Internet. For the most 
detailed assessment of these freedoms, I encourage you to consult the 
forthcoming 2010 Country Reports.

    Question #104. What steps can we take to reverse the negative trend 
lines? [Of press freedom as reported by Reporters without Borders' 2010 
Press Freedom Index]

    Answer. One mechanism we use to strengthen our engagement and to 
promote dialogue on human rights such as freedom of expression and 
independent media is the Annual Bilateral Consultations (ABCs) that we 
instituted in 2009 with each Central Asian country. Each ABC consists 
of a face-to-face structured dialogue between our governments, led on 
the U.S. side by Assistant Secretary Blake and including senior 
representatives from the Bureau of Democracy, Human Rights and Labor 
and other Department of State bureaus as well as other government 
departments.
    The United States has repeatedly urged the repeal of laws 
criminalizing defamation and other expressions of opinion in 
multilateral fora such as the Organization for Security and Cooperation 
in Europe as well as in the ABCs and other bilateral venues. We appeal 
to the governments not to apply excessive civil penalties or criminal 
statutes that cripple media outlets, threaten journalists directly and 
limit freedom of speech indirectly through self-censorship.
    In addition to government-to-government interactions, our embassies 
regularly engage with nongovernmental organizations, civil society, and 
media outlets to discuss human rights concerns.
    Through a variety of public diplomacy and foreign assistance 
programming, the United States provides funding and programming to help 
reverse these negative trends in media freedom. Specifically, we 
provide opportunities for foreign journalists and aspiring journalists 
to undertake formal and informal study in the United States; arrange 
dialogues between U.S. media experts and foreign journalists--both in 
person and through the Internet; provide capacity-building training for 
journalists, bloggers, and human rights advocates; and support numerous 
NGOs dedicated to the advancement of human rights and democratic values 
though small grants.
    We view our assistance funding to the region as a critical tool in 
accomplishing our policy goals.
    At the Organization for Security and Cooperation in Europe (OSCE), 
the United States is one of the leading voices on behalf of media 
freedom, and works closely with the OSCE Representative on Freedom of 
the Media, Ms. Dunja Mijatovic. At the OSCE Permanent Council, we 
frequently raise cases of states that have failed to implement their 
media freedom commitments fully, especially in Central Asia. We also 
fund two annual conferences hosted by the OSCE Representative on 
Freedom of the Media, including one in Central Asia.

    Question #105. Please provide the committee with the latest 
interagency strategy on Central Asia.

    Answer. Since the early 1990s, the primary U.S. policy goal in 
Central Asia has been to ensure that the countries remain sovereign and 
independent, and help them develop toward stable, market-oriented 
democracies. The events of September 11, 2001, made clear our common 
security concerns and led to a significant broadening of the 
relationship. We also believe that developing a more substantive, 
consistent relationship with these countries in areas of mutual 
interest will open room for progress on democracy and human rights.
    Our Central Asia strategy includes integrated priorities: we seek 
to expand cooperation with the Central Asian states to support efforts 
in Afghanistan; we seek to promote development and diversification of 
the region's energy resources; we encourage greater political 
liberalization and respect for human rights; we aim to help develop 
competitive market economies and promote economic reforms; and we seek 
to address problems of poverty and food security. These issues are 
interconnected, and progress in one area can help reinforce progress in 
another area.
    Last fall the National Security Council initiated an interagency 
review of U.S. strategy in Central Asia which is ongoing but we believe 
the basic priorities of our approach are sound.

    Question #106. During the hearing, you noted the progress made by 
other nations, such as China, in expanding their government-sponsored 
international broadcast activities. As these broadcasters expand their 
reach to U.S. audiences, it is still the case that China and other 
closed societies severely limit the ability of U.S. international 
broadcasting to report on and broadcast to these markets. For example: 
China jams BBG radio and Web content; limits the number of visas it 
will provide to BBG reporters to work in and report on China; and does 
not allow U.S.-sponsored programming to be broadcast on local media, 
cable networks, and the Internet.
    In the meantime, reporters from Chinese and other national 
broadcasters have free and open access to travel in the United States, 
can be posted to the United States on long-term assignment, and report 
freely on the news without personal threats or harassment.

  <bullet> How we can expect to expand our reach if we don't make this 
        a more prominent point in our bilateral discussions?

    Answer. The State Department shares your concern about the 
obstacles we face in communicating directly with the Chinese people. We 
frequently raise the issue with the Chinese--with their Embassy here 
and at various high-level meetings. Given the heavy censorship of the 
print and broadcast media, both the Department and BBG are increasingly 
taking advantage of the Internet to expand outreach to the Chinese 
public. The proposed Internet strategy for VOA would focus resources on 
the media most used by audiences in China, provide a more cost-
effective approach, and position U.S. broadcast efforts for the future. 
There has been a sharp decline in shortwave listenership in China. In 
contrast, the use of the Internet and mobile technology is increasing 
rapidly. China has the highest number of Internet users in the world. 
Despite blocking by the Chinese Government, many Chinese access BBG 
content through proxy servers. VOA will continue to produce audio and 
video programs which will be distributed on Web and mobile systems. 
Radio Free Asia will continue to broadcast to China via shortwave, 
giving RFA access to transmissions during peak listening hours and 
effective frequencies that were previously utilized by VOA. In 
addition, we will continue to advocate with the Chinese for the 
granting of more visas for BBG journalists to work in China.
    In addition, our mission in China increasingly focuses on Chinese 
portals and bloggers so as to reach broader and younger audiences. Due 
to a constant need for new content, Chinese Internet portals are very 
receptive to U.S. proposals for cooperation. These projects, including 
Web chats and blog hosting, cover topics including visas, U.S. 
elections, trade and the environment, and regularly generate over half 
a million page views each. President Obama's 2009 townhall with 
students in Shanghai generated more than 50 million hits. Active State 
Department Twitterfeeds target diverse audiences with content tailored 
to the interests of followers. Currently, the U.S. mission in China is 
piloting three new cell phone applications. Meanwhile, the Department 
continues to strongly advocate for Internet freedom in China.
    We do not believe limiting access by Chinese journalists to our 
country would serve our goals. The more Chinese journalists report from 
American soil, the more likely it is that important details of U.S. 
values and society will reach Chinese audiences. The open and 
democratic nature of the U.S. system does not lend itself to 
restricting access to Chinese journalists in the same fashion that is 
unfortunately imposed on U.S. and other foreign journalists in China.

    Question #107. During your rollout of the 2009 ``Trafficking in 
Persons Report,'' you emphasized the need to build effective 
partnerships in the fight against human trafficking. The role of 
diplomacy, early and often, is vital in building such bridges.

  <bullet> a. How have you been using diplomacy to create partnerships 
        with Tier 3, Tier 2 Watch List, and Tier 2 countries in the 
        common fight against human trafficking?

    Answer. While the report is an occasion for publicity, analysis, 
and engagement, the real action in the fight against modern slavery 
takes place throughout the year, too often unpublished and unseen, 
through the ongoing efforts of U.S. diplomats in Washington and in our 
embassies around the world. Our staff works daily in partnership with 
foreign governments and nongovernmental organizations to fight this 
heinous crime. U.S. diplomatic and programmatic achievements have 
included the passage of comprehensive antitrafficking laws, the 
establishment of shelters for victims, increased conviction rates, and 
support for antidemand efforts, especially for commercial sex. We are 
marshalling the resources of the entire State Department to tackle the 
issue of human trafficking worldwide and to embed it within our foreign 
policy. We realize that these achievements are not our own, but are 
created and brought to fruition with our foreign government partners.
    The fourth ``P'' of partnership in the fight against trafficking 
informs all of our work either in coordination with other federal 
agencies, the private sector, academic institutions, or NGOs. G/TIP 
actively works to create public/private partnerships in order to expand 
and share its unique expertise on human trafficking, leverage finite 
government resources, and advance new approaches to solving 
trafficking-related challenges. In 2010, we collaborated with UC 
Berkeley School of Law to assess promising government practices in 
prevention and protection. With the State Department's Senior Advisor 
for Innovation, we coordinated with the University of Southern 
California Annenberg School's Center on Communication Leadership & 
Policy, on a Human Trafficking and Technology seminar. We worked with 
the International Business Leaders Forum and the hospitality industry 
to offer life skills and employment training for human trafficking 
survivors; with federal agencies, NGOs, academics, and business in the 
development of a stronger set of standard practices to ensure that 
agricultural goods imported into the United States are not made with 
slave labor; and with the United Nations and the private sector on 
groundbreaking guidelines for corporate social accountability and human 
trafficking.
    Additionally, a message that we carry around the world is that law 
enforcement and NGOs, governments and civil society, and public and 
private sectors, must work together in partnership to achieve true 
antitrafficking accomplishments in the areas of prevention, 
prosecution, and protection. While we target our technical assistance 
and programming efforts primarily at Tier 2 Watch List and Tier 3 
countries, this messaging is embedded in the message we share with 
every country that we engage--Tier 1 through Tier 3.

  <bullet> b. Is the FY 2012 request of $20.8 million for the Office to 
        Monitor and Combat Trafficking in Persons sufficient to fulfill 
        the partnership mandate you have given it?

    Answer. Currently, our partnerships are largely developed through 
the convening and engagement of potential partners. Some of these 
partnerships do not require specific funding beyond staff to 
accomplish. We routinely provide advice, comments, and our expertise to 
civil society partners as they develop antitrafficking initiatives; in 
this way, we leverage our subject-matter expertise and further their 
programs because they compliment and support our targeted goals. Right 
now, we are partnering with the NGO and business community to promote 
and encourage the adoption of some corporate social accountability 
guidelines on human trafficking. In other partnerships, the Office has 
relied on the partners to provide the financial support for the 
particular project. A good example of this was the development of a 
partnership forged by the Office, USAID, NetHope, and the Demi and 
Ashton Foundation to find technological solutions to trafficking in 
Russia; the Office was unable to contribute financially to this effort, 
yet staff helped to ably guide and shape the content of the project. 
There are certainly other partnerships that the Office could undertake 
or even augment with the availability of matching funds to contribute.
     Partnerships also figure prominently as we work to ensure that the 
antitrafficking funds we administer are used most effectively. Through 
our competitive grant programs we support scores of projects each year 
in which we partner with U.S.-based NGOs, public international 
organizations and foreign NGOs to build the capacity of government 
institutions and civil society and develop or expand critical services 
for victims of trafficking.

  <bullet> c. To live up to the ``partnership'' approach, the State 
        Department through the Office to Monitor and Combat Trafficking 
        in Persons (G/TIP) must be able to respond to unforeseen urgent 
        requests by governments, particularly those in Tier 2 Watch 
        List, for assistance to protect and assist victims of human 
        trafficking. I believe that through such assistance, we can 
        help governments build expertise, gain ownership of the issue, 
        and credibly graduate from Tier 2 Watch List. Does your 2012 
        budget foresee some element of ``urgent'' assistance capability 
        and funds for G/TIP to offer assistance in such situations?

    Answer. The ability to respond quickly to provide technical 
assistance or training when foreign governments request it and to 
respond to emergency assistance needs of trafficking victims when no 
other source of assistance is available are both critical as we work to 
advance antitrafficking goals worldwide. Although the 2012 budget does 
not include specific funding for these two ``urgent'' response 
capabilities, our office has established mechanisms for such endeavors 
within the limited funding of the budget request.
    If there were additional funding available to the office we 
anticipate that we would expand these initiatives to include the 
formation of a dedicated training and technical assistance team. This 
multidisciplinary team would be comprised of subject-matter experts 
(investigation, prosecution, victim assistance) that could develop 
trainings and be deployed to train in foreign settings. They could also 
deploy short-term countertrafficking professionals already in the 
specific country or region to provide targeted, country-specific 
assistance. These target training efforts would be available to those 
countries ranked on the lower tiers of the annual ``Trafficking in 
Persons Report.' The results of these efforts would assist countries in 
addressing human trafficking thus raising their tier ranking in the 
annual ``Trafficking in Persons Report.''
    We would also expand our capacity to swiftly respond to the needs 
of victims in situations where no other emergency assistance is 
available to meet basic needs such as food, shelter, clothing, and 
immediate medical care. While these situations are not frequent, when 
they arise they require prompt but deliberate action by professionals 
with subject matter and programmatic expertise.

  <bullet> d. Section 203 of the 2008 reauthorization of the 
        Trafficking Victim Protection Act of 2000, Public Law 110-457, 
        122 Stat. 5057 (Dec. 23, 2008), set forth requirements for and 
        limitations on the issuance of A3 and G5 visas, including a 
        requirement in Section 203(a)(2) that the Secretary of State 
        suspend issuance of A3 and G5 visas to applicants seeking to 
        work for officials of a diplomatic mission or an international 
        organization in certain circumstances. Have you ever determined 
        that Section 203(a)(2) has been triggered with respect to any 
        diplomatic mission or international organization?

    Answer. The State Department takes very seriously its role in 
attempting to prevent the abuse of domestic workers and to address 
allegations of abuse, as appropriate. Toward that end, the Department 
has created an internal working group consisting of representatives 
from the Office of the Chief of Protocol, the Office of the Legal 
Adviser, the Office to Monitor and Combat Trafficking in Persons, and 
the Bureaus of Consular Affairs and Diplomatic Security, as well as 
relevant regional bureaus. The working group meets on a periodic basis 
to share information, discuss ongoing cases and coordinate Department 
strategy to address this issue. The Office of the Chief of Protocol 
coordinates this effort and is the central collecting and disseminating 
point for information obtained by those offices about allegations of 
abuse.
    The Department of State has implemented dramatic changes in its 
response to trafficking of domestic workers including: prenotification 
of application for A3 and G5 visas (to be able to keep track of 
domestic workers being employed by foreign missions in the United 
States and to facilitate the denial of eligibility for such workers for 
diplomatic personnel where there is credible evidence that they have 
abused a previous worker); proof of ability to pay prevailing or 
minimum wage whichever is higher to be eligible for such workers; a 
system that provides objective evidence of salary payments (as salaries 
must be paid either by check or direct deposit); and contracts with 
specified provisions (kept on file with the visa application) including 
the requirement that domestic workers retain possession of their 
passports, provided to the worker in a language s/he understands. The 
Department has also established a mechanism to facilitate NGO reporting 
of allegations to the Office of Protocol.
    In the fall of 2009, the Department hosted a briefing along with 
Department of Justice experts for the Diplomatic Corps on the 
Department regulations regarding employment of domestic workers and the 
relevant requirements of the William Wilberforce Trafficking Victims 
Protection Reauthorization Act (TVPRA). The briefing included 
information on section 203 providing that the Secretary of State 
``shall suspend, for such period as the Secretary deems necessary, the 
issuance of A3 visas or G5 visas to applicants seeking to work for 
officials of a diplomatic mission or an international organization, if 
the Secretary determines that there is credible evidence that one or 
more employees of such mission or international organization have 
abused or exploited one or more nonimmigrants holding an A3 visa or a 
G5 visa, and that the diplomatic mission or international organization 
tolerated such actions.''
    The Department has not yet suspended the issuance of A3 or G5 visas 
to any diplomatic mission or international organization pursuant to the 
TVPRA. In the cases of reported abuse that have come to the 
Department's attention since enactment of the TVPRA, the Department has 
referenced its obligations under the TVPRA as part of its demarche to 
the relevant diplomatic missions and has found that the possibility of 
A3 or G5 visa suspension has served as vital leverage that has 
encouraged a response to address allegations of abuse or exploitation. 
The TVPRA requires that the Secretary herself determine that there is 
credible evidence of abuse and credible evidence that the mission 
tolerated the abuse. In one case, the threat of visa suspension under 
the TVPRA motivated the government at issue to take concrete measures 
to demonstrate that it did not tolerate the abuse, which included the 
issuance of a formal reprimand of the employee, working with the 
diplomat such that he made an offer to provide compensation to the 
former domestic worker, and advising its diplomats that abuse of 
domestic servants is not tolerated and has consequences.
    The Department's internal working group meets regularly to assess 
any and all allegations of abuse or exploitation of domestic workers by 
diplomatic personnel and to determine appropriate steps to be taken, 
including bringing allegations to the attention of the Department of 
Justice's Human Trafficking Prosecution Unit, Criminal Section of the 
Civil Rights Division; issuance of a diplomatic note to a specific 
mission when allegations of abuse of a domestic servant by one of its 
employees is brought to the Department's attention; denial of A3 or G5 
visas for domestic workers for a diplomat against whom there are 
credible allegations of abuse; and, where appropriate, preparing an 
action memo for the Secretary recommending suspension of A3 or G5 visas 
for a specific mission or organization.

  <bullet> e. If so, please provide the name of the diplomatic mission 
        or international organization in question.

    Answer. The Department has not yet determined that section 
203(a)(2) has been triggered with respect to any diplomatic mission or 
international organization.

    Question #108. Is the FY 2012 request of $20.8 million for the 
Office to Monitor and Combat Trafficking in Persons sufficient to 
fulfill the partnership mandate you have given it?

    Answer. Currently, our partnerships are largely developed through 
the convening and engagement of potential partners. Some of these 
partnerships do not require specific funding beyond staff to 
accomplish. We routinely provide advice, comments, and our expertise to 
civil society partners as they develop antitrafficking initiatives; in 
this way, we leverage our subject-matter expertise and further their 
programs because they compliment and support our targeted goals. Right 
now, we are partnering with the NGO and business community to promote 
and encourage the adoption of some corporate social accountability 
guidelines on human trafficking. In other partnerships, the Office has 
relied on the partners to provide the financial support for the 
particular project. A good example of this was the development of a 
partnership forged by the Office, USAID, NetHope, and the Demi and 
Ashton Foundation to find technological solutions to trafficking in 
Russia; the Office was unable to contribute financially to this effort, 
yet staff helped to ably guide and shape the content of the project. 
There are certainly other partnerships that the Office could undertake 
or even augment with the availability of matching funds to contribute.
    Partnerships also figure prominently as we work to ensure that the 
antitrafficking funds we administer are used most effectively. Through 
our competitive grant programs we support scores of projects each year 
in which we partner with U.S.-based NGOs, public international 
organizations and foreign NGOs to build the capacity of government 
institutions and civil society and develop or expand critical services 
for victims of trafficking.

    Question #109. To live up to the ``partnership'' approach, the 
State Department through the Office to Monitor and Combat Trafficking 
in Persons (G/TIP) must be able to respond to unforeseen urgent 
requests by governments, particularly those in Tier 2 Watch List, for 
assistance to protect and assist victims of human trafficking. I 
believe that through such assistance, we can help governments build 
expertise, gain ownership of the issue, and credibly graduate from Tier 
2 Watch List. Does your 2012 budget foresee some element of ``urgent'' 
assistance capability and funds for G/TIP to offer assistance in such 
situations?

    Answer. The ability to respond quickly to provide technical 
assistance or training when foreign governments request it and to 
respond to emergency assistance needs of trafficking victims when no 
other source of assistance is available are both critical as we work to 
advance antitrafficking goals worldwide. Although the 2012 budget does 
not include specific funding for these two ``urgent'' response 
capabilities, our office has established mechanisms for such endeavors 
within the limited funding of the budget request.
    If there were additional funding available to the office we 
anticipate that we would expand these initiatives to include the 
formation of a dedicated training and technical assistance team. This 
multidisciplinary team would be comprised of subject-matter experts 
(investigation, prosecution, victim assistance) that could develop 
trainings and be deployed to train in foreign settings. They could also 
deploy short-term counter trafficking professionals already in the 
specific country or region to provide targeted, country-specific 
assistance. These target training efforts would be available to those 
countries ranked on the lower tiers of the annual ``Trafficking in 
Persons Report.'' The results of these efforts would assist countries 
in addressing human trafficking thus raising their tier ranking in the 
annual ``Trafficking in Persons Report.''
    We would also expand our capacity to swiftly respond to the needs 
of victims in situations where no other emergency assistance is 
available to meet basic needs such as food, shelter, clothing, and 
immediate medical care. While these situations are not frequent, when 
they arise they require prompt but deliberate action by professionals 
with subject matter and programmatic expertise.

    Question #110. Section 203 of the 2008 reauthorization of the 
Trafficking Victim Protection Act of 2000, Public Law 110-457, 122 
Stat. 5057 (Dec. 23, 2008), set forth requirements for and limitations 
on the issuance of A3 and G5 visas, including a requirement in Section 
203(a)(2) that the Secretary of State suspend issuance of A3 and G5 
visas to applicants seeking to work for officials of a diplomatic 
mission or an international organization in certain circumstances. Have 
you ever determined that Section 203(a)(2) has been triggered with 
respect to any diplomatic mission or international organization?

    Answer. The State Department takes very seriously its role in 
attempting to prevent the abuse of domestic workers and to address 
allegations of abuse, as appropriate. Toward that end, the Department 
has created an internal working group consisting of representatives 
from the Office of the Chief of Protocol, the Office of the Legal 
Adviser, the Office to Monitor and Combat Trafficking in Persons, and 
the Bureaus of Consular Affairs and Diplomatic Security, as well as 
relevant regional bureaus. The working group meets on a periodic basis 
to share information, discuss ongoing cases and coordinate Department 
strategy to address this issue. The Office of the Chief of Protocol 
coordinates this effort and is the central collecting and disseminating 
point for information obtained by those offices about allegations of 
abuse.
    The Department of State has implemented dramatic changes in its 
response to trafficking of domestic workers including: prenotification 
of application for A3 and G5 visas (to be able to keep track of 
domestic workers being employed by foreign missions in the United 
States and to facilitate the denial of eligibility for such workers for 
diplomatic personnel where there is credible evidence that they have 
abused a previous worker); proof of ability to pay prevailing or 
minimum wage whichever is higher to be eligible for such workers; a 
system that provides objective evidence of salary payments (as salaries 
must be paid either by check or direct deposit); and contracts with 
specified provisions (kept on file with the visa application) including 
the requirement that domestic workers retain possession of their 
passports, provided to the worker in a language s/he understands. The 
Department has also established a mechanism to facilitate NGO reporting 
of allegations to the Office of Protocol.
    In the fall of 2009, the Department hosted a briefing along with 
Department of Justice experts for the Diplomatic Corps on the 
Department regulations regarding employment of domestic workers and the 
relevant requirements of the William Wilberforce Trafficking Victims 
Protection Reauthorization Act (TVPRA). The briefing included 
information on Section 203 providing that the Secretary of State 
``shall suspend, for such period as the Secretary deems necessary, the 
issuance of A3 visas or G5 visas to applicants seeking to work for 
officials of a diplomatic mission or an international organization, if 
the Secretary determines that there is credible evidence that 1 or more 
employees of such mission or international organization have abused or 
exploited one or more nonimmigrants holding an A3 visa or a G5 visa, 
and that the diplomatic mission or international organization tolerated 
such actions.''
    The Department has not yet suspended the issuance of A3 or G5 visas 
to any diplomatic mission or international organization pursuant to the 
TVPRA. In the cases of reported abuse that have come to the 
Department's attention since enactment of the TVPRA, the Department has 
referenced its obligations under the TVPRA as part of its demarche to 
the relevant diplomatic missions and has found that the possibility of 
A3 or G5 visa suspension has served as vital leverage that has 
encouraged a response to address allegations of abuse or exploitation. 
The TVPRA requires that the Secretary herself determine that there is 
credible evidence of abuse and credible evidence that the mission 
tolerated the abuse. In one case, the threat of visa suspension under 
the TVPRA motivated the government at issue to take concrete measures 
to demonstrate that it did not tolerate the abuse, which included the 
issuance of a formal reprimand of the employee, working with the 
diplomat such that he made an offer to provide compensation to the 
former domestic worker, and advising its diplomats that abuse of 
domestic servants is not tolerated and has consequences.
    The Department's internal working group meets regularly to assess 
any and all allegations of abuse or exploitation of domestic workers by 
diplomatic personnel and to determine appropriate steps to be taken, 
including bringing allegations to the attention of the Department of 
Justice's Human Trafficking Prosecution Unit, Criminal Section of the 
Civil Rights Division; issuance of a diplomatic note to a specific 
mission when allegations of abuse of a domestic servant by one of its 
employees is brought to the Department's attention; denial of A3 or G5 
visas for domestic workers for a diplomat against whom there are 
credible allegations of abuse; and, where appropriate, preparing an 
action memo for the Secretary recommending suspension of A3 or G5 visas 
for a specific mission or organization.

    Question #111. If so, please provide the name of the diplomatic 
mission or international organization in question.

    Answer. The Department has not yet determined that Section 
203(a)(2) has been triggered with respect to any diplomatic mission or 
international organization.

    Question #112. We are on the verge of a new Southern Sudan but also 
a profoundly different northern Sudan. Do current U.S. laws provide the 
needed flexibility to address these changes?

    Answer. Current legislation imposes numerous restrictions upon 
Sudan. While present authority allows the United States to provide 
assistance to the South, assistance to the government in the North, 
with the exception of Darfur and the Three Areas (Abyei, Southern 
Kordofan state, and Blue Nile State), remains prohibited, largely 
consistent with, but not limited to, Sudan specific restrictions that 
appear in the annual appropriations act (e.g., Section 7070(f) of the 
FY 2010 Appropriations Act) as well as the Darfur Peace and 
Accountability Act.

    Question #113. For example, how would USAID's work in the North be 
affected?

    Answer. If the USG decides to expand assistance to the North, 
modifications to the current restrictions, or waivers of those 
restrictions where statutorily allowable would be necessary.

    Question #114. Are there opportunities that the United States 
should explore to expand this work in order to promote overall peace 
and security?

    Answer. We are discussing these options currently through an 
interagency process and will continue to engage with Congress going 
forward as the promotion of peace and security in the North is linked 
to ensuring the viability and security of both the North and the South.

    Question #115. Current law prohibits all transactions by U.S. 
persons relating to the Sudan's oil industry. How is that affected if 
Southern Sudan is independent but its oil continues to flow through the 
North, as it must for the South to be an economically viable state?

    Answer. We are continuing to explore this issue, but under current 
law U.S. sanctions against the Government of Sudan would continue to 
limit the ability of U.S. persons to invest in the oil sector in the 
South because it would directly benefit the North.

    Question #116. What is your perspective on the Government of 
Sudan's call for the ``domestication'' of the Darfur peace process?

    Answer. While we believe that it is important that a broad range of 
Darfuris have the opportunity to discuss their grievances and 
participate in discussions about their future, we do not support the 
Government of Sudan's ``domestication'' of the Darfur peace process. 
The United Nations and African Union have begun to set up a Darfur 
Political Process (DPP) which they will manage; the Government of Sudan 
would not be involved until the last stage of these Darfuri 
consultations. We have not yet taken a position on the DPP, but we 
believe that any result from the peace negotiations in Doha must be 
connected with any Darfur-based process.

    Question #117. Could civil society freely and safely participate in 
such a process?

    Answer. At the present time, we do not believe that civil society 
could freely and safely participate in a Darfur-based consultative 
process due to conditions on the ground. Various conditions would need 
to be in place for such consultations to take place. These conditions 
include lifting the State of Emergency in Darfur; permitting 
unrestricted access across Darfur to UNAMID, humanitarian agencies, and 
NGOs; granting UNAMID a radio transmitter for independent broadcasting 
of news; full inclusion of representatives of all stakeholders, to 
include women, IDPs, refugees, and political opposition; granting of 
visas for NGOs working with IDPs; significant steps to end impunity in 
Darfur; freedom of assembly, movement, and expression to all 
participants; and a ceasefire agreement among armed movements and the 
Government of Sudan.

    Question #118. The United States has shifted its approach to 
Somalia, from one solely focused on bolstering the Transitional Federal 
Government (TFG), to a ``two-track approach'' that also aims to engage 
clan leaders and the semiautonomous regions of Somaliland and Puntland. 
What are the short- and long-term goals for U.S. policy in Somalia and 
how do you plan to assess progress?

    Answer. The United States has in place a long-term process to 
stabilize Somalia. We announced the Dual Track approach to Somalia in 
September 2010 to allow us the space to broaden our approach by taking 
into account the complex nature of Somali society and politics, as well 
as to allow our engagement to be more flexible and adaptable. On Track 
One, we continue support for the Djibouti Peace Process, the 
Transitional Federal Government (TFG), and the African Union Mission in 
Somalia (AMISOM) as a first line of effort to stabilize Somalia, as 
well as to repel al-Shabaab's advances in Mogadishu. On Track Two, we 
are deepening our engagement with the regional Governments of 
Somaliland and Puntland, as well as with local and regional 
administrations throughout South Central Somalia who are opposed to al-
Shabaab, but who are not affiliated with the TFG. Progress over the 
short- and long-term in Somalia will be based on the successful 
achievement of representative governance in Somalia, the degree of safe 
international access to Somalia, mitigating the security threat to the 
region caused by instability inside Somalia, including the absence of 
piracy from Somalia's shores, and a reduced Somali dependence on 
international humanitarian assistance.
    In the short term, we will continue our political and security 
sector support to the TFG and AMISOM in close partnership with the 
U.N., the African Union (AU), and other international partners. 
Politically, we are focused on establishing a clear path forward after 
the August 2011 expiration of the TFG mandate. We were disappointed 
with the Transitional Federal Parliament's (TFP) mid-February 
unilateral 3-year extension. We continue to push, along with 
international partners, for a reversal of that position and a 
commitment to TFG governance reforms.
    On the security sector, our ongoing and critical support to AMISOM 
and the TFG is essential to maintaining a safe space from which the TFG 
can operate and to preventing an al-Shabaab takeover of Mogadishu. We 
are undertaking these efforts in lockstep with our international and 
regional partners, including the U.N. and the AU.
    Meanwhile, we are working with U.N. and AU partners to convene 
broad meetings aimed at bringing more groups together in political 
dialogue, including the TFG, Puntland, Ahlu-Suna Wal Jama (ASWJ), and 
regional administration representatives from Galmuduug. We also are 
incorporating discrete community-based projects aimed at employment and 
tradecraft.
    We realize that state failure is the root cause of piracy in the 
waters off the coast of Somalia. Achieving stability and good 
governance in Somalia represents the only sustainable long-term 
solution to piracy. Through our dual-track approach in Somalia, we will 
continue to support the most important lines of action for countering 
piracy: building governance, security, and economic livelihoods on land 
in Somalia. We are working through the U.N. Contact Group on Piracy off 
the Coast of Somalia to emphasize the role of Somalia itself in 
counter-piracy efforts, and press Somali authorities to take the 
necessary steps to pass and implement antipiracy legislation upon which 
the international community can help Somalia build enforcement capacity 
in the context of the rule of law.
    Long term efforts on Somalia will continue to focus on security, 
governance, and humanitarian and development assistance as we deepen 
our engagement outside of Mogadishu and, security permitting, find it 
possible to operate from inside Somalia on a more regular basis. We are 
working toward a Somalia that is at peace with itself and its 
neighbors, and one that is inhospitable to terrorist organizations. 
Long term success toward Somalia's stabilization will require 
international support in all of these areas for the foreseeable future.

    Question #119 & #120. There is no U.S. diplomatic presence in 
Mogadishu or any remotely sustained U.S. diplomatic presence elsewhere 
in Somalia. While the security of U.S. personnel is of paramount 
importance, what are the opportunity costs in terms of U.S. policy that 
are lost by not having our people in the country?

    Answer. Although the United States never formally severed 
diplomatic relations with Somalia, the U.S. Embassy in Somalia has been 
closed since the collapse of the Siad Barre government in 1991. The 
United States maintains regular dialogue with the Transitional Federal 
Government and other key stakeholders in Somalia through the U.S. 
Embassy in Nairobi, Kenya. Consular coverage for Somalia is maintained 
by U.S. Embassy Nairobi, while American Citizens Services in the self-
declared ``Republic of Somaliland'' are provided by the U.S. Embassy in 
Djibouti.
    The United States suffers a strategic disadvantage in critical 
policy areas by not having a sustained diplomatic presence inside 
Somalia. The first image of U.S. diplomacy our foreign partners should 
see is that of engaged diplomats and aid workers operating in an open 
and constructive manner. Our international partners, namely the United 
Kingdom and the European Union, enjoy somewhat greater access to areas 
like Somaliland and Puntland on a semiregular basis, further 
diminishing our ability to demonstrate the national priority we place 
on Somalia or to effectively lead on policy issues where travel into 
Somalia would promote those priorities.
    The continued absence of U.S. diplomatic personnel from Somalia, 
which is driven by concerns for the safety and security of U.S. 
personnel, has the unfortunate impact of defining the U.S. image of 
engagement in Somalia as one that is hands-off, disinterested, and 
driven by fear of the unknown. We are unable to reach beyond Mogadishu 
or Hargeisa with meaningful counterpiracy or counterterrorism 
programming, despite the clear priority of supporting programming in 
these areas throughout the United States Government. In addition, we 
have very limited means through which to explore or oversee 
humanitarian and development operations inside Somalia. Finally, we 
lose the ability to engage partners on the ground directly, as we are 
forced to conduct political work by cell phone, hold meetings in 
regional capitals, and triangulate information gathered from our 
embassies in Nairobi, Addis Ababa, Kampala, Bujumbura, and Djibouti.
    As security permits, we will seek to expand the ability of U.S. 
personnel to travel into Somalia, including Mogadishu, Bossasso, and 
Galcayo. In the short term, the inability to visit these destinations 
consistently will remain a significant challenge. Without a more 
consistent presence of United States diplomats and aid workers, 
determining viable actors with whom to engage will be difficult and 
establishing greater credibility with key players on the ground will be 
an uphill battle.

    Question #121. Recent newspaper accounts have described expanding 
roles by private security contractors in Somalia. Could you describe 
the role of private security contractors in supporting U.S. policy and 
the AMISOM mission in Somalia?

    Answer. The Department has contracted two logistics providers, PAE 
and AECOM to deliver equipment and training to African Union Mission in 
Somalia (AMISOM) and the Transitional Federal Government (TFG), which 
is central to our efforts to build the capacity of AMISOM and the TFG's 
National Security Force (NSF) to defend the TFG from al-Shabaab and 
other extremist groups. Additionally, we are funding two cooperative 
agreements with the Governments of Burundi and Uganda to provide their 
AMISOM contingents with noncombatant advisers and mentors. Both of 
these countries subsequently contracted with Bancroft Global 
Development, a Washington-based nonprofit organization that specializes 
in advisory and mentoring services to governments operating in conflict 
or post-conflict environments. Bancroft is providing AMISOM's Burundi 
contingent with counter-IED training and mentoring to help that unit 
better operate in Mogadishu. It is also assisting the Ugandan 
contingent with its efforts to organize and train the TFG's NSF.

    Question #122. Given that the U.S. Government does not have a 
diplomatic presence in Somalia, to what extent does the Department feel 
confident in its oversight of their activities?

    Answer. The Department contracts with two U.S. logistics companies 
to deliver equipment and supplies to Mogadishu in support of the 
African Union Mission in Somalia (AMISOM) and in support of our 
security sector efforts with the Somalia Transitional Federal 
Government's National Security Force (TFG/NSF). These two companies 
also provide training and construction assistance to both entities. In 
order to oversee the performance of these two companies, the Department 
contracts with a separate company for a Technical Monitor, who splits 
his time between Kampala and Mogadishu to verify all equipment 
deliveries and other services under these contracts. As a result, the 
Technical Monitor spends approximately 2 weeks of his time in Mogadishu 
during any 1-month period. Through the Monitor's evaluations and weekly 
reporting, the Department has confidence that our logistics contractors 
are performing in accordance with their contracts' Statements of Work.
    We are also reasonably confident of the performance of work being 
done in Mogadishu by Bancroft Global Development, which is funded 
through our cooperative agreements with Burundi and Uganda. Because 
much of Bancroft's work is performed in nonsecured areas of Mogadishu, 
we rely heavily on the two grantees to monitor and report on their 
performance. Our Technical Monitor does, however, observe and report on 
Bancroft's activities in the areas of Mogadishu where he is able to 
operate safely.

    Question #123. What role are private security actors playing in 
Somaliland and Puntland?

    Answer. We are aware of and have been closely monitoring reports 
about the involvement of private security companies (PSCs) in Puntland, 
including reports that the PSCs are providing training and equipment to 
Puntland security forces and militias in the absence of authorization 
from the U.N. Security Council Committee established pursuant to 
resolutions 751 (1992) and 1907 (2009) concerning Somalia and Eritrea. 
We are concerned that these unregulated efforts could play a 
significant destabilizing role in the region.
    We are not currently aware of any significant activities undertaken 
by PSCs on behalf of the regional authorities in Somaliland.

    Question #124. The Democratic Republic of Congo remains the scene 
of often horrific violence. U.S. policy and attention have particularly 
focused on two facets of Congo's struggle in the East: gender based 
violence and conflict minerals. Those issues are extremely important, 
but they are in many ways products of Congo's larger struggles with 
governance, security, and the rule of law. I am concerned that without 
a more holistic approach and without greater attention to the DRC as a 
whole, our policies will fall short of our intended objectives.

  <bullet> Please outline the U.S. strategy to help the DRC make 
        progress in these areas. Does the administration intend to name 
        a special adviser on the Great Lakes to help coordinate and 
        advance this strategy in the region?

    Answer. The root of most of the DRC's problems is the lack of 
functioning state authority in much of the country. Many of the organs 
of state authority, including the security services, and the providers 
of basic services such as health care, education, and infrastructure, 
are all either woefully inadequate or nonfunctioning. Corruption, lack 
of capacity and resources, arbitrary application of laws, and a largely 
informal economy create a vicious circle. All U.S. Government efforts 
(diplomatic, security, and developmental) focus on strengthening the 
government's ability to function and provide services to its citizens.
    Our top priorities in the DRC are building government capacity and 
improving security in the east to protect civilians and territory. 
Sustained effort in both of these areas is vital for consolidating the 
DRC's stability over the long term. In the coming months, our immediate 
priority is to ensure that the Presidential and legislative elections 
scheduled for November are credible and their results are accepted by 
the general population and losing candidates. Our success in all 
priority areas will be contingent on our ability to work constructively 
with the Congolese leadership and demonstrate how our specific efforts 
can meet their needs.
    We have taken under advisement the recommendation to name a special 
envoy or adviser for the Great Lakes Region. At this time, based on 
extensive discussions with NGO groups, regional states, donors, and 
others with interest in the Great Lakes Region, we believe the 
selection of such an envoy or representative would not be the most 
effective means to advance U.S. interests or to utilize limited 
resources. Some critical issues in the region are transnational in 
nature, such as efforts to stop the Lord's Resistance Army and the 
illicit trade in natural resources. However, the regional states have 
not been particularly receptive to Great Lakes special envoys--either 
from the United States or from other governments. In the past, the DRC, 
Ugandan, and Rwandan Governments have never worked solely with regional 
envoys to resolve regional issues. Instead, each sought the support of 
bilateral ambassadors who could also address other problems and 
challenges specific to the country. Engagement through our resident 
ambassadors, with support from senior U.S. Government officials, has 
proven significantly more effective from both diplomatic and cost 
perspectives. Assistant Secretary of State for African Affairs, 
Ambassador Johnnie Carson, and his team are actively managing the Great 
Lakes regional portfolio in close coordination with the Chiefs of 
Mission in relevant capitals, as well as with the concerned governments 
and regional organizations.

    Question #125. In 2011 alone, 27 countries in Africa are scheduled 
to hold Presidential, legislative and/or local elections. While these 
elections are positive signs for democratization on the continent, they 
also have the potential to enhance existing national divisions and 
foster instability. To what extent have you seen positive returns on 
the U.S.'s long-term investment in Africa's electoral systems and in 
what ways do you hope to augment or refine our existing assistance?

    Answer. The fact that there are 27 elections this year shows how 
much our investments of assistance and time have paid off; it was not 
so long ago that an entire year could pass in Africa without any 
democratic elections whatsoever. Indeed, our assistance has resulted in 
positive returns in building electoral systems in key democratic 
countries in Africa including Mali, Benin, Ghana, Sierra Leone and 
Liberia, among others. USG assistance has helped each of these 
countries consolidate democratic gains over several electoral cycles.
    For example, in Ghana's successful, fifth consecutive democratic 
Presidential and parliamentary elections in December 2008 USG support 
helped guarantee the smooth transition to a new President and reduced 
political tensions that could have led to violence. For the first time 
in Ghana's history, Ghanaian civil society organizations used a 
parallel vote tabulation (PVT) to confirm official election results, 
which reinforced the validity of John Atta Mills' razor-thin margin of 
victory. The strong observer presence--along with the independent 
poll--reassured the public and enabled political parties and the 
electorate to accept the results of the elections.
    Going forward, we hope to amplify and further refine our electoral 
assistance activities in Africa. It is important that we continue to 
work closely with African Governments and civil societies to strengthen 
the infrastructure for credible elections not only at the national but 
also at the provincial and local government levels. Accountability at 
the local level is often the key to public confidence in democracy. In 
addition, we believe that it is critical to move beyond technical 
support to election commissions and international observation to focus 
equally on increasing societal demand for credible elections. In that 
context, we hope to expand work with local civil society groups to 
assist in their advocacy for election reforms and to enable them to 
carry out their own domestic monitoring of elections and parallel vote 
tabulations. In this realm we aim to increase the use of new 
technologies, from the use of SMS to report voting irregularities to 
the use of cell phones to educate and prepare voters well in advance of 
election day. We have seen that support for civic education and 
election commissions in the few months prior to elections is 
insufficient to build the strong democratic states needed in Africa. 
Rather, we must expand assistance activities to maintain a consistent, 
holistic approach on this issue.

    Question #126. Peacekeeping.--H.R. 1, as passed by the House of 
Representatives, would cut our peacekeeping contribution to the United 
Nations by over $200 million which would put us back into arrears.
    What would the impact of cutting these funds be on United States 
policy objectives, particularly in countries such as Sudan and the 
Democratic Republic of Congo where the United Nations peacekeeping 
missions are playing critical roles in civilian protection, conflict 
prevention, and stabilization efforts? While these missions lack all 
the tools and capabilities that they need to fully carry out their 
mandates in these difficult environments, without their presence both 
individual lives and American hopes for progress would be jeopardized.

  <bullet> Which regions might you anticipate a need for funding that 
        is not in the current budget request?

    Answer.

  <bullet> H.R. 1 provides $1.898 billion for the Contributions for 
        International Peacekeeping Activities (CIPA) appropriation. In 
        FY 2011, it is anticipated that U.N. peacekeeping assessments 
        will be approximately $2.353 billion, which reflects additional 
        mission requirements. Even with anticipated offsets from U.N. 
        peacekeeping credits and FY 2010 carryover funds, the reduced 
        level for CIPA in H.R. 1 would be insufficient to meet our 
        treaty obligations. It also must be recognized that our paying 
        27.14 percent for a peacekeeping operation is significantly 
        less expensive for the United States than our shouldering all 
        or the majority of the burden ourselves.
  <bullet> The $2.182 billion requested for CIPA in FY 2011 is required 
        to pay our assessments for these critical U.N. peacekeeping 
        missions. Less than full funding will impact all missions, 
        including those in Sudan and the Democratic Republic of the 
        Congo. Failure to obtain the full funding would place 
        increasing strain on critical U.N. peacekeeping operations by 
        reducing funds available to support deployments, support key 
        tasks and roles, and lengthen delays in reimbursements to troop 
        contributing countries.
  <bullet> U.N. peacekeeping requirements are inherently unpredictable; 
        however, at this time, we do not anticipate a request for 
        funding currently not identified in the budget request.
  <bullet> In the FY 2012 request, the administration assumes the 
        application of approximately $200 million in credits to offset 
        U.N. peacekeeping assessments. Application of these credits in 
        FY 2011 would mean that the FY 2012 request would not contain 
        sufficient funds for the United States to meet its treaty 
        obligations in full in FY 2012.
  <bullet> Prompt payment of U.S. peacekeeping assessments in full is 
        essential to meet U.S. treaty obligations and to avoid reducing 
        resources available to support deployments and mission aims, 
        which strains critical U.N. peacekeeping operations and 
        lengthens delays in reimbursements to troop contributing 
        countries.
  <bullet> H.R. 1 also does not provide for the requested increase in 
        the statutory cap on the U.S. share of assessed contributions 
        for each U.N. peacekeeping operation, from 25 percent to 27.2 
        percent, for assessments received in calendar year 2011. 
        Limiting U.S. contributions to 25 percent as of January 2011, 
        as well as providing insufficient funding, would negatively 
        impact the U.N.'s ability to support peacekeeping operations 
        and relationships with troop contributing countries and would 
        likely result in the accrual of additional U.S. arrears. This 
        would in turn undermine U.S. global stabilization goals.

    Question #127. Global Health. H.R. 1 would drastically cut the 
Global Fund to Fight HIV/AIDS, Tuberculosis, and Malaria. The Global 
Fund is a public-private partnership where every American dollar is 
leveraged twice over, and--as required under the 2008 Lantos-Hyde 
Reauthorization Act, U.S. HIV/AIDS, malaria, and TB programs are deeply 
intertwined with the Global Fund.

  <bullet> What would the impact of the House's proposed cuts to the 
        Global Fund be on bilateral and multilateral efforts to combat 
        these diseases?

    Answer. The United States is the largest donor to the Global Fund 
to Fight AIDS, Tuberculosis and Malaria (Global Fund). Through our 
contribution to the Global Fund the United States is able to: support 
the delivery of concrete health results; expand the geographic reach of 
and enhance bilateral efforts; catalyze international investment in 
AIDS, TB, and malaria; build capacity, country ownership, and 
sustainability; and demonstrate political commitment to international 
cooperation.
    The Global Fund has estimated that the cuts proposed by the House 
Appropriations Committee, if enacted, would have the following impact 
on the Fund's ability to provide services in 2012 alone:

--10.4 million bed nets to fight malaria will not be provided;
--414,000 people will not be provided with antiretroviral (ARV) 
    medications;
--58,286 HIV positive pregnant women will not receive drugs to prevent 
    transmission of the virus to their children; and
--372,000 people will not be tested and treated for tuberculosis.

    Given the interdependence of PEPFAR's bilateral programs and Global 
Fund-financed programs, both multilateral and bilateral resources are 
needed to maximize our results. Cuts to the U.S. contribution to the 
Fund would also have a profound impact on U.S. bilateral programs to 
fight the three diseases. In most PEPFAR countries, PEPFAR bilateral 
programs work with Fund grant recipients to support a wide range of 
services. PEPFAR bilateral resources are allocated strategically in 
coordination with Fund resource allocations, and the PEPFAR programs 
would be unable to achieve maximum results in the absence of Fund 
programs. The discontinuation or reduction of Fund-financed programs 
would also place severe pressure on U.S. bilateral programs to fill 
resource gaps. The Fund disbursed over $3 billion to country-level 
programs for the three diseases in 2010, and the United States does not 
have the resources to fill the gaps if these resources are reduced.
    U.S. contributions to the Global Fund catalyze continued 
investments from other donors in AIDS, TB, and malaria. Every dollar 
the U.S. contributes to the Fund leverages an additional $2.50 from 
other donors. It is difficult to estimate the impact that decreased 
contributions from the United States would have on the investment 
decisions of other donors.

    Question #128. The fight against terrorism needs to be multifaceted 
but Anti-Terrorism Programs tend to be overshadowed by ``hard'' 
approaches such as drone strikes and direct military intervention. How 
does the State Department plan to better integrate its efforts with 
those of the Defense Department and the Intelligence Community?

    Answer. The Office of the Coordinator for Counterterrorism (S/CT) 
works closely with all departments and agencies on comprehensive 
counterterrorism strategies that draw on all elements of national 
power, including diplomatic, law enforcement, military, and 
intelligence.
    S/CT has staff dedicated to coordinating with the Department Of 
Defense (DOD) on counterterrorism operations, including several DOD 
officers currently assigned and housed at the State Department. While 
current liaison activity provides a direct line of effective 
communication with DOD, discussions are ongoing to further enhance our 
coordination and relationship. A similar discussion is underway with 
the Intelligence Community (IC) that will also augment current 
mechanisms and further improve coordination. Having a direct open line 
of communication with our intelligence and defense partners is key to 
whole of government coordination that seeks to integrate hard and soft 
power, matching the right tool or coordinated approach to the 
situation.
    For example, S/CT is working with the IC and the military to 
identify hotspots of radicalization. In close collaboration with the 
Combatant Commands, USAID and the IC we are developing programs to 
ameliorate radicalization through Countering Violent Extremism (CVE) 
efforts. By virtue of being a State office with responsibility for U.S. 
Government counterterrorism efforts overseas, S/CT is uniquely situated 
to coordinate CVE efforts. At S/CT's request, USSOCOM created a pilot 
polling initiative that is measuring radicalization at the provincial 
level in three countries (Bangladesh, Maldives, and Yemen). When the 
results are complete, we will work with USAID and the Combatant 
Commands to develop programs to address the drivers of radicalism where 
it is most virulent.
    Additionally, in collaboration with other agencies, S/CT leads the 
Department in Anti-Terrorism Assistance (ATA), a law enforcement 
training program carried out in partnership with State/Diplomatic 
Security. The ATA law enforcement capacity-building program for foreign 
partners reaches the security forces of some 55 nations. With a budget 
of $215 million in fiscal year 2010, ATA is a valuable tool to provide 
a wide variety of tailored counterterrorism training to a broad range 
of civilian security officials. The ATA program creates host country 
capacity, giving them more ownership of CT challenges and creating 
viable partners for the United States. Our work on ATA is done in light 
of the other U.S. counterterrorism capacity building efforts underway, 
including DOD efforts, and in a coordinated fashion designed to achieve 
our counterterrorism goals.
    While these specific examples provide an insight to our 
collaborative work, each situation is different and requires a tailored 
response. S/CT seeks to combine the options available to the U.S. 
Government and employ the right approach to achieve U.S. objectives. In 
all cases, we are committed to working in collaboration with other 
departments and agencies to make the best possible use of government 
resources and expertise.

    Question #129. How is the Department measuring the efficacy of 
Anti-Terrorism Assistance to determine which programs are worth keeping 
and perhaps expanding and which programs have failed?

    Answer. The Secretary's Office of the Coordinator for 
Counterterrorism (S/CT) determines which foreign countries will be 
invited to participate as Partner Nations in the Antiterrorism 
Assistance (ATA) programs. S/CT establishes the policy goals and 
strategic objectives for each Partner Nation. To measure success, S/
CT's primary implementation partner, the Bureau of Diplomatic 
Security's Office of Antiterrorism Assistance (DS/T/ATA), develops 
programmatic objectives derived from each Partner Nation's strategic 
objectives into programmatic objectives.
    A team of representatives from DS/T/ATA, S/CT, and other agencies, 
as appropriate, conduct in-country counterterrorism capabilities 
assessments using performance standards approximately every 2 to 3 
years. These assessments help to inform the development of Country 
Assistance Plans for each partner nation. The assessments also 
establish a baseline that is used in subsequent in-country program 
reviews to determine the degree to which the Partner Nation's 
capabilities are improving or faltering.
    The improvement or decline in capabilities in turn serves as the 
primary indicator of the ATA program's effectiveness in accomplishing 
its programmatic objectives. 
S/CT also uses findings of the program reviews--along with political, 
diplomatic, and other factors--to evaluate whether the ATA program is 
making progress toward accomplishing its strategic objectives and 
whether programs in particular partner nations should be maintained, 
discontinued, redirected, expanded, or diminished.

    Question #'s 130-132. Global Climate Change. The President's FY12 
request for the Global Climate Change Initiative is focused on 
promoting clean energy and increasing resilience to climate change in 
the most vulnerable regions of the world. While U.S. leadership in 
Copenhagen brought the world's major emitting nations together in an 
agreement to reduce greenhouse gases, unfortunately today we are seeing 
our commitments come under international scrutiny because of 
significant proposed budget cuts to vital climate programs coupled with 
attempts to remove existing authorities from the Environmental 
Protection Agency to address carbon pollution.

  <bullet> Given how important our leadership has been in securing 
        global commitments to address greenhouse gases, can you please 
        discuss how the proposed FY12 budget for climate finance 
        promotes export opportunities for clean technology, strengthens 
        our diplomatic relations with key emerging economies to secure 
        global reductions in carbon pollution, and enhances our 
        national security?
  <bullet> How do these investments help reduce future costs for the 
        U.S. by bolstering preparedness for increasingly extreme 
        weather events?
  <bullet> Recently Admiral Mullen said, ``climate change . . . not 
        only could produce a humanitarian crisis, but also could 
        generate conditions that could lead to failed states and make 
        populations more vulnerable to radicalization.'' As vulnerable 
        regions of the world face increasingly severe droughts, floods, 
        crop losses and water shortages, how does the FY12's climate-
        related investments address the future costs caused by 
        conflicts and instability (caused by resource scarcity and 
        other impacts) that will require U.S. resources and engagement?

    Answer. Global climate change indeed has serious implications for 
U.S. national security interests. The impacts of climate change will 
worsen problems such as poverty, social tensions, environmental 
degradation, resource pressures and competition, and weaken political 
institutions internationally, according to the 2008 National 
Intelligence Assessment on climate change.
    The administration's planned investments in international climate 
programs will:

  <bullet> Support an international climate approach in which all major 
        countries--including developing countries--contribute to the 
        global effort to reduce greenhouse gas emissions.
  <bullet> Conserve forests, foster sustainable land management, and 
        combat illegal logging around the world.
  <bullet> Build resilience in developing countries to reduce the risk 
        of damage, loss of life and instability that can result from 
        extreme weather and climate events. (The World Bank and U.S. 
        Geological Survey estimate that every dollar spent on disaster 
        preparedness saves $7 in disaster response.)
  <bullet> Help put developing countries on a clean energy path, 
        improving air quality and human health around the world. Our 
        climate change assistance to developing countries can help 
        strengthen their economic growth, increasing export and 
        investment opportunities for U.S. businesses.
  <bullet> Help the United States meet its international commitments, 
        putting us in a better position to ensure that other countries 
        meet theirs.
  <bullet> Mitigate risks to U.S. national security by reducing climate 
        change impacts internationally. The more we can reduce such 
        impacts, the more success we will have in reducing climate 
        change-induced internal conflicts, migration, radicalization or 
        other destabilizing developments.

    American clean energy businesses are well positioned to provide the 
innovative technology and services needed to meet rapidly growing 
demand in developing countries. U.S. support for international clean 
technology programs mobilizes these kinds of investments, and helps 
create the functioning, fair, and competitive markets in which American 
businesses thrive.
    U.S. investments in international climate programs increase our 
leverage to ensure that Brazil, South Africa, India, and China take 
action, and build opportunities for U.S. clean energy exports in big 
emerging markets.

    Question #133 & #134. On February 17, the State Department 
announced $150 million to support democracy and economic initiatives in 
Egypt.

  <bullet> How can we ensure that these funds will be disbursed 
        quickly, effectively, and directly to initiatives in support of 
        the democratic and economic transition currently underway?

    Answer. The Department of State and USAID have been working closely 
to develop assistance programs that can produce quick, concrete results 
and have a tangible impact on Egypt's economic and democratic 
transition.
    In order to quickly and effectively disburse funds in support of 
the transition, USAID issued two open calls for proposals on March 8 to 
address democracy and economic growth priorities. For the democracy 
Annual Program Statement (APS), USAID is actively soliciting proposals 
from both registered and unregistered Egyptian NGOs, giving us the 
flexibility to fund those organizations most capable of and willing to 
implement urgent transition priorities. The economic growth APS was 
released directly to Egypt's private sector, ensuring that the best 
Egyptian ideas are ready and able to meet Egypt's most pressing 
transition needs.
    USAID will hold Arabic and English language information sessions in 
Egypt--in Cairo, Alexandria, and Luxor--for representatives from 
nongovernmental organizations. These information sessions will speed up 
the dispersal of these grants by helping organizations write proposals 
focused on specific needs and that can be more quickly reviewed 
awarded.
    The two calls for proposals request responses that are focused on 
our near-term priorities for Egypt, including supporting free and fair 
elections and a successful democratic transition, economic 
stabilization to support this transition, and the promotion of broad-
based and equitable private sector growth. Funding decisions for our 
near-term assistance package will be guided by these priorities and be 
designed to demonstrate results. Programs will be managed by USAID, as 
well as the State Department's Middle East Partnership Initiative 
(MEPI) and Bureau of Democracy, Human Rights, and Labor, and will 
continue to support both unregistered and registered Egyptian NGOs.
    In addition to the open calls for proposals, USAID will transfer 
$4.5 million to the State Department's Near East Bureau's Middle East 
Partnership Initiative (MEPI) to provide direct support to Egyptian 
NGOs; provide NGO capacity and coalition building for MEPI grantees; 
and to engage Egyptian activists, reformers, and civil society 
organizations on issues immediately relevant to the transition. USAID 
will also soon transfer $16 million to the State Department's Bureau of 
Democracy, Human Rights, and Labor to fund projects which will focus on 
preparations for the upcoming parliamentary and presidential elections, 
and strengthen independent media and independent labor unions. USAID is 
also working with State Department regarding funding of 
entrepreneurship programs, and OPIC regarding funding for small 
business efforts.

  <bullet> How do you plan to distribute the funds?

    Answer. Funds will be distributed primarily through grants awarded 
to proposals responding to the two APSs and selected by the Technical 
Evaluation Committees that have been established by the USAID/Egypt 
Office of Procurement. Some funds will be distributed through transfers 
from USAID to the State Department for grants to be awarded and 
administered by MEPI and DRL.
    The U.S. Government assistance priorities for Egypt include support 
for free and fair elections, overall stability, and economic recovery. 
In the short-term, our assistance efforts will leverage existing 
funding to focus on areas where we can produce quick, concrete results 
and where we can have a tangible impact in support of Egypt's 
democratic and economic transition. We recognize that a prosperous and 
democratic Egypt, buoyed by economic growth and a strong private 
sector, could be an anchor of stability for the Middle East and North 
Africa.

    Question #135. Will the State Department utilize all of the 
government mechanisms at its disposal--including the Agency for 
International Development, the Bureau for Democracy, Human Rights and 
Labor, and the Middle East Partnership Initiative?

    Answer. Yes. In order to support Egypt's economic recovery and 
democratic transition in the immediate term, we are reprogramming $150 
million from previous year bilateral USAID funds to be directed through 
DRL, MEPI, and USAID, and $2.6 million in funds from the Middle East 
Partnership Initiative (MEPI). These funds will support the political 
development necessary to conduct free and fair elections and to 
establish a responsive, accountable government that respects the 
universal human rights of the Egyptian people. OPIC will also provide 
up to $2 billion in financial support to encourage private sector 
investments in the Middle East and North Africa. Additionally, the U.S 
Export Import Bank has approved $80 million in insurance cover to 
support letters of credit issued by Egyptian financial institutions. 
Finally, the administration is working with a bipartisan group of 
Members of Congress to establish an Enterprise Fund for Egypt that will 
stimulate private sector investment, support competitive markets, and 
provide business with access to low-cost capital.

    Question #136. How will USAID address the policy, adopted at the 
behest of the Egyptian Government in 2009, which restricts it from 
providing support to nongovernmental organizations that are not 
formally registered with the Egyptian Government?

    Answer. The dramatic political change in Egypt has created a new 
environment. We are reprogramming $150 million in prior-year ESF to 
support economic recovery and democratic transition efforts. From these 
funds, we will review new NGO proposals equally--whether registered, 
unregistered, U.S., or Egyptian--in light of how they best support the 
needs as expressed by Egyptians themselves.

    Question #137. The United States has been criticized for providing 
much greater sums of military assistance than civilian in Egypt. The 
military assistance seems to have had some impact in discouraging the 
Egyptian Army from responding forcefully against protesters. On the 
other hand, Egypt's economic and political needs will be great in the 
coming months. Do we have the proper calibration between our civilian 
and military assistance programs?

    Answer. Our civilian and military assistance programs are key, 
complementary elements of our overall engagement with Egypt, and both 
are important to our support of a successful transition in Egypt. 
During this time of unprecedented change, we have seen the military 
assume a much larger decisionmaking role. Our military assistance helps 
to reinforce our cooperation with Egypt on many of our shared security 
objectives in the region. It also enables a strong military-to-military 
relationship that contributes to the achievement of U.S. policy goals 
in the region. Our close cooperation with the Egyptian military gives 
us an opportunity to discuss with Egypt's military leadership values 
that we care deeply about--freedom of expression and association, and a 
process of transition to democracy in which Egyptians can have 
confidence.
    Congress' annual appropriation of $1.3 billion in Foreign Military 
Funding (FMF) assists Egypt in maintaining a strong and disciplined 
defense force, which is critical to ensuring Egypt's continued role as 
a regional leader. Our FMF program and military cooperation also help 
ensure our privileged Suez Canal access and unfettered over-flights.
    At the same time, we understand that Egypt's success will hinge on 
a successful economy and on democratic institutions to carry it through 
the transition. That is why we are also looking for new possibilities 
to support Egypt's economic and democratic priorities. Our March 15 
announcement of additional steps to support Egypt's economy was part of 
this effort.

    Question #138. Tunisia was the first country to undergo a popular 
uprising in the Middle East. As a small country with an educated 
workforce, it appears well-positioned for a successful democratic 
transition, but international assistance in the coming months may be 
critical. Last month, the State Department notified the committee of a 
$500,000 obligation of Economic Support Funds for Tunisia. However, 
there is no separate budget allocation for foreign assistance to 
Tunisia in the FY 2012 international affairs budget proposal.

  <bullet> Do you anticipate that more funding will be announced for 
        Tunisia in the critical coming months?

    Answer. We must work closely with the Tunisian people and the 
international community in assisting Tunisia during its democratic 
transition. The State Department, through the NEA Bureau's Middle East 
Partnership Initiative, has identified $20 million in FY 2010 and FY 
2011 Economic Support Funds that we will reprogram to support the 
Tunisian transition. Our Bureau of Democracy, Human Rights and Labor 
(DRL) has identified an additional $1.1 million from its global 
democracy fund that it plans to use to support transitional justice 
processes in Tunisia. USAID has made $3 million available for programs 
that will help prepare Tunisia for elections and has identified $2 
million in transition initiatives funding to promote stabilization in 
marginalized areas and to encourage new and emerging groups to 
contribute to the national dialogue. We will also work with Congress to 
establish an enterprise fund for Tunisia to stimulate investment in the 
private sector and provide businesses with low-cost capital, 
particularly in the less-developed areas of Tunisia.
    Finally, the Overseas Private Investment Corporation (OPIC) will 
offer financial support in the form of direct loans, guarantees, and 
political risk insurance. OPIC is already supporting one Tunis-based 
private equity firm that is focused on small- and medium-size 
businesses, is conducting diligence on two additional Tunis-based funds 
that will invest in the same, and will support investor visits by 
American businesses to Tunisia.
    Looking ahead, we will continue to prepare assistance levels that 
reflect our commitment to supporting the democratic change underway.

    Question #139. The State Department's foreign assistance to Yemen 
has increased dramatically in recent years, from about $30 million in 
FY 2009 to more than $115 million in the FY12 budget request.

  <bullet> What impact does the current political instability in Yemen 
        have on current programs, both on economic programs (for 
        example, the ESF and Global Health and Child Survival accounts) 
        and security assistance (for example, FMF, 1206, NADR, IMET, 
        and INCLE accounts)?

    Answer. The current political situation in Yemen has an impact on 
both economic and security assistance programs in Yemen. Economic 
programs continue to operate; specifically, USAID is relying heavily on 
programming and monitoring through both international and Yemeni 
partners. Existing security assistance programs are also continuing 
although new project proposals are being carefully scrutinized and in 
some cases delayed to ensure that new assistance is appropriate given 
the evolving political situation.
    Continuing USG programs, including youth employment, education, 
health, counterterrorism, as well as much-needed Humanitarian 
Assistance during this period of political instability ensures that the 
basic needs of the Yemeni people are being met and that critical 
national security priorities are not abdicated. We are exploring all 
options to continue basic programming should the situation in Yemen 
change significantly. In particular, USAID's governance and livelihoods 
programs are flexible and were designed for stabilization purposes; as 
the situation evolves, USAID can look for opportunities to respond to 
changing needs on the ground through these programs.

    Question #140. [Regarding Yemen] What kinds of contingency planning 
is the Department of State undertaking for the provision of U.S. 
assistance, in both the economic and security sectors, in the event 
that the situation continues to deteriorate?

    Answer. We face truly historic circumstances in a region of great 
strategic value, but existing budget levels and earmarks greatly limit 
our flexibility to respond to contingencies. In spite of these 
challenges, we will need to be creative and flexible in identifying 
resources to support Yemen's security and prosperity. We are actively 
reevaluating our programming and assistance in order to prepare for 
contingencies and adapt our support to the transitions underway across 
the region.
    Reprogramming finite funds to address short-term needs represents 
one form of contingency planning, though it does not ensure stable 
support for longer term objectives. Contingency funding capabilities, 
such as the Complex Crisis Fund (CCF) and the Elections and the 
Elections and Political Processes (EPP) Fund, help provide the U.S. 
Government with the flexibility necessary to respond to rapidly 
developing political, humanitarian, and security scenarios, without 
forcing us to divert funding from other priority programs.

    Question #141. Organizations such as Human Rights Watch and others 
have raised allegations about improper treatment in Iraqi detention 
facilities.

  <bullet> What is the administration doing to address the capacity 
        within the Ministry of Justice, judicial guarantees and 
        conditions in places of detention?

    Answer. The administration shares the concerns of human rights 
advocates regarding conditions in detention facilities. The USG is 
using all available and appropriate diplomatic, economic, and security 
resources to develop the capacity within the Ministry of Justice to 
help Iraqi detention facilities and prisons meet international 
standards, address torture and abuse, and reduce overcrowding. The USG:

  <bullet>  Provides technical assistance to the Ministry of Justice 
        (MOJ) to improve their capacity and monitor the performance of 
        the criminal justice, police and security institutions to 
        ensure full compliance with Iraq's international human rights 
        obligations. INL/I Corrections Advisory Program aims to 
        establish safe, secure correctional facilities for the humane 
        care, custody, and treatment of persons incarcerated in the 
        Iraqi Corrections Service (ICS) system as a means of enhancing 
        the public safety for the citizens of Iraq under rule of law. 
        INL/I currently has 33 advisors serving at nine MOJ facilities, 
        ICS Headquarters, and the National Corrections Training Center.
  <bullet> The INL/I Justice Team funds DOJ/ Overseas Prosecutorial 
        Development and Training Rule of Law advisors, whose 
        responsibilities include:

          1.  Assisting the Government of Iraq (GOI) in processing 
        cases more effectively, including by identifying the most 
        critical impediments (local, provincial, and systemic) to the 
        operation of Iraq's criminal justice system, making 
        recommendations to improve case management, and facilitating 
        coordination and cooperation between judges, police, and 
        corrections personnel.
          2.  Supporting compliance with Iraqi law and international 
        human rights obligations in Iraqi detention facilities by 
        coordinating bilateral inspections of detention facilities, 
        addressing lawful execution of detention and release orders, 
        reviewing timely processing of detainees, and facilitating 
        training to build the capacity of corrections officers, among 
        other activities which further the same goal.
          3.  Assisting GOI counterparts in transition from confession-
        based to evidence-based prosecutions through individual 
        mentoring, education, familiarization with evidentiary concepts 
        and otherwise facilitating trainings for judicial police, 
        investigative judges, and trial judges.

    The USG also:

  <bullet> Urges the Government of Iraq to promptly investigate all 
        allegations of torture and ill-treatment and prosecute 
        officials who are responsible for the abuse of detainees.
  <bullet> Condemns publicly any use of torture, including during 
        interrogation with the aim of eliciting confessions.
  <bullet> Encourages the Iraqi Government to finalize ratification of 
        the Convention Against Torture and Other Cruel, Inhuman or 
        Degrading Treatment and ratify the Optional Protocol.
  <bullet> Recommends that the Iraqi Government invite the U.N. Special 
        Rapporteur on Torture to examine detainee conditions in Iraqi 
        facilities.

    Question #142. Recognizing Iraq sovereignty over its own detention 
sites, does the United States pay particular attention to persons 
transferred from U.S. custody?

    Answer. The USG is working to ensure that the handover of detainees 
from the USG to the GOI, including the transfer process and subsequent 
detention, is consistent with our international legal obligations and 
policy commitments. We have had positive discussions with The 
International Committee of the Red Cross regarding the plan that has 
been developed jointly between the USG and the GOI. All remaining 
detainees in United States Forces-Iraq (USF-I) custody will be 
transferred to a Ministry of Justice detention facility, Karkh Prison. 
Transferring the USF-I held detainees to Karkh Prison will facilitate 
USG oversight of detainee treatment and judicial case processing.

    Question #143. What contingency funding streams are available to 
provide humanitarian relief for Libya in the event that the current 
unrest degenerates to civil war?

    Answer. The U.S. Government is providing $47 million to 
international and nongovernmental organizations to meet the 
humanitarian needs of individuals fleeing the violence in Libya. This 
funding is comprised of $15 million from the President's Emergency 
Refugee and Migration Assistance Account, $12 million from the 
Migration and Refugee Assistance Account, $5 million from the Title II 
Account, and $15 million from the International Disaster Assistance 
Account, $5 million of which was programmed by USAID/FFP for local and 
regional procurement.
    We are closely following developments in Libya and should the 
situation further degenerate, we would look to these humanitarian 
accounts in the first instance.

    Question #144. Regional Middle East. In light of the popular 
uprisings throughout the Middle East, in countries that might be 
looking to enact reforms and move toward more democratic systems, how 
does the State Department find an equilibrium between supporting the 
legitimate democratic aspirations of the populations with the United 
States existing strategic interests in the region?

    Answer. It has been and remains in our interest to support Egypt--
the 30 years of peace that followed the Camp David Accords allowed for 
both Israel and Egypt to develop and strengthen in a particularly 
challenging region. Our engagement with governments enables us to have 
honest conversations with them about things like democracy and human 
rights. To this end, Foreign Military Financing accounts serve U.S. 
interests beyond the direct security imperative; it is probably not a 
coincidence that the same Egyptian military that we have supported for 
the last 30 years chose not to fire on protesters.
    In fact, we talk about these things with other governments because 
it is in our strategic interest to do so--to promote good governance 
and openness in Middle Eastern societies. I said at the Forum for the 
Future in Doha last January that ``in too many places, in too many 
ways, the region's foundations are sinking into the sand. If leaders 
don't offer a positive vision and give young people meaningful ways to 
contribute, others will fill the vacuum.'' By helping Middle Eastern 
societies transition toward more democratic systems of government, we 
will definitively repudiate the extremist narrative that feeds on 
repression and isolation.
    The United States maintains an active agenda promoting reform in 
the region. Our ambassadors and embassies across the region are fully 
engaged in these issues, whether through public statements, private 
diplomatic conversations, or targeted programming. Recent events only 
reaffirm the importance of our assistance efforts in the region, 
particularly those that support the development of economic 
opportunities and civil society.
    We are committed to enduring partnerships with our regional allies. 
As events in the region have unfolded, we have maintained close contact 
with them, engaging leaders by phone and in person.
    In our interactions with our partners, we have explained the core 
principles guiding us in the region, emphasized our conviction that 
stability in the Middle East will be enhanced by respecting the rights 
and aspirations of the people of the region, and reiterated our strong 
commitment to supporting a more peaceful and prosperous Middle East in 
close consultation with all our regional partners. We will continue to 
engage our colleagues along these lines in effort to secure greater 
participation and prosperity for all.

    Question #145. How do we resolve the tension between supporting 
civil society that is seeking change while also providing support to 
government institutions?

    Answer. For many years, the U.S. Government, through both USAID and 
the Middle East Partnership Initiative, has supported the development 
of a robust civil society across the Middle East. This support will not 
falter. Where there is resistance from our partners in government, we 
have forcefully articulated our view that a prosperous future for the 
Middle East depends on governments reaching out in partnership with 
their people to reform the political and economic foundations of the 
region. Indeed, my January tour of the Middle East and participation in 
the Forum for the Future in Doha was a concrete demonstration of our 
commitment to this principle. In Doha, I called on our government 
counterparts to see civil society not as a threat, but as a partner, 
and warned that ``those who cling to the status quo may be able to hold 
back the full impact of their countries' problems for a little while, 
but not forever. If leaders don't offer a positive vision and give 
young people meaningful ways to contribute, others will fill the 
vacuum.''

    Question #146. A recent report released by the Council of Europe 
connects Kosovo's Prime Minister Hashim Thaci to the trade of narcotics 
and organ trafficking. Does the EULEX mission have the capacity to 
undertake an investigation of this complexity or scale?

    Answer. We believe that EULEX is the appropriate organization to 
undertake an investigation into the very serious allegations in the 
Council of Europe's report. It has the mandate, jurisdiction, and 
backing of the European Union and its partners, including the United 
States.
    Creating another ad hoc U.N. or other international entity to carry 
out an investigation would be unnecessary and duplicative, in light of 
EULEX's mandate, and would only serve to delay efforts to get to the 
bottom of the allegations.
    We are currently working with our European partners to assess what, 
if any, additional support EULEX may require to conduct a thorough and 
impartial investigation.

    Question #147. A recent report released by the Council of Europe 
connects Kosovo's Prime Minister Hashim Thaci to the trade of narcotics 
and organ trafficking. What is the State Department doing to support 
further investigation of these allegations?

    Answer. Rule of law is paramount for peace, stability, and progress 
in Balkans. The United States takes seriously any allegations of 
criminal wrongdoing. In this regard, we take seriously the allegations 
contained in the Council of Europe report, some of which had previously 
been investigated by the International Criminal Tribunal for Yugoslavia 
(ICTY) and the U.N. Mission in Kosovo (UNMIK).
    We urged the governments of Kosovo and Albania to commit their full 
support to a followup investigation, which they have done.
    We fully support the EU-led Rule of Law Mission EULEX leading a 
thorough and impartial follow-on investigation. EULEX has the 
jurisdiction and mandate to deal with the sorts of crimes alleged by 
the report; it already exists and has dealt with similar issues in the 
past as well as currently; and it will have the full weight of the 
European Union and its partners to support it.
    The United States is a committed contributor of personnel to 
EULEX-- including prosecutors, judges, and civilian police. We are 
working with our European partners to determine what further support, 
if any, EULEX needs in order to successfully investigate allegations in 
the Council of Europe's report.

    Question #148. Turkish-Israeli relations have been locked into a 
downward spiral. Both countries share our interest in seeing their 
Middle Eastern neighbors freer and more prosperous.

  <bullet> What can be done to put this old partnership on a more 
        constructive basis at a time when positive leadership is needed 
        in the Middle East?

    Answer. Both Turkey and Israel are important allies and partners of 
the United States. A constructive relationship between Turkey and 
Israel supports our mutual interest in peace and stability in the 
region, something we are all trying to achieve.
    We will continue to encourage both Turkey and Israel to move beyond 
the recent strains in their bilateral relationship and work together 
toward the goals we all share.

    Question #149. Can you address the results we have seen from 
previous diplomatic programs in Belarus and what kind of results we can 
expect from a 30 percent increase of funds?

    Answer. Despite the challenging and oppressive operating 
environment in Belarus under the Lukashenka administration 
characterized by repressing pro-democracy groups and independent 
political voices, and preventing most citizens from accessing objective 
information, our assistance programs have had some important successes. 
For example, with the support of U.S. assistance, numerous independent 
Belarusian newspapers and Web sites have been able to cover the recent 
crackdown and continue to provide objective information to the citizens 
of Belarus despite attacks on their Web sites and seizures of their 
equipment by the authorities. Last year, U.S. assistance supported 48 
business associations that engaged in advocacy and watchdog functions, 
and mobilized the business community and broader civil society in order 
to affect public-policy development. These efforts led to an increase 
in membership of business associations by over 11 percent. Together 
with our European partners, we have been supporting the European 
Humanities University in Vilnius, which provides a Western-quality 
education to Belarusian students. We are also nearly ready to launch a 
Western-accredited, English-language MBA program, which will further 
expand opportunities for Belarusians. We have increased the number of 
Belarusians participating in exchanges to the United States, with the 
number of participants in 2010 reaching 100, a 4-year high.
    In response to the Belarusian Government's brutal crackdown 
following the December 2010 Presidential election, the U.S. pledged a 
one-time, $4 million increase in assistance for Belarus. Some of this 
funding will continue to address immediate humanitarian and legal needs 
to those facing repression in the aftermath of the crackdown, and 
support independent media. For the medium to longer term, we are 
reviewing our assistance strategy to ensure that our programs are most 
effectively aligned with our policy goals and remain responsive to the 
evolving environment. This review will inform priorities for the 
balance of our $4 million commitment as well as future annual funding. 
We will consult with Congress before programming these funds.

    Question #150. What sort of obstacles have the provision of 
assistance met in the past and what can be done to improve their 
efficacy in the future?

    Answer. While our efforts to address social and humanitarian issues 
as well as to empower entrepreneurs and strengthen the private sector 
are generally unimpeded, the Government of Belarus has used a number of 
tactics to stymie programs working to advance civil society, democracy 
and human rights, which constitute the majority of our assistance. Over 
the course of the past decade, many of our implementing partners have 
been forced to shut down their offices in Belarus and relocate outside 
the country due to the Government's actions. Simultaneously, the 
Lukashenka administration has impeded the ability of many of the 
Belarusian beneficiaries of our assistance from carrying out their 
work, targeting civil society groups, independent media outlets, and 
those working to create space for the free expression of political 
views. For example, the Government of Belarus harasses activists and 
organizations, obstructs freedom of association and assembly, seizes 
equipment from NGOs and media outlets, denies independent newspapers 
access to distribution networks, blocks or disables independent Web 
sites, requires lengthy project approvals, and denies registration of 
civic organizations. Additionally, the reduction of staff at U.S. 
Embassy Minsk--ordered by the Government of Belarus in 2008--makes 
monitoring and evaluating our programs more challenging.
    To tackle these challenges, our assistance targets civil society 
groups and those promoting political and media freedoms. For example, 
we help civil society groups and media outlets comply with legal 
requirements and other challenges facing their operations, as well as 
aid them to better secure and develop their Web sites. Additionally, 
the United States has gone to great lengths to coordinate with our 
European counterparts when working against constraints to the operating 
environment and to ensure that our programming is successfully 
addressing challenges as they arise.
    To ensure our programs are most effectively aligned with our policy 
goals and responsive to the new, more challenging environment, we are 
currently reviewing our assistance strategy. We are also planning a 
donor mapping exercise that will aggregate information collected from 
all the major donors to Belarus. This project will inform our ongoing 
assistance strategy review, while identifying any gaps in international 
assistance and avoiding duplication of effort.

    Question #151. Belarus. What efforts has the Department of State 
made specifically for the release of political prisoners?

    Answer. The Department has, from the moment arrests began, made 
repeated efforts to persuade the Government of Belarus to immediately 
and unconditionally release them. We issued public statements by the 
Department, including two joint statements by Secretary Clinton and EU 
High Representative Ashton, and several other senior officials of the 
State Department have spoken out publicly on this issue, including 
former Assistant Secretary Crowley, Principal European Deputy Assistant 
Secretary McEldowney, and Democracy and Human Rights DAS Melia, and 
several statements at the regular meetings of the Permanent Council of 
the Organization for Security and Cooperation in Europe. Our Embassy in 
Minsk has on numerous occasions repeated this same message directly to 
Belarusian officials.
    As a direct result of our determination that the Lukashenka regime 
has created new political prisoners, the United States on January 31 
imposed a range of sanctions against Belarus. These sanctions include 
visa bans, the revocation of the General License that permitted trade 
with two subsidiaries of Belarus' largest oil and petrochemical 
corporation, Belneftekhim, and further efforts to freeze assets of 
officials responsible for the crackdown.
    On April 6, the United States, together with 13 other countries, 
requested that international experts undertake an impartial fact-
finding mission to Belarus to address questions related to particularly 
serious threats to human rights, fundamental freedoms, democracy and 
the rule of law that occurred after the December 19, 2010, Presidential 
election. This request was made through the invocation of an 
Organization for Security and Cooperation in Europe (OSCE) mechanism 
known as the ``Moscow Mechanism.'' Approved by consensus of all OSCE 
participating States in 1991, the Moscow Mechanism provides a means for 
addressing questions related to the fulfillment of human rights 
commitments in an individual State.
    We are continuing to assess the effectiveness of these steps as we 
go forward, and we will decide on any further actions based on the 
regime's response. We will continue our close coordination with our EU 
colleagues for maximum effect.

    Question #152. The U.S.-Russia Bilateral Presidential Commission 
was established in July 2009 in an effort to reset relations between 
the two countries and broaden the range of issues they engage on. 
Several working groups of the Commission are meeting in Moscow from 
February 28 through March 5, 2011, including Science and Technology and 
the Education subworking group. There will be discussions of building 
academic partnerships and collaborating on technology transfer.

  <bullet> What concrete accomplishments can the working groups point 
        to now that they've had over a year to cooperate?

    Answer. Our efforts since President Obama and President Medvedev 
committed to making a fresh start in U.S.-Russia relations have proven 
that the reset is real and substantive. This is in no small measure 
credited to the work of the Bilateral Presidential Commission and its 
now 18 working groups. In its short 2-year lifespan, the Commission has 
proven itself as a catalyst for regular interactions between our 
governments on a growing shared agenda. It has also added value to 
these relationships by bringing in fresh faces, including from our 
companies and civil societies, to help sustain its work and to produce 
tangible results that impact both Russians and Americans. A detailed 
account of the Commission's accomplishments in its first year can be 
found on the Commission's Web site at www.state.gov/russiabpc . A short 
scorecard of the Commission's more recent achievements include:

  <bullet> Continued coordination on Iran, North Korea, and Middle East 
        Peace;
  <bullet> Joint U.S. and Russian support for an Afghan-led operation, 
        which seized over 932 kg of heroin, and the dismantling of a 
        cocaine smuggling ring between Florida and St. Petersburg;
    The shutdown of Russia's last weapons grade plutonium reactor and 
the conclusion of an agreement to conduct feasibility studies on 
research reactor conversion;
    An increase in joint exercises and exchanges between our 
militaries, including for the first time in our history a joint 
counterterrorism exercise to combat aircraft hijacking, which took 
place last August;
    Expanded opportunities for two-way trade and investment, including 
in innovation sectors, and the launch of new partnerships between our 
cities and companies on energy cost saving Smart Grid Technology;
    New cooperation on the global eradication of polio and to launch 
technology applications to provide health information to new mothers 
via text message;
    Increased collaboration between American and Russian NGOs to fight 
official and corporate corruption and stop the exploitation of 
children;
    And, the creation of new university partnerships in science and 
technology as well as creation of new youth exchanges in sports and 
theater.

    And that is just the tip of the iceberg, with much more planned for 
the future.

    Question #153. How often have the working groups met and on what 
dates?

    Answer. The Commission has achieved its objective to increase 
productive interactions between the United States and Russia. According 
to the Commission's mission statement, working groups are encouraged to 
meet as often and regularly as cochairs consider necessary. In its 
first year alone, over 100 meetings and exchanges were held under the 
auspices of Commission working groups. Since last July, over 50 high-
level interactions, including visits and digital video conferences, 
have taken place. This high level of interaction is indicative of our 
shared interest in strengthening our joint work across the Commission's 
broad agenda. In our meetings and discussions, Russia's Foreign 
Minister and I, as co-Coordinators of the Commission, regularly review 
progress and offer guidance on the Commission's initiatives and 
activities.

    Question #154. Are there plans to restructure, consolidate, or 
expand the BPC working groups based on the ongoing experience acquired 
as a result of the collaboration?

    Answer. As the Commission's terms of reference stipulate, the 
composition of the Commission may change as some objectives are 
accomplished and new ones are identified. In September, the Defense 
Relations Working Group, cochaired by Secretary Gates and Russia's 
Defense Minister, Anatoliy Serdukov, was created to enhance 
interactions and build confidence between our defense establishments in 
areas such as missile defense, defense technology, maritime operations, 
regional security, training, and social welfare issues. Thus, as our 
shared agenda with Russia grows to include new issues or priorities, 
the Commission may also grow to advance our objectives.

    Question #155. How are working group activities budgeted?

    Answer. U.S. Commission activities are not funded through a 
designated budget but supported as appropriate through the existing 
budgets of participating agencies and the annual bilateral assistance 
to Russia provided through the Assistance to Europe, Eurasia and 
Central Asia (AEECA) account. Given growing budgetary constraints, we 
have encouraged working groups to be flexible in engaging their Russian 
counterparts, including by using video-teleconference. We are also 
exploring opportunities for public-private partnerships as well as 
potential fund raising mechanisms to support new initiatives, 
particularly to further our cultural and youth exchanges.

    Question #156. The Government of Azerbaijan continues to make 
bellicose statements regarding the ongoing state of tensions with 
Armenia. Recently an agreement on military cooperation was concluded 
between Turkey and Azerbaijan.

  <bullet> What is the extent of military cooperation between 
        Azerbaijan and Turkey?

    Answer. The Government of Azerbaijan and the Government of Turkey 
share close bilateral relations and have been cooperating in the 
military sphere in a number of areas.
    On December 21, 2010, the Azerbaijani Parliament ratified an 
agreement on ``strategic partnership and mutual assistance'' with the 
Government of Turkey. We understand the agreement includes cooperation 
on a range of bilateral issues, including in the military sphere. The 
agreement stipulates joint training, technical cooperation, equipment 
provisioning, and consultations on political-military security issues.

    Question #157. How concerned are you by the Azeri military buildup?

    Answer. As a cochair of the OSCE Minsk Group, the United States 
remains concerned about the risk of miscalculation in the Nagorno-
Karabakh conflict. We continue to urge the parties to the conflict to 
show restraint in order to minimize the risk that any such 
miscalculation could lead to unintended consequences. Azerbaijan 
remains an active participant in the Minsk Group process and has 
committed to seeking a lasting, peaceful settlement of the conflict. 
The United States has continued to make clear to Azerbaijan and 
Armenia, both bilaterally and through the Minsk Group, that there is no 
military solution to the conflict.

    Question #158. What is the Department doing to address it?

    Answer. As a cochair of the Minsk Group, the United States has 
emphasized that all sides should show restraint in their public 
statements and on the ground to avoid misunderstandings and unintended 
consequences. Secretary Clinton reiterated this message during her 
February meetings in Munich with Azerbaijani Foreign Minister 
Mammadyarov and Armenian President Sargsian, as did Deputy Secretary 
Steinberg during his February visits to Yerevan and Baku.

    Question #159. Can you point to any successes the Minsk Process may 
have achieved since its establishment?

    Answer. The OSCE Minsk Group, of which the United State is a 
cochair, continues its vital role as the sole venue for mediating a 
peaceful, lasting settlement of the Nagorno-Karabakh conflict. First 
and foremost, the Minsk Group cochairs continue to help Armenia and 
Azerbaijan recognize that a return to open conflict would be disastrous 
both for them and the region. Through their regular shuttle diplomacy 
to the region and meetings with the top leadership of all sides, the 
cochairs have helped Azerbaijan and Armenia move closer to peace. In 
recent weeks, there has been positive movement toward reaching 
agreement on the Basic Principles, which will serve as the basis for a 
final peace treaty. In December 2010, the Presidents of Armenia and 
Azerbaijan issued a joint statement--along with Russian President 
Medvedev, French Prime Minister Fillon, and Secretary Clinton--which 
confirmed their commitment to seek a peaceful settlement based upon the 
principles and norms of international law; the United Nations Charter; 
the Helsinki Final Act; and the statements of Presidents Medvedev, 
Sarkozy, and Obama at L'Aquila on July 10, 2009, and at Muskoka on June 
26, 2010. Notably, this was the first time Presidents Aliyev and 
Sargsian publicly and jointly stated that the Helsinki Final Act and 
the elements in the L'Aquila and Muskoka statements should be the basis 
of a settlement.

    Question #160. U.S. Presence in Asia-Pacific. In the last several 
years the United States has shown through both words and actions a 
reinvigorated, bipartisan commitment to maintaining a robust presence 
in the Asia-Pacific region. While expressing support for this renewed 
presence, partners and allies in the region have expressed the hope 
that U.S. engagement with the Asia-Pacific will be sustainable. A 
critical test of our sustainability--and ultimately our ability to 
retain influence--will be maintaining budgetary support for U.S. 
programs and personnel in the region.

  <bullet> Does this budget adequately reflect the continuing U.S. 
        commitment to the Asia-Pacific?

    Answer. The FY 2012 budget request supports our engagement in the 
East Asia and Pacific region and advances fundamental U.S. interests. 
Our foreign assistance is intended to deepen relationships with 
burgeoning democracies in Indonesia and Mongolia, strengthen 
partnerships with newly emerging democracies such as Timor Leste, 
establish a USAID office to implement projects in the Pacific, enhance 
relations with long-time partners in Thailand and the Philippines, 
improve cooperation with Vietnam and China, and support civil society 
needs in Burma. In addition, we seek to further regional integration 
through multilateral organizations such as the Asia-Pacific Economic 
Cooperation forum and the Association of Southeast Asian Nations, as 
well as through the Lower Mekong Initiative.
    Foreign assistance from the East Asian and Pacific Affairs bureau 
will support the key U.S. Government priorities in the region of 
advancing the Comprehensive Partnership with Indonesia, improving 
security and antiterrorist capabilities in the Philippines, enhancing 
engagement with Vietnam, building the capacity of regional multilateral 
institutions, and supporting global initiatives on health, climate 
change, and food security.

    Question #161. What are the funding levels for the ``100,000 
Strong'' Initiative and the Lower Mekong Initiative--two signature 
administration initiatives in East Asia--in the FY 2012 budget?

    Answer. The ``100,000 Strong'' Initiative is a public-private 
partnership; there is no FY 2012 funding request.
    Our FY 2012 request for the Lower Mekong Initiative (LMI) is $5.5 
million.

    Question #162. Is funding sufficient to sustain programming on both 
initiatives?

    Answer. No U.S. Government funds will be used to support the 
100,000 Strong Initiative. The Initiative is a public-private 
partnership and will be fully funded and implemented by private sector 
organizations. Corporate, foundation, and individual donors pledge 
financial support to the Initiative, but funding flows directly to the 
schools and study abroad programs of their choice. Our goal is to 
secure pledges of at least $68 million in private contributions to 
support the Initiative in order to enable study abroad programs to 
expand sufficiently to reach our goal of seeing 100,000 Americans 
studying in China over 4 years.
    Present funding for the Lower Mekong Initiative will allow us to 
support programs across the four pillars: infrastructure, education, 
health, and the environment. In July 2009, the United States joined 
Cambodia, Laos, Vietnam, and Thailand to launch the Lower Mekong 
Initiative with the aim of promoting cooperation on issues of regional 
importance.
    Since then, we have initiated projects designed to help better 
manage the invaluable natural resources that the Mekong River system 
provides, such as strengthening water management, cleaning up 
waterways, protecting forests, building science partnerships, and 
advancing clean energy. The FY12 request of $5.5 million for the Lower 
Mekong Initiative would allow the United States to expand those 
projects, develop new ones, and leverage resources from the Lower 
Mekong countries as they have also offered to contribute resources to 
support shared efforts.

    Question #163. What impact would proposed budget cuts have on the 
United States ability to exert its influence in the region?

    Answer. There is no question that the dynamic Asia-Pacific region's 
influence is growing and holds the key to our shared future, and that 
American leadership in the region is essential to our long-term 
national interests. Proposed budget cuts would undermine the 
administration's commitment to sustain and strengthen America's 
leadership in the Asia-Pacific region. Reduced funding could have 
significant consequences for our efforts to engage Asian-Pacific 
countries and regional institutions to improve security, heighten 
prosperity, and promote democracy and human rights. Budget cuts would 
also limit our ability to help build regional capacity to address the 
economic, environmental, political, and security challenges facing the 
region.

    Question #164. What message would cuts send to our allies and 
partners in the region?

    Answer. Reduced budgetary support for our programs in the Asia-
Pacific region would undermine our efforts to sustain and develop our 
influence in the region and would send the wrong signal to our partners 
and allies, giving credence to those who have openly questioned the 
United States long-term commitment to the region. A reduction in 
funding levels would also prevent the United States from fulfilling 
important existing commitments to support programs and initiatives in 
the region. Reneging on our commitments would not only raise doubts 
about our willingness to live up to our promises, but also call into 
question our sincerity when making those commitments.

    Question #165 & #166. The East-West Center (EWC) was established by 
Congress in 1960 as a national educational institution to foster better 
relations and understanding among the peoples of the United States, 
Asia, and the Pacific Islands through programs of cooperative study, 
training, and research. The EWC plays an absolutely critical U.S. 
public diplomacy role in the Asia-Pacific, and is an important aspect 
of the broader, enduring U.S. presence in the region.

  <bullet> How does your department assess the continuing value of the 
        EWC's activities to U.S. national security and foreign policy 
        objectives in the Asia-Pacific?
  <bullet> How would cuts in EWC funding impact U.S. diplomatic efforts 
        in the region?

    Answer. As the importance of U.S. relations with the Asia-Pacific 
region continues to grow--including with China as an emerging global 
power and Indonesia as the world's most populous Muslim nation--the 
East-West Center remains valuable to promoting U.S. national security 
and foreign policy objectives. Established by the U.S. Congress in 
1960, the Center serves as a key national resource by fostering better 
relations and understanding among the peoples of the United States, 
Asia, and the Pacific Islands through education and dialogue on 
critical issues of common concern. Its success in bringing together 
people and institutions from multiple sectors--including government, 
academia, journalism, and the private sector--promotes regional 
collaboration, intellectual capacity-building and the development of 
effective policy options.

  <bullet> The East-West Center has introduced many opinion-makers 
        overseas to American values. It serves as a forum for meetings 
        between officials and leaders of Asia and the Pacific and their 
        U.S. counterparts, offering a unique venue and expertise to 
        foster cooperation and encourage the sharing of ideas. The 
        Center's 58,000 alumni form a significant international network 
        of influence in government, international organizations and 
        educational institutions, and U.S. embassies support and 
        benefit from the efforts of these alumni overseas. Prime 
        Minister Manmohan Singh of India and Prime Minister Najib Razak 
        of Malaysia are among current Asia-Pacific leaders with East-
        West Center experience. Another Center alumnus, Chinese Vice 
        Minister of Education Hao Ping, has a key role in promoting 
        enhanced educational cooperation with the United States. The 
        Center's biannual alumni conferences convene hundreds of 
        alumni, testimony to the lasting value of the Center 
        experience.
  <bullet> The Center's leadership programs for graduate students, 
        young professionals and young women leaders in particular are 
        helping pave the way for a future of increased cooperation. The 
        Center also helps Americans improve their understanding of the 
        Asia-Pacific region by working with high schools and colleges 
        around the country, strengthening U.S. capacity to engage with 
        this critical region in the future.
  <bullet> The pending FY 2012 President's budget reflects the 
        administration's commitment to fiscal constraint, and would 
        require a number of programs to pursue operating efficiencies 
        and greater cost-sharing. As has been proposed in past years, 
        the budget assumes the East-West Center will pursue other 
        Federal and non-Federal funding sources to support both its 
        core programs and administrative overhead. The Center raises 
        approximately $0.60 for each appropriated dollar to further its 
        congressional mission. Should the Center be unable to increase 
        this ratio, it will need to reduce a significant number of 
        staff, reduce the amounts of student scholarships 
        (approximately 280 currently) and decrease the number of its 
        other participants possibly by one half, and may be required to 
        eliminate its Okinawa Initiative and U.S. involvement with the 
        Pacific Economic Cooperation Council, and implement substantial 
        cuts in programs for journalists, teachers, political leaders, 
        and cooperative research. Collaborators and donors have noted 
        that cutbacks in the appropriation would likely result in 
        reduced nongovernmental funding as well.

    Question #167. Congress has long supported the Asia Foundation's 
efforts to build democratic institutions and promote economic reform 
and women's empowerment across Asia. Through its longstanding presence 
working through 18 field offices across the region, the Foundation 
builds local capacity that engages government and civil society in 
reform efforts. The Asia Foundation's activities not only improve the 
lives of Asians, but they contribute to stability and U.S. national 
security interests in the region.

  <bullet> In what ways does the work of the Asia Foundation contribute 
        to advancing U.S. interests in the region, specifically 
        including democratic development, good governance, economic 
        reform, and women's empowerment?

    Answer. The Asia Foundation has unique attributes that enable it to 
advance U.S. interests in Asia. The Foundation is the only 
nongovernmental organization that has maintained 18 offices throughout 
Asia for nearly 60 years. Because of its long history in Asia, its 
grantmaking, and its deep relationships of trust with local governments 
and nongovernment organizations, the Asia Foundation is able to manage 
effective on-the-ground programs by providing grants to local 
organizations to build local capacity. Specifically, these programs 
advance U.S. national interests such as strengthening democratic 
institutions and civil society, promoting good governance, creating 
economic opportunity, and empowering women, and are often conducted in 
countries or target situations in which the U.S. Government is unable 
to offer direct assistance.
    Using its appropriation from Congress, the Foundation funds pilot 
projects and leverages funds from other donors to expand the impact of 
U.S. taxpayer-funded programs.
    The Asia Foundation continues to be one of the U.S. Government's 
most important private partners in developing and implementing 
democracy, governance, and human rights programs in Asia. Examples of 
those programs include advancing open government and transparency in 
rulemaking in China, developing peace processes in the Philippines and 
Nepal, countering trafficking in persons, protecting rights and 
empowering women in Cambodia and Thailand, and working with religious 
organizations in Muslim countries, including Indonesia, Malaysia, 
Bangladesh, and Afghanistan.
    Finally, the Foundation is an important neutral convener and, as 
such, helps to resolve conflicts in key countries in Asia. As seen in 
its role as a neutral party in the Philippine peace process, the 
Foundation is the only American organization to be invited by both the 
Government of the Philippines and the Moro Islamic Liberation Front 
(MILF) to help monitor the peace agreement.

    Question #168. How would cuts in Asia Foundation funding impact 
U.S. efforts to promote democracy, good governance, market economic 
policies, women's rights, and justice in Asia?

    Answer. As a unique American asset relied upon by State, USAID, and 
other U.S. Government agencies, Asia Foundation funding cuts would have 
a negative impact on U.S. Government efforts to promote democracy, good 
governance, and reform in many Asian countries. Cuts specifically would 
jeopardize the Foundation's longstanding 18 office network in Asia. The 
Foundation effectively manages its limited funding, with a low overhead 
rate, and leverages an estimated $4 from other donors for every 
congressionally appropriated dollar. The Asia Foundation's 1994 
appropriation of $15 million would be equivalent to $23 million in 
today's inflation-adjusted dollars, yet the Foundation's appropriation 
in FY 2010 was just $19 million.
    As the only longstanding American organization with a regionwide 
reach, the Asia Foundation's withdrawal from countries could be seen as 
a signal of American withdrawal from those specific countries and from 
engagement in the wider region.
    The Foundation plays an important American nongovernmental 
leadership role in helping to convene newly emerging donors in the 
region, leading up to the High Level Forum for Aid Effectiveness this 
fall, for which the Foundation has been working closely with the South 
Korean Government to prepare and shape the agenda. As a valued private 
partner of the U.S. Government in implementing important programs to 
advance key U.S. interests in the region, any reduction of the 
Foundation's presence in the region would be detrimental to the 
advancement of U.S. interests in Asia.

    Question #169. Burma: When the Obama administration announced its 
Burma policy in the fall of 2009 after extensive study, it pledged to 
address the urgent humanitarian needs of Burma's long-suffering people 
through the expansion of assistance in ways designed to help those most 
in need without inadvertently strengthening the government. How does 
this year's budget request for Burma-related accounts reflect this 
goal?

    Answer. Of the total $23.3 million FY 2012 funds requested for 
Burma, approximately $12 million ESF will be used for humanitarian 
assistance, expanding the FY 2009-funded program from the Delta region 
affected by Cyclone Nargis to the ``Dry Zone,'' a drought-ridden region 
of Central Burma, where people are among the most disadvantaged. The FY 
2012 budget request will support the most vulnerable and poor in three 
key sectors: maternal and child health; livelihoods/food security; and 
water/sanitation/hygiene. USG implementing partners in Burma are 
experienced in the complex operating environment of Burma and have 
internal systems and policies in place to ensure that assistance 
reaches the targeted communities and that no funds go to or through the 
Government of Burma. Implementing partners work in accordance with U.S. 
Government statutory restrictions and Office of Foreign Assets Control 
sanctions and licenses.

    Question #170. Please describe the administration's plans to 
support the activities of NGOs in Tibetan regions of China, and the 
impact of proposed cuts to foreign assistance on those and related 
Tibet programs, as well as on the ability of the administration to 
implement the Tibet Policy Act of 2002.

    Answer. U.S. Government assistance to Tibetan areas of China 
reflects the basic tenets of the Tibetan Policy Act of 2002 to support 
cultural preservation, sustainable development, and environmental 
preservation.
    The State Department and USAID support these objectives through 
numerous programs that aid Tibetans both inside and outside of China. 
These programs preserve Tibet's unique cultural and linguistic 
heritage, provide educational and vocational opportunities, protect 
Tibet's delicate environment, and aid Tibetan refugees in neighboring 
countries.
    Proposed cuts to the foreign assistance request for Tibet programs 
would undermine the administration's ability to implement the Tibet 
Policy Act of 2002. Reduced funding could have significant consequences 
for our efforts to preserve Tibetan culture, promote prosperity for 
ethnic Tibetans, and protect Tibet's environment. Budget cuts would 
also limit our ability to build local NGO capacity to address 
challenges facing the region. For instance, in Qinghai province, the 
State Department has been supporting the growth of the NGO sector in 
Tibetan areas. The 2010 Yushu earthquake brought devastation to the 
area, which is estimated 97 percent ethnic Tibetan, and many NGOs are 
still in the process of rebuilding their organizations and environment. 
Without continued funding, Tibetan NGOs will lose critical support for 
their efforts to ensure that government plans to rebuild the area take 
into account the needs of local residents. Budget cuts would also 
sharply limit USAID's ability to improve health care services for 
Tibetan children and provide training for Tibetan birth attendants.

    Question #171. What is the State Department's position on S. 416 (a 
bill to develop a strategy for assisting stateless children from North 
Korea)?

    Answer. Intercountry adoption, as contemplated by S. 416, is ill-
suited to respond to issues relating to statelessness and to North 
Korean refugees. We generally find that intercountry adoption is not an 
adequate form of assistance to children in situations of distress 
arising from a natural disaster, political unrest, the type of 
oppression found in North Korea, or the plight of North Korean refugees 
in other countries. As difficult as those situations may be, the 
children may nonetheless have parents or relatives with whom they may 
be reunited, making intercountry adoption a premature option. 
Heightened safeguards should be applied to verify that children in such 
circumstances are actually orphans and are not merely temporarily 
separated from their parents.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions
                 Submitted by Senator Richard G. Lugar

    Question #1. Overseas Contingency Operations (OCO).--While I 
understand that the programs you propose to fund through the new 
Overseas Contingency Operations (OCO) account are separated from the 
core State and foreign operations programs because they are not 
anticipated to be long-term programs, you have also included a number 
of programs for these frontline states throughout your core budget 
request, including, for example, $324 million for Afghanistan for 
``rule of law development and the drug trade that fuels the 
insurgency'' which your budget states are ``two of the greatest 
strategic challenges facing the United States in the war in 
Afghanistan.''

  <bullet> Please explain how you determined which funding priorities 
        fall within the OCO versus your core budget for these frontline 
        states, and what the total amount of funding for the frontline 
        states is within your core budget.

    Answer. By requesting $8.7 billion in an Overseas Contingency 
Operations (OCO) budget, the Department of State and USAID strive to be 
as transparent as possible about the extraordinary and temporary 
resource demands we face due to operating in frontline states (Iraq, 
Afghanistan, and Pakistan)--treating these exceptional requirements as 
the Department of Defense (DOD) has been treating them for several 
years. At the same time, there is still a need to lay the foundation of 
a lasting diplomatic presence and continue base assistance programs to 
ensure that the gains made by the Department of State and the DOD are 
not reversed and that we continue to foster long-term strategic 
partnerships. These expenses are included in the FY 2012 core budget 
request of $5.3 billion for the frontline states.
    Our efforts to stabilize the frontline states and transition from 
military-to-civilian-led missions in Afghanistan and Iraq, has led the 
Department and USAID to take on extraordinary roles and costs that are 
greater than our operations and assistance programs in other regions of 
the world. We anticipate that as these missions mature and the 
political, economic, and security fortunes of these countries change, 
these resource demands will ebb.
    Specifically, the OCO costs for the Department and USAID include 
higher personnel expenses, enhanced security to operate in a high-
threat environment, new facilities to support expanded operations and 
the greater logistical demands such as fuel costs and transportation of 
personnel. In Iraq, foreign assistance OCO costs are specifically 
related to the transition of police training and military assistance 
from the DOD to the Department of State. In Pakistan and Afghanistan, 
OCO directly supports civilian-led efforts to develop robust 
counterterrorism and counterinsurgency cooperation--the Pakistan 
Counterinsurgency Capability Fund and economic and development programs 
tied to counterinsurgency efforts. Specific criteria are detailed 
below:


------------------------------------------------------------------------
                  Number                             Description
------------------------------------------------------------------------
1.........................................  Temporary in nature.
2.........................................  Particular to the unique
                                             operational hazards in a
                                             frontline state such as
                                             security to cover
                                             transition activities, life
                                             support and vehicle/
                                             aviation recovery,
                                             acquisition of aviation and/
                                             or secure vehicles for
                                             transition activities.
3.........................................  Specific to supporting
                                             counterinsurgency
                                             operations and provincial
                                             stability, such as PRT
                                             funding in Afghanistan and
                                             the EBOs in Iraq.
4.........................................  Transitioning programs from
                                             military to civilian
                                             responsibility, such as the
                                             police training and
                                             military assistance
                                             programs in Iraq.
5.........................................  Extraordinary in terms of
                                             scale required to meet
                                             political imperatives such
                                             as infrastructure programs
                                             in Afghanistan and the
                                             interagency civilian
                                             uplift.
------------------------------------------------------------------------


    In regard to your question about determining the split between OCO 
and core foreign assistance programs in Afghanistan, the Department of 
State and USAID determined that OCO costs are extraordinary and/or 
temporary and specifically intended to achieve joint civilian-military 
objectives. The following economic assistance programs, therefore, fell 
within the OCO request:


------------------------------------------------------------------------
                  Program                           Justification
------------------------------------------------------------------------
Provincial Reconstruction Team Programs...  These programs provide local
                                             government solutions to
                                             counter insurgent influence
                                             and build support for
                                             legitimate governance
                                             institutions. Programs
                                             immediately follow
                                             ``clearing'' and target
                                             conflict-affected
                                             populations.
Strategic Communications..................  The ``Strat-Comm'' program
                                             counters extremist voices
                                             and builds Afghan
                                             communication capacity to
                                             directly counter extremist
                                             domination of communication
                                             space.
Alternative Development...................  These programs reinforce
                                             stability by providing
                                             vulnerable populations with
                                             licit, economically
                                             attractive alternatives to
                                             poppy cultivation, in turn
                                             reducing revenues that
                                             support anti-government
                                             elements and contributing
                                             to the development of
                                             sustainable economic
                                             growth.
Roads.....................................  This request supports
                                             construction of municipal,
                                             district, provincial and
                                             regional transit routes
                                             that link communities and
                                             markets. These roads are
                                             critical to maintaining the
                                             momentum behind other
                                             economic growth initiatives
                                             that support both
                                             stabilization efforts as
                                             well as long term economic
                                             sustainability.
Power.....................................  Economic growth is the key
                                             component of the COIN Build
                                             phase and reliable access
                                             to power underpins economic
                                             growth and job creation.
                                             The OCO component of the
                                             power request supports the
                                             Afghan Infrastructure
                                             Program, including the
                                             Kandahar Power Initiative.
                                             These large-scale
                                             infrastructure projects
                                             will complete large-scale,
                                             high priority power
                                             projects that will provide
                                             up to 50 percent of
                                             Afghanistan's urban
                                             populations along the
                                             eastern corridor with
                                             access to reliable,
                                             uninterrupted power supply.
Cash for Work.............................  These programs provide short-
                                             term jobs for urban and
                                             rural families, targeting
                                             unskilled, under-employed
                                             youths in insurgent-
                                             vulnerable areas.
------------------------------------------------------------------------


    The core components of the request are those programs with the 
primary objective of promoting sustainable solutions in Afghanistan, 
beyond our stabilization objectives. These programs primarily focus on 
longer term capacity-building and sustainable solutions that will help 
ensure the irreversibility of transition from international to Afghan 
lead. The rule of law and governance programs, for example, are 
critical to building Afghan institutions that are responsive to 
citizen's needs after military-led efforts have scaled down. Under 
infrastructure, the physical construction of projects is considered OCO 
because of the extraordinary size of the near-term investment. But the 
sustainability components of the project that focus on 
commercialization of electricity delivery and the capacity-building 
within the government to manage these programs are part of the core 
program. Health and education fall under the core program because they 
are cornerstone investments that will ensure a stable and productive 
society, but also build the capacity of the Afghan Government to 
provide these services independently.
    Similar considerations were used in developing the State Operations 
requests. The enduring program component covers the anticipated longer 
term platform that resembles our presence in comparable posts the 
region. For example, while the static guard force in Iraq is made up 
largely of third country nationals (TCNs) that require sustainment, the 
longer term force is anticipated to consist of local guards, as is the 
case at other posts. The extraordinary costs associated with the 
contracts to provide the TCNs and their sustainment is considered to be 
in OCO, while the component of the current contracts that are estimated 
to cover the cost of a future local guard program in Iraq is part of 
the enduring portion of the request. In Afghanistan and Pakistan, the 
enduring request supports long term programs, permanent facilities, and 
staffing at the level prior to the civilian uplift. The enduring 
funding level was initially based on post requirements and staffing at 
FY 2007 levels, with adjustments for the operating costs of new 
consulates and other permanent facilities. The extraordinary costs 
above and beyond the enduring presence would be considered OCO. The 
enduring and OCO split will be continuously reviewed as policy 
decisions dictate what the future enduring presence will be.

    Question #2. You plan to use Pakistan OCO funds for the Pakistan 
Counterinsurgency Capability Fund (PCCF) to help Pakistan's military 
build the capacity to eliminate insurgency sanctuaries that threaten 
the government's stability.

  <bullet> How serious is the threat of internal extremist groups to 
        the Pakistan security institutions and can the Government of 
        Pakistan withstand their threat? What role does economic 
        assistance play in this threat?

    Answer. The threat of internal extremist groups to the Pakistan 
security institutions is significant, although the Government of 
Pakistan, including security institutions, can withstand this threat. 
By this, we mean that it is highly unlikely that one or more extremist 
groups would topple the federal or provincial governments. However, we 
expect continued attacks against state institutions such as high-
profile bombings of military and civilian government facilities.
    The economic assistance provided to Pakistan is key to continuing 
to help the civilian government build its capacity to secure the 
country and meet the needs of its people and, in the long-term, to 
increase to the economic, social, and educational opportunities 
available in Pakistan, thereby reducing the appeal of extremism.

    Question #3. While the circumstances of the death of Pakistani 
citizens last month continues to be subject of much speculation, the 
loss of life is painful and regrettable. It is imperative to the 
effective practice of diplomacy to adhere to international conventions.

  <bullet> What is the status of our relationship with Pakistan in view 
        of the long detention of one of our Embassy staff, Raymond 
        Davis? How will his status determine U.S. assistance and 
        engagement going forward?

    Answer. America and Pakistan are pursuing a broad and important 
agenda together, specifically our shared desire to see Pakistan become 
a strong, prosperous democracy, at peace with its neighbors, and 
working with us to build security across the region. We are working 
together to build energy projects in Pakistan, launch stabilizing road 
projects in the FATA, build clinics and schools, improve macroeconomic 
fundamentals, cooperate on fighting terrorism, and coordinate on our 
efforts to bring stability Afghanistan. On these and other aspects of 
our partnership with Pakistan, we stress the frequency, integrity, and 
constancy of our engagement with the people and Government of Pakistan.
    This is also a difficult time in our relationship, with tensions 
over a series of contentious issues, including the case involving 
Raymond Davis, and differences on the most effective means for fighting 
terrorism. We know the pain this case has caused, and we are committed 
to working with the people of Pakistan to move forward in peace and 
partnership based on mutual trust and common interests.

    Question #4. The Enhanced Partnership with Pakistan Act of 2009 
provided authority for the long-term engagement and development of 
Pakistan. Such funds are in the national security interest and have 
long been intended for a long-term and committed partnership with all 
Pakistanis.

  <bullet> a. Why have significant resources of those authorized funds 
        been expended for the purpose of underwriting a social safety 
        net program?
  <bullet> b. Why has such a large portion of the first year funding 
        been allocated to a humanitarian response fund, the Citizen's 
        Damage Compensation Program, in response to the massive floods 
        of the past year rather than being sought through emergency 
        response accounts such as IDA or through multilateral 
        mechanisms?

    Answer. At the October 2010 U.S.-Pakistan Strategic Dialogue, in a 
discussion of its plan for recovering from the 2010 flood disaster, 
Pakistan's economic leadership indicated that their sole priority for 
donor funding for the reconstruction effort was the Citizens' Damage 
Compensation Fund. The Government of Pakistan (GOP) established the 
Citizens' Damage Compensation Fund immediately after the flood disaster 
as a mechanism to quickly deliver cash assistance to families 
devastated by flooding. This infusion of capital is meant to allow 
citizens to rebuild their homes and replant their fields as quickly as 
possible. As we articulated in the December 2009 Civilian Assistance 
Strategy, addressing Pakistan's priorities is critical to developing a 
lasting and productive strategic relationship with the people and 
Government of Pakistan.
    Since Ambassador Holbrooke announced that we plan to accelerate 
$500 million in assistance to support recovery and reconstruction 
efforts, the GOP has established a partnership with the World Bank to 
strengthen the Compensation Fund mechanism. On March 30, the World Bank 
approved its plan to contribute $125 million to the Compensation Fund. 
Australia, Canada, Italy, and the United Kingdom are also considering 
large contributions, and the GOP itself plans to provide $100 million 
to support the expansion of the program.
    The significant financial support of these donors, especially the 
World Bank, is because this program is serving a critical role in 
limiting the economic impact of the flood by supporting relief to 
families in need. It also reflects the fact that, according to the 
World Bank, the Pakistanis have gained significant experience in 
implementing similar programs over the past few years--for the 2005 
Earthquake Relief effort, the 2009 cash transfer program for internally 
displaced persons in Malakand division, and the Benazir Bhutto Income 
Support Program (BISP). These experiences have earned Pakistan's 
implementing agency--the National Date Registration Authority (NADRA)--
international credibility.
    Following the 2009 Tokyo Donor Conference for Pakistan, the United 
States made a contribution to the BISP, a government program that 
provides microcredit payments directly to female heads of households, 
to demonstrate U.S. commitment to Pakistan's development and directly 
impact the Pakistani people, including the most vulnerable populations.

    Question #5. In your public remarks in Washington on September 28, 
2010, you stated, ``it's one of my pet peeves--countries that will not 
tax their elites but expect us to come in and help them serve their 
people are just not going to get the kind of help from us that they 
have been getting . . . You cannot have a tax rate of 9 percent of GDP 
when big landholders and all the other elites do not pay anything or 
pay so little it's laughable, and you've got such a rate of poverty and 
everybody's looking to the United States and other donors to come in 
and help."
    Essential fiscal reform measures that would have reduced damaging 
subsidies, increased tax revenue and placed Pakistan's economy on a 
more sound footing appear to have been halted indefinitely in the 
Parliament or reversed altogether by the Government of Pakistan. 
Consequently, Pakistan remains at grave risk of financial default. At a 
time when Pakistan appeals for greater international assistance to 
address the country's severe economic crisis, its tax to GDP rate of 
roughly 9.5 percent remains among the lowest in Asia.

  <bullet> (a) In light of continuing economic reform setbacks in 
        Pakistan, despite the reform imperative, please describe the 
        purpose and structure of United States assistance to Pakistan 
        and through the government budget. How will the United States 
        ensure, bilaterally and through our Executive Director at the 
        International Monetary Fund, that foreign assistance does not 
        enable dependency or sustain fiscal imprudence?
  <bullet> (b) What recommendations has the U.S. Representative to the 
        International Monetary Fund suggested regarding the remaining 
        two tranches under the current agreement with Pakistan--worth a 
        combined $2.3 billion?

    Answer (a). The Government of Pakistan has made some progress in 
expanding the tax net over the last 2 years by removing exemptions, 
improving fiscal transparency and discipline, and limiting government 
borrowing from the national bank. While significant work remains to be 
done to stabilize Pakistan's economy, we must recognize that Pakistan 
has made some progress under the Stand-By Arrangement it negotiated 
with the International Monetary Fund (IMF) in November 2008.
    As part of our political and policy commitment to building a 
partnership with the people and Government of Pakistan, we have made a 
concerted effort over the past year to channel increasing amounts of 
U.S. assistance toward Pakistani priorities, including through 
government institutions when appropriate. Over the past 2 years, USAID 
has developed significant experience in designing government-to-
government assistance programs, including through conditional cash 
transfer programs like the Benazir Bhutto Income Support Program or the 
Citizens' Damage Compensation Fund and fixed-rate reimbursable 
agreements for projects implemented by government institutions. 
Comprehensive accountability and oversight standards are built into 
these agreements to ensure that U.S. taxpayer resources are used for 
their intended purposes.
    We will continue to engage the Government of Pakistan on the 
importance of meaningful reform in bilateral and multilateral fora and 
in close cooperation with the international financial institutions. 
Ultimately, we must recognize that Pakistan's leadership must lead in 
taking the hard choices needed to stabilize Pakistan's economy and 
ensure enduring reform.

    Answer (b). The United States has indicated to the Government of 
Pakistan, the IMF, multilateral development banks, and other donors 
that we believe it is critical to continue making progress on 
meaningful reform. We continue to urge Pakistan to remain engaged with 
the IMF on its reform program, specifically as they design measures to 
mobilize their domestic resources, alleviate energy shortages, and 
improve fiscal management. The parameters of Pakistan's future 
relationship with the IMF, including whether it receives the remaining 
credits under the augmented November 2008 Stand-By Arrangement, are 
dependent on progress made by the Government of Pakistan in 
consultation with the IMF.

    Question #6. You made clear in your testimony that U.S. troops will 
depart Iraq at the end of the year. Given, as you stated, the 
difficulty in predicting any request coming from Prime Minister Maliki, 
I hope we have robust contingency plans. While some of these issues are 
outside your direct purview, these decisions directly affect the safety 
of your frontline diplomats.

  <bullet> What is the current planning for the various components of 
        the Office of Security Cooperation (military, civilian, 
        contractors, etc.)? Please be specific on numbers and funding. 
        What forces does the administration intend to stage in the 
        region after that end date certain?

    Answer. The Office of Security Cooperation-Iraq (OSC-I) will be a 
critical element of the U.S. post-2011 diplomatic presence in Iraq and 
will be squarely focused on helping Iraq fully develop its capacity to 
provide external defense. OSC-I will be the key U.S. military-to-
military engagement tool to provide a platform for a long-term United 
States-Iraq security relationship consistent with the principles of the 
Strategic Framework Agreement, which was signed by both the United 
States and the Government of Iraq in 2008. The OSC-I will assist the 
Government of Iraq to close gaps in the Iraqi Security Forces (ISF) 
capabilities previously filled by U.S. military forces.
    The OSC-I activities will include Foreign Military Sales, Foreign 
Military Financing, International Military Education and Training, and 
End-Use Monitoring. We anticipate the OSC-I also conducting a full 
range of traditional security cooperation activities such as joint 
exercise planning, combined arms training, and senior level visits.
    The Departments of State and Defense have made significant progress 
on OSC-I planning, particularly with regard to finalizing the scope of 
staffing and facilities requirements. We are pleased that DOD, through 
U.S. Central Command, (CENTCOM), has accepted day-to-day security 
responsibility for DOD personnel assigned to the OSC-I and for securing 
the field sites that will not be colocated with the Embassy and 
constituent posts. DOD will be responsible for any costs associated 
with security-related facilities enhancements at all non colocated 
sites. Our shared goal for all these planning efforts is that OSC-I 
will be mission capable by the end of this year.
    The U.S. Government is adhering to all of its obligations under the 
U.S.-Iraq Security Agreement (SA), including the obligation to complete 
the drawdown of U.S. forces in Iraq by December 31, 2011. At this time, 
the Iraqi Government has not requested a renewal or amendment of the 
SA. We defer to DOD for any information on what military forces, if 
any, the USG plans to stage in the region after USF-I completes its 
drawdown.

    Question #7a. On the civilian presence in Iraq: What is the current 
civilian footprint in Iraq and expected level by the end of 2011?

    Answer. There are approximately 1,600 State Department direct hire 
employees in Iraq and approximately 7,200 life support, technical and 
security contractor personnel countrywide, for approximately 8,800 
total personnel. This includes personnel in Baghdad and the 16 
Provincial Reconstruction Teams (PRTs).
    Following the military-to-civilian transition in 2011, the 
Department will consolidate approximately 17,000 Chief of Mission 
personnel at 15 separate sites, including five collocated and five 
stand-alone sites under the Office of Security Cooperation-Iraq (OSC-
I):

Baghdad:
      Embassy Baghdad
      Camp Sather (OSC-I collocated)
      Joint Security Station (JSS)
      Shield (OSC-I collocated)

Erbil:
      Consulate General Erbil
      Contingency Operating Station (COS)
      Erbil (OSC-I collocated)
      Erbil Aviation Hub

Basrah:
      Consulate General Basrah (OSC-I collocated)
      Basrah Aviation Hub

Mosul:
      Embassy Branch Office Mosul

Kirkuk:
      Embassy Branch Office Kirkuk (OSC-I collocated)

OSC-I Standalone Sites:
      Tikrit
      Taji
      Union III (Baghdad); Besmaya
      Umm Qasr

    We project overall staffing at these sites to be approximately 
13,000 for State and other agency partners (not including OSC-I). This 
total includes approximately 2,000 program and management staff from 
the Departments of State, Defense, Justice, Homeland Security, and 
other participating agencies, supported by 11,000 life support, 
technical, and security contractor personnel.
    The Department of Defense (DOD) plans to have approximately 4,000 
personnel in Iraq as part of the OSC-I, with the majority based at the 
five stand-alone OSC-I sites and some located at diplomatic facilities. 
This total OSC-I population includes the administration's approved 157 
DOD military and civilian personnel, who will perform security 
assistance and security cooperation functions, as well as 763 Security 
Assistance Team (SAT) members supporting specific Foreign Military 
Sales (FMS) cases. The OSC-I personnel will be supported by 
approximately 3,000 contractors that provide life support, movement, 
fixed site security, and personal detachment services.

    Question#7b. On the civilian presence in Iraq: What are the 
expected annual costs for the next 3 years to maintain the Embassy?

    Answer. We estimate that the cost to maintain the Embassy in 
Baghdad over the next 3 years will be as follows:

Fiscal year and amount:
    2011-- $183M.
    2012 -- $202M.
    2013 -- Still under development.

    These estimates reflect Operations and Maintenance (O&M) costs for 
only the Embassy in Baghdad. They include the cost of the PA&E and 
LOGCAP contracts; routine maintenance and repair funds and Facility 
Manager salaries and allowances allotted to post by OBO; and NEA-funded 
O&M projects executed by post. FY12 estimates reflect price inflation 
and increased costs associated with new housing and warehouse 
facilities currently under construction.

    Question #7c. On the civilian presence in Iraq, to what extent has 
the Iraqi Government contributed to or approved of U.S. plans for a 
continued presence and programs, particularly in the areas of 
developing Iraqi military and police forces and securing U.S. 
personnel? What levels are they planning going forward?

    Answer. All of our programs have been developed in consultation 
with the Government of Iraq (GOI). Over the last year, we have watched 
Iraqi forces assume more responsibility for their own security and 
stability, consistent with the U.S.-Iraq Security Agreement. We are 
encouraged by the Government of Iraq's progress demonstrated to date 
and its commitment to continue developing the capacity of Iraqi 
military and police forces.
    While isolated, high profile attacks continue in Baghdad and in 
flashpoints like Kirkuk and Mosul, the number of security-related 
incidents throughout Iraq continues to decline from the peak in 2007, 
while Iraqi Security Forces (ISF) have gradually assumed primacy for 
security operations throughout Iraq. The ISF have demonstrated 
improvements in both prevention of and their response to security 
incidents. They have also shown greater interagency cooperation within 
their government, which should be bolstered by government formation, 
particularly after PM Maliki appoints his new Ministers of Defense and 
Interior.
    We were encouraged that in February, the GOI passed a budget for 
2011 that increased the Ministry of Defense (MOD) allocation to $5.8 
billion, an increase of 18 percent over 2010 levels. Additional funding 
for sustainment of the Iraqi Army was included in the 2011 MOD budget. 
The 2011 budget also includes $6.3 billion for the Interior Ministry, 
which includes the addition of 110,000 new police positions. The GOI 
will not pass a 2012 budget until the end of this calendar year.
    To complement GOI efforts, the U.S. Government is planning for a 
robust Office of Security Cooperation (OSC-I), under the Chief of 
Mission. The OSC-I will be our key U.S. military-to-military engagement 
tool to achieve our strategic objectives in Iraq. OSC-I activities will 
include Foreign Military Sales, Foreign Military Financing, 
International Military Education and Training, and End-Use Monitoring. 
We also anticipate the OSC-I will conduct a full range of traditional 
security cooperation activities such as joint exercise planning, 
combined arms training, and senior level visits. Additionally, the 
State-led Police Development Program (PDP) will support and assist the 
GOI in developing the leadership and management functions of its police 
and Interior Ministry.
    The United States remains fully committed to a comprehensive long-
term partnership with Iraq and will continue to work together in 
helping the GOI improving security capabilities.

    Question #7d. Have you broken ground on the consulate buildings [in 
Iraq]? If not, what's your schedule and what are the expected costs?

    Answer. Work is underway on the two consulates in Iraq and has been 
divided into four phases. Phase I, starting in September 2010, included 
work completed by the U.S. military, using its resources (e.g., 
engineering support, identification and movement of excess military 
property). Phase II work, begun in January 2011, is ongoing and 
includes the establishment of T-wall compound perimeters (prefabricated 
concrete wall sections); preparation for utility infrastructure such as 
drilling water wells, standing up reverse osmosis water purification 
units, movement and setup of life support areas utilizing containerized 
housing units from U.S. Forces in Iraq's excess property; and the 
gathering of other excess property items necessary for the 
establishment of the sites. Similarly, work is also being undertaken at 
both Embassy branch office sites.
    Consulate General (CG) Basrah: The Phase III design/build contract 
that covers the bulk of the unclassified work will be awarded the week 
of March 14; notice to proceed will be issued to the contractor on 
March 22; and a preconstruction conference involving the contractor, 
the military, and personnel from the Department's Bureau of Overseas 
Buildings Operations (OBO) will be conducted onsite the week of March 
28 to coordinate the construction schedule with the military's 
withdrawal schedule. The ``Mission Capable'' date (i.e., the target 
date that critical facilities will be ready for their intended purpose) 
remains the same, as it does for all the sites: October 1, 2011. The 
total budgeted cost for Basrah facilities is $172.3 million.
    Consulate General Erbil: CG Erbil will remain in the Ankawa 
Compound located in the Ankawa neighborhood of the city of Erbil. OBO 
has budgeted $10 million for security and facility upgrades. OBO is 
currently working to add this work to the Phase III design/build scope 
of work (SOW) for Erbil's Contingency Operating Site (COS) (so named by 
the U.S. military). The bidders' proposals for the COS Erbil site are 
due to the Department on April 8, 2011. The site is adjacent to the 
Erbil International Airport and will primarily support the Department's 
Bureau of International Narcotics and Law Enforcement Affairs (INL) 
Police Development Program advisors and the Embassy Aviation personnel. 
The total budgeted cost for COS Erbil is $121.5 million. The Mission 
Capable date for both sites is October 1, 2011.

    Question #8a. On DOD Support for Embassy Iraq: Will State be 
reimbursing DOD fully for its use of the LOGCAP contract mechanisms for 
Basic Life Support and Core Logistics Services, Postal Operations, 
convoy support, etc? What's your estimated cost for these services?

    Answer. State will fully reimburse the Department of Defense (DOD) 
for LOGCAP. Under the current Department of State Task Order for LOGCAP 
III services, we provide funding to DOD to cover all contract costs 
attributed to support for the State Department. This will continue 
under the expanded Task Order under the new LOGCAP IV Task Order that 
is now being solicited by the Rock Island Army Sustainment Command. The 
estimated FY 2011 cost for LOGCAP is $164 million, which includes 
mobilization for LOGCAP IV. The final cost can't be determined until 
the on-going solicitation process is completed, but we don't anticipate 
costs to drastically change from our estimates.

    Question #8b. On DOD Support for Embassy Iraq: How about for the 
delivery of food and fuel that the Defense Logistics Agency provides? 
How long will that continue, and what are your estimated food and fuel 
costs going forward?

    Answer. We are currently in discussions with the Department of 
Defense (DOD) and the Defense Logistics Agency (DLA) on arrangements to 
continue food and fuel deliveries through FY 2012. While the exact cost 
will be determined as a result of DLA procurement actions with their 
vendors and associated logistics costs, we estimate that the costs will 
range from $200 million to $300 million (including convoy security).

    Question #8c. On DOD Support for Embassy Iraq: Have you requested 
these funds in your budget? If not, why not?

    Answer. We have requested $297 million (including convoy security) 
for food and fuel in our FY 2012 budget request.

    Question #8d. On DOD Support for Embassy Iraq: To what extent, and 
for how long, does State anticipate being able to rely on services 
provided by Department of Defense agencies, such as the Defense 
Contract Management Agency and the Defense Contract Audit Agency, to 
help manage and oversee its contracts in Iraq?

    Answer. The Defense Contract Management Agency and the Defense 
Contract Audit Agency now provide contract management support to LOGCAP 
III and will continue, on a reimbursable basis, to provide that 
function under LOGCAP IV through FY 2012. State is in discussion with 
DOD on options for FY 2013.

    Question #8e. On DOD Support for Embassy Iraq: Has State made plans 
to bring those services in-house so that it has an organic capability 
and capacity to manage and oversee its contracts? If not, why not?

    Answer. The State Department expects to transition to its own base 
life support contract in the future. Our plan is to have an organic 
capability to oversee and manage this contract.

    Question #9. What use are you making of the Office of the 
Stabilization and Reconstruction during this transition in Iraq?

    Answer. As is the case in Afghanistan, the Office of the 
Coordinator for Reconstruction and Stabilization (S/CRS) and the 
Civilian Response Corps (CRC) are providing support for specific 
targeted missions in Iraq. For example, two members of the CRC Active 
component from the U.S. Marshals Service are working with the Iraqi 
Higher Judicial Council to improve courthouse security and personal 
security for the judiciary. In addition, S/CRS is working with the 
Bureau for Near Eastern Affairs on capturing best practices and lessons 
learned in Iraq. These efforts include a collaborative review for the 
Iraq transition to collect information so that lessons can be applied 
to the anticipated military-to-civilian transition in Afghanistan.
S/CRS and the CRC will continue to support the transition in Iraq as 
needed and requested.

    Question #10. The GAO has made several recommendations in the area 
of contractor oversight. What steps has State taken to implement GAO's 
recommendations regarding the use of contractors to manage and oversee 
other contractors?

    Answer. The Department of State has taken positive steps to 
implement the GAO recommendations contained in GAO-10-357 ``Contingency 
Contracting: Improvements Needed in Management of Contractors 
Supporting Contract and Grant Administration in Iraq and Afghanistan.'' 
Some additional actions are being taken to close out the 
recommendations.

    Recommendation 1: Determine the extent to which contractors should 
perform administration functions for other contracts and grants in 
accordance with strategic human capital planning principles outlined in 
Office of Management and Budget (OMB) guidance.
    The Department of State completed a pilot study of the workforce 
mix in two Department offices to validate our ability to determine the 
appropriate combination of government versus contractor personnel as 
part of a blended workforce. This study included a determination of 
whether contracted positions are inherently governmental, or closely 
associated with inherently governmental, and resulted in the 
development of a framework that could be more broadly applied. Our 
first ever Quadrennial Diplomacy and Development Review (QDDR) 
identified the Information Resources Management (IRM) bureau as an area 
for further analysis of the Department's workforce balance.
    The Acquisitions Management Office (A/LM/AQM) determined that it 
should significantly reduce its reliance on contractor support of the 
acquisition function. A/LM/AQM converted 20 positions from contractor 
to government performance as a result of reevaluating its workforce 
mix.
    The Bureau of Diplomatic Security (DS) increased staffing of agents 
on protection programs to reduce reliance on contractor support for the 
administration of protective details.
    The Bureau of International Narcotics and Law Enforcement (INL) 
increased staffing to reduce reliance on contractor support and to 
increase contract oversight. INL is in the process of recruiting up to 
190 USG employee police advisors to serve in Iraq in lieu of a similar 
number of advisors currently working under contract.
    Training for Contracting Officer Representatives (CORs) was revised 
to include guidance on (1) the extent to which contractors can be used 
to perform contract administration, and (2) strategies to mitigate 
risks when contractors perform functions closely associated with 
inherently governmental work. Additional Departmental guidance is under 
development to ensure wider dissemination of this information. This 
guidance is expected to be issued by the end of June.

    Recommendation 2: Develop guidance to identify approaches that 
contracting and program officials should take to enhance management 
oversight when nonpersonal services contractors provide services that 
closely support inherently governmental functions.
    The Department modified Contracting Officer Representative (COR) 
Training to identify the risks of using contractors to support contract 
administration as well as strategies to mitigate these risks. The 
training includes guidance on contractor organizational conflicts of 
interest and how to mitigate them. Additional guidance is being 
developed to ensure wider dissemination of this information. This 
guidance is expected to be issued by the end of June.

    Recommendation 3: Require before award of any nonpersonal services 
contract or task order for services closely supporting inherently 
governmental functions that program and contracting officials document 
their consideration of related risks and the steps that have been taken 
to mitigate such risks.
    The Department modified Contracting Officer Representative (COR) 
training to teach how to identify the risks of using contractors to 
support contract administration and services that closely support 
inherently governmental functions as well as strategies to mitigate 
these risks.
    Acquisition planning requires the determination of whether a 
function is inherently governmental as part of the requisition. The 
risk of contractor organizational conflicts of interest is identified 
and mitigated by the inclusion of a Conflict of Interest clause 
requiring contractors to identify any organizational conflicts of 
interest such as requirements to evaluate their own or their direct 
competitors' products or services. The Department is developing 
additional guidance that will further disseminate the techniques taught 
in the COR course. This guidance is expected to be issued by the end of 
June.

    Recommendation 4: To improve State's ability to mitigate risks 
related to potential conflicts of interest among personal services 
contractors, we recommend that the Secretary of State clarify the 
Department's policies regarding the application of Federal ethics laws 
to personal services contractors.

    The Department drafted a standard contract clause for all Personal 
Services Contractors (PSC) requiring them to adhere to all Federal 
ethics laws as a contract requirement. In addition, the Department is 
instituting a requirement that Personal Services Contractors submit a 
financial disclosure based on the nature of the position so that 
financial interests can be vetted for conflicts of interest. The clause 
and financial disclosure requirements are in final review and should be 
issued by the end of June.

    Question #11. I read recently a troubling article in the Atlantic 
entitled, ``When Freedom is Bad for Business,'' about the Iraqi economy 
in general and specifically about challenges an entrepreneur would have 
in starting up a small business. Could you comment on this? How do you 
see the economic situation beyond oil? What efforts are continuing in 
this arena that could impact the challenges described in this piece?

    Answer. I disagree with the article's claims about the root causes 
of Iraq's current economic situation. Iraqis have called for 
improvements to services and security, and the democratically elected 
government is responding. An open society is, fundamentally, better for 
business and economic growth.
    The article does present a reasonably accurate assessment of the 
challenges facing Iraq's economy. While living standards for most 
Iraqis are improving and Iraq's macroeconomy has remained reasonably 
stable over the past few years, a number of factors continue to 
threaten economic growth and the well-being of Iraq's citizens. 
Sustainable economic growth and diversification in Iraq will require a 
vibrant private sector and more robust economic institutions.
    The article identifies some of the key potential barriers to 
economic growth in Iraq, such as cumbersome business registration 
processes, limited availability of financial services, electricity 
shortfalls, corruption, and dilapidated infrastructure throughout the 
country. There are also significant inefficiencies in the agricultural 
sector, housing shortages, a limited transportation network, and an 
unstable security situation. Furthermore, as the article accurately 
points out, Iraq's institutions are still being rebuilt--or even 
established for the first time.
    Despite these issues, there are some real reasons for optimism. The 
IMF currently projects Iraq's non-oil real GDP growth at 5 percent or 
more over the next 2 years. The Iraqi Government plans to invest tens 
of billions of dollars in non-oil sectors like health, education, 
construction, transportation, and agriculture, according to the 2010 
National Development Plan. U.S. Government assistance will, in turn, 
help the Iraqis to maximize the effectiveness of their own resources by 
their own institutions and human resources. Iraq is also working with 
the U.N. and World Bank to corporatize 176 state-owned enterprises. In 
addition, Prime Minister Maliki issued an order in December 2010 
promulgating regulations that make government land available to 
investors for housing and other investment projects. Based on these 
actions, Iraqi officials seem genuinely committed to economic reform 
and bolstering the private sector.
    Our bilateral engagement in Iraq, through our assistance programs, 
is focused on encouraging private sector growth and encouraging a 
robust economy. Among the most important activities the Embassy and 
Washington agencies undertake is promoting business-to-business 
connections between U.S. and Iraqi companies. The U.S. Government has 
sent three trade missions to Iraq, and supported several visits to the 
United States by Iraqi businessmen and businesswomen. These connections 
are helping U.S. companies forge important partnerships with Iraqi 
firms that understand the local context in Iraq. The Embassy also works 
very hard to connect U.S. companies with Iraqi officials, promoting 
U.S. exports and helping Iraqi officials understand the very real 
concerns U.S. companies have about investing in Iraq.
    The U.S. Government also has many important programs focused on 
economic growth. USAID's economic growth and agriculture programs focus 
on strengthening Iraq's private sector development by supporting 
broader access to credit through microfinance, small and medium 
enterprise lending, World Trade Organization accession, and small 
business development centers. These programs also focus on youth 
entrepreneurship and job creation. USAID also works with national and 
local government officials to build technical and oversight capacity in 
key ministries, provincial offices, and legislative committees, while 
building the Iraqi Government's capacity to develop and put in place 
trade policies that meet international standards and treaty 
obligations. For its part, the Commerce Department's Commercial Law 
Development Program is providing training and technical assistance to 
Iraqi officials to develop their contracting capacity, and helped stand 
up Iraq's first commercial court earlier this year. USDA also provides 
technical assistance to Iraq's Ministry of Agriculture to promote 
better management and oversight of the agricultural sector. 
Furthermore, our Embassy has a dedicated office to work with Iraqi 
anticorruption bodies and inspectors general to address corruption and 
improve transparency.

    Question #12. Global Security Contingency Fund. You have requested 
$50 million for a new, 3-year pilot program for the government to more 
effectively provide military and security assistance, border and 
maritime security, internal security and counterterrorism activities. I 
understand that this program is a partnership effort with DOD which is 
requesting $450 million for the effort and State which is requesting 
authorizing language in addition to funds. How do you justify the 
creation of this fund, an entirely new program, at a total cost of half 
a billion dollars when combined with the Defense Department's portion, 
with the dire fiscal situation we face here at home?

    Answer. To clarify, the Department of Defense is not seeking 
dedicated funding for the Global Security Contingency Fund (GSCF) in FY 
2012. However, the legislation proposed would allow either the 
Department of State or the Department of Defense to transfer additional 
funds from their existing appropriations into the GSCF, up to a 
combined total of $500 million in appropriations and transfers. The 
intent of the fund is not to spend $500 million on an annual basis, but 
to have adequate resources available to the Departments to respond 
rapidly to emergent challenges or opportunities within a given fiscal 
year, in the event that such resources are necessary. Actual 
expenditures in a given year will depend on the requirements. We 
believe this approach is a responsible way to balance the need for 
additional agility with a funding structure that encourages rigor in 
programming decisions owing to the need to transfer funds from other 
sources.

    Question #13. The past two Congresses, I worked with Senator Casey 
and others on the multifaceted Global Food Security Act which this 
committee passed. I understand that the Feed the Future initiative will 
be carried out in a number of countries and focuses on assisting small 
farmers, especially women; however, $1 billion is a significant 
expenditure. What does an investment of this magnitude mean in terms of 
our own national security and economic growth?

    Answer. World food prices have been increasing over the past 6 
months due to strong global demand and weather-related production 
losses. Escalating food prices in 2007-08 are thought to have sparked 
demonstrations and violence in more than 25 countries. Rising food 
prices, particularly when combined with high fuel prices, can rapidly 
undermine a household's purchasing power and undermine a household's 
asset base--pushing the already poor closer to destitution and forcing 
the near-poor below the poverty line. Rising fuel prices also have an 
inflationary effect on food prices by increasing the cost of 
transportation of commodities.
    We know that nutrition and good health, which correlate directly to 
food security, are critical to national prosperity, stability, and 
security. As we watch food prices rise sharply around the world, it is 
critical to global stability that the United States take the lead in 
saving lives and in securing a sustainable path out of hunger and 
poverty.
    The administration's FY 2012 Budget request is addressing both the 
symptoms and causes of hunger and food insecurity, including mitigating 
the adverse impact of episodic food price increases. The President's FY 
2012 budget requests $1.6 billion, of which $1.1 billion is for Feed 
the Future USAID/State assistance, $308 million is for a U.S. 
contribution to the Global Agriculture and Food Security Program, and 
$150 million is for USAID nutrition programs which support both the 
Feed the Future and Global Health initiatives. This request will enable 
the President's Feed the Future Initiative to assist 18 million 
vulnerable women, children, and family members--mostly small farmers--
to escape hunger and poverty, and reach 7 million undernourished 
children with highly effective nutrition interventions to prevent 
stunting and child mortality.
    Reducing funding will undermine efforts to change what is otherwise 
a grim, hungry, and unstable future for the developing world. Adequate 
levels of funding now for both short- and medium-term objectives will 
help to ensure that developing partner countries shift from being 
dependent on international assistance to becoming strong and stable 
trading partners.

    Question #14. The Congressional Research Service recently completed 
a report, ``The Obama Administration's Feed the Future Initiative,'' in 
which it highlighted that 578 million people in Asia and the Pacific 
suffer from chronic hunger, compared with 239 million people in sub-
Saharan Africa. Yet, the majority of the countries you focus on in the 
Feed the Future Initiative are in Africa. Please explain how you have 
selected the countries for this Initiative, and how you justify this 
discrepancy?

    Answer. Feed the Future prioritizes and concentrates our efforts 
and resources on those poor countries where the overall political and 
investment environment will enable the United States to have the 
largest impact in promoting agricultural development and reducing food 
security. The Feed the Future initiative has 20 focus countries: 12 in 
sub-Saharan Africa, 4 in Asia, and 4 in Central America and the 
Caribbean. Focus Countries were selected based on five factors related 
to the needs and opportunities for reducing food insecurity:

  <bullet> Level of Need: We assess the level of need based on income 
        levels, poverty rates, the Global Hunger Index compiled by the 
        International Food Policy Research Institute (IFPRI) in 
        conjunction with Deutsche Welthungerhilfe and Concern 
        Worldwide, and the IFPRI categorization of level of food 
        security, among other factors. The Global Hunger Index uses 
        three equally weighted indicators to represent a 
        multidimensional measure of global hunger--the proportion of 
        undernourished as a percentage of national population, 
        prevalence of underweight children under the age of 5, and 
        mortality in children under 5.
  <bullet> Opportunity for Partnership: We seek to work in countries 
        that place a high priority on food security for all of their 
        citizens and that are committed to working in partnership with, 
        among others, donors, civil society, international 
        organizations, and the private sector. Our assessment is based 
        on a range of factors, including basic political stability and 
        the absence of conflict, the quality of governance, the overall 
        economic policy environment, and the commitment to design and 
        implement a high-quality strategy to enhance food security.
  <bullet> Potential for Agricultural-led Growth: Within our strategy, 
        the principle mechanism for reducing extreme hunger and poverty 
        is agricultural-led growth. Thus, we will prioritize countries 
        where poverty is still predominantly rural and where there is 
        significant potential for improvements in agricultural 
        productivity and market development.
  <bullet> Opportunity for Regional Synergies: We work with countries 
        that present strong opportunities to strengthen regional trade 
        and development corridors, integrate markets and accelerate 
        regional growth, and play a major role in regional trade.
  <bullet> Resource availability: A central tenet of our strategy is 
        that creating lasting progress in food security will require 
        deep investments in agricultural, economic, and social systems. 
        To achieve this, our resources will be concentrated in a set of 
        countries that have committed a substantial proportion of their 
        own resources to provide the level of support necessary to 
        catalyze growth and significantly contribute to accelerating 
        progress toward the Millennium Development Goals. We are 
        committed to coordinating with development partners to leverage 
        additional resources, but recognize that prioritization and 
        strategic choices are still required due to resource 
        constraints.

    Question #15. I understand that you are developing strategic 
partnership with countries under the Feed the Future Initiative. What 
specific objectives do these partnerships set? What countries are 
included?

    Answer. The FY 2012 President's budget requests $14 million for 
strategic partnerships in Brazil, India, and South Africa to leverage 
the expertise, resources, and leadership of these countries for the 
benefit of Focus Countries. These countries were selected because of 
their influence on neighboring Focus Countries, their role as a 
regional anchor for food security, and/or their potential to contribute 
to the development of Focus Countries outside their region.
    Through strategic partnerships, we seek to foster trilateral 
cooperation in the following areas:

  <bullet> Joint research and dissemination of technical assistance 
        related to agriculture, nutrition, and poverty reduction that 
        build on the technical expertise in strategic partner 
        countries.
  <bullet> Promotion of regional or bilateral economic reforms based on 
        the strategic partner's participation in regional economic 
        organizations or trade relationships.
  <bullet> Development of a strategic partner's role as a regional 
        anchor through projects and policies that increase its 
        stabilizing influence on Focus Countries.
  <bullet> Political leadership to advance action in the Focus 
        Countries.
  <bullet> Mobilization of the private sector to participate in 
        private-public partnerships and to invest in Focus Countries.

    Question #16. The Treasury Department is also working to strengthen 
global food security through its Global Agriculture and Food Security 
Program (GAFSP). How does this program differ from the Feed the Future 
program? How is it the same? Do program managers from the two programs 
work together in a coordinated effort? If so, how?

    Answer. At the G8 summit in July 2009, the President pledged to 
provide at least $3.5 billion over the next 3 years (FY 2010 to FY 
2012) to attack the root causes of global hunger through accelerated 
agricultural development and improved nutrition. Feed the Future (FTF), 
the U.S. Government's global hunger and food security initiative, 
renews our commitment to invest in sustainably reducing hunger and 
poverty. As a whole-of-government initiative, FTF is led by USAID but 
closely coordinated with other USG agencies including but not limited 
to USDA, Treasury, the Department of State, USTR, MCC, and Peace Corps.
    In line with the objectives of FTF, the GAFSP seeks to reduce the 
number of poor and hungry people in developing countries. To achieve 
this goal, the GAFSP provides an additional, unified source of 
financing to support sustainable food security strategies of those 
developing countries which demonstrate their commitment to addressing 
the food security needs of their population. The GAFSP aligns its 
financing with country priorities and harmonizes its financing with 
that of other donors in order to support country ownership and avoid 
redundant investments.
    The President's FY 2012 FTF budget requests $308 million for a U.S. 
contribution to the GAFSP. Contributions to GAFSP have leveraged other 
donor contributions and established a pool of funding that will 
complement the bilateral assistance investments budgeted in FTF focus 
countries by supporting rural infrastructure investments (e.g., 
transportation and irrigation), commercial financing, and research and 
extension. The fund's public sector window helps finance the 
agricultural development strategies of developing countries that have 
demonstrated their commitment to a strategic approach for achieving 
lasting improvements in the food security of their populations. The 
fund, which is administered by the World Bank, leverages the technical 
expertise of other multilateral institutions such as the International 
Fund for Agricultural Development and the regional development banks.
    GAFSP received requests for funding from 25 low-income countries in 
2010 and awarded grants totaling $337 million to 8 of those countries 
(Bangladesh, Ethiopia, Haiti, Mongolia, Niger, Rwanda, Sierra Leone, 
and Togo). Project implementation for grants awarded in June 2010 will 
begin in the first quarter of 2011 and initial progress reports will be 
available in the third quarter of 2011. Additional grant awards are 
anticipated to be made in 2011, depending on additional donor 
contributions. A private sector window, which will provide financing to 
small and medium-sized agribusinesses and small-holder farmers, will 
also become operational in 2011. The fund incorporates a number of 
innovative design features including in-depth impact evaluations on a 
significant percentage of all the projects financed by GAFSP, an 
inclusive governance structure that provides potential recipient 
countries and civil society organizations with a strong role in fund 
governance, and an open and transparent application process that relies 
on independent evaluations by a group of experts in agriculture and 
development issues.

    Question #17. The administration has also committed to 
significantly increasing exports of U.S. goods, including agricultural 
products. How is the administration coordinating these two efforts?

    Answer. Increasing global food security and U.S. exports are 
complementary endeavors. The administration has identified several 
points of intersection between Feed the Future and the National Export 
Initiative and is employing a coordinated whole-of-government approach 
to advance both programs.
    Feed the Future seeks to raise the incomes of the world's poor 
through agricultural development. As incomes increase, the rural poor 
are able to purchase a more diverse diet and higher quality food, which 
can include food and intermediate products produced in the United 
States--for example, economic growth in Asia has spurred additional 
demand for meat, which in turn has spurred demand not only for U.S.-
produced meat, but also corn and other feed.
    Furthermore, as the United States is a major exporter of farming 
inputs such as seed, fertilizer, and equipment, U.S. companies will 
benefit from advances in agriculture in developing countries.
    Because trade is a key enabler of food security, Feed the Future 
works with countries and regions to improve their trade regimes and 
adopt sound policies and science-based regulations. Transparent 
policies improve market access for safe, high-quality, U.S. 
agricultural products.
    Finally, the administration is reaching out to U.S. businesses to 
inform them of commercial opportunities arising from the implementation 
of the Feed the Future program, both through direct procurement by 
USAID and indirect opportunities arising from large agricultural 
programs in Feed the Future countries. USAID is also developing a 
variety of public-private partnerships that help U.S. companies source 
from, operate in, and sell to developing countries.
    The administration is pursuing a whole-of-government approach to 
implementing both Feed the Future and the National Export Initiative, 
focusing on each agency's area of comparative advantage. Several 
agencies, including State, USDA, and USTR, are involved in both 
programs, ensuring that efforts across multiple agencies are well 
coordinated.

    Question #18. Current events in Libya, and the decision of Saudi 
Arabia to tap into its spare oil production capacity, underscore the 
importance of transparency in oil markets. Under current conditions, 
the International Energy Agency relies upon reporting data from OPEC 
that is of questionable reliability and is difficult to be 
independently verified. More transparency could bring greater price 
stability.

  <bullet> Please describe State Department efforts to enhance 
        transparency in production, reserves and spare capacity in 
        global oil markets.

    Answer. The Department supports United States participation in the 
Joint Oil Data Initiative (JODI), a collective effort by oil producer 
and consumer countries which aims to improve data transparency in oil 
markets. The initiative, facilitated by the International Energy Forum 
(IEF), involves more than 90 countries and economies representing 
around 90 percent of global oil supply and demand. The IEF also 
coordinates the inputs from representatives of six organizations: APEC 
(Asia-Pacific Economic Cooperation), the European Union's Eurostat, 
International Energy Agency (IEA), the Latin American Energy 
Organization (OLADE), the Organization of Petroleum Exporting Countries 
(OPEC) and the United Nations Statistics Division (UNSD). The 
initiative includes a strong training program designed to improve the 
capacity of members to collect and report data in an accurate and 
timely manner.
    The Department will continue its efforts to engage in discussions 
with rapidly growing energy-intensive economies to promote greater 
transparency in oil markets. We work closely with the Department of 
Energy in this effort. The Department has also specifically encouraged 
both the Energy Information Agency (EIA) and the IEA to reach out to 
economies like China, to discuss how best to improve their capacity to 
collect, analyze, and report out oil market data in more accurate and 
timely ways.
    The Department will continue to reach out to the private sector, 
governments and international organizations to seek ways to improve 
transparency in oil and other energy markets.

    Question #19. Development of the ``Southern corridor'' to link 
Caspian region oil and natural gas resources has been a bipartisan 
strategic priority for several years. Please update the committee on 
progress in extending the southern corridor.

    Answer. There has been significant progress on development of the 
``Southern corridor'' to bring Caspian (and possibly Iraqi) gas to 
Europe, which would be anchored by gas from the second phase of 
development of Azerbaijan's Shah Deniz Caspian offshore field. Gas from 
the first phase of the Shah Deniz project already flows through 
Azerbaijan and Georgia into Turkey.
    The June 2010 signing of Turkey-Azerbaijan MOUs covering 
Azerbaijani gas sales to Turkey and gas transit terms to Europe was a 
major step forward. The next steps, currently underway, are negotiation 
of detailed agreements implementing the June 2010 MOUs and commercial 
negotiations with gas purchasers in Europe and with three competing 
pipelines, Nabucco, the Italy-Turkey-Greece-Interconnector (ITGI), and 
the Trans-Adriatic Pipeline (TAP). The Shah Deniz consortium has asked 
that the three pipeline groups submit their final tariff offers by 
October 1, 2011. The expectation is that a decision on a pipeline route 
will be made by the end of the year.
    The completion of any one of the proposed Southern corridor 
pipelines would be a win for our energy security policy. Nabucco may 
have more strategic value since it would provide larger volumes of gas 
to more countries, but it also is the most complicated, since it 
requires gas from at least one other source beyond Azerbaijan. Given 
doubts about the availability of gas to justify a large pipeline, there 
are discussions underway on the possibility of developing a 
``scalable'' project, which would be sized to meet currently planned 
production, but would be expandable to handle additional volumes that 
might become available in the future from Turkmenistan, Northern Iraq, 
or perhaps Azerbaijan.

    Question #20. Please describe efforts to engage the Governments of 
Kazakhstan, Turkmenistan, and Uzbekistan in energy development.

    Answer. We continue to engage on energy development in Central 
Asia, including on export diversification and issues pertaining to 
foreign investment. This engagement occurs during our Annual Bilateral 
Consultations (or ABCs), visits by key State Department principals, 
such as Ambassador Richard Morningstar, and through everyday engagement 
by our embassies.
    Our engagement in Kazakhstan has been largely focused on the 
country's investment climate and plans surrounding Kazakhstan's 
anticipated rapid increase in oil production in the coming decade. 
Kazakhstan represents one of largest potential increases in non-OPEC 
production in the next 10 years. We have an interest in this production 
moving forward and additional Kazakhstani crude reaching world markets. 
The U.S.-Kazakhstan Energy Partnership with has been active for 8 years 
and continues to be an essential part of our relationship with this 
hydrocarbon-rich nation. The next U.S.-Kazakhstan Energy Partnership 
meeting is scheduled for November 2011 in Washington, and will include 
a visit by the Minister of Oil and Gas Sauat Mynbayev. The most recent 
U.S.-Kazakhstan Annual Bilateral Consultations, which took place March 
24-25 in Astana, focused on investment climate issues and 
diversification of Kazakhstan's economy. We expect to have an ABC 
review session with the Kazakh government here in Washington in 
September 2011, where we will continue the discussion of deepening our 
economic and energy partnership.
    We continue to engage with Turkmenistan on energy development and 
commercial relations at every opportunity. The first ABC, which took 
place June 14-15, 2010, in Ashgabat, included bilateral engagement on 
economic, commercial and energy issues. Alongside both the first ABC 
and the ABC review, the U.S.-Turkmenistan Business Council--which now 
includes 24 U.S. company members, a number of which are energy majors--
led the first U.S. business delegation to Turkmenistan. Most recently, 
the U.S. Embassy in Ashgabat partnered with the Turkmen Chamber of 
Commerce to host the first-ever U.S. Business exhibition in 
Turkmenistan. More than 50 U.S. companies--many of them in the energy 
field--participated in the event. We expect the next ABC here in 
Washington this coming November. In addition, Richard Morningstar, our 
Special Envoy for Eurasian Energy, travels frequently to Ashgabat to 
discuss a variety of potential energy developments there, including the 
proposed Trans-Caspian and Turkmenistan-Afghanistan-Pakistan-India 
(TAPI) pipelines.
    Our engagement with Uzbekistan has been more limited, primarily 
because there are few U.S. companies active in the country's energy 
sector generally, and no U.S. major is involved directly in upstream 
exploration and development at this time. Although Uzbekistan produces 
about as much gas as Turkmenistan annually, its exports are relatively 
small. Uzbekistan is one of the most energy inefficient countries in 
the world and about 75 percent of its annual gas production fuels its 
heavily gasified economy. Our Embassy in Tashkent compiled an extensive 
report on Uzbekistan's oil and gas industry last spring, which was 
subsequently posted on Commerce's ``Buy USA'' Web site. We have had 
discussions with the Uzbeks about their plans for energy efficiency and 
are hopeful that U.S. companies will participate in several projects in 
this area. Energy efficiency is perhaps the most promising area for 
energy-related U.S. engagement in Uzbekistan.

    Question #21. Export of natural gas through Turkey offers large 
potential for revenue generation for Iraq and energy security in the 
wider region, as well as potential regional stability benefits. Please 
update the committee on necessary steps and activities of U.S. 
personnel in Iraq to promote agreements to export Iraqi gas through the 
Nabucco pipeline.

    Answer. Iraqi leadership has expressed interest in the future 
export of natural gas through Turkey and into the Southern corridor, 
although the timeframe remains unclear. In addition to providing a 
steady stream of revenue, Baghdad recognizes the strategic benefit of 
linking up with this important piece of regional energy architecture. 
The State Department's Special Envoy for Eurasian Energy, Ambassador 
Richard Morningstar, has visited Baghdad and Ankara as part of a 
continuing discussion with Iraqi, Turkish, and EU leaders, as well as 
the private sector, about developing Iraq's energy potential.
    There are at least two important conditions that must be met before 
Iraq can offer a bankable commitment of natural gas supplies to Nabucco 
or any other Southern corridor pipeline project. First, recent 
political progress between Erbil and Baghdad must be expanded to 
include a workable national agreement on the development of 
hydrocarbons and revenue sharing. Second, in light of Iraq's 
electricity shortages, future development of natural gas will have to 
be integrated into a more comprehensive national energy strategy, 
including potential contributions from the private sector.

    Question #22. What is the timeline for appointment of a replacement 
for David Goldwyn as Coordinator for International Energy Affairs? 
Based on the experience of this office to date, is it your opinion that 
the International Energy Coordinator should have the rank of 
Ambassador?

    Answer. The establishment of the International Energy Coordinator, 
based on your leadership, was instrumental in formalizing a consistent 
mechanism for high-level diplomatic engagement on energy security 
issues. The State Department has committed to the effective 
coordination of resources to address the political, security, economic, 
development, and environmental challenges posed by energy. Hence, the 
Quadrennial Diplomacy and Development Review (QDDR) calls for the 
creation of a ``new Bureau for Energy Resources to unite our diplomatic 
and programmatic efforts on oil, natural gas, coal, electricity, 
renewable energy, energy governance, strategic resources, and energy 
poverty.'' Implementation of the QDDR is underway and the appointment 
and rank of the Coordinator for International Energy Affairs is being 
evaluated as we determine how best to organize the new Bureau of Energy 
Resources. In the meantime, Ambassador Morningstar has taken on the 
portfolio of Coordinator for International Energy Affairs in addition 
to his duties as Special Envoy for Eurasian Energy Affairs.

    Question #23. The Quadrennial Diplomacy and Development Review 
indicates that the State Department will reorganize to form a position 
of Under Secretary for Economic Growth, Energy and the Environment 
under which there will exist three Bureaus and two offices.

  <bullet> Will all environmental functions currently housed within 
        Global Affairs be consolidated under this proposed arrangement? 
        From what office will climate change negotiations be led, 
        including the office of the negotiator?
  <bullet> Will the three new Bureaus be led by Assistant Secretaries? 
        Is it the opinion of the State Department that these changes 
        require legislative changes? What resources will be requested 
        for each of the proposed new Bureaus?

    Answer. In accordance with the Quadrennial Diplomacy and 
Development Review (QDDR), the Assistant Secretary for Oceans and 
International Environmental and Scientific Affairs, who currently 
reports to the Under Secretary for Democracy and Global Affairs, will 
report to a renamed Under Secretary for Economic Growth, Energy, and 
the Environment. Climate change negotiations will continue to be led by 
the Special Envoy for Climate Change within the Office of the 
Secretary. Resources to complete this realignment of responsibilities 
are expected to come from within current funding allocations.
    Following the realignment, three Assistant Secretaries will report 
to the Under Secretary for Economic Growth, Energy, and the 
Environment, from: (1) the Bureau of Economic and Business Affairs; (2) 
the Bureau of Energy Resources; and (3) the Bureau of Oceans and 
International Environmental and Scientific Affairs. The Bureau of 
Economic and Business Affairs and the Bureau of Oceans and 
International Environmental and Scientific Affairs are already led by 
assistant secretaries. The QDDR envisions that the Bureau of Energy 
Resources, when created, shall also be led by an Assistant Secretary.
    The administration has sent a Congressional Notification about the 
establishment of the Bureau of Energy Resources.

    Question #24. The QDDR states the International Energy Coordinator 
and Eurasian Energy Envoy will be housed within the reorganized Bureau. 
These positions were established with direct reporting to the Secretary 
in order to increase the international profile of these issues and to 
overcome bureaucratic ``stove piping'' between both functional and 
political policy bureaus.

  <bullet> a. How would this reorganization ensure these demands are 
        met?

    Answer. You have the Secretary's full commitment that anything that 
the Department does on energy will be intended to increase the profile 
of this issue, its importance to U.S. national interests, and its full 
integration into U.S. foreign policy, national security, and economic 
priorities. The Department will ensure that senior level leadership is 
directly engaged in providing oversight and direction to the energy 
leadership team in the Department.

  <bullet> b. Does the Department intend to request that law 
        establishing the office of the International Energy Coordinator 
        within the Secretary's office be revised?

    Answer. We recognize that some legislative changes may be necessary 
to conform existing provisions to the intended organizational structure 
of the new Bureau. We would work closely with key committees on this 
matter.

    Question #25. Please explain the plans for continuation and 
expansion of the global shale gas initiative. What resources are being 
requested for this purpose? Given the President's declaration of 
natural gas as a ``clean'' energy source, is support for gas being 
given equal treatment with renewable power in State Department and 
USAID initiatives?

    Answer. GSGI Update.--The Department of State's Global Shale Gas 
Initiative (GSGI) has accomplished much since it was launched in early 
2010. During this time, we have coordinated with our agency partners to 
undertake shale gas resource assessments and technical training in more 
than a dozen countries, including China, India, Chile, Argentina, 
Uruguay, Colombia, Morocco, Jordan, and South Africa. We have signed 
memoranda of understanding with five countries--including China, India, 
and Ukraine--that serve to underscore our commitment to cooperation on 
shale gas development. In August 2010, the Department of State hosted 
the GSGI Regulatory Conference at the Department. The event drew 100 
participants from 21 countries and included participation by 10 U.S. 
Federal and State agencies, and covered a range of technical, 
operational, regulatory, market, and environmental issues associated 
with shale gas resource development.
    The U.S. Geological Survey (USGS) provides considerable support for 
the GSGI program. The USGS is undertaking shale gas resource 
assessments and launching bilateral technical engagement in the GSGI 
program's various countries. This support has been funded by the 
Department of State, which transferred $1.3 million of FY 2009 funds to 
USGS in mid-2010.
    The Department of State also has promoted ongoing information 
exchange with GSGI member countries by tapping into existing 
departmental programs, such as the International Visitors Leadership 
Program (IVLP). This mechanism has allowed for continued bilateral 
educational dialogues and an ability to showcase the U.S. shale gas 
experience. Through IVLP support, we have hosted two countries--Morocco 
and Poland--and have arrangements for visits by officials from India, 
Jordan, South Africa, Ukraine, Romania, and Hungary in the beginning to 
advanced planning stages
    Continuation of GSGI.--Our goal for the future of GSGI is to 
continue bilateral and multilateral government-to-government engagement 
with other countries included in our initial discussions and to expand 
our outreach to include additional countries with resource potential, 
if resources permit.
    Natural Gas as compared to Renewable Power.--Natural gas is an 
important bridge fuel that will assist the world in moving toward a 
cleaner energy future. The GSGI is only one way in which the Department 
is working to promote the responsible development of use of cleaner 
burning natural gas that would allow energy consumers to reduce their 
dependencies on coal for power generation. The Department of State 
promotes the development of renewable energy and efforts to reduce 
greenhouse gas emissions from power generation through bilateral 
diplomatic engagement. These efforts complement the work of USAID which 
has programs to reduce natural gas flaring and to provide assistance in 
support of renewable energy activities. Language in the FY10 
appropriations bill generally did not allow the use of funds designated 
as ``Clean Energy'' funds under the Global Climate Change Initiative to 
be used for natural gas and other fossil fuel production activities, 
but other foreign assistance funds could and were used for such 
activities. The Department also works with multilateral lending 
institutions to promote electricity generation projects that employ 
renewable energy and cleaner burning natural gas, as appropriate.

    Question #26. Please explain plans to continue and expand the 
energy governance and capacity initiative. What office will lead State 
Department efforts on this initiative? What staffing resources are 
being allocated to the program?

    Answer. The Energy Governance and Capacity Initiative (EGCI) is 
ramping up implementation in eight countries, following the successful 
completion of technical needs assessment missions by U.S. interagency 
teams in 2010. Two top priorities for EGCI engagement remain Uganda and 
Papua New Guinea (PNG). Both countries have world-class oil and gas 
developments that could generate multibillion dollar revenue flows 
later this decade. The President's FY 2012 request includes $11 million 
of Economic Support Funds (ESF) within USAID's Bureau of Economic 
Growth, Agriculture, and Trade (EGAT) to support EGCI.
    The EGCI program's other countries--Sierra Leone, Liberia, 
Suriname, Guyana, Timor-Leste, and Seychelles--also have sizable 
undiscovered oil and gas resource potential. Each of these countries 
has unique energy sector management and revenue governance capabilities 
and related assistance needs. International energy companies are 
planning a wide range of offshore exploratory and appraisal drilling 
plans in each of these countries during the next year.
    The EGCI program was launched with $1.4 million in 2010. It is 
managed actively by senior career staff in the Office of the 
Coordinator for International Affairs (S/CIEA) in close partnership 
with USAID, the Department of Treasury's Office of Technical Assistance 
(OTA), U.S. Geological Survey (USGS), Department of Interior's Bureau 
of Ocean Energy Management, Regulation and Enforcement (BOEMRE), and 
the Department of Commerce's Commercial Law Development Program (CLDP).
    The program's core objective is to help new oil- and gas-producing 
countries establish the capacity to manage their revenues wisely and in 
a manner that maximizes the value of the resource development for the 
government. Although EGCI goals are country-specific in nature, the 
program broadly tries to ensure sound and transparent energy sector 
governance for the benefit of national economic development. Depending 
on oil and gas exploration efforts and progress in capacity-building, 
the list of current EGCI countries may change over time. Other 
countries may be included for consideration for EGCI program assistance 
depending on their suitability for the program (e.g., development of 
their oil and gas sector and buy-in by the host government in 
supporting sound revenue and environmental management) and if 
additional funding becomes available.
    The EGCI program supports a broad range of U.S. foreign policy 
objectives, including ensuring the security of global oil and gas 
supplies, supporting energy efficiency in oil and gas resource 
development, furthering political and economic stability in developing 
countries, minimizing the environmental risks associated with oil and 
gas development, promoting democracy and human rights, and combating 
corruption.

    Question #27. What is the Department doing to help encourage other 
countries to adopt the Dodd-Frank extractive industries transparency 
standard? Specifically, how is the State Department engaging through 
the OECD, EU, G8, G20, World Bank, and IMF to promote the adoption of 
this standard by other country stock exchanges? How is the State 
Department engaging bilaterally to promote the adoption by country 
exchanges, particularly with the United Kingdom, France, Canada, China, 
Japan, European Union, Germany, South Africa, Australia, Malaysia, 
Chile, and Brazil?

    Answer. We have raised the issue of adopting regulations similar to 
Section 1504 of Dodd-Frank in international fora where it would be 
effective and appropriate, including the G20 and G8 meetings. The 
French and U.K. Governments have already indicated support for Dodd-
Frank provisions to be adopted by the European Union. We have also 
discussed incorporating Dodd-Frank-like standards with the Australian 
Government. We think the Dodd-Frank disclosure requirements are already 
emerging as a model of transparency for other countries.

    Question #28. The Department of State received a permit application 
for the Keystone XL pipeline to cross the United States--Canada border 
in 2008. We are now well into 2011. Public comment has been extensive, 
studies carried out, analysis done. Please provide the committee a 
timeline for decisionmaking on the permit for Keystone XL, including 
specific milestones. If specific dates for decisionmaking are 
unavailable, please provide a range of dates for the decision and 
accounting of what variables will be considered on when said decision 
will be made. Please also compare the decisionmaking timeline to other 
previous pipeline permitting decisions and explain any reasons for why 
Keystone XL is taking more or less time.

    Answer. We expect to make a decision on whether to grant or deny 
the permit before the end of 2011.
    Since issuance of the draft Environmental Impact Statement (EIS), 
new and additional information has become available relevant to the 
proposed Keystone XL Pipeline Project and its potential impacts. To 
provide the public with the opportunity to review and comment on this 
information and to ensure openness and transparency in the NEPA 
environmental review process, the State Department decided to prepare a 
supplemental draft EIS (SDEIS), which will be published in mid-April. 
The public will have 45 days to comment on the SDEIS.
    When ready, the Department will prepare and issue a Final 
Environmental Impact Statement (FEIS). Upon issuance of a Final EIS, 
the Department will solicit public comment and host a public meeting in 
Washington, DC, before it makes a determination under Executive Order 
13337 on whether issuance of this permit is in the U.S. national 
interest. Cooperating Federal agencies will have 90 days from issuance 
of the FEIS to provide their input into that process. The U.S. 
Department of State expects to make a decision on whether to grant or 
deny the permit before the end of 2011.
    Possible contributing factors to the length of the review process 
on TransCanada's application for the Keystone XL Pipeline Project 
include the size of the pipeline--1,384 miles in the United States; the 
extensive public and interagency input--21 public comment meetings and 
over 8,000 individual comments that needed to be considered in the 
process of revising the EIS; supplemental filings by TransCanada with 
changes or updates to the project; and the desirability of a 
supplemental draft EIS.

    Question #29. Does the Department of State require additional 
information to conclude its environmental review of Keystone XL 
pipeline? Does the State Department intend to carry out an additional 
environmental impact statement?

    Answer. The U.S. Department of State expects to release a 
Supplemental Draft Environmental Impact Statement (SDEIS) for the 
proposed Keystone XL pipeline project in mid-April. The SDEIS contains 
new and additional information relevant to the proposed project and its 
potential impacts, which the State Department feels would benefit from 
further public input. The public will have 45 days to comment on the 
Supplemental Draft EIS after a Federal Register notice is published.

    Question #30. Please explain the factors that are generally 
considered in making a national interest determination on whether to 
permit a pipeline border crossing. Please explain the State 
Department's role in making such a determination vis-a-vis other 
departments and agencies. If the Keystone XL pipeline is rejected on 
concerns related to greenhouse gas emissions, what precedent will that 
set for future permitting applications as well as other State 
Department, USAID, and Defense activities around the world that may 
have an impact on greenhouse gas emissions.

    Answer. Many factors are considered in making a national interest 
determination, including but not limited to the potential effects of 
the proposed project on energy security, the environment, the U.S. 
economy, health and safety, and foreign policy goals. There is no fixed 
list of factors to be considered. Decisions on permit applications are 
based on an assessment of each unique project's own merits and 
drawbacks with regard to the national interest, rather than based on 
setting, following, or avoiding a precedent. The State Department has 
been working continuously with the cooperating Federal agencies, 
allowing them to comment on and contribute to the NEPA review process. 
During the 90-day period between issuance of a Final EIS and the 
Department's decision on the national interest determination, the 
Department of State will consult with other agencies and consider their 
input regarding whether or not granting this permit would be in the 
national interest.

    Question #31. Does the United States have a position on Canada's 
domestic environmental protection regime as it relates to energy 
production and export? If so, what is that position? Will that position 
being considered in the permitting consideration of Keystone XL?

    Answer. The State Department is assessing the potential 
environmental impact that the Keystone XL pipeline project would have 
in the United States. The responsibility of protecting Canada's overall 
domestic environment belongs to Environment Canada, an agency of the 
Canadian Federal Government. The Province of Alberta is responsible for 
environmental protection at the provincial level in Alberta. In the 
event that the U.S. Government encounters either actual or potential 
pollution problems in Canada that could impact the United States, it 
employs various diplomatic and official channels to raise these issues 
with the Canadian Government.

    Question #32. Please identify any known case of a foreign country 
prohibiting import of U.S. goods based on U.S. domestic environmental 
controls. What was the response of the United States to the country in 
question, if any?

    Answer. We are not aware of any current cases of a foreign country 
prohibiting import of U.S. goods based on U.S. domestic environmental 
controls. However, the United States Trade Representative (USTR) 
submits an annual National Trade Estimate Report on Foreign Trade 
Barriers (NTE) to Congress. In conjunction with the NTE, USTR also 
submits a specialized report on Sanitary and Phytosanitary (SPS) 
Measures dedicated to describing significant barriers to U.S. food and 
farm exports that appear to be unscientific, unduly burdensome, 
discriminatory, or otherwise unwarranted and create significant 
barriers to U.S. exports. A related Report on Technical Barriers to 
Trade (TBT) addresses significant foreign trade barriers stemming from 
technical regulations, standards, and conformity assessment procedures.
    The information for each of these reports is provided by U.S. 
embassies and consulates worldwide, as well as by the Departments of 
Commerce and Agriculture, private sector trade advisory committees and 
interested stakeholders. The Department of State works with USTR to 
engage with foreign governments to ensure market access for Americans, 
advance the rule of law internationally, and create a fair, open, and 
predictable trading environment. USTR coordinates trade enforcement 
actions, asserting U.S. rights through the World Trade Organization 
(WTO) and bilateral trade agreements. The Department of State supports 
USTR in its trade enforcement agenda.

    Question #33. In its Presidential Permit application, TransCanada 
asserts that constructing the proposed Keystone XL pipeline is in the 
national interest to maintain adequate crude oil supplies for U.S. 
refineries. The application argues that the pipeline will allow U.S. 
refiners ``to diversify supply away from traditional offshore foreign 
crude supply and to obtain direct pipeline access to secure and growing 
Canadian crude supplies'' from Canadian oil sands during a time of 
rising domestic oil demand and declining domestic production. In 
particular, the application asserts that the pipeline would allow the 
United States to decrease its dependence on foreign crude oil supplies 
from Mexico and Venezuela, the two largest oil importers into the U.S. 
Gulf Coast. In its draft EIS for the project, the State Department 
similarly finds that the Keystone XL pipeline ``would counteract 
insufficient domestic crude oil supply while reducing U.S. dependence 
on less reliable foreign oil sources.'' Given the complex and ever-
changing nature of the global oil market, however, the availability of, 
and access to, foreign oil supplies is hard to predict--especially over 
the decades-long operating life of a major pipeline.
    While it seems likely that a new oil pipeline constructed between 
Canada and the United States would increase supply reliability in terms 
of secure deliverability, the potential impacts of the pipeline on 
overall U.S. access to oil supplies must be considered in the context 
of key trends in the global oil market. Please explain the possible 
impacts on U.S. oil imports from any particular foreign source, but 
especially Mexico and Venezuela.

    Answer. The State Department is in the process of considering the 
Keystone XL application. As a part of this process, the Department is 
currently editing the draft Environmental Impact Statement (EIS). We 
are preparing to release a Supplemental EIS in mid-April 2011 that will 
include a more detailed analysis of international oil markets and the 
possible impacts from the proposed pipeline. Also, in connection with 
the points you raise here, you may find the Ensys Energy Report, 
commissioned by the Department of Energy, released December 23 and part 
of the documentation we are considering in connection with the Keystone 
XL application, to be of particular interest as it examines the 
potential impact of the pipeline on world oil markets, including 
impacts of different types of oil imported into the United States. It 
is currently available on the Keystone Web site and will be included in 
the Supplemental EIS. We encourage you as well as other interested 
parties to comment on the additional new information during the 45-day 
public comment period that will follow the release of the Supplemental 
EIS.

    Question #34. The President's Emergency Plan for AIDS Relief (or 
PEPFAR) is the U.S. Government's largest bilateral health program. As 
you know, the program is housed at the Department of State, where the 
Office of the Global AIDS Coordinator oversees and manages this 
interagency program. PEPFAR is the main pillar in the administration's 
proposed $63 billion over 6 years Global Health Initiative, which will 
be housed within USAID. This suggests a disconnect between who is 
coordinating versus who will be managing the funding allocations.

    a. Can you explain how you envision how these programs will be 
coordinated in Washington?
    b. Will there be a GHI coordinator at the mission?
    c. What role will the in country PEPFAR coordinator have in terms 
of the GHI?

    Answer. The Global Health Initiative (GHI) connects U.S. Government 
health investments, including PEPFAR, in order to help them integrate, 
coordinate, and work together more efficiently to save more lives. The 
Department of State's Quadrennial Diplomacy and Development Review 
(QDDR) proposes a transition of the leadership of GHI to USAID upon its 
achievement of defined benchmarks aimed at ensuring USAID has the 
capacity and structures to lead a coordinated, inclusive, whole-of-
government effort. The Secretary of State will make the final 
determination on transitioning the Initiative to USAID, with a targeted 
timeframe at the end of FY 2012. Should such a transition occur, PEPFAR 
will remain at the Office of the Global AIDS Coordinator. The statutory 
and legislative mandate will continue to be fulfilled and managed 
through the Department of State.

    (a) Implementation of the Global Health Initiative is coordinated 
through regular meetings of the interagency Operations Committee 
(consisting of the heads of the Centers for Disease Control, Office of 
the Global AIDS Coordinator, and USAID) and the newly appointed GHI 
Executive Director, Lois Quam. Broad coordination is also facilitated 
through the Strategic Council, which brings together senior officials 
from a wider range of agencies across the U.S. Government to discuss 
ways in which we can link our global health programs in a strategic, 
coordinated manner.

    (b) In each country, a Planning Lead is selected for the 
implementation of GHI. This individual is selected from existing health 
staff at missions with interagency consultation. Planning Leads serve 
as chief coordinators, responsible for facilitating the in-country 
processes required to develop, implement, and monitor/report a GHI 
Country Strategy and for ensuring the inclusive processes inherent in 
GHI.

    (c) Given the weight of PEPFAR's importance to GHI, the PEPFAR 
Coordinator plays a central role in the implementation of GHI in 
countries where PEPFAR programs exist. PEPFAR's goals and strategic 
objectives are those of GHI, and the PEPFAR Coordinator will be 
responsible for ensuring that the interagency PEPFAR program fulfills 
the principals and targets laid out under GHI. In addition, the PEPFAR 
Coordinator will work with the other members of the U.S. Government 
health team to ensure that PEPFAR programs are integrated with and 
leveraging other U.S. Government health and development initiatives.

    As GHI implementation moves forward, we will continue to consult 
with and seek the input of Congress on these important issues of 
coordination and leadership.

    Question #35. The GHI stresses transparency and accountability at 
many levels. GHI plus countries have been selected; however, despite 
the fact that the GHI was announced over 2 years ago, GHI plus 
strategies for these countries have yet to be released. Without the 
release and implementation of these strategies, how can Congress, the 
American people, and global health implementers on the ground be 
assured that the transparency and accountability emphasized by the GHI 
is being put in place?

    Answer. With the launch of the new GHI Web site (http://
www.ghi.gov), GHI Country Strategies for Bangladesh, Ethiopia, 
Guatemala, Kenya, Malawi, Mali, and Nepal are now available online and 
available for public review. The Country Strategy for Rwanda will be 
posted shortly. As GHI is implemented in more countries and GHI 
Strategies are developed, each will be made available on the website.

    Question #36. Increasing human capacity of health infrastructure is 
a priority in both GHI and PEPFAR. A major road block in a number of 
developing countries is the separation between medical training 
programs and local health clinics. The Minister of Health has 
jurisdiction over health facilities and the Minister of Education has 
jurisdiction over the training programs. Due to the disconnect, in a 
number of countries, medical and nursing students are not permitted to 
train with medical personnel in government hospitals or clinics. Upon 
completion of their programs, some of these individuals have had little 
patient interaction.

  <bullet> Does the United States have a role in working with host 
        governments to rectify this situation?

    Answer. USG assistance plays a significant role in addressing the 
potential for disconnection between Ministries. Our assistance approach 
strengthens preservice programs to ensure the quality, quantity, and 
relevance of health care workers with focus on: bringing all key 
stakeholders, including both Ministries and others, to jointly identify 
what is needed in the health workforce and how best to attain it; 
assisting Ministries of Education to tailor curricula to the health 
profile of the country; utilizing proven education approaches and 
learning methods to develop measurable competencies for the efficient 
and effective delivery of quality health services at different levels 
of care and according to recognized service delivery models; and 
developing public and private hospitals, clinics and other teaching 
sites embedded in health service delivery facilities, as well as the 
community, to serve as practice sites. As a result of both improved 
classroom education and clinical practice, they are valuable members of 
the workforce as soon as they complete their studies.

    Question #37. The United States is committed to investing in health 
programs in developing countries. We have seen much progress in this 
area, especially in the fight against HIV/AIDS. As we work toward 
sustainability and encourage country ownership, what is the United 
States doing to persuade countries to invest in their own country's 
health programs?

    Answer. A central focus of PEPFAR's strategy and of the Global 
Health Initiative (GHI) is promotion of country-led sustainable 
programs. Strong government leadership of the health system is integral 
to long-term success, and health systems are strongest where 
governments have leadership and technical skills to address health 
system weaknesses. A focus on country ownership is critical to ensure 
that capacity is built in technical and program areas of HIV/AIDS 
(Prevention of Mother to Child Transmission, treatment and gender, 
etc), leadership, management, and capacity-building in financial 
management so that programs supported by PEPFAR are as effective as 
possible and able to transition to long-term sustainability. Therefore, 
a key component of PEPFAR's country ownership strategy is the promotion 
of Partnership Framework agreements between the United States and host 
country governments.
    Partnership Frameworks provide a 5-year joint strategic framework 
for cooperation between the U.S. Government, the partner government, 
and other partners to combat HIV/AIDS in the host country through 
service delivery, policy reform, and coordinated financial commitments. 
Furthermore, Partnership Frameworks have provided the basis for 
discussions with governments on long-term planning and alignment 
between PEPFAR and national strategies. In addition, Partnership 
Frameworks provide the mechanism for dialogue around investments in 
capacity by both the partner country government and PEPFAR, all of 
which are the building blocks for country ownership. Through the 
Partnership Framework mechanism, we have seen many countries taking 
ownership of their health programs. For example, as part of the 
Partnership Framework on HIV/AIDS between Nigeria and the United 
States, the Government of Nigeria is committed to being the leader and 
steward of its efforts to fight HIV/AIDS. This includes increasing its 
financing from 7 percent of the national HIV/AIDS response in 2008 to 
50 percent of the cost by 2015. To date 19 countries and two regional 
programs have signed partnership frameworks.

    Question #38. Is authorizing legislation needed to implement the 
administration's GHI strategy?

    Answer. The core principles established by GHI--the focus on women, 
girls, and gender equality; country ownership; leveraging of 
partnerships; coordination and integration; learning, research, and 
innovation; and strengthening health systems--guide a USG development 
agenda with ambitious targets. In the first phase of GHI, this agenda 
was implemented in a diverse set of eight Plus countries that represent 
learning opportunities for the Initiative. As we continue to implement 
the Global Health Initiative, a need for authorizing legislation may 
arise, but no such need exists at present. We will continue to consult 
with Congress as we move forward.

    Question #39. Two complaints I hear from the field relate to the 
lack of coordination among the different government agencies and the 
onerous reporting requirements which keep staff from going into the 
field to conduct oversight. How can coordination improve between all 
the players promoting the U.S. development agenda? What ideas do you 
have about streamlining the reporting requirements in order to provide 
useful data while freeing up staff to monitor and evaluate funded 
programs and grants?

    Answer. As articulated in the QDDR, State and USAID are committed 
to streamlining their joint strategic planning and reporting processes 
as a high priority. We will do this by moving to a multiyear planning 
framework that sets out 3-year strategic objectives that will form the 
basis of annual resource requests, operational planning, performance 
monitoring, and reporting processes. Within this structure, content 
will flow from and be updated from one process to the next. By using a 
common organizing principle for both planning and reporting, we will 
improve the links between strategic planning, performance, and resource 
decisions while focusing on the core information needed to make 
decisions. We are also setting up a joint governance structure to 
manage and oversee the emergence of new or changed reporting 
requirements by using a cost-benefit approach. This will help preserve 
streamlining gains and ensure that field staff continue to have 
sufficient time for monitoring and oversight.

    Question #40. In his annual letter, Bill Gates spoke of vaccination 
programs and polio eradication as being a priority of his foundation 
for the coming year. At the World Economic Forum meetings earlier this 
year in Davos, Switzerland, Mr. Gates announced an additional $102 
million commitment to polio eradication efforts. Rotary International 
and UNICEF are also active in this area. What is the United States role 
in the polio eradication, especially in Pakistan and Afghanistan where 
the United States has such a large economic investment?

    Answer. The United States continues to be committed to eradicating 
polio. Along with WHO, UNICEF, and Rotary International, our 
interagency partner HHS/CDC is spearheading the Global Polio 
Eradication Initiative (GPEI) and has contributed substantial financial 
and technical support. The United States also raises the issue with 
other countries, such as Pakistan and Afghanistan, at every opportunity 
and seeks their support in eradication efforts. Through our interagency 
partners, such as HHS/CDC and USAID, we have also assisted the Afghani 
and Pakistani Ministries of Health in evaluating and strengthening the 
Expanded Program on Immunization as well as funded medical officers/
epidemiologists and technical officers at WHO for polio eradication. We 
have also supported the Field Epidemiology and Laboratory Training 
Program (FELTP) in Pakistan, which trains both Pakistani and Afghani 
public health staff in surveillance, outbreak investigation, and public 
health program evaluation, building longer term capacity. Finally, in 
partnership with the Pakistan Ministry of Health and WHO, we are 
currently launching the training, deployment, and technical oversight 
for the first National Stop Transmission of Polio team of 16 nationals 
from its FELTP.
    In addition to this work around training, we also work with others 
to encourage significant financial contributions from the Organization 
of Islamic Conference member states to support the GPEI. We have also 
been working hard to keep polio eradication high on the G8 agenda and 
mobilize other countries to provide additional resources in this 
effort.
    We recognize, as Bill Gates does, that worldwide polio eradication 
would be a tremendous success for the international global health 
community. To date, the U.S. Government has invested nearly $2 billion 
in polio eradication efforts for activities including polio 
surveillance and laboratory networks, state-of-the-art global polio 
reference laboratory services, polio vaccine for mass campaigns, mass 
campaign planning, implementation, and evaluation, research and 
evaluation, and social mobilization. Any threat to derail these efforts 
would be a serious setback to global health efforts worldwide.

    Question #41. According to the World Health Organization, 
pneumococcal infection kills over 500,000 children a year. Over the 
last couple of months, a global pneumococcal vaccine has been rolled 
out in Kenya, Nicaragua, Guyana, Yemen, and Sierra Leone. The funding 
has primarily come from a $1.5 billion GAVI Alliance pioneered 
financing mechanism, the Advance Market Commitment (AMC). Although the 
United States was not part of the AMC, what role, if any, is the U.S. 
Government planning to support the rollout of this life saving vaccine?

    Answer. USAID is committed to working with our partners, including 
GAVI, to introduce pneumococcal vaccine in countries where pneumonia 
mortality among children is highest. USAID's contribution to GAVI and 
our funding to WHO is used to provide technical support to countries. 
USAID has also led the development of GAVI's Supply and Procurement 
Strategy to optimize the use of GAVI's funds to procure high-quality 
vaccine at affordable prices.
    As a bilateral technical partner, USAID has played a key role in 
strengthening the country-level immunization systems that deliver the 
new vaccines. Countries are likely to need support in three core areas: 
cold chain and logistics; new vaccine introduction preparedness (e.g., 
new vaccine assessments, health worker training, development of 
training materials, waste management planning, and social 
mobilization); and expansion of coverage of the unreached and 
unimmunized through strengthened routine immunization. Such support has 
played a key role in the successful introduction of the pneumococcal 
conjugate vaccine in Rwanda and Kenya. In Rwanda, for example, USAID 
provided cold chain equipment and technical assistance to support 
Rwanda's Ministry of Health effort to reach all children under 1 year 
of age. Additional country work is planned in Tanzania, Malawi and 
Benin. USAID/Washington will continue its work with missions to 
encourage their engagement in the introduction of this critical, highly 
effective new vaccine.

    Question #42. The United Nations Development Program is a major 
implementer for the Global Fund to Fight AIDS, Malaria, and 
Tuberculosis. According to the UNDP, as of January 2011, UNDP is 
currently Principal Recipient in 27 countries, managing a total of 60 
active grants amounting to more than $1.1 billion. Policies of the 
Executive Board of the UNDP only allow Member States, not 
nongovernmental organizations such as the Global Fund or World Bank, 
access to internal audits, even when fraud is suspected in the grants.

  <bullet> What actions should the United States pursue to increase the 
        transparency and ensure the integrity of United States taxpayer 
        investments in the Global Fund that are managed through UNDP?

    Answer. The United States is committed to ensuring Global Fund 
resources reach people in need and are used as effectively and 
efficiently as possible to save lives. We strongly support the Global 
Fund's Office of the Inspector General (OIG), and its ongoing efforts 
to strengthen the Global Fund's oversight systems. We have consistently 
advocated for increased transparency, accountability, and oversight 
over U.S. contributions to the Global Fund, including Global Fund 
resources managed by UNDP.
    The United States has had high-level discussions with UNDP 
management on the importance of sharing relevant audit information with 
the Global Fund's OIG and cooperating with the OIG in instances of 
suspected fraud. While UNDP does not currently share its internal audit 
reports with the Global Fund, UNDP has taken several interim steps to 
coordinate with the Global Fund's OIG, including (1) consulting with 
the OIG on development of UNDP's annual audit plan, (2) sharing 
summaries of UNDP's Global Fund-related audits, and (3) bringing 
potential irregularities involving Global Fund projects to the 
attention of the OIG whenever and wherever they are found. These steps 
are helpful but not sufficient, and the United States is continuing to 
push for full Global Fund access to relevant UNDP audit reports.
    With strong U.S. encouragement, UNDP management has agreed to 
present options for allowing increased access to its audit reports to 
the UNDP Executive Board for consideration and approval in September 
2011. The United States is working to build support among UNDP Board 
members for amendments to UNDP's audit disclosure policies that would 
allow increased transparency, accountability, and oversight over 
resources under UNDP management.

    Question 43. In assessing effectiveness of multilateral 
international organizations, United Kingdom Secretary of State for 
International Development Andrew Mitchell told the House of Commons 
that the Global Fund to Fight AIDS, Malaria, and Tuberculosis is ``very 
good value to the U.K. taxpayer.''

  <bullet> Do you agree with Mr. Mitchell's assessment regarding the 
        current U.S. investment?

    Answer. While the judgment that the Global Fund is a good value to 
the U.K. taxpayer is based in part upon a comparison to the U.K.'s 
development priorities, the United States believes that investments in 
the Global Fund to Fight AIDS, Tuberculosis and Malaria (Global Fund) 
also represent a very good value for the U.S. taxpayer. Through our 
contribution to the Global Fund the United States is able to:

--Support the delivery of concrete health results;
--Expand the geographic reach of and enhance the USG's bilateral health 
    efforts;
--Catalyze international investment in AIDS, TB, and malaria;
--Build capacity, country ownership, and sustainability; and
--Demonstrate political commitment to international cooperation.

    The USG contribution to the Global Fund supports the achievement of 
significant health results. By December 2010, the Global Fund estimated 
it had supported the following results:

  <bullet> 3 million people on ARV treatment;
  <bullet> 150 million counseling and testing sessions;
  <bullet> Prevention of Mother to Child Transmission for 930,000 
        pregnant women;
  <bullet> Provision of 5 million basic care and support packages;
  <bullet> Detection and treatment of 7.7 million infectious TB cases;
  <bullet> Distribution of 160 million bednets for malaria prevention;
  <bullet> Delivery of 142.4 million malaria treatments.

    By providing 28 percent of Global Fund resources, the USG is 
directly supporting a significant portion of these results.
    U.S. contributions to the Global Fund support programs in 150 
countries, significantly expanding the geographic reach of PEPFAR, the 
President's Malaria Initiative (PMI), and USG tuberculosis programs and 
our ability to support affected individuals around the world.
    U.S. investments in the Global Fund complement and support our 
bilateral health investments and enhance the sustainability and country 
ownership of national responses to the three diseases.
    Furthermore, the U.S. contributions to the Global Fund catalyze 
continued investments from other donors in AIDS, TB, and malaria. Every 
dollar the U.S. Government has contributed to the Global Fund leverages 
an additional $2.50 from other donors.
    The United States is working closely with the Global Fund 
Secretariat and Board to further improve the Global Fund's health 
impact and ``value for money'' in its operations and grants. For 
example, USG country teams are working closely with Global Fund 
Secretariat staff and Global Fund recipients to ensure that activities 
are closely coordinated both to avoid duplication and to ensure that 
both USG and Global Fund programs achieve the maximum health impact 
possible through strategically targeting resources.

    Question #44. The Global Fund has formed a committee to consider 
the adoption of a number of internal reforms. The United States has a 
voice on the committee. What reforms should be a part of the package 
presented to their board?

    Answer. In December 2010, Board members and the Secretariat 
embraced the United States call for comprehensive reforms designed to 
improve the impact of Global Fund grants and ensure the effective, 
efficient, and accountable use of Global Fund resources. The Board 
established a Comprehensive Reform Working Group that is charged with:

--Developing and defining a comprehensive reform agenda of specific 
    action steps that will maximize the cost-effectiveness and impact 
    of Global Fund investments in saving and improving lives affected 
    by AIDS, TB, and Malaria;
--Establishing clear timelines and measures of progress for each of the 
    action items on the reform agenda;
--Developing 4-5 high-impact concrete policy reforms/recommendations 
    for the Board to enact immediately; and
--Creating practical mechanisms for the Board, Secretariat, 
    stakeholders, and public to track implementation of action items 
    contained in the reform agenda.

    The Working Group will present its recommendations to the Board in 
May 2011.
    The United States has been deeply involved in the Working Group's 
efforts to articulate a clear reform agenda that advances the following 
goals:

    1. Enhanced fiduciary control and risk-management.
    2. Improved resource allocation and increased value for money.
    3. Improved proposal development and review processes.
    4. Improved grant management/reduced transaction costs.
    5. Improved Global Fund internal management.
    6. Improved partnership and in-country structures.
    7. Improved governance.
    8. Enhanced resource mobilization.
    9. Increased sustainability and efficiency.

    The Global Fund has also created an Independent High-Level Panel on 
Global Fund Fiduciary Controls and Oversight, which is being chaired by 
Former Secretary for Health and Human Services, Michael Leavitt, and 
the former president of Botswana, Festus Mogae. The United States 
strongly supports the establishment of this panel, and will work to 
ensure its findings and recommendations are incorporated into the 
Global Fund's reform agenda.

    Question #45. The Global Fund Board is currently reviewing income 
criteria for grant eligibility. Presently, the Fund uses the World Bank 
Country Income Classifications and disease burden to determine 
eligibility for countries on the higher end of the income scales. A 
number of these countries do not receive much bilateral assistance from 
the United States due to income eligibility. What criteria should the 
Global Fund adopt to ensure that only countries that truly need the 
grants receive them?

    Answer. In accordance with its Framework Document, the Global Fund 
is committed to ensuring its resources are used to support global needs 
and reach those with the greatest need and least ability to pay.
    The Global Fund Board is currently reviewing its eligibility and 
prioritization criteria and cost-sharing requirements and has agreed to 
make a decision on these matters in May 2011, prior to the launch of 
Round 11.The United States strongly believes that Global Fund 
eligibility, prioritization, and cost-sharing criteria must ensure 
Global Fund resources are targeted strategically towards countries and 
regions with the greatest need and least ability to pay. We also 
believe the Global Fund can play an important role in providing 
limited, catalytic support for high-impact interventions targeted at 
vulnerable populations in middle income countries with high disease 
burdens. Such interventions could include support for MDR/XDR 
tuberculosis programs in Eastern Europe and HIV prevention and 
treatment programs for marginalized populations.

    Question #46. In light of the current economic situation, what is 
the current status of U.S. global efforts on programs to address the 
needs of orphans and vulnerable children? As these children move into 
adulthood, what efforts are being made to assist in integrating them as 
productive members of society?

    Answer. U.S. Public Law 109-95, the Assistance for Orphans and 
Other Vulnerable Children in Developing Countries Act of 2005, focuses 
on the world's most vulnerable children. The law calls for 
international assistance from the U.S. Government (USG) for such 
children to be coordinated, comprehensive, and effective. In fiscal 
year 2009, USG assistance amounted to over $2.6 billion, through almost 
2,000 projects in over 100 countries. Assistance is administered by 
more than 20 offices in seven USG departments and agencies, operating 
under their respective mandates. Under the law, the Special Advisor for 
Assistance to Orphans and Vulnerable Children, housed at USAID, is the 
lead in coordinating USG assistance.
    Many USG-funded programs reaching orphans and vulnerable children 
feature education, vocational training, psychosocial support and 
economic strengthening components. Economic strengthening encompasses a 
range of activities, such as the direct provision of cash or material 
assistance and access to services that reduce household economic 
burdens (e.g., ensuring children's free access to school), implemented 
through market-based interventions that promote asset growth, asset 
protection or income growth of participating households. These critical 
programs aim to support vulnerable children and youth as they strive to 
become productive members of their communities and societies. A 
database on USG assistance for highly vulnerable children, available 
online and publicly accessible, provides detailed information about 
these projects. For instance, in FY 2009, a total of 13 offices within 
five USG agencies and departments supported more than 230 projects that 
included economic strengthening components for vulnerable children in 
nearly 60 countries. Seventeen offices in five USG agencies and 
departments supported more than 300 programs that featured education 
components for vulnerable children in more than 80 countries.

    Question #47. You are requesting $71.8 million for programs in the 
USAID Forward initiative for innovation, science and technology (S&T) 
and evaluation. Other agencies in the Federal Government also work with 
inventors and the private sector in developing new technologies. To 
what extent do you work with other Federal agencies to share 
information on new technologies that could be used in USAID-funded 
locations? If you do collaborate with other agencies, what are they, 
and what is the mechanism you use for this coordination? Do you share 
common programs objectives for new technology.

    Answer. We are aggressively pursuing formal partnerships with other 
Federal agencies to enhance our ability to leverage their scientific 
and technical expertise in the service of development. Formal 
agreements are at various stages of discussion or have been negotiated 
with: NASA, NSF, EPA, USGS, USDA, NOAA, and NIH. Examples of specific 
activities include:

  <bullet> The Partnerships for Enhanced Engagement in Research (PEER) 
        program with the National Science Foundation (NSF):

      <all>  Competitive grants program supporting researchers in 
            developing countries to collaborate with U.S. researchers 
            funded by NSF. Based on USAID's interest and NSF's existing 
            portfolio, likely areas of collaboration would include 
            biodiversity, climate change, water, and food security.
      <all>  Expected to be launched in May 2011.
      <all>  Estimate that this leverages over $30 of NSF investment 
            for every $1 invested by USAID.

  <bullet> The LAUNCH initiative, to support entrepreneurship and new 
        S&T applications for sustainability and development through a 
        partnership with NASA:

      <all>  Identified innovative solutions for development problems.
      <all>  DTI-r--a participant in LAUNCH: designed and developed a 
            gravity-fed water pipe that is capable of treating gray 
            water to be used for irrigation in arid regions, such as 
            Jordan. Due to its proven success, the pipe is now poised 
            to be scaled up.
      <all>  LAUNCH features recurring interagency cooperation in 
            designated sectors. Current programs have addressed water 
            and health challenges. Our next one will be focused on 
            energy in late 2011.

  <bullet> USAID and USDA partner in a number of areas, including under 
        Feed the Future. The Norman Borlaug Commemorative Research 
        Initiative with U.S. Department of Agriculture (USDA) is one 
        example:

      <all>  USAID and USDA technical working groups address key 
            agricultural challenges of significance to both U.S. and 
            developing country farmers.
      <all>  Priority research areas are livestock health, legume 
            productivity, food safety, and wheat stem rust.
      <all>  Research activities harness USDA technical expertise 
            through collaboration with USAID-funded research partners, 
            such as the international agriculture research centers 
            (CGIAR), in support of Feed the Future's food security 
            goals.

  <bullet> USAID partners with NOAA to utilize their expertise in 
        weather and hydrological forecasting, climate impacts, use of 
        remote sensing data in support of Disaster Risk Reduction, and 
        fisheries management. Examples of collaboration include:

      <all>  USAID's FEWS NET activity has maintained an interagency 
            agreement with NOAA since 1986 which provides a variety of 
            weather, climate and drought monitoring and forecasting 
            products.
      <all>  USAID's SERVIR (the Spanish acronym for Regional 
            Visualization and Monitoring System) program collaborates 
            with NOAA on capacity building activities in meteorological 
            services and training modules in Central America.
      <all>  USAID's Office of Foreign Disaster Assistance supports 
            NOAA's RANET program which uses communication satellites to 
            transmit information, via radio, to remote areas in 
            developing countries.

  <bullet> The Research Division of the Office of Population and 
        Reproductive Health has maintained ongoing collaborative 
        relationships with the CDC's Division of Reproductive Health, 
        and NIH's National Institute of Child Health and Human 
        Development (NICHD) for many years:

      <all>  Many of the contraceptive technologies available today--
            such as the progestin-only oral pill, the 5-year implant, 
            and the Female Condom--were first developed by USAID 
            partners and then tested in the NIH CCTN for FDA approval.
      <all>  These fruitful interagency relationships have enabled 
            USAID, CDC, and NICHD to come together frequently to review 
            scientific results, respond to new research questions in 
            reproductive health, harmonize research plans and 
            priorities, and leverage their respective resources to 
            facilitate promising research.

  <bullet> The Research Division has had a long history collaborating 
        with NIH's National Institute for Allergy and Infectious 
        Diseases (NIAID) on the development of microbicides for HIV 
        prevention in women:

      <all>  This productive interagency relationship has led to 
            several microbicide products developed by USAID partners 
            being tested in NIH's HIV Prevention Trials Network and the 
            Microbicide Trials Network.
      <all>  The collaboration between USAID's Office of HIV/AIDS 
            (where the microbicides portfolio now resides) and NIAID 
            has increased dramatically with the recent tenofovir gel 
            results that showed the first-ever proof of a microbicide 
            effective in preventing HIV acquisition in women.
      <all>  USAID and NIAID are actively collaborating on a combined 
            portfolio of research to accelerate the introduction of 
            this product and the further development of other 
            microbicides.

    In addition, we are developing a strategy for enhancing the 
Agency's ability to leverage, in the service of development, the depth 
and breadth of the academic community's science and technology 
resources, both academic and physical.

    Question #48. You recently released the Department's first 
Quadrennial Diplomacy and Development Review (QDDR). In your letter in 
which you submitted the fiscal year 2012 budget request, you noted that 
the QDDR ``is changing the way we do business.'' How does your budget 
request reflect a more focused development agenda? How does it 
demonstrate your recognition that the Department ``should just stop 
doing'' some things altogether?

    Answer. The President's FY 2012 Budget for the Department of State 
and USAID are informed by the overarching direction and priorities set 
by the Presidential Policy Directive on Global Development and the 
Quadrennial Diplomacy and Development Review (QDDR). The budget 
recognizes that development progress is essential to promoting 
America's national security and economic interests, as well as our 
values. In particular, Secretary's Clinton's cover letter to the 2012 
Congressional Budget Justification highlighted priorities related to 
our support for diplomatic and military engagement in key frontline 
states (Iraq, Afghanistan, and Pakistan); Presidential Initiatives in 
food security, climate change, and global health; as well as 
humanitarian assistance, conflict prevention, and crisis response. 
Within the State and USAID budget, and consistent with the QDDR and 
Presidential Policy Directive on Global Development, we are 
prioritizing these areas in our development agenda, as well as economic 
growth and democratic governance programming that are essential for 
reducing long-term dependence on foreign aid and increasing 
sustainability.
    Efficiency, program evaluation, and fiscal responsibility are major 
components of the QDDR. At the release of the QDDR in December, the 
Secretary noted that ``We are redefining success based on results 
achieved rather than dollars spent.'' We will minimize costs and 
maximize impacts, avoid duplication and overlap, and focus on 
delivering results.
    The cost avoidance from this focus on efficiency and fiscal 
discipline are reflected in the President's FY 2012 budget request for 
the Department and USAID. It is a budget for tight times, with core 
expenses growing just 1 percent over comparable FY 2010 levels. When 
the Department's $8.7 billion Overseas Contingency Operations request 
is combined with the Pentagon's war costs in Iraq and Afghanistan, the 
total U.S. Government spending on these conflict zones drops by $41 
billion, highlighting the savings that can be reached through a whole-
of-government approach to our Nation's most difficult challenges. 
Finally, the budget reflects tough choices, including slowing the 
expansion of the Foreign Service and reducing development assistance to 
more than 20 countries by at least 50 percent.
    Fundamentally, the QDDR builds U.S. civilian power. This inherently 
creates lasting cost-effective benefits for American taxpayers and 
enhances our national security through preventative measures. It costs 
far less to deploy a diplomat to defuse a crisis than it does to field 
a military division if that conflict is allowed to grow. Civilian power 
is a wise investment for the United States, and through the reforms 
that the Department and USAID have laid out, it will pay dividends for 
years to come.

    Question #49. The future of high economic growth is shifting from 
the developed to the developing world. Over the past 40 years, trade 
has tripled as a share of our economy, and more than 1 out of 5 
American jobs are tied to international trade. America's fastest 
growing markets--representing roughly half of U.S. exports--are in 
developing countries. Economic engagement must keep the United States 
competitive in the global marketplace.

  <bullet> What is the role of State and USAID programs in helping spur 
        economic growth here at home and creating American jobs? How do 
        these programs help U.S. businesses and entrepreneurs to remain 
        competitive in the global market place?

    Answer. You have well identified the crucial role that exports play 
in creating U.S. jobs and rebalancing the U.S. economy. That is why the 
Department of State and our embassies and consulates abroad are so 
deeply involved in the work of the President's National Export 
Initiative, helping U.S. manufacturers, services providers, farmers, 
and ranchers achieve more sales outside our domestic market. With 
increased exports, the nation can create millions of new jobs across 
many sectors and throughout the country. The President has challenged 
the nation to double overall exports in a 5-year period, and important 
progress was achieved in the first year. U.S. exports in 2010 increased 
$261 billion compared to 2009, but in too many markets we are only back 
to 2008 export levels, before the effects of the global financial 
crisis that began in 2008.
    U.S. Ambassadors serving abroad and the country teams they lead at 
their embassies make promotion of U.S. exports of manufactured goods, 
services, and farm goods an important part of their work. The 
ambassadors are the CEOs of the interagency process at their posts, 
setting priorities for execution by their teams. State Department 
economic officers at embassies and consulates are available to counsel 
U.S. companies about market opportunities and challenges overseas. 
Economic officers and their colleagues also urge policy and regulatory 
reforms by our trading partners, to make economies more open and the 
application of regulations more transparent, predictable, and even-
handed, thus assisting U.S. companies' access. Effective protection and 
enforcement of intellectual property rights--the patents, trademarks, 
and copyrights on which so many knowledge-intensive U.S. companies 
rely--is an important focus of work by our embassies and the Department 
of State (particularly the Office of International Intellectual 
Property Enforcement) in conjunction with other agencies in Washington. 
Our embassies also help facilitate the establishment of American 
Chambers of Commerce overseas and seek counsel from and offer briefings 
to such groups. I met with the Business Round Table in December 2010 
and the President's Export Council on March 11 of this year. With input 
obtained by our diplomatic posts from U.S. exporters and U.S. business 
representatives resident in foreign markets, feedback from the 
Department's Advisory Committee on International Economic Policy, and 
the constructive views offered by many U.S. domestic businesses and 
business organizations such as the Business Round Table and President's 
Export Council, we strive to integrate private sector issues into U.S. 
foreign and economic policy and direct U.S. Government resources to 
assist U.S. business interests overseas.
    State Department consular officers adjudicate millions of 
nonimmigrant visa applications each year, facilitating legitimate 
travel by foreign business people, tourists, and students. These 
visitors spend annually tens of billions of dollars in the United 
States, helping to create jobs across the nation. We provide our 
consular officers with clear guidance to provide business-friendly 
application procedures while adjudicating applications for business 
visas within the bounds of U.S. immigration law.
    I convened U.S. ambassadors from around the world at the Department 
of State on February 2 and 3 this year, and their great enthusiasm to 
be champions on behalf of U.S. exports and U.S. exporters was quite 
apparent. They are concerned, however, about the resources available to 
our missions abroad, including for export promotion purposes.
    U.S. ambassadors are eager to explain commercial opportunities in 
their host countries to U.S. business audiences. One, but by no means 
the only recent example: the Department of State's Bureau of Economic, 
Energy and Business Affairs and the Bureau of Near East Affairs worked 
with the Business Council for International Understanding to program 
meetings with U.S. domestic business groups for nine U.S. ambassadors 
from the Middle East and North Africa in October of last year. The 
ambassadors made presentations to business associations from New York 
to Seattle and San Francisco, and from Milwaukee to New Orleans. Other 
U.S. ambassadors have made similar presentations to U.S. audiences, and 
in this year in which the United States will be host to the APEC 
summit, many more such events will occur. All of these activities are 
designed to help U.S. companies understand the export opportunities in 
often unfamiliar foreign markets.
    I and other senior officials of the Department of State regularly 
advocate on behalf of U.S. bidders on foreign government and foreign 
military procurements, in meetings abroad, on the margins of 
international conferences, and in diplomatic correspondence to foreign 
government officials. Those efforts, and similar efforts by other 
Cabinet members and their senior officials, White House officials, and 
the ongoing advocacy by our embassy teams abroad, have resulted in 
important, sizable export wins for U.S. businesses. You will recall, 
for instance, the multibillion dollar contracts for Boeing jets and 
other items announced during President Obama's visit to India in 
November and during the January state visit of Chinese President Hu 
Jintao to the United States. It is important to emphasize that it is 
not just our biggest companies and their supply chains that benefit 
from commercial advocacy, however large or important those contracts 
may be. The day-to-day work of our country desk officers, regional 
bureaus, the Bureau of Economic, Energy and Business Affairs, and our 
ambassadors and embassy teams overseas reap important accomplishments 
for U.S. businesses of all sizes across the nation. For example:

  <bullet> Embassy Manila played a crucial role in the successful bid 
        of the largest North American producer of solid zinc strip and 
        zinc-based products, Jarden Zinc Products of Greenville, TN, to 
        supply coin blanks to the Philippines Central Bank. The 
        contract value exceeded $20 million.
  <bullet> One of our smallest posts in term of staffing, the American 
        Presence Post in Rennes, France, recently helped a Maryland 
        firm secure a contract for at-sea refueling systems for 
        European naval frigates.
  <bullet> The U.S. Embassy in Tirana recently brokered an 
        understanding with Albanian Customs and National Food Authority 
        officials, who had differing interpretations of the 
        requirements of an ambiguous Albanian law. The Embassy's 
        intervention allowed release of U.S. meat shipments that had 
        been delayed in an Albanian port because of those bureaucratic 
        arguments.
  <bullet> Embassy Asuncion officers counseled a southern California 
        firm in its successful bid to lay 1,000 kilometers of high-
        temperature, low-sag transmission cable for the Paraguayan 
        National Electricity Administration, a contract valued at more 
        than $10 million.
  <bullet> State's International Communications and Information Policy 
        Office (CIP) has promoted the benefits of holding wireless 
        spectrum auctions to other countries. Brazil, India, Costa 
        Rica, and Mexico have held these auctions with our 
        encouragement. In Brazil, U.S.-based Nextel won 11 3G (third 
        generation) wireless licenses, as well as other licenses, 
        resulting in Nextel Brazil becoming the fifth mobile carrier 
        with almost 100 percent national coverage there.

    The work of many of the offices in State's Bureau of Economic, 
Energy and Business Affairs (EEB) actively support the goals of the 
President's National Export Initiative or otherwise contribute to U.S. 
economic prosperity.

  <bullet> EEB administers a Business Facilitation Incentive Fund used 
        by dozens of posts without a Commercial Service presence for 
        export promotion activities.
  <bullet> EEB/CIP works with foreign governments and U.S. industry to 
        encourage regulatory reform and market access for the 
        information and communications technology (ICT) sector. Through 
        public-private partnerships CIP promotes U.S. ICT industry 
        instruction of visiting foreign officials on best practices, 
        regulatory reform, international standards, and 
        telecommunications competition.
  <bullet> EEB's Office of Aviation Negotiations expands markets for 
        our airlines, which benefits U.S. exporters, the travel and 
        tourism industries, and the express delivery industry, and 
        creates demand for long-haul aircraft to fly these new routes.
  <bullet> EEB's Office of Development Finance helps the Millennium 
        Challenge Corporation increase private sector awareness of 
        procurement opportunities offered there.
  <bullet> EEB's Office of Trade Policy and Programs represents State 
        and supports officials of the Office of the United States Trade 
        Representative in numerous bilateral and multilateral trade 
        negotiations with the express goal of opening markets and 
        creating a level playing field for our firms.
  <bullet> EEB's Office of Investment Affairs joins with USTR in 
        negotiating protections for overseas investors against 
        expropriation. The United States is the world's largest outward 
        investor, and an estimated 21 percent of U.S. exports are 
        intracompany transfers from U.S. parents to their overseas 
        subsidiaries. The annual Investment Climate Statement produced 
        by our embassies and published on the State Department Web site 
        is a key tool used by many American companies to evaluate risk 
        associated with their overseas investment plans.
  <bullet> EEB's Office of Investment Affairs and Commerce's ``Invest 
        in America'' program cooperate to attract foreign investment to 
        the United States that creates thousands of high-value jobs in 
        our economy. In October, we sent a joint State-Commerce 
        instruction to all diplomatic and consular posts stressing the 
        importance of attracting investment to the United States. The 
        United States is the world's No. 1 recipient of inward foreign 
        direct investment, and foreign subsidiaries in the United 
        States provide approximately 19 percent of all U.S. exports.

    In sum, International Affairs funding is crucial for the foreign 
policy of the United States, but also for our international economic 
policies and the creation of a more prosperous economic future for our 
workers and companies in an increasingly connected and competitive 
global marketplace.

    Question #50. In your testimony you mentioned that several al-Qaeda 
``foreign fighters'' were from eastern Libya, the part of the country 
now liberated from the Qadhafi's control. I have also read reports that 
at the peak of the Iraqi insurgency, more Libyans per capita traveled 
to join al-Qaeda in Iraq than from any other country. The potential for 
al-Qaeda to exploit the turmoil in Libya is of great concern.

  <bullet> Please share with us specifics on any current movement of 
        people between Libya and Afghanistan/Pakistan of elsewhere, in 
        classified format if necessary. What sort of foothold does al-
        Qaeda or Al Qaeda in the Islamic Maghreb (AQIM) have in Libya 
        now?

    Answer. While Qadhafi's claims that the rebellion is an al-Qaeda 
(AQ) plot lacks credibility, both AQ and its affiliate Al Qaeda in the 
Islamic Maghreb (AQIM) are looking for ways to play a greater role in 
the conflict. They have made rhetorical statements of support for the 
rebels in Libya and have advised the rebels to set up an Islamic state 
in a post-Qadhafi era. AQ's leaders in Pakistan and Afghanistan have 
tried to portray the international intervention as a crusade against 
Muslims in order to further their own agenda.
    Libyan extremists potentially traveling back from Afghanistan and 
Pakistan and from the surrounding region likely retain an interest in 
setting up operations in Libya given a deep historical hatred of 
Qadhafi by the extremists, the current chaotic state, and the fact that 
Libyan state security services are in disarray. It seems likely that 
extremists will try to take advantage of the current situation and at 
least attempt to ``set up shop.''
    Importantly, the Transitional National Council (TNC) has not 
demonstrated a desire to support AQ or AQIM or to accept assistance 
from either. In fact, on March 30, the TNC issued a noteworthy 
statement repudiating terrorism and extremism in broad terms. The 
opposition currently is a diverse coalition of Libyans from 
professional, tribal, and political backgrounds.

    Question #51. I have seen reports that AQIM has announced its 
support for the uprising against Qadhafi. What influence would they 
have in a post-Qadhafi Libya, particularly if the army and other 
security forces are either diminished or splintered?

    Answer. At this time, we do not see AQIM having an influential role 
in Libya. The Transitional National Council (TNC) has not demonstrated 
a desire to support AQ or AQIM, nor to accept assistance from either. 
In fact, on March 30, the TNC issued a noteworthy statement repudiating 
terrorism and extremism in broad terms. The opposition currently is a 
diverse coalition of Libyans from professional, tribal, and political 
backgrounds.
    With Libyan security services in disarray, however, Al Qaeda in the 
Islamic Maghreb (AQIM) will try to take advantage of the situation 
primarily to recruit fighters and procure arms. AQIM has worked to move 
some of its Libyan fighters into Libya and is seeking to acquire arms 
that have become available from looted government stocks. AQIM 
leadership has made rhetorical statements of support for the rebels and 
has urged the setting up of an Islamic state. While the Algerian-led 
AQIM still retains its focus on Algeria, the chaotic state in Libya 
could provide an opportunity for AQIM to increase its area of 
operations and freedom of movement.

    Question #52. The Government in Venezuela continues to suppress 
democratic institutions and practices and abuse human rights. Many of 
its officials are becoming involved in narcotics production and trade.
    Responding to a question I submitted for the record last summer 
during his nomination hearing, Ambassador Larry Palmer, expressed the 
administration's concerns about limitations on freedom of the press and 
freedom of expression. He also expressed the administration's 
willingness to act on other designations such as the ``kingpin'' under 
OFAC procedures should the circumstances warrant such measures.
    Is it not time to be more aggressive in helping those fighting for 
democracy, to demand protection for those whose rights are being abused 
and to target any and all Venezuelan Government officials we know all 
too well are involved in the narcotics trade?

    Answer. We share your concerns about the state of democracy in 
Venezuela. Our concerns about Venezuelan Government actions range from 
efforts to restrict freedom of expression and assembly to the use of 
the judiciary to intimidate and persecute individuals and organizations 
critical of government policies and government actions.
    We were particularly troubled by the delegation of legislative 
authority (decree powers) to the executive that extended beyond the 
term of office of the last National Assembly. This kind of majoritarian 
rule does not respect minority views and violates the shared values 
expressed in the Inter-American Democratic Charter. We have expressed 
our concerns both publicly and privately on numerous occasions both in 
Caracas and in Washington and will continue to do so.
    At the same time, we were encouraged by the decision of millions of 
Venezuelans to exercise their democratic right to vote in the September 
26 legislative elections. We also continue to be impressed by the 
activism and vitality of Venezuelan civil society, a critical 
democratic force.
    We believe that an opposition's presence in the National Assembly 
after a 5-year absence could well facilitate deeper debate on issues of 
concern to the Venezuelan people and potentially will allow for greater 
accountability by the government for its performance. For the first 
time in 5 years, there is a plurality of views in at least one 
institution of government.
    We are already seeing this play out, with energetic, even 
passionate debates on issues of national importance taking place in the 
National Assembly. Whatever the continuing obstacles, the opposition 
now has a voice.
    As we do elsewhere in the world, U.S. programs that support civil 
society in Venezuela seek to strengthen democratic governance, support 
civic engagement, promote human rights and expand national dialogue. 
They are nonpartisan, open to all political tendencies, and support 
internationally recognized (including by Venezuela) freedoms of 
expression, association, and peaceful assembly. We are committed to 
continuing support for such programs in Venezuela.
    Regarding your concerns about the involvement of Venezuelan 
officials in the narcotics trade, we continue to work closely with 
Treasury, Justice, and others to identify and target such officials. As 
you know, in September 2008, Treasury's Office of Foreign Assets 
Control designated two senior Venezuelan Government officials, Hugo 
Armando Carvajal Barrios and Henry de Jesus Rangel Silva, and the 
former Justice and Interior Minister, Ramon Rodriguez Chacin, as drug 
kinpins for materially assisting the narcotics trafficking activities 
of the FARC.

    Question #53. Moldova.--In 2009 a reform-minded, Europe-oriented 
government was swept to power in Moldova but has been forced to contend 
with political uncertainty due to several failed attempts to elect a 
President and the unresolved status of the separatist region of 
Transnistria, where Russian troops have served since the early 1990s. I 
have been very encouraged that Vice President Biden will travel to 
Moldova in the coming weeks as a show of U.S. support for the domestic 
developments that have taken place there--in my view, a notable 
development in light of other flagging democratic movements in the 
region.
    Several weeks ago I introduced legislation to finally repeal 
Jackson-Vanik trade restrictions on Moldovan goods. Will your 
administration be working to support passage of this long overdue 
measure?

    Answer. The Obama administration supports ending of application of 
Jackson-Vanik to Moldova and granting Permanent Normal Trade Relations 
(PNTR). Moldova has satisfied all requirements of the Jackson-Vanik 
amendment regarding freedom of emigration for several years. Even 
though Moldova has been a member of the World Trade Organization (WTO) 
since 2001, the WTO Agreement has not applied between the United States 
and Moldova because of the Jackson-Vanik amendment. This situation has 
denied the United States and our companies and workers the benefits of 
Moldova's WTO membership. Ending application of Jackson-Vanik and 
granting PNTR will permit us to apply the WTO Agreement and will also 
send a positive message to Moldova and the world about the United 
States-Moldova relationship.
    Vice President Biden delivered both publicly and privately a 
message of support for granting PNTR to Moldova while in Chisinau on 
March 11. He noted to Moldovan officials that action on this issue 
depends on congressional timing and priorities. More broadly, Vice 
President Biden commended the government for their democratic and 
economic progress, but also urged continued efforts to reform the 
judiciary, root out corruption, and fight human trafficking.

    Question #54. Lithuania.--The incoming OSCE chairman-in-office 
(Note: this is Lithuanian FM Azubalis) has called for restarting the 
so-called ``Five Plus Two'' talks led by the OSCE over the status of 
Transnistria. Does the administration intend to support this 
initiative?

    Answer. Yes. The United States has repeatedly called for the 
resumption of formal 5+2 negotiations over the past year and supports 
the position of the Lithuanian OSCE Chairman-in-Office. While visiting 
Moldova on March 11, Vice President Biden publicly reaffirmed U.S. 
policy by calling for a formal 5+2 meeting with a real agenda this 
year. The United States supports a transparent settlement to this 
protracted conflict that defines Transnistria's status while respecting 
the independence, sovereignty, and territorial integrity of Moldova 
within its internationally recognized borders. Informal talks in the 
5+2 format are continuing and will hopefully lead to a resumption of 
formal negotiations this year, which would represent a step toward 
resolving the Transnistria dispute.

    Question #55. Russia and Georgia.--The Russia-Georgia cease-fire 
agreement of 2008 required that Russia withdraw its troops to prewar 
positions and reduce its military to prewar strength. As you know, 
Russian policy has moved in the other direction, and Russia has 
undertaken a military buildup in Georgia, with latest reports 
indicating that an additional 300 troops were just recently deployed in 
South Ossetia. What, in your view, are Russia's objectives in Georgia, 
and how can U.S. policy be effective in reversing this troubling 
development?

    Answer. Only Russia can define its overall objectives toward 
Georgia, but in public statements, leading officials express a 
willingness for serious rapprochement with Georgia only after President 
Saakashvili has departed office. Even then, Russia's concept of what 
constitutes Georgia differs from that of the rest of the international 
community, in that Russia remains committed to recognition of Abkhazia 
and South Ossetia as independent states and believes that this must be 
accepted as a new reality by other actors in international relations. 
This is not an approach accepted by the United States. The United 
States strongly supports Georgia's sovereignty and territorial 
integrity. We continue to urge Russia at the highest levels to comply 
with its obligations under the 2008 cease-fire agreement, withdraw its 
troops to preconflict positions, and to end its occupation of the 
Georgian territories of Abkhazia and South Ossetia. We have also urged 
Russia to reciprocate the ``no-use of force'' pledge expressed by 
President Saakashvili in front of the European Parliament on November 
23, 2010. We have urged the Russian Government bilaterally and in 
international fora to reduce tensions in the region and encourage 
incremental practical steps, especially confidence-building measures 
and transparency on Russia's military presence in the separatist areas. 
We have encouraged Russia and Georgia to participate constructively in 
the Geneva process, which provides the only forum for dialogue among 
all parties to the conflict. In the framework of the Geneva process, 
ongoing meetings of the Incident Prevention and Response Mechanisms 
(IPRMs) in Abkhazia and South Ossetia are playing a useful role in 
bringing together the parties to the conflict to prevent and resolve 
security incidents, and address humanitarian concerns on the ground.

    Question #56. Office of the U.S. Assistance Coordinator for Europe 
and Eurasia.--I note that the budget request for Europe, Eurasia, and 
Central Asia has been cut by $115 million dollars, a 15-percent cut. 
The budget for this region has been reduced in past years due to the 
success of U.S. assistance and foreign policy initiatives in the 
region, as some of these transition countries have become more 
affluent, graduated from traditional assistance programs, and in many 
cases joined the EU and NATO. I would note that there is much 
unfinished business in the region, with fragile democracies in Georgia, 
Ukraine, and Moldova, the threat of ethnic conflict remaining in the 
Balkans, frontline states in Central Asia that could become sources of 
regional instability, and democratic backsliding in a number of 
countries. The brutal crackdown on the democratic opposition in Belarus 
is only the most dramatic and recent example.
    The unique office that has coordinated this assistance for many 
years, the Office of the Coordinator for U.S. Assistance to Europe and 
Eurasia, known as ``EUR-ACE'' (E.U.R.-Ace) was set up in conjunction 
with passage of the FREEDOM Support Act and coordinates all U.S. 
Government assistance in the region, tailoring it to the broader 
foreign policy objectives pursued by the Bureaus for Europe and Eurasia 
and South and Central Asia.
    In 2007, my staff conducted a review of U.S. foreign assistance 
coordination within the State Department and USAID. The published 
report that resulted from this study recommended that: ``The Secretary 
of State would be better served by the replication of the office of the 
U.S. Assistance Coordinator for Europe and Eurasia . . . for each 
regional bureau, perhaps in the form of `deputy assistant secretary for 
programs.' ''
    In light of the proposed reduction in the FY 2012 budget, and 
potential future reductions in U.S. assistance programs in this region, 
could you share with the committee your current thinking on the future 
role of the Coordinator's office? Do you see any merit in replicating 
this structure in other regional bureaus, as the 2007 committee report 
recommended?

    Answer. The Office of the U.S. Assistance Coordinator for Europe, 
Eurasia and Central Asia (EUR/ACE) has employed its unique authorities 
and dedicated regional funding account to good effect in helping the 
former Communist countries in this region transition into democratic, 
free market states. In the two decades since the establishment of the 
Coordinator, significant progress has been made toward this goal: 11 
country recipients have advanced to the point where they have graduated 
from U.S. development assistance; 12 have joined the North Atlantic 
Treaty Organization (NATO); 10 have acceded to the European Union (EU); 
and some Balkan country recipients have made progress toward accession 
goals. Many of these countries are now strong partners that support 
U.S. priorities, such as our coalition efforts in Iraq and Afghanistan, 
and have become foreign assistance donors in their own right. EUR/ACE 
has effectively coordinated the interagency assistance community, 
including during times of crisis such as the aftermath of the August 
2008 conflict in Georgia and the Kyrgyz Republic in 2010. It has also 
served as a comprehensive source of information about U.S. assistance 
provided to the region.
    The reduction in assistance to the Europe, Eurasia, and Central 
Asia region is driven by the difficult budget environment. Within that 
context, the administration's request for FY 2012 reflects a 
reallocation of resources to address other needs globally, weighing 
factors such as progress made, the work of other donors, and 
assessments of the key remaining challenges in the region. At the same 
time, the countries of the region remain vital to U.S. foreign policy 
interests and foreign assistance will continue to be essential to 
address a range of important national security interests and difficult 
development challenges, including democracy backsliding, instability, 
rampant corruption, and transnational threats.
    In 2006, the Department reformed its foreign assistance management 
structure by creating the Office of the Director of U.S. Foreign 
Assistance (F) to integrate budgets and planning across all State 
Department and USAID programs. More recently, the administration has 
elevated development to be coequal with diplomacy and defense as core 
pillars of American foreign policy and aims to empower USAID as the 
U.S. Government's lead on development matters.
    Any decisions on the future of EUR/ACE will necessarily be informed 
by a number of factors, including the implementation of the Secretary's 
Quadrennial Diplomacy and Development Review (QDDR), foreign assistance 
funding trajectories, policy priorities, and country progress toward 
political and economic transition goals. The Department would consult 
with Congress regarding any potential changes to its current model of 
foreign assistance management for Europe, Eurasia, and Central Asia.

    Question #57. U.S. investments in Macau are experiencing an 
increasingly hostile business environment on the part of the Macau 
Government. This is a remarkable turn of events as the United States is 
one of the largest, if not the largest source of foreign investment in 
Macau. From the perspective of the Department, what is the genesis of 
actions against U.S. companies in Macau? What is the United States 
Government doing to protect the interests of U.S. companies in Macau?

    Answer. As the United States is Macau's second-largest investor 
with over $8 billion in investments in the past 6 years, supporting 
U.S. business interests in Macau is a top priority for the Department 
of State. We have therefore continued to urge the Macau Government to 
maintain a level playing field for investors, including enhancing 
transparency in government decisionmaking, allowing more imported 
skilled labor, and ensuring legal due process. Although the business 
community is currently facing tight labor conditions due to Macau's 
unprecedented economic growth, a very low unemployment rate of 2.7 
percent, and restrictive labor policies, in general we perceive Macau 
as a welcoming environment for U.S. business. The one dispute that we 
are aware of involving a U.S. invested company is currently before the 
Macau courts, and Consulate General Hong Kong personnel, stressing the 
importance of transparency and due process, have raised the matter with 
Macau officials on multiple occasions, including with Macau's chief 
executive.

    Question #58. What venues are available in Macau that represent 
viable options for U.S. companies to pursue resolution of disputes? Can 
the Chinese Government be of assistance, and has the Department of 
State made any contacts in this regard?

    Answer. In addition to Macau courts, the Macau Arbitration Center 
is available in some circumstances for third-party resolution of 
commercial disputes through arbitration and conciliation. The Hong Kong 
International Arbitration Centre may also be available to parties. 
Regarding whether the Chinese Government can be of assistance, the U.S. 
Government policy is to support ``one country, two systems'' and 
Macau's autonomy under the Basic Law on issues outside of national 
security and foreign affairs. As a result, we believe it is most 
effective to continue working directly with the Government of Macau to 
resolve commercial disputes.

    Question #59. The Department only recently notified Congress that 
the United States had over $400 million in credits sitting at the 
United Nations.

  <bullet> Given the incredibly difficult budget situation the 
        Department is in, how did this come to pass?
  <bullet> What does the administration intend to do with this money?
  <bullet> Please describe the nature and purpose of the Tax 
        Equalization Fund in which these credits accumulated.

    Answer. There are approximately $240 million in credits at the 
United Nations attributable to U.S. assessed contributions for 
peacekeeping-related activities that have accumulated over several 
years. Approximately $79 million of these are in the U.N. Tax 
Equalization Fund (TEF) and an additional $162 million stem from active 
and closed peacekeeping missions where the mission costs came in below 
the budgets approved by the General Assembly. There had been an 
additional $100 million in the U.N. TEF attributable to U.S. 
contributions to the U.N. regular budget and an additional $68 million 
attributable to U.S. assessed contributions to peacekeeping activities. 
As we have advised the relevant congressional committees previously, 
the U.N. applied $100 million in TEF credits to implement critical 
perimeter security enhancements at the U.N. complex in New York and $68 
million in peacekeeping credits to offset arrears for peacekeeping 
missions in the Democratic Republic of the Congo and Haiti.
    The majority of the peacekeeping credits have accumulated as a 
result of the closure of several peacekeeping missions. The TEF credits 
have accrued as a result of the U.N.'s methodology overestimating the 
amount actually needed to reimburse American citizens working at the 
U.N. for U.S. taxes paid. We are working with the U.N. to make changes 
to the methodology in order to achieve more realistic estimates.
    The TEF is a mechanism used to ensure that U.S. citizens working at 
the U.N. are not disadvantaged in their salary compared to those U.N. 
employees from other countries. The U.N. sets its salary scale as if 
its employees' salaries will not be subject to the taxes of their home 
countries. With U.S. employees required to pay taxes on their U.N. 
income, the United Nations and United States recognized that this 
situation in effect penalized American nationals by paying them a lower 
take-home salary than other U.N. and, therefore, could discourage U.S. 
nationals from working at the U.N.
    To overcome this, the United States and United Nations adopted a 
mechanism whereby the U.N. refunds the income taxes paid by U.S. 
employees (as required by U.S. tax code), and the United States 
reimburses the U.N. The intended effect is to equalize the net pay of 
U.N. employees despite differing national tax obligations.
    When the United States pays its assessed contributions to the U.N., 
part of these payments provide funds to reimburse American citizens 
employed at the U.N. for national taxes paid. These funds are deposited 
in the TEF.
    The Department intends to apply all of these available credits to 
assessed contributions in FY 2011 and FY 2012, primarily for 
peacekeeping, and this was reflected in the President's FY 2012 budget 
request.

    Question #60. What is the status of American Gary Helseth who 
allegedly misappropriated funds as part of his duties with the United 
Nations in Afghanistan? According to the U.N. Office for Project 
Services, his case was referred to the State Department to decide if 
any legal action should be taken in regard to the allegations. Did the 
U.N. conduct an investigation into his actions? What is he specifically 
accused of, including the dollar amount of any misappropriated funds? 
Is the United States conducting its own investigation, if not, why not? 
Where exactly is Mr. Helseth?

    Answer. The Procurement Task Force (PTF), established by the U.N. 
Office of Internal Oversight Services (OIOS) to look into allegations 
of fraud and malfeasance in the U.N.'s procurement service following 
the Oil for Food scandal, found that Gary Helseth created fraudulent 
documents in a scheme to embezzle project money in Afghanistan and 
improperly charged personal expenditures to the United Nations Office 
for Project Services (UNOPS) for renovations to his house, hosting 
parties, personal travel, and luxury items. The PTF estimated that 
UNOPS and project donors sustained a combined loss of at least 
$480,000. At the time of the PTF report in December 2008, Mr. Helseth 
no longer worked for the United Nations.
    On May 22, 2009, the U.N. Department of Legal Affairs provided the 
United States Mission to the United Nations (USUN) with a copy of the 
PTF report for official use only and for use by U.S. authorities in 
pursuing their investigation of this matter. Subsequently, the U.S. 
Attorney's Office for the Southern District of New York requested a 
copy of the PTF report and related background documents on June 11, 
2009, which USUN provided. I would refer you to the Department of 
Justice for further information on the status of this case and Mr. 
Helseth's whereabouts.

    Question #61. The U.S. Refugee Admissions and Resettlement Program 
is antiquated and is in need of urgent reform. The National Security 
Council initiated a consultative process with stakeholders to reform 
the resettlement program. As part of this initiative, in December 2009 
the NSC, ORR, PRM, and DHS, announced a number of short-term reforms. 
Long-term reforms were to be announced at the beginning of 2010, but 
this has not yet occurred. It is important that the effort of bringing 
stakeholders together culminates in long-term, structural reforms.

  <bullet> Will the effort led by the NSC with stakeholders to review 
        the resettlement program culminate in structural reforms to the 
        processing of refugees? What kind of reforms do you think this 
        process should prioritize?

    Answer. The Department of State's Bureau of Population, Refugees, 
and Migration (PRM) has been an active member of the NSS-led 
interagency review of the U.S. Refugee Admissions Program. This review 
began in August 2009 and involved a host of key stakeholders as well as 
the Department of State, the Department of Homeland Security, and the 
Department of Health and Human Services. As a consequence of this 
review, PRM has implemented a number of substantive and structural 
improvements to our processing systems. As of October 2009, we began 
providing additional refugee medical information to resettlement 
agencies to improve placement decisions and preparation to meet 
existing refugee medical needs. We also have made every attempt to even 
out the flow of refugee arrivals, achieving about 25 percent of the 
yearly total in each quarter of fiscal year 2010.
    In addition, PRM has worked with the Department of Health and Human 
Services' Office of Refugee Resettlement to enhance the process by 
which refugees are placed in communities throughout the United States. 
This collaborative effort culminated in February 2011 when we launched 
the first quarterly teleconference on placement information between the 
Federal Government, resettlement agencies, local service providers, 
state refugee coordinators, and state health coordinators. During this 
review period, PRM also expanded and strengthened cultural orientation 
sessions provided to refugees overseas, which are crucial to the early 
success of refugees arriving in U.S. communities. Another significant 
structural reform to refugee resettlement was the State Department's 
doubling of the Reception and Placement per capita grant from $900 to 
$1,800 per refugee. This increase became effective January 2010 and has 
expanded housing and other essential support services during the 
initial 30-90 day period for which the State Department is responsible.

    Question #62. What steps are you taking to increase the 
coordination among the various Federal, State and local stakeholders, 
as well as private voluntary agencies, to ensure appropriate planning, 
ongoing review and development of new initiatives to assist refugees 
granted protection in the United States?

    Answer. The Department of State coordinates with Federal, State, 
and local stakeholders, as well as voluntary agencies, on an ongoing 
basis. The Bureau of Population, Refugees, and Migration (PRM) is 
working to strengthen this coordination at all levels. In the past 2 
years, the PRM Assistant Secretary and Deputy Assistant Secretary have 
visited eight local resettlement cities across the United States. The 
PRM Admissions director and staff have also visited numerous local 
resettlement locations. The purpose of this travel is to hear local 
community perspectives and increase collaboration between Federal, 
State, National, and local stakeholders. Through the NSS-led 
resettlement reform process, PRM also has proposed conducting joint 
site visits with the Office of Refugee Resettlement (ORR). These visits 
would allow PRM and ORR to both hear from local communities, as well as 
increase collaboration as Federal partners in resettlement. 
Additionally, PRM holds meetings with National, State, and local 
leaders when particular challenges related to resettlement arise in a 
given community. Such meetings have taken place via conference call as 
well as in person. Finally, in fiscal year (FY) 2011, PRM and ORR began 
holding quarterly placement planning meetings to share information and 
strengthen planning among Federal, National, State, and local 
stakeholders.
    Since January 2010, PRM has begun sharing a greater amount of data 
with more stakeholders to assist in planning. To further strengthen 
planning and increase transparency, PRM plans to make more Reception 
and Placement (R&P) program information available and accessible to the 
public in FY 2012. For a number of years, recipients of R&P funding 
have been required to conduct local consultations as well as consult 
with state refugee coordinators and state refugee health coordinators 
prior to submitting their annual program proposals to PRM. 
Additionally, in the FY 2012 R&P request for proposals, PRM will 
require that applicants provide the results of local consultations, in 
addition to the results of State-level consultation that are already 
required.
    In FY 2011, PRM implemented new performance outcomes for the R&P 
program to better review the program's progress and its impact on 
refugees. This was only one result of a collaborative review of the R&P 
program conducted in FY 2009-FY 2010. Another process that reviewed the 
resettlement program and examined possibilities for new initiatives is 
the NSS-led resettlement reform process. This review will end in May 
2011 and information on what was achieved through this process will be 
available at that time. The Department of State's partner in domestic 
resettlement is the Department of Health and Human Services, through 
their Office of Refugee Resettlement. HHS may be able to inform you of 
how it is reviewing its programs, coordinating among stakeholders, and 
planning and implementing new initiatives to assist refugees resetting 
in the United States.

    Question #63. Oversight carried out by my staff found that local 
elected officials and community leaders are insufficiently consulted by 
Federal decisionmakers, although the responsibility for resettling 
refugees is largely passed on to cities throughout the United States. 
Please describe the nature of your efforts to ensure that the concerns 
and recommendations of local stakeholders have been appropriately 
considered. The one-size-fits-all approach has been signaled as one of 
the characteristics of the program that currently is unable to provide 
adequate support for the populations resettled today. What kind of 
reforms can be made from PRM's role to better respond to diverse needs 
and characteristics of refugees and the local communities in which they 
are placed?

    Answer. The Department of State is committed to coordination among 
stakeholders at all levels regarding the resettlement program. The 
Bureau of Population, Refugees, and Migration (PRM) has a keen 
appreciation for the vital role local communities play in refugee 
resettlement in the United States. With this in mind, PRM Front Office 
and Admissions staff have conducted numerous domestic site visits to 
hear directly from local communities about the resettlement program. 
PRM intends to continue making such visits. For a number of years, 
recipients of R&P funding have been required to conduct local 
consultations as well as consult with State refugee coordinators and 
State refugee health coordinators prior to submitting their annual 
program proposals to PRM. Additionally, in the FY 2012 R&P request for 
proposals, PRM will require that applicants provide the results of 
local consultations, in addition to the results of State-level 
consultation that are already required.
    The Department of State does not believe the R&P program is a one-
size-fits-all program. In January 2010, PRM doubled the per capita 
grant for direct services to refugees. In doing so, PRM included a 
funding mechanism that allowed refugees to receive different levels of 
resources based on their needs. Of the $1,800 per capita, $1,100 must 
be spent directly on refugees. While affiliates must spend at least 
$900 on each refugee, they may choose to allocate up to $200 of the 
$1,100 on other more vulnerable refugees. PRM permits each affiliate to 
develop their own policy to define vulnerability and determine the use 
of this discretionary portion of the per capita grant. This flexibility 
allows affiliates to better address the individual needs of each 
refugee resettled. Furthermore, the R&P program is a public-private 
partnership. As such, Federal funding is only intended to provide a 
portion of the resources needed to serve the refugee. Each national 
voluntary agency and its affiliates raise private resources, both cash 
and in-kind, to further address the individual needs of each refugee.
    Finally, each community is unique, and has different strengths and 
weaknesses. Recognizing this, each national voluntary agency and its 
affiliates work to determine the most appropriate placement for each 
refugee, so that that location best matches the individualized needs of 
that refugee and his or her family. ORR's programs and discretionary 
funding allow them to create programs to address the diverse needs of 
refugees and the communities in which they resettle. You may contact 
ORR directly to learn how it addresses these needs and others.
    The Department of State believes that, in order to best prepare for 
and serve refugees resettling to the United States, their individual 
and diverse needs must be recognized, understood, and met, and the 
voice and needs of local communities must be heard and acknowledged.

    Question #64. In FY10 PRM helped to resettle 73,311 refugees in the 
United States. How might potential funding cuts impact the Refugee 
Admissions Program?

    Answer. In FY 2008, the United States admitted approximately 60,000 
refugees through the Refugee Admissions Program, while in FY 2010 more 
than 73,000 refugees were admitted. We had anticipated maintaining 
current levels of admissions in FY 2011 plus funding initial 
resettlement benefits for 2,500 to 5,000 Iraqi Special Immigrant Visa 
recipients. If funds in the MRA account were cut to FY 2008 levels, the 
administration would have to evaluate its ability to maintain current 
levels of admissions.

    Question #65. NSPD-12 was created in response to the analysis that 
U.S. personnel overseas were at risk for being taken hostage or 
otherwise isolated. Given the successes of the personnel recovery 
programs in Colombia, Peru, Ecuador, and Bolivia and in light of the 
increased threat to Foreign Service personnel and other U.S. Government 
personnel in Mexico, Africa, the Middle East, and elsewhere, what plans 
does the State Department have to establish personnel recovery centers 
in other countries in which State Department and other U.S. Government 
personnel may be at risk, as well as making sure those personnel 
deploying overseas are sufficiently trained to avoid, manage, and 
respond to hostage or other isolating situations? How will the State 
Department use funds requested for FY 2012 to implement NSPD-12? Will 
the State Department require any additional resources for NSPD-12 
implementation?

    Answer. The threat of kidnapping presents a danger not only to our 
citizens conducting business abroad, but to the stability of some 
developing societies struggling to combat organized crime and 
terrorism. NSPD-12 was drafted in 2002 as broad policy guidance for 
management of hostage incidents involving American citizens. In 2008, 
Annex 1 to NSPD-12 introduced ``personnel recovery'' as a broad 
concept, calling on U.S. agencies to develop and coordinate efforts to 
prevent, prepare for, and respond to cases of Americans taken hostage 
or isolated abroad. The Department's Bureaus of Consular Affairs and 
Diplomatic Security and the Office of the Coordinator for Counter-
Terrorism work collectively to implement Annex 1 policy through efforts 
ranging from consular travel warnings and Overseas Security Advisory 
Council (OSAC) corporate security outreach, to specialized training for 
at-risk U.S. employees and personnel recovery incident managers.
    Rescue and recovery coordination has also been improved in high-
risk areas, notably in Mexico, where the interagency country team has 
strengthened internal personnel accountability and recovery plans that 
include improved countrywide protocols to engage the host-country 
rescue architecture. In March 2011, the U.S Air Force Rescue 
Coordination Center carried out a broad civil search and rescue 
training exercise with their Mexican counterparts, representing a 
promising level of practical bilateral cooperation.
    The establishment and funding of full-time overseas interagency 
personnel recovery coordinators at critical-threat posts is under 
review and would likely involve unbudgeted resources. Plans to maintain 
and, if necessary, expand training and field coordination initiatives 
will also require additional resources.

    Question #66. The Quadrennial Diplomacy and Development Review has 
set a goal of ``ensuring that all State Department employees serving in 
locations where personal digital assistants can be used are provided 
with this technology by FY 2012.'' Is the State Department considering 
integrating tracking and other emergency communication software and 
technology into these mobile devices as part of a coordinated PR 
effort? Will non-State Department employees serving overseas have 
access to these mobile devices? For example, Peace Corps volunteers are 
not under Chief of Mission authority, but are at equal or greater risk 
of isolation or kidnapping than Foreign Service officers. Does the 
State Department have any plans to incorporate the Peace Corps into its 
implementation of NSPD-12?

    Answer. The Department of State is working with the Department of 
Defense, a variety of interagency partners, and the private sector to 
research and develop cost-effective personnel tracking and locating 
systems. These systems include custom satellite-communication-based 
systems and applications for commercial ``location aware'' 
``smartphones.'' This technology could seamlessly augment American 
Citizen Services warden systems that already make great use of mobile 
SMS text networks and would tap the capabilities that already exist in 
many of our employees' cell phones and BlackBerries. However, our 
experience shows that in many overseas locales, the cellular and SMS 
infrastructure is inadequate or unreliable. Additionally, recent events 
throughout the world reinforce that in many emergency situations, 
cellular systems are either overwhelmed or, in the case of civil 
unrest, turned off by the host government. Each location must be 
evaluated on the basis of threat, infrastructure, and other factors as 
well as the most effective solution utilized; this may in fact be a 
hybrid approach using multiple technologies in a single country.
    The national policy directives promulgated in NSPD-12 are 
especially relevant to Peace Corps volunteers serving our Nation in 
hazardous environments overseas. The Peace Corps independently manages 
a robust overseas safety and security program that is broadly supported 
by the Chief of Mission's security and emergency action planning in 
coordination with the Peace Corps Country Director.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions
                   Submitted by Senator Barbara Boxer

    The State Department is currently evaluating the Keystone XL 
pipeline project to determine whether to issue a Presidential Permit 
for the project. The following questions address the State Department's 
consideration of this project.

    Question. In the evaluation of the Keystone XL project, will the 
State Department assess how increasing U.S. imports of crude oil 
derived from Canadian tar sands will increase the carbon intensity of 
the U.S. fuel supply and affect the United States ability to meet 
pollution reductions goals?

    Answer. In response to the many comments received on the carbon 
intensity of crude oil from the Western Canadian Sedimentary Basin 
(WCSB), also known as oil sands or tar sands, the State Department 
commissioned a report that examined recent literature comparing the 
carbon intensity of WCSB crude oil with other reference crudes. As part 
of a supplemental draft Environmental Impact Statement (EIS), the State 
Department is releasing this report in mid-April to seek input on how 
this information should be used in evaluating the potential 
environmental impact of the Keystone XL pipeline.

    Question. Will the State Department include a comprehensive 
assessment of the carbon pollution and criteria pollutant emissions 
impacts associated with increasing our reliance on tar sands oil, 
including impacts on the health of communities surrounding refineries 
serviced by the pipeline?

    Answer. The State Department is including an assessment of the 
lifecycle greenhouse gas emissions associated with crude oil from the 
WCSB in a forthcoming supplemental draft EIS. The supplemental draft 
EIS will also provide information on the similarities and differences 
between WCSB derived crude oil and conventional heavy crude oils 
refined in the United States, as well as an analysis of the impact the 
Keystone XL pipeline could have on the emissions of refineries that may 
receive crude oil transported by the pipeline.

    Question. Will the State Department assess a broader array of 
alternatives as suggested by the Environmental Protection Agency (EPA), 
including alternative routes that avoid sensitive areas along the 
proposed route?

    Answer. The forthcoming Supplemental Draft Environmental Impact 
Statement will include an assessment of additional potential route 
alternatives, as well as additional analysis regarding many of the 
alternatives examined in the draft EIS.

    Question. Will the State Department respond to the array of issues 
raised by the EPA and issue a revised draft EIS or supplemental EIS for 
additional comment, as recommended by EPA?

    Answer. The State Department has been working with the EPA and 
other cooperating agencies to make revisions to the draft EIS, 
following the public comment period that ended in July 2010. The State 
Department is releasing a supplemental draft EIS in mid-April. The 
supplemental draft EIS addresses many of the issues raised by EPA, 
including an analysis of lifecycle greenhouse gas emissions, pipeline 
safety, and environmental justice issues. The public will have 45 days 
to comment on the Supplemental Draft EIS after a Federal Register 
notice is published.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                  Submitted by Senator Robert Menendez

                      hispanic diversity at state
    Question. Madame Secretary, as you know for many years I have 
urged, advocated, and legislated on behalf of enhancing Hispanic 
diversity at the Department within the civil service and Foreign 
Service. Despite my efforts and the commitment of successive 
Secretaries of State, today, Hispanics make up just 5 percent of all 
State Department employees and just 3.9 percent of Foreign Service 
officers. The average amongst federal agencies is 8 percent. State's 
numbers are disappointing.
    What is even more disappointing--and which seem to demonstrate the 
Department's continued indifference to this issue--is that the State 
Department failed to even provide data for 2009 to OPM for its annual 
report to the President on Hispanic Employment in the Federal 
Government. It was the ONLY federal agency to not respond.
    Late last year, I chaired the nomination hearing for Deputy 
Secretary Tom Nides and I asked him about the Department's dismal 
record on this issue. In his oral and written response he agreed that 
this was a priority area for the Department, that there is more that 
can be done, and that Department would find innovative ways to improve 
minority recruitment and retention.

  <bullet> What specifically are you doing to address this issue [of 
        increasing the number of Hispanic employees at the Department 
        of State]? Are you attempting to limit ``in status'' postings 
        for civil service jobs? Are you working to increase the number 
        of Hispanic Presidential Management Fellows or Hispanic 
        students participating in cooperative education programs? What 
        is the Department doing on this issue? Will the Department 
        comply with OPM's request for 2010 data for their annual report 
        to the President on diversity?

    Answer. The Department of State's continuing recruitment goal is to 
identify, inspire, and employ qualified Americans from diverse 
backgrounds, representing the demographics of the Nation's professional 
workforce, to effectively carry out our foreign policy.
    Hispanics make up 5 percent of State Department Civil Service 
employees, 3.9 percent of Foreign Service officers, and 6.1 percent of 
Foreign Service specialists. The number of self-identified Hispanics 
who took the Foreign Service Officer Test during FY10 was 2,219, up 
from 1,465 in FY09 or 10 percent of the total (approximately a 50 
percent increase). In 2010 the Department hired 36 Hispanic Foreign 
Service specialists, or 7.4 percent of all new specialist hires, and 32 
out of 826 Foreign Service generalists, or 3.9 percent.
Department of State's Large-Scale Recruitment Efforts
    We recognize there is still much work to be done to ensure the 
Department reflects the rich diversity of our Nation. Several of our 
efforts are often cited as ``best practices'' and are successful in 
attracting outstanding diverse talent to pursue Department careers. We 
use a combination of ``high tech'' and ``high touch'' tactics to 
identify and encourage the diverse talent we seek.
    Sixteen senior Foreign Service officers, also known as Diplomats in 
Residence, are based at targeted campuses around the United States. 
Each Diplomat in Residence has regional responsibilities, collectively 
visiting hundreds of colleges and universities and meeting with 
professionals seeking to change careers. On campus, Diplomats in 
Residence work in partnership with career counselors, diversity 
coordinators, and directly with students to identify talented, diverse 
career candidates. The Diplomats in Residence work in partnership with 
Washington, DC-based recruiters to identify and contact potential 
candidates for all Department careers through Web-based resources and 
strategic partnerships with like-minded educational and professional 
organizations serving diverse populations, including Hispanics.
    In FY 2010, the Department spent $40,000 on advertising in Hispanic 
print and electronic media. Marketing studies demonstrate that minority 
professionals use social media at higher rates than nonminority 
professionals. Our public outreach is integrated with a comprehensive 
marketing and recruiting program that includes leveraging new media and 
networking technologies (Facebook, Linked-In, Twitter, YouTube), direct 
sourcing, e-mail marketing, and online and limited print advertising 
with career and niche-specific sites and publications (Hispanic 
Business, NSHMBA, LatPro, Saludos, LATINAStyle). In addition, the 
Department spent over $250,000 on general diversity media and 
Department-specific diversity networking events.
    The Department's Recruitment Outreach Office developed and hosted 
Diversity Career Networking Events as a tool to target diverse 
professionals for Department of State careers, specifically 
highlighting deficit Foreign Service career tracks. In FY 2010, events 
were hosted in Los Angeles; Denver; Santa Fe, Albuquerque, and Las 
Cruces, NM; Miami; New York and Washington, DC, reaching over 1,000 
candidates including African-Americans, Asian-Americans, Hispanics, 
Native-Americans, women, and critical language speakers.
    In addition, over 900 Department employees have volunteered to 
support our strategic outreach, highlighting the diversity of our 
existing workforce and leveraging existing networks of internal 
affinity groups like the Hispanic Employment Council in Foreign Affairs 
Agencies (HECFAA).
``In status'' Postings for Civil Service Jobs
    All Department of State vacancy announcements are advertised 
according to merit procedures. Under those procedures managers have the 
option of determining the area of consideration. This area of 
consideration ``Status Only'' versus ``Open to Public'' is determined 
by how widely the manager feels he/she needs to recruit in order to 
obtain a reasonable pool of well-qualified candidates. Approximately 
half of our vacancy announcements are advertised ``Open to the Public'' 
which provides many opportunities for applicants outside of the Federal 
workforce to apply for positions at the Department of State. The 
Department continues to urge managers to be as inclusive as possible 
and to support diversity in the workplace when making selections for 
positions.
Cooperative Education Programs
    The Department strives to achieve diversity throughout its 
workforce through various career-entry programs, including the 
Presidential Management Fellowship. All qualified applicants referred 
to the Department by the Office of Personnel Management are given full 
consideration. The Office of Recruitment conducts regular outreach to 
institutions that serve Hispanics in order to increase the pool of 
applicants from the Hispanic community and promote awareness of entry-
level employment opportunities.
    Our outreach to college students plants the seeds of interest in 
global public service and promotes a long-term interest in our 
internships, fellowships, and careers. In FY 2009 Congress funded an 
additional 100 paid internships for recruitment purposes. In 2009 and 
2010, with the support of the Director General, our Diplomats in 
Residence identified outstanding, diverse candidates for those 
internships, providing them the chance to experience work in 
Washington, DC, and embassies and consulates around the world.
    Twenty three percent of these 100 paid interns were Hispanic. 
Through this program one Hispanic employee, a first generation 
American, had the opportunity to experience diplomacy in action working 
in our Embassy in Guatemala last summer. Another Hispanic employee, a 
Gates Millennium Scholar and recipient of a paid internship, had the 
opportunity to represent the United States at our mission to the 
Organization of American States. Both of these outstanding students are 
still working at the Department in student positions even after their 
internships ended.
    Two particularly successful student programs are the Thomas R. 
Pickering Foreign Affairs Undergraduate and Graduate Fellowships and 
the Charles B. Rangel International Affairs Fellowship. These ROTC-like 
programs provide financing for graduate school and paid professional 
experience in Washington and at our embassies to highly qualified and 
mostly minority students, in exchange for their commitment to the 
Foreign Service. Diplomats in Residence help recruit candidates for 
these Fellowships, which have been essential to increasing the presence 
of underrepresented groups in the Foreign Service. In FY 2010, 17 out 
of 120 (14.17 percent) Pickering Fellows and 7 out of 40 (17.5 percent) 
Rangel Fellows were Hispanic.
Compliance with OPM's Request for 2010 Data for Annual Report to the 
        President on Diversity
    The Department of State has been working closely with the Office of 
Personnel Management (OPM) to ensure that it is compliant with the 
diversity data reporting requirements. In 2009, we experienced 
complications with our submission (Attachment A). This was partially 
due to a change of formatting requirements, and partially due to the 
complexity of reporting data about our different workforces, the Civil 
Service and the Foreign Service.
    Unfortunately, by the time these issues were resolved, the 
publication deadline had passed. These issues have since been addressed 
with OPM and the Department has submitted its information for the 2010 
diversity report (Attachment B).
    [Attachment A follows:]
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    

[Editor's note.-- Attachment B was too voluminous to be included in the 
printed hearing. It will be retained in the permanent record of the 
committee.]
                      latin america aid/narcotics
    Question. I am pleased that President Obama is shining a light on 
Latin America by traveling to the region later this month, but from my 
perspective the Western Hemisphere continues to be more of an 
afterthought than a policy priority, even while the scale of drug-
related violence in Mexico and Central America is climbing at an 
immense rate--last year, Mexico had more than 15,000 homicides related 
to the drug trade and has had more than 35,000 homicides since 2007. We 
saw recently how such violence could tragically affect our own ICE 
agents. Despite these numbers, this year's budget decreases funding for 
counternarcotics efforts in the region by 7 percent.
    Additionally, based on the information made available so far, the 
foreign assistance request for Latin America will be approximately $1.9 
billion, which is 8 percent less than the FY11 request; 1 percent less 
than the FY10 appropriation; and 8 percent less than the FY09 
appropriation. In the last decade, compared to other regions, aid to 
Latin America has dropped from 14 percent of the foreign assistance 
budget to just 10 percent of budget.

  <bullet> Is Latin America a priority for the Department and do you 
        continue to believe, as you stated during your January visit to 
        Mexico, that ``there's a plan'' to address the scourge of 
        narcotics threatening stability in the region? Does the 
        increasing violence suggest that we need to reassess the plan?

    Answer. The United States-Latin America relationship is given high 
priority by the Obama administration, exemplified by the President's 
successful trip to Brazil, Chile, and El Salvador even as crises 
elsewhere in the world unfolded. It built on the pledge President Obama 
made at the Summit of the Americas early in his Presidency to work as 
``equal partners'' in a ``new chapter of engagement'' based on ``mutual 
respect and common interests and shared values.'' He highlighted areas 
of engagement on overarching issues critical to people in every 
society, such as promoting social and economic opportunity for 
everyone; securing a clean energy future; ensuring the safety and 
security of all of our citizens; and building effective institutions of 
democratic governance.
    Our plan for addressing counternarcotics and violence in the 
hemisphere is based on the National Drug Control Strategy and our 
vision for implementing that strategy--a vision that addresses all 
forms of crime and public insecurity. Toward this end, the President 
has recommitted the United States to creating practical partnerships in 
the hemisphere to advance shared interests and protect our citizens. 
This cooperative approach is grounded in the recognition of a shared 
responsibility for addressing the challenges we face together; the 
critical importance of political will, the rule of law, and effective 
institutions of governance. We are moving in the direction of a 
broader, more integrated view of security; one that advances citizen 
safety while simultaneously countering emerging transnational threats 
and narcotics trafficking. This approach emphasizes greater reliance on 
the will, capacity, and cooperation of regional partners such as Mexico 
and Colombia. Our principal mechanisms for implementing this strategic 
vision are the Merida, Central American Regional Security (CARSI), 
Colombian Strategic Development (CSDI), and Caribbean Basin Security 
Initiatives (CBSI). They are partnerships, in which governments 
collaborate on programs and initiatives that have been developed and 
agreed to jointly and that are aimed at protecting citizens and 
strengthening the institutions responsible for ensuring citizen safety.
                               al-megrahi
    Question. On December 21, 1998, Pam Am flight 103 exploded over 
Lockerbie, Scotland, killing 270 people on board, including 189 
American citizens. Twelve years later Abdelbaset Ali Mohmed al-Megrahi 
was convicted of conspiracy for planning the bomb that brought down the 
plane.
    I congratulate you for your statement yesterday that the United 
States is considering seeking the prosecution of Libyan leader Moammar 
Qadhafi for the 1988 Lockerbie bombing following reports by the ex-
Justice Minister of Libya that Qadhafi personally ordered the attack.

  <bullet> What steps has the United States taken to verify this 
        information and when can we expect a decision on whether the 
        United States will seek to prosecute Qadhafi for this heinous 
        crime?
  <bullet> Additionally, given the false pretenses under which 
        convicted Lockerbie bomber, al-Megrahi, was released from 
        Scottish prison, is the United States considering requesting of 
        any new Libyan Government his extradition to the United States 
        to serve the remainder of his sentence?
  <bullet> Do we know where Megrahi is now?

    Answer. We have met with family members of the victims and 
understand their anguish over this heinous act of terrorism. We shared 
their outrage at the release of Megrahi to Libya. We are also committed 
to seeing that justice is served. We have seen the recent public 
statements from a former Libyan official concerning Qadhafi's 
responsibility for the bombing. The investigation into the Pan Am 103 
bombing remains open and we are committed to assisting law enforcement 
efforts in obtaining and evaluating any new information relating to it. 
We are coordinating closely with the Department of Justice on this 
sensitive law enforcement matter and are committed to assisting with 
any appropriate approaches to relevant Libyan officials. As this is an 
ongoing investigative matter, please refer to the Department of Justice 
for any further details.
    Additional information in response to this question will be made 
available in a classified response.
                                 cyprus
    Question. Since 1993, Congress has appropriated ESF funds to Cyprus 
for reunification, but with the restriction that the funds ``be used 
only for scholarships, administrative support of the scholarship 
program, bicommunal projects, and measures aimed at reunification of 
the island and designed to reduce tensions and promote peace and 
cooperation between the two communities on Cyprus.''
    The ongoing division of Cyprus presents a unique situation that 
warrants a level of scrutiny concerning the provision of United States 
assistance that goes beyond that which is required for other countries. 
Indeed, in recent years, Congress has demanded transparency related to 
the use of these funds to ensure that they are being used for bizonal, 
bicommunal programs.

  <bullet> With respect to the FY12 funds for Cyprus, will you work to 
        ensure that the funds are used in a manner consistent with 
        these congressional restrictions and allocated transparently 
        after engaging in consultation with the Government of the 
        Republic of Cyprus?

    Answer. Every activity implemented with U.S. funding in Cyprus is 
designed to help Greek Cypriots and Turkish Cypriots chart a path to 
peace and reunification in line with the congressional mandate.
    The United States is committed to consultation and transparency 
with the Government of the Republic of Cyprus (``ROC'') on our foreign 
assistance program. We have and will continue to be transparent and 
sensitive to recognition, property concerns, and other issues raised by 
the ROC. Likewise, we will continue to consult with and be sensitive to 
the concerns of the Turkish Cypriot community.
    That said, for the U.S. foreign assistance program to be effective, 
neither side can be allowed to make funding decisions reserved for the 
U.S. Government. Indeed, it would contravene recentcCongressional 
report language preventing organizations implementing U.S. assistance 
to be subject to approval by the government of any foreign country.\1\
---------------------------------------------------------------------------
    \1\ FY 2009 Appropriations Act, House Report--Joint Explanatory 
Statement reference to Section 7034(k) regarding nongovernmental 
organizations.
---------------------------------------------------------------------------
                                  iran
    Question. With the drama of events in Egypt and overall unrest in 
the Middle East, I am concerned that the world's attention will be 
diverted from the dangers of Iran's nuclear program. I am worried that 
Iran will use this time to speed up its nuclear program and crack down 
on the opposition and human rights activists. I am also very concerned 
about the lack of sanctions on companies continuing to invest in Iran's 
energy sector in violation of U.S. law. The State Department has failed 
to sanction even one non-Iranian foreign company for its investments in 
Iran's energy sector. Under legislation signed by President Obama last 
July, the law now requires the State Department to complete 
investigations within 180 days after receiving credible information of 
a violation.
    The administration has yet to sanction a non-Iranian bank, despite 
the reports that several Turkish, South Korean, Ukrainian, and Chinese 
banks continue to deal with Iranian financial institutions in violation 
of CISADA.

  <bullet> When do you plan to sanction one of these banks? Will you 
        consider sanctioning Iran's central bank?

    I wanted to ask you about the idea of allowing Iran to maintain a 
civilian uranium enrichment program.

  <bullet> Taking into account the regime's history of deceptive 
        tactics, how can the current government can be trusted with a 
        domestic enrichment program?

    I find it hard to believe that the State Department has received no 
credible information on companies violating U.S. law.

  <bullet> How many investigations are currently open, and when will 
        the 180-day clock be reached? Will the State Department issue 
        sanctions or waivers at that time?

    During previous testimony, State Department officials have verified 
that there are several cases of confirmed violations of the Iran 
Sanctions Act. Last June, Under Secretary of State William Burns 
testified to the Senate Foreign Relations Committee that at least a 
couple of the violations appear to be ongoing.

  <bullet> What is the status of the investigations into these 
        violations? It appears that their 180-day clock has long 
        expired.

    Answer. We share Congress' sense of urgency regarding Iran's 
nuclear program and work on a global scale to secure the broadest 
enforcement of sanctions against it. Iran's nuclear program is one of 
our greatest global concerns and a top priority for the administration. 
We remain committed to achieving a diplomatic resolution, but Iran has 
not shown that it will negotiate seriously with the P5+1. After Iran's 
disappointing stance in Istanbul last January, we are working to 
increase pressure on Iran by enhancing implementation of existing 
sanctions and devising new measures.
    CISADA is a valuable tool in our efforts to influence Iran's 
decisionmaking and we are working vigorously to enforce it. The success 
of these efforts can be seen in the growing trend of international 
companies choosing to pull out of Iran, Using the ``special rule'' in 
CISADA, we negotiated the withdrawal of five major international energy 
companies--Total of France, Statoil of Norway, ENI of Italy, Royal 
Dutch Shell of the Netherlands, and INPEX of Japan--out of Iran. This 
administration was the first to impose sanctions under the Iran 
Sanctions Act by imposing sanctions on the Naftiran Intertrade Company 
(NICO), the Switzerland-based company that is responsible for securing 
most of Iran's foreign investment and securing supplies of refined 
petroleum. As the result of this action, NICO has had difficulties 
maintaining the critical foreign relationships it needs to carry out 
these functions. Recently, we have also sanctioned Belarusneft, a 
Belarusian energy company, for investing in Iran. Sanctioning 
Belarusneft will increase pressure on Iran and further hamper their oil 
and gas production.
    We are working vigorously to enforce the act. These efforts have 
been successful as we have seen a growing trend of international 
companies choosing to leave Iran. As part of those efforts, we work 
very closely with the Department of Treasury. President Obama has 
delegated the authority to the Department of Treasury, in consultation 
with the State Department, to enforce the sanctions with respect to 
financial institutions in CISADA. We respectfully refer you to the 
Treasury Department for further details.
    We continue to work in conjunction with the Treasury Department to 
identify foreign companies that may be involved in sanctionable 
activities. We are also conducting a global outreach effort to explain 
the details of our sanctions legislation to foreign governments and 
commercial interests and warn them about the legal, proliferation and 
reputational risks of doing business with Iran as Iran seeks to replace 
lost business.
    Iran has failed to address the international community's concerns 
about its illicit nuclear activities. The February 2011 report by the 
IAEA's Director General confirmed that Iran is not compliant with its 
international obligations. Iran must fulfill its obligations to the 
United Nations Security Council, the IAEA and as a signatory to the 
NPT. As we have stated before, Iran has the right to a peaceful nuclear 
program, but only when it is in full compliance with its international 
obligations and in cooperation with IAEA transparency and safeguards 
requirements.
                                armenia
    Question. The American Association for the Advancement of Science 
(AAAS) recently documented the demolition of an ancient Armenian 
cemetery in Azerbaijan with satellite images. The desecration, which 
was caught on videotape, was also condemned by the European Parliament 
through a resolution. The cochairs of the Minsk Group pledged to assess 
the destruction back in October 2010, but still have not visited the 
site.

  <bullet> What are you doing to ensure this assessment and when should 
        we expect the visit and report?

    Answer. As a cochair of the OSCE Minsk Group, the United States 
remains closely engaged in seeking a peaceful settlement of the 
Nagorno-Karabakh conflict. The Minsk Group cochairmen have affirmed 
that they believe it is in their mandate as mediators to visit any area 
affected by the Nagorno-Karabakh conflict. In that context, the 
cochairs will continue to make such visits, but no dates have been set 
at this time for future trips.

    Question. The administration has said, since early last year, that 
it wants Turkey and Armenia to establish ties ``without preconditions 
and within a reasonable timeframe.'' The Bush administration also 
supported ending Turkey's blockade of Armenia without any 
preconditions. Can you define for us what the administration means by 
``preconditions,'' and also what the administration believes 
constitutes a ``reasonable time-frame?'' At his confirmation hearing in 
March 2009, Assistant Secretary of State Gordon indicated that he hoped 
that the Armenia-Turkey border would be reopening by October 2009.

    Answer. The administration supports the work done by both Armenia 
and Turkey to normalize relations. We continue to urge both sides to 
keep the door open to reconciliation and normalization, and we believe 
that the normalization process carries important benefits for Turkey 
and Armenia as well as for the wider Caucasus region. Ultimately, this 
is a decision for Armenia and Turkey.
    The border between Turkey and Armenia has been closed for 17 years; 
the current normalization process has been going on for only a fraction 
of that time. We applaud the Armenians for their commitment to 
normalize relations with Turkey. I have said that the ball is in 
Turkey's court, and I have encouraged Turkey to move forward.
                     uganda/lord's resistance army
    Question. The rebel Lord's Resistance Army (LRA) continues to 
destabilize a vast section of central Africa, where its brutal attacks 
have displaced over 400,000 people and resulted in the abduction of 
more than 850 children since September 2008. On November 24 of last 
year, the administration released to Congress it's ``Strategy to 
Support the Disarmament of the Lord's Resistance Army,'' as mandated by 
the bipartisan Lord's Resistance Army Disarmament and Northern Uganda 
Recovery Act passed by Congress in May 2010.

  <bullet> What programs and activities will the State Department 
        support to implement the four components of the LRA strategy, 
        and how are support for these programs and activities reflected 
        in the FY12 budget request?

    Answer. The Department of State is working with the Department of 
Defense to provide enhanced integrated logistical, operational, and 
intelligence assistance in support of regional and multilateral 
partners in an effort to apprehend or remove from the battlefield 
Joseph Kony and senior commanders. In addition, the Department of State 
continues to fund logistical and operational assistance through the 
Peacekeeping Operations (PKO) account. Since the launch of Operation 
Lightning Thunder (OLT) in 2008, we have obligated $29.1 million in PKO 
resources to provide nonlethal equipment, logistics support, and 
supplies to the Uganda People's Defense Force (UPDF) in support of its 
effort to defeat the LRA. State has programmed PKO funds for counter-
LRA efforts from a variety of sources, including the Africa Conflict 
Stabilization and Border Security (ACSBS) program and funds 
reprogrammed from the Democratic Republic of the Congo (DRC). Of the 
$29.1 million already committed, $6 million of FY 2011 PKO funds were 
obligated to support the efforts through April 2011 of Uganda and the 
Central African Republic (CAR) to defeat the LRA. Additional PKO 
resources will need to be obligated to support counter-LRA operations 
after April 2011. Our FY 2012 request includes $7.15 million in PKO 
funds as part of the ACSBS program, a portion of which would be used to 
support counter-LRA efforts, as needed.
    To promote the defection, disarmament, demobilization, and 
reintegration (DDR) of remaining LRA fighters, the Department of State 
is working with the World Bank's Transitional Demobilization and 
Reintegration Program, the United Nations Organization Stabilization 
Mission in the Democratic Republic of the Congo (MONUSCO), regional 
militaries, and humanitarian organizations to ensure appropriate 
facilities and procedures are in place to receive defectors and 
transport them to desired home locations. In Uganda, USAID continues to 
support the provision of reintegration assistance to demobilized LRA 
members and receiving communities. Our FY 2012 request also includes 
$4.4 million for conflict mitigation and reconciliation activities in 
Uganda, much of which will focus on northern Uganda.
    To increase the protection of civilians, the Department of State 
and USAID are installing high-frequency radio networks in the DRC, 
expanding communication networks in the CAR, and supporting U.N. 
peacekeeping missions and humanitarian agencies in LRA-affected areas. 
In FY 2010, the United States provided $387.7 million in assessed 
contributions for MONUSCO's overall budget, a portion of which 
supported LRA-affected populations. Our FY 2012 request for 
Contributions for International Peacekeeping Activities (CIPA) includes 
$408 million in assessed contributions for MONUSCO and $298 million in 
assessed contributions for the U.N. Mission in Sudan (UNMIS), a portion 
of which will continue to support these peacekeeping operations' 
activities in LRA-affected areas.
    To increase humanitarian access and provide continued relief to 
affected communities, USAID and the Department of State's Bureau of 
Population, Refugees, and Migration (PRM) are working with humanitarian 
agencies to promote increased access and infrastructure for the 
delivery of humanitarian services; provide recovery, transition, and 
livelihood support for LRA-affected populations; and provide minimum 
standards of life-saving support to LRA-affected populations. The FY 
2012 budget includes support for humanitarian operations in DRC, CAR, 
and Southern Sudan within the Migration and Refugee Assistance (MRA) 
and the International Disaster Assistance (IDA) accounts. PRM and USAID 
will continue to monitor the humanitarian needs of LRA-affected 
communities in DRC, CAR, and Southern Sudan and will continue to 
promote civilian protection and deliver humanitarian assistance 
throughout the region.
                      climate change/clean energy
    Question. How does America benefit from investments in a wide range 
of developing countries to combat the causes and impacts of a changing 
climate, including by bolstering preparedness for extreme weather, 
promoting clean energy solutions, and reducing deforestation? How would 
the cuts to these programs proposed by the House, if implemented, 
affect our country's national security, job and business opportunities, 
and budgetary costs due to increased disaster aid, as well as our 
standing in the world and efforts to get global reductions in carbon 
pollution?
    Do the cuts to the Clean Technology Fund impact the U.S.'s ability 
to maintain access to markets to export green technology?
    How would cuts to international climate funding impact our 
diplomatic relations with emerging economies--such as Brazil, South 
Africa, India and China--that are central to our global diplomacy, 
including our efforts involving climate change? Will this affect our 
ability to get them to take action to reduce emissions or undertake 
other policies we would like to see? Which regions might you anticipate 
a need for funding that is not in the current budget request?

    Answer. Global climate change has serious implications for U.S. 
national security interests. According to the 2008 National 
Intelligence Assessment on climate change, it will exacerbate tensions 
related to poverty, social conditions, environmental degradation, and 
weak political institutions.
    It would be irresponsible for the United States to fail to work to 
reduce these impacts.
    The administration's investments in international climate programs:

  <bullet> Help ensure that all major economies--including major 
        emerging economies--reduce emissions.
  <bullet> Conserve forests, foster sustainable land management, and 
        combat illegal logging around the world.
  <bullet> Build resilience in developing countries to reduce the risk 
        of damage, loss of life, and instability that can result from 
        extreme weather and climate events. (The World Bank and U.S. 
        Geological Survey estimate that every dollar spent on disaster 
        preparedness saves seven dollars in disaster response.)
  <bullet> Help put developing countries on a clean energy path, 
        increasing trade and investment opportunities for U.S. 
        businesses and improving air quality and human health around 
        the world.
  <bullet> Help the United States meet its international commitments, 
        putting us in a better position to ensure that other countries 
        meet theirs.

    America's clean energy industry is well positioned to provide the 
innovative technology and services needed to meet rapidly growing 
demand in developing countries. U.S. support for the Clean Technology 
Fund mobilizes these kinds of investments, and helps create the 
functioning, fair, and competitive markets in which American businesses 
thrive.
    The cuts to international climate programs proposed by the House, 
if implemented, would have adverse implications for our national 
security interests, and decrease job and business opportunities in 
America. Such cuts would reduce our standing in the world and 
compromise our efforts to get global reductions in greenhouse gas 
pollution, including by reducing our leverage to ensure that major 
economies such as Brazil, South Africa, India, and China take action. 
These cuts would erode our ability to work with poor countries to 
decrease their vulnerability to climate disasters and damage, 
increasing the likelihood of U.S. expenditures on disaster aid. And 
these cuts would erode our ability to build and maintain opportunities 
for U.S. clean energy exports in big emerging markets.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions
                  Submitted by Senator James E. Risch

    Question. Recently the State Department completed the first 
Quadrennial Development and Diplomacy review (QDDR), which as you noted 
is based on the Quadrennial Defense Review (QDR) that the Defense 
Department performs.
    I applaud the efforts of the Department to develop this important 
document, but as you know DOD produces a number of documents and the 
QDR is used to help inform the drafting of the Future Years Defense 
Plan (FYDP).

  <bullet> With the QDDR finished, can we expect the State Department 
        to draft a similar long-term strategic budget and other 
        planning and programming documents?

    Answer. The Department is in the early phases of implementation of 
the Quadrennial Diplomacy and Development Review (QDDR). The decisions 
and guidance contained in the QDDR have already and will continue to 
inform the range of planning and programming processes normally 
undertaken by the Department, including the 2013 Mission and Bureau 
Strategic Planning, resource requirements and out-year estimates that 
are used to inform those documents . Additional planning and 
programming processes and documents will be produced as appropriate and 
as indicated in the QDDR, including Integrated Country Strategies and 
Regional and Functional Strategies.

    Question. According to the White House Fact Sheet on the State 
Department's FY12 budget, this request ``Makes strategic investments of 
$1.4 billion to address the root causes of hunger and poverty and lift 
a significant number of people out of poverty and reduce malnutrition 
for millions of children under 5 years old by 2015.''
    Can you please clarify your metrics and goals more and define what 
a ``significant number of people'' means? How many have been lifted out 
of poverty so far according to State's statistics?

    Answer. The FY 2012 request will enable the President's Feed the 
Future Initiative to:

  <bullet> Assist 18 million individuals to significantly increase 
        their annual purchasing power. For example, current due 
        diligence on impact projections demonstrate that:

      <all>  An individual who participates directly in FTF investment 
            implementation should experience a 68 percent increase in 
            income compared to individuals that do not receive FTF 
            support.
      <all>  This, in real terms, is a buildup of an annual increase of 
            about $300/year after 10 years.
      <all>  A majority of FTF's beneficiaries--over 7 million 
            individuals and most of them women--will start FTF below 
            the poverty line and experience similarly dramatic 
            increases in their annual income;
      <all>  Evidence shows women choose to use increased purchasing 
            power to:

          <box>  Diversify dietary intake among household members;
          <box>  Pay for school fees, including for girls; and
          <box>  Invest in preventative health care.

  <bullet> Reach some 7 million children to improve nutrition, reduce 
        stunting, and prevent child mortality.
  <bullet> Generate $2.8 billion over the long term in economic 
        benefits through research activities to raise agricultural GDP, 
        distributed broadly among agricultural sector stakeholders in 
        FTF target regions.

    All of these levels assume the following:

  <bullet> Five years of funding. These levels include FY 2010 enacted 
        as well as request levels for 2011 and 2012. For FY 2013 and 
        2014, we assume a ``straight line'' to FY 2012 request levels.
  <bullet> Expected results are for the initiative as a whole. They 
        cannot be applied to specific country levels. BFS is currently 
        quantifying country specific results using a standard applied 
        cost-benefit analysis that reflects USG investments aligned 
        with each FTF focus country's food security investment plan.

    Specifically, the first expected result is necessarily a future 
projection that must be based on assumptions, such as:

  <bullet> A $280 unit cost on the budgets for the 20 focus countries, 
        regional programs, private sector initiatives, economic 
        resilience and multilateral programs;
  <bullet> The total population experiences a 10-percent increase in 
        initial income levels sustained over a period of 10 years;
  <bullet> Approximately 40 percent of the beneficiary population 
        starts below the poverty line of $1.25/day.

    The second statement regarding nutrition is necessarily a future 
projection that must be based on the following assumption:

  <bullet> An average unit cost of $100 against the nutrition budget, 
        reaching a total population of children under 2. As a result of 
        this nutrition package, children will experience improved 
        nutrition, reduced stunting and mortality will be prevented.

    The third statement is necessarily a future projection that must be 
based on the following assumption:

  <bullet> For every dollar spent on research, four dollars of 
        additional agricultural GDP are generated over 35 years. These 
        benefits will accrue broadly and equitably among the population 
        in the target regions and raise agricultural GDP.
                            progress to date
    FY 2010 funding for the Feed the Future (FTF) initiative was only 
made available to missions and other operating units late last summer, 
at which point they began their procurement processes. Because FTF 
represents a major rampup of new and substantively different activities 
in most FTF countries, many missions have had to design and compete new 
grant or contract mechanisms. Funds that have been obligated to 
existing grant or contract mechanisms by the end of the fiscal year can 
be disbursed fairly quickly. As a result, we have no development 
impacts to report at this time.
    However, knowing of congressional interest in tracking results, FTF 
has implemented an aggressive monitoring and evaluation process that 
will report actual progress on development indicators against planned 
targets by the end of FY 2011. During FY 2010, FTF has been intensively 
monitoring important process indicators that signal commitment and 
strategic implementation of the Initiative. A sample of these 
Performance Indicators and milestones for FTF are listed below.

Sample Performance Milestones:

  <bullet> 10 FTF focus country investment plans and one regional 
        investment plan have successfully completed technical review 
        and include integrated investments in preventative nutrition 
        approaches;
  <bullet> Funding provided by the U.S. Treasury to the Global 
        Agriculture and Food Security Program at the World Bank, which 
        is the multilateral counterpart to the bilateral initiative, 
        has begun to flow to eligible countries;
  <bullet> The FTF's Global Research Strategy has been launched to find 
        new solutions to the global food security needs and initial 
        awards have been allocated.

    Question. Over the past 2 years, the Obama administration has 
sought to reach out to the Syrian Government, most notably by 
appointing the first American Ambassador to Syria since 2005. This 
administration has essentially taken unilateral steps toward Syria in 
the hope they would respond positively.

  <bullet> Have we seen any signs that Syria is taking steps to improve 
        its behavior and its relationship with the United States, if so 
        please identify these specific signs? Is Syria changing its 
        relationship with Iran, Hezbollah, or Palestinian terror 
        groups?

    Answer. The President appointed an Ambassador to Syria in order to 
protect U.S. interests. Since arriving in Damascus, Ambassador Robert 
Ford has been granted access to a range of senior Syrian interlocutors 
with whom we have spoken only infrequently, if at all, during the past 
6 years. He also worked to secure the release of two American citizens 
detained by the Syrian Government. As CENTCOM Commander General Mattis 
recently testified, Ambassador Ford's presence is a key component of 
our regional national security architecture.
    Syria has responded by engaging senior U.S. officials in a serious 
discussion on a wide range of regional issues, including Lebanon, Iraq, 
and Middle East peace. These discussions have helped make clear to 
Syrian officials that normal relations between Syria and the United 
States will only result when Syria addresses all these regional 
concerns, including an end to Syrian support for regional actors that 
promote instability and extremism, including Hamas and Hezbollah.

    Question. For most of the past 2 years, the Palestinian leadership 
has refused to enter into direct talks with Israel. Instead, they have 
sought to use the U.N. and other international forums to delegitimize 
Israel and seek support for a unilateral declaration of statehood 
outside the negotiating process.
    Just a few weeks ago, they embarrassed the United States by 
insisting on a U.N. Security Council resolution on settlements, setting 
up a U.S. veto and then orchestrated West Bank demonstrations to 
protest U.S. actions.

  <bullet> What have we communicated to the Palestinians about these 
        actions? Do they understand that if they continue, it will hurt 
        their relationship with the United States and possibly effect 
        aid levels?
  <bullet> Some in the PA leadership have threatened to pursue U.N. 
        membership and unilaterally declare statehood in September. If 
        the PA attempts this will the United States actively oppose 
        Palestinian efforts to gain membership in the U.N. prior to an 
        agreement with Israel? How will the administration respond to a 
        unilateral declaration of statehood?

    Answer. U.N. members devote disproportionate attention to Israel 
and consistently adopt biased resolutions, which too often divert 
attention from the world's most egregious human rights abuses. We work 
to ensure that Israel's legitimacy is respected and its security is 
never in doubt. We will keep working to ensure that Israel has the same 
rights and responsibilities as all states--including membership in all 
appropriate regional groupings at the U.N. Efforts to chip away at 
Israel's legitimacy will continue to be met by the opposition of the 
United States.
    We have long expressed our opposition to--and work to prevent--the 
use of international organizations, particularly the U.N. and its 
organs, to single out Israel for criticism.
    While we agree with our fellow Security Council members--and 
indeed, with the wider world--about the illegitimacy of continued 
Israeli settlement activity, we voted against the recently proposed 
Security Council resolution on settlements because it risked hardening 
the positions of both sides and encouraging the parties to stay out of 
negotiations. The resolution would also have encouraged the parties to 
return to the Security Council whenever they reach an impasse.
    The tough issues between Israelis and Palestinians can only be 
solved by substantive and meaningful negotiations between the two 
parties, not in New York and not through unilateral actions. We oppose 
unilateral actions and have made that position clear. That is why we 
continue to pursue a dual track approach, both elements which are key 
to peace and stability for Israel and the region: serious and 
substantive negotiations on permanent status issues and an equally 
vigorous institution-building track that supports Palestinian Authority 
efforts to reform and ensure they are prepared for statehood.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                    Submitted by Senator Bob Corker

    Question. During recent travel to the Pakistan and Afghanistan 
region, I had the opportunity to discuss the effectiveness of our 
assistance in garnering critical support from the Pakistanis in 
combating insurgent elements critical to our success in Afghanistan and 
remain supremely disappointed in their willingness to target those 
elements. What can we do, how should we position our aid package, to 
place the appropriate pressure on Pakistan to turn their attention 
toward battling the Haqqani Network, al-Qaeda and the Quetta Shura?

    Answer. U.S. assistance is critical to maintaining and deepening 
the long-term strategic partnership that the United States is forging 
with the people and Government of Pakistan. Pakistan, a nuclear-armed 
nation with deep ties and strong interests in Afghanistan, has a direct 
impact on U.S. national security. As such, we have structured our 
assistance to help build a long-term strategic partnership with 
Pakistan rather than a transactional one.
    Our security assistance builds the Pakistani security forces' 
capacity to eliminate safe havens for terrorists, to provide internal 
security, and to cooperate with the United States in defeating al-Qaeda 
and the Taliban. It also improves the capacity of Pakistani security 
forces to engage in counterinsurgency operations. Through this 
assistance, we have strengthened our military-to-military relationship, 
which has allowed for cooperation against extremists in the border 
areas. Continued security assistance to Pakistan is critical to the 
success of our investment of American lives and treasure in 
Afghanistan, and it is critical to ensuring our security at home.
    Equally important is our civilian assistance to Pakistan. We are 
broadening our partnership and focusing on shared interests, as well as 
addressing Pakistan's political and economic challenges. Since 2009, we 
have worked with the Pakistani Government and people, including through 
our enhanced U.S.-Pakistan Strategic Dialogue process, which met three 
times last year at the ministerial level. This has refocused assistance 
on Pakistan's urgent energy and economic needs and coordinated our own 
efforts as a government to better coordinate, manage, and oversee 
foreign assistance funds.
    The assistance is designed to help ensure Pakistan is a tolerant, 
economically stable, and a civilian-led democracy, with enough economic 
prospects and capacity to meet basic human needs so that Pakistan can 
prosper over the long-term, so the population turns away from 
extremism, not toward it.
    Even as we've had serious challenges to the relationship, we have 
continued civilian and military efforts throughout the country and even 
expanded our cooperation. Some significant challenges must still be 
overcome in our relationship with Pakistan, as distrust lingers on both 
sides. But it is critical that we remain engaged with Pakistan and help 
build the stability of its elected leaders as they work to address the 
myriad domestic challenges they face.

    Question. How far do we go financially or otherwise to convince 
members of the Taliban to reintegrate? Do we have the capability to 
provide consistent and sustainable incentives for these individuals in 
order to keep them from returning to the battlefield?

    Answer. Our military and civilian surges that started last year 
have established conditions for the success of the Afghanistan Peace 
and Reintegration Program (APRP), a national program designed to 
reintegrate ex-combatants back into Afghan society. Today, the 
escalating pressure of our military campaign is sharpening a decision 
for the Taliban and other insurgent groups: Break ties with al-Qaeda, 
renounce violence, and abide by the Afghan Constitution, and you can 
rejoin Afghan society; refuse and you will continue to face the 
consequences of being tied to
al-Qaeda as an enemy of the international community. As the military 
surge weakens the insurgents and pressures them to consider 
alternatives to armed resistance, our civilian surge is creating 
economic and social incentives for participating in peaceful society.
    The security and governance gains produced by the military and 
civilian surges have created an opportunity to reintegrate 
nonideological insurgents through the APRP. Many low-level fighters 
entered the insurgency not because of deep ideological commitment, but 
for financial and economic reasons. The international community pledged 
over $230 million in financial support for the Afghan Government's APRP 
to draw insurgents off the battlefield and back into society. So far, 
almost 700 insurgents have entered into the APRP, and around 2,000 more 
are potential candidates. As we continue our civilian-military efforts, 
we expect more insurgents to seek alternatives to violence. The 
possibility of a safe return to Afghan society as well as the means to 
restart their lives will be critical.
    The U.S. Congress has provided us with what we believe is adequate 
funding to support the Afghan Government in its reintegration efforts 
for the coming year, with $50 million in Operations and Maintenance 
Funds for reintegration purposes under the FY 2011 National Defense 
Authorization Act, and another $50 million in 2010 for the National 
Solidarity Program's community recovery activities. These funds will be 
used to support outreach, promote grievance resolution, and assist 
entire communities--including women and Afghans of all ethnic groups--
that reintegrate ex-combatants into them. We are not paying insurgents 
to stop fighting, but instead making it possible for the communities 
they join to heal and move forward as hostilities cease. We have 
stressed that reintegration must not occur at the expense of women's 
and human rights, and will continue to advocate that women should be 
active participants at all levels of the reintegration process.
    The APRP was designed as a 5-year program. By the end of the 5 
years, the Afghans should be able to deal with what remains of the 
insurgency with their own resources. Reintegration to date has 
proceeded slowly, but it is gaining momentum. Critical aspects of this 
initiative include international political and financial support, 
effective Afghan action in handling reintegration opportunities, and 
the flexibility needed for us to support Afghan-led reintegration in 
the field. We have the first, and we are witnessing the second develop 
at a steady rate.

    Question. Given the current state of affairs--political and 
security--in Afghanistan and Pakistan, what level of assistance from 
the respective governments should we expect to receive in achieving our 
``civilian'' goals? How confident do you feel that Afghanistan and 
Pakistan are equal partners in achieving the objectives?

    Answer. The United States works closely with the Government of 
Afghanistan to achieve our mutual civilian objectives, including 
growing the Afghan economy and strengthening democratic institutions. 
The London Conference in February 2010 and the Kabul Conference in July 
2010 helped define the areas where further work is needed. The Afghan 
Government participated actively in both of these conferences, which 
set the stage for a revitalized effort to make progress on economic, 
social, and political challenges in Afghanistan in lockstep with the 
international community. In 2012, State and USAID aim to meet the 
London Conference goal of channeling at least 50 percent of development 
aid through the Afghan Government's core budget. The 50-percent goal is 
a shared responsibility, however, in that it requires the Government of 
Afghanistan to take critical steps to ensure its ministries and 
agencies are prepared to effectively and accountably implement 
assistance.
    This year, the United States and Afghanistan will conclude a new 
Strategic Partnership Declaration that will define the most important 
elements of our bilateral relationship through the end of transition in 
2014 and beyond. Our negotiations to conclude this partnership will 
help establish mutual expectations and obligations that lock in the 
gains the Afghan people have made in rebuilding their society since the 
ouster of the Taliban regime.
    We recognize a politically sustainable partnership must rest both 
on shared interests and on shared values. As partners, President Obama 
and President Karzai have both acknowledged occasional disagreements do 
not have to be an obstacle to achieving our strategic objectives, but 
do reflect a level of a trust that is essential to any meaningful 
dialogue and enduring partnership.
    The U.S. Government and Pakistan are pursuing a broad and important 
agenda together, including our shared desire to see Pakistan become a 
strong, prosperous democracy, at peace with its neighbors, and to build 
security across the region. Yet we still occasionally experience 
difficult periods in our relationship over contentious issues.
    In this context, we respect the difficulties Pakistan is facing. 
Pakistan has lost thousands of its best soldiers fighting against 
violent extremists and thousands of its civilians to terrorist 
attacks--a cost few other countries have paid. Last year's floods only 
compounded the nation's difficulties. Pakistani leaders can build 
confidence by making the hard, even unpopular, choices that are 
critical to Pakistan's economic reform and stability, all of which will 
ensure that development assistance is not wasted. The civilian 
government has faced tough challenges but remains a vital partner for 
us in achieving our objectives.
    We welcome Pakistan's role in supporting a secure and economically 
prosperous Afghanistan. As a neighbor, Pakistan plays a vital role in 
the realization of a stable Afghanistan, one that is able to provide 
for its own security, to exercise sovereignty over all its territory, 
to provide economic prosperity, and one that plays a constructive role 
in the region.

    Question. What needs to be done to improve the contracting 
mechanisms or change the types of organizations that we award contracts 
to ensure more money goes to programs or indigenous organizations and 
less to security and overhead for American companies?

    Answer. We are working to change our business processes--
contracting with and providing grants to more and varied local 
partners, and creating true partnerships to create the conditions where 
aid takes a back seat to local support in the countries where we work. 
To achieve this, we are streamlining our processes, increasing the use 
of small businesses, building metrics into our implementation 
agreements to achieve capacity-building objectives and using host 
country systems where it makes sense.
    In Afghanistan, USAID has dramatically altered the way we deliver 
assistance through changes in our acquisition strategy; devolution of 
authority to the field; and, the provision of on-budget assistance to 
the Government of the Islamic Republic of Afghanistan.
    Large multiyear international contracts are being replaced with 1-
year or 18-month contracts with options; national-scale contracts and 
grants are being replaced with regionally focused awards, to reduce 
their size and increase their manageability; and USAID is placing 
small-grant authority ($25K) in the hands of qualified and trained 
field staff.

  <bullet> For example, one indefinite quantity contract (IQC) with a 
        ceiling of $1.4B for infrastructure covered roads, power, and 
        vertical structures was broken down into 3 separate 
        programmatic areas (energy/water, transportation, and vertical 
        structures) with up to 12 possible IQC award holders;

      <all>  Total ceiling for all 12 awards: approx. $2 billion;

  <bullet> Another example is the Stabilization in Key Areas (SIKA) 
        project where we will have four separate regional awards 
        totaling up to $43.6M.

    USAID is shifting the locus of control from Kabul to the field by 
delegating programmatic and administrative authorities for regional 
activities to the USAID Senior Development Officer (SDO) at the 
Regional Platforms to the greatest practicable extent. The Regional 
Platforms East and South are developing regional operating frameworks 
(ROF) for transitioning from stability assistance to development 
assistance. In addition to providing accountability for current 
program/project decisionmaking, the ROFs will be used to inform future 
resourcing and programming, engaging Afghan counterparts in program and 
project design of stability assistance and longer term development 
assistance.
    With regard to security, the U.S. Government is currently examining 
what is needed to shift from reliance of Private Security Contracts to 
reliance upon the GIRoA Afghan Public Protection Force (APPF), through 
the Ministry of Interior, to satisfy the need for security for 
implementing partners. However, not all contractors or projects will 
require APPF. Many are looking at different ways of operating without 
guards, such as relying more on Afghan staff for field work, and using 
unarmed security advisors instead of armed guards. USAID is working, 
project by project, to help find the best solution that meets the 
security needs of our partners.

    Question. The United States has appropriated over $16 billion since 
fiscal year 2002 for development efforts in Afghanistan, implemented by 
USAID and DOD, focusing on similar initiatives, such as improving 
Afghanistan's road, water, and other infrastructure sectors. This line 
of effort is an integral part of the U.S. civilian-military campaign 
plan focused on countering insurgents in Afghanistan and requires 
extensive interagency coordination and information-sharing. In a report 
released yesterday, GAO identified these programs as potentially being 
duplicative. How are you enhancing processes to communicate across U.S. 
efforts to avoid duplicative or contradictory programming?

    Answer. USAID is coordinating closely with the military on all 
levels to make sure that our assistance is not redundant. At the 
district and provincial levels, USAID Field Program Officers meet 
regularly and frequently with their military counterparts to coordinate 
CERP and USAID programming. Often USAID and CERP programs are designed 
to dove-tail with each other. CERP projects tend to be used to build 
the infrastructure (i.e., schools and clinics), and then USAID projects 
provide the technical oversight and additional inputs (e.g., school 
curriculum, teacher training, and clinic supplies). In the 
counterinsurgency effort, CERP projects tend to be used to help with 
the clearing and the initial ``hold,'' while USAID stabilization 
efforts follow in behind to provide ``hold-build'' activities.
    At the Task Force and Regional Command level, USAID staff 
participate on CERP Boards and wield veto authority if the project is 
unsustainable from a development perspective or if it is overlapping 
with an effort that USAID is already undertaking.
    At the Kabul level, USAID and Embassy Kabul are voting participants 
on the DOD countrywide CERP Board. In addition, USAID sits on several 
working groups including the Infrastructure Working Group, various 
vetting and oversight task forces, Force Reintegration Cell, and 
participates in the Country Team meeting with the leadership of all the 
Embassy sections and Federal agencies. The USAID Stabilization Unit 
interacts regularly with ISAF to help shape military plans, and has 
been a key player to help design the Civilian Military Campaign Plan.
    At the Washington level, USAID coordinates closely with the 
interagency. USAID principals participate in a regular series of high-
level meetings coordinated by the National Security Staff (NSS), 
beginning with the Inter-Agency Policy Committee (IPC) meetings, the 
Deputies' Committee meetings, and the Principals' Committee meetings. 
USAID also regularly participates in the monthly SRAP-organized 
``shura,'' as well as the biweekly NSC-led ``Tandberg'' conversations.
    USAID/Washington is also sending a liaison officer to work at the 
Pakistan Afghanistan Coordination Center in the Pentagon, and engages 
regularly with CENTCOM through a liaison in the Office of Military 
Affairs and through USAID liaisons in Tampa at CENTCOM.

    Question. In the FY12 budget, the economic support line for Tunisia 
has been zeroed out. We are at a critical juncture in this country's 
transition and Tunisia needs international support in building 
democratic institutions and civil society.

  <bullet> What is your plan to provide Tunisia the assistance it needs 
        to transition?

    Answer. Our FY 2012 budget preparation began last April--well 
before Tunisia embarked on its remarkable democratic transition. Over 
the course of the previous year, the previous Tunisian Government had 
been taking steps to terminate security cooperation with us and had 
ceased working hand in hand with us on many issues that were in our 
mutual interest. These factors provide more context and explain why the 
administration requested the amount it did for Tunisia in the FY 2012 
budget you received.
    I agree entirely that we must work closely with the Tunisian people 
and the international community in assisting Tunisia during its 
democratic transition. The State Department, through the NEA Bureau's 
Middle East Partnership Initiative, has identified $20 million in FY 
2010 and FY 2011 Economic Support Funds that will be allocated to 
support the Tunisian transition. Our Bureau of Democracy, Human Rights 
and Labor (DRL) has identified an additional $1.1 million from its 
global democracy fund that it plans to use to support transitional 
justice processes in Tunisia. USAID has made $3 million available for 
programs that will help prepare Tunisia for elections. We will also 
work with Congress to establish a Tunisian-American enterprise fund to 
stimulate investment in the private sector and provide businesses with 
low-cost capital, particularly in the less-developed areas of Tunisia.
    Finally, the Overseas Private Investment Corporation (OPIC) will 
offer financial support in the form of direct loans, guarantees, and 
political risk insurance. OPIC is already supporting one Tunis-based 
private equity firm that is focused on small- and medium-size 
businesses, is conducting diligence on two additional Tunis-based funds 
that will invest in the same, and will support investor visits by 
American businesses to Tunisia.
    Looking ahead, we must continue to identify points of entry for 
U.S. engagement in Tunisia and prepare assistance levels that reflect 
our commitment to supporting the democratic change underway.

    Question. Across the Middle East and North Africa, we are 
witnessing a transformational moment, with the region's citizens 
demanding democratic rights and accountable governments. These 
countries will need external support as they undertake what we hope 
will be successful transitions to democratic governments.

  <bullet> How will the United States provide sufficient support to the 
        transitional governments in Egypt and Tunisia, while also being 
        prepared to assist in other countries as needed, with protests 
        now sweeping the rest of the region, including Libya, Bahrain, 
        Jordan, and Yemen?

    Answer. We are actively reevaluating our programming and assistance 
in order to adapt our support to the transitions underway across the 
region. The United States will continue to be a friend and partner of 
the Egyptian people, and we are prepared to support Egyptian efforts to 
pursue a credible democratic transition. We are also committed to 
helping Egypt address the very serious economic difficulties that it 
currently faces, which present significant challenges during this 
sensitive period.
    In order to support Egypt's economic recovery and democratic 
transition in the immediate term, we are reprogramming $150 million 
from previous year bilateral USAID funds and we intend to reprogram $4 
million from the global democracy fund, in addition to $2.6 million of 
previously planned funds from the Middle East Partnership Initiative 
(MEPI). Our support for democratic transition will help Egypt conduct 
free and fair elections and establish a responsive, accountable 
government that respects the universal human rights of the Egyptian 
people. OPIC will provide up to $2 billion in financial support to 
encourage private sector investments in the Middle East and North 
Africa; the U.S Export-Import Bank has approved $80 million in 
insurance cover to support letters of credit issued by Egyptian 
financial institutions; and the administration is working with a 
bipartisan group of Members of Congress to establish an Egypt-American 
Enterprise Fund that will stimulate private sector investment, support 
competitive markets, and provide business with access to low-cost 
capital.
    In the longer term, Egypt's growth depends on deepening economic 
relationships within the region and the wider world, and we are working 
to ensure that priority assistance is coordinated with long-term goals 
in mind. Many of our friends and allies in the international community 
have expressed a similar desire to provide support to Egypt, and we are 
also engaging with our colleagues at the multilateral development banks 
and other international financial institutions in order to explore how 
those institutions may also play a helpful role.
    Since the fall of the former Tunisian regime on January 14, we have 
been working on ways to reengage with the Tunisian people, support 
their democratic transition efforts, and align our resources behind 
this priority. The State Department, through the NEA Bureau's MEPI 
program, has identified $20 million in FY 2010 and FY 2011 ESF that 
will be allocated to support the Tunisian transition. State and USAID 
are also working with our international partners to focus on rapid and 
tangible support for Tunisia's short-term financial stability, as well 
as its long-term economic growth that will create benefits and 
opportunities across Tunisian society. My visit to Tunisia on March 16 
is a clear demonstration of our support for the Tunisian people and the 
country's transition to democratic governance.
    Your question correctly intimates that reprogramming finite funds 
in the short term does not ensure stable support for longer term 
objectives. Contingency funding capabilities, such as the Elections and 
Political Processes Fund (EPP) and the Complex Crises Fund (CCF), 
provide the U.S. Government with the flexibility necessary to respond 
to rapidly developing political scenarios, without forcing us to divert 
funding from other priority programs. In addition, MEPI, as well as 
USAID and DRL programs, will allow the USG to continue to flexibly 
support civil society as it promotes economic, social, and political 
reforms, expands opportunities for women and youth, and helps 
communities work alongside governments in shaping their own futures. 
The combination of the EPP and CCF contingency funds, in addition to 
economic assistance funds, allows the U.S. Government to pursue its 
regional foreign policy priorities with a variety of tools, including 
diplomacy, development, capacity building, public outreach, and 
regional dialogue.
    We understand that we face an extraordinarily difficult budgetary 
climate, and the administration has reflected that in its proposed 
budget. However, we must ensure that we have the resources to respond 
to the reality of unfolding events in the Middle East and recognize the 
opportunity, as well as the security imperative, that these events 
bring with them. Simply put, current funding levels make it difficult 
for us to meet the emerging needs of the region at this time of 
unparalleled opportunity. It is critical that the parameters of our 
assistance remain flexible so that State and USAID can respond quickly 
and strategically within a rapidly changing environment.

    Question. Haiti: With other crises occurring around the globe, we 
are at risk of losing focus on the reconstruction and stabilization 
efforts in Haiti. Can you discuss the progress that has been made since 
funds became available last November? How is execution impacted by the 
current political impasse? Do we run the risk of reversing gains made 
in some critical sectors last summer?

    Answer. The United States will not let the many other challenges it 
faces distract us from our efforts in Haiti. As President Obama has 
made clear, the United States commitment to Haiti will be sustained.
    The U.S. Government (USG) had been working on a comprehensive 
strategy to support Haiti since March 2009. The January 12, 2010, 
earthquake necessitated careful review and revisions to meet the needs 
of the post-earthquake nation. While providing nearly $1.2 billion in 
relief and recovery assistance since the very beginning of the crisis, 
the State Department and the United States Agency for International 
Development (USAID) led the planning and development of a whole-of-
government comprehensive strategy to support Haiti's long-term 
reconstruction, in close coordination with the Government of Haiti and 
other donors. The supplemental moneys that became available in November 
are continuing to make this long-term, forward-thinking strategy 
possible.
    The Supplemental funds have been put to good use. Since November, 
the U.S. Government has disbursed $212 million of supplemental money to 
provide Inter-American Development Bank debt relief, freeing up money 
for the Government of Haiti to meet their highest and most urgent 
priorities. The U.S. Government also used $120 million to fund projects 
through the Haiti Reconstruction Fund (HRF) to support the construction 
and repair of houses targeted to benefit 50,000 people; remove rubble 
in critical areas of Port-au-Prince; establish a partial credit 
guarantee fund to help finance private sector activity; and to provide 
education assistance.
    The U.S. Government has also invested almost $300 million of FY 
2010 and prior year funds in recovery and development activities. In 
addition, USAID's Office of Foreign Disaster Assistance (OFDA) has 
provided over $45 million for the immediate response to the cholera 
outbreak. This money has funded the establishment of more than 30 
cholera treatment facilities with more than 1,100 beds. The U.S. 
Government is also funding more than 115 oral rehydration posts out of 
a total 282 established throughout Haiti.
    The U.S. Government has provided nearly $18 million in FY10 and 
FY11 moneys to support the November 28 and March 20 elections. This has 
included: supporting a long-term international election observation 
mission from the Organization of the American States and the Caribbean 
Community; contributing $6.6 million to the U.N. Development Program-
managed elections trust fund to purchase election material including 
ballots and ballot boxes; supporting the development of training 
materials and training of polling center and station staff; providing 
technical and financial assistance for a nationwide civic and voter 
education campaign, including a call center and SMS ``push and pull'' 
campaign to help voters locate their polling stations; supporting 
nonpartisan action groups for voter education, nonpartisan Get-Out-The-
Vote efforts, and the deployment of more than 5,000 election day 
observers; providing technical assistance to political parties in poll 
watching, debates, and election dispute resolution. The USG also 
provided both technical and financial support for the organization of 
Presidential debates prior to both the first and second round election, 
which were broadcast nationally on radio and television and screened in 
several of the largest IDP camps to help inform voters of their choices 
on election day.
    Political unrest in Haiti has at times hindered the progress of our 
programs. Violent demonstrations following the November 28, 2010, first 
round elections impeded the delivery of assistance services and 
resources, particularly in the fight against cholera. This is one 
reason why the United States, along with Haiti's international 
partners, has worked with the people and Government of Haiti in support 
of a free and fair electoral process, one in which Haitians can choose 
their leaders during this important period. I am pleased that the 
second round of Presidential and Parliamentary elections on March 20 
went off relatively peacefully, with less confusion than the first-
round balloting and with good voter turnout. The newly elected 
Presidential and parliamentary leadership will be critical to realizing 
Haiti's vision for its recovery.
    It will take years for Haiti to fully realize the gains of 
sustainable development. It is important to understand that such change 
cannot happen overnight. We want make clear that as we undertake 
substantial investment in long-term development, we will not forsake 
humanitarian assistance. It is vital that the urgency we all felt in 
the days after the earthquake continue to drive our efforts so that we 
can support Haiti as it charts a course toward sustainable development 
in the months and years to come, and ensure that the gains we have 
achieved are not reversed.

    Question. Global Security Contingency Fund (GSCF): I understand 
that the Global Security Contingency Fund is meant as a new funding 
paradigm to quickly respond to crises before or as they begin to occur 
without the delays that can pague such funding requests, pooling funds 
from State and DOD.

  <bullet> Could you explain in brief what the benefits of the Global 
        Security Contingency Fund would be? Could it demonstrate the 
        potential of other, broader reforms to the way we plan and 
        budget for our national security missions?
  <bullet> What would you say to my colleagues on the Armed Services 
        Committee about the purpose and intent of the GSCF? Would you 
        tell them it's a good use of reprogrammed DOD dollars?

    Answer. Secretary Gates and I have proposed a new tool called the 
Global Security Contingency Fund (GSCF) which would allow DOD and State 
to pool resources and expertise to provide assistance to security 
forces and the government agencies responsible for those forces as well 
as justice sector and stabilization assistance. We believe this 
proposal advances U.S. national security interests in four main ways: 
(1) it provides us with the agility needed to address today's complex 
strategic environment; (2) it serves as a new business model, 
emphasizing collaboration and the interconnected nature of defense, 
diplomacy, and development; (3) it enables our departments to respond 
jointly and effectively to a broad scope of transnational challenges; 
and (4) it leverages the resources and expertise of other departments 
and agencies.

  <bullet> The legislation we have proposed would allow either the 
        Department of State or the Department of Defense to transfer 
        additional funds from their existing appropriations into the 
        Global Security Contingency Fund, up to a combined total of 
        $500 million in appropriations and transfers. The intent of the 
        fund is not to spend $500 million on an annual basis, but to 
        have adequate resources available to the Departments to respond 
        rapidly to emergent challenges or opportunities within a given 
        fiscal year, in the event that such resources are necessary. 
        Actual expenditures in a given year will depend on the 
        requirements. We believe this approach is a responsible way to 
        balance the need for additional agility with a funding 
        structure that encourages rigor in programming decisions due to 
        the need to transfer funds from other sources.
  <bullet> We envision specific uses of the GSCF in the future will 
        vary depending on the emergent threat or opportunity and 
        operating environment. Current events in the Middle East 
        suggest increased flexibility and agility in U.S. Government 
        responses within the budget cycle will certainly be necessary 
        to respond to rapidly changing circumstances in regions 
        critical to U.S. interests. We believe that the GSCF would 
        enable the USG to respond more rapidly and more comprehensively 
        to emergent requirements through programs that provide 
        assistance to both security forces and the governmental bodies 
        responsible for such forces. We envision that such assistance 
        would often include instruction on accountability, human 
        rights, and resource management to help develop responsible 
        security forces.

    We intend to have an ongoing dialogue with Congress as this fund is 
stood up. In a manner similar to that of the Complex Crisis Fund, we 
expect to conduct regular consultations with Congress on the use of the 
GSCF. We will report to Congress on the use of these funds on a 
quarterly basis so that you can indeed verify that our use of the 
authority provided in the GSCF is both prudent and effective. We have 
drafted this initiative as a pilot program in order for both the 
administration and Congress to evaluate its use and confirm its utility 
before extending the duration of the authority.

    Question. Interagency coordination has been one of the greatest 
obstacles to the effective implementation of the U.S. foreign policy 
agenda. What are you doing to break down barriers to effective 
coordination, ensuring that all appropriate agency heads have a place 
at the table and equal opportunity to provide input and recommendations 
in the implementation of our foreign policy that will effectively use 
each dollar we appropriate?

    Answer. Today's increasingly complex challenges--humanitarian 
crises, global economic trends, weak and failing states--require a 
whole-of-government solution, and there are significant opportunities 
for interagency coordination that we are tapping into well. Agencies 
that have traditionally been purely domestic in nature are engaging 
more internationally. The Quadrennial Diplomacy and Development Review 
(QDDR) specifically refers to our Chiefs of Mission abroad as the CEOs 
of multiagency missions and interests. The QDDR calls for an integrated 
multiyear strategic planning process that, more than ever, will compel 
interagency participation and perspective. State Department and USAID 
officials have a long and strong history of engaging with their 
interagency colleagues, and I believe that the QDDR will provide an 
equally compelling approach for senior leadership of many agencies to 
provide insight and input into our foreign policy agenda.

    Question. This administration, like the Bush administration, 
considers the International Affairs programs to be part of our overall 
national security strategy. But I don't think it's widely recognized 
just how vital the programs you oversee--development and diplomacy--are 
to our Nation's security and strategic interests. Secretary Gates has 
said ``without development we will not be successful in either Iraq or 
Afghanistan.''

  <bullet> Could you please describe how the budget request for State 
        and USAID will help meet our national security objectives?
  <bullet> Why are these investments that American taxpayers should be 
        making at a time like this?

    Answer. National security is a fundamental objective of development 
and diplomacy. By protecting our interests and promoting security and 
prosperity abroad, we shape the world in a way that ensures the 
security and prosperity of Americans at home.
    Generations of Americans have grown up successful and safe because 
we chose to lead the world in tackling its greatest challenges. We 
invested the resources to build up democratic allies and vibrant 
trading partners in every region. Whether negotiating arms treaties, 
brokering talks with belligerent states, fostering stability through 
development projects, helping to rebuild countries shattered by war, 
countering nuclear proliferation, enhancing economic opportunity for 
our businesses abroad in order to create jobs here at home, protecting 
our nation's borders and Americans abroad, or serving as the platform 
from which the entire U.S. Government operates overseas, our diplomatic 
and development work is dedicated to strengthening national security.
    The FY 2012 budget request for the Department of State and USAID 
clearly reflects this essential mission. Our work in Iraq, Afghanistan, 
and Pakistan is focused on promoting stability in these three nations, 
to keep them from becoming havens for extremists who threaten the 
United States. The request promotes conflict prevention and crisis 
response in other fragile states, from helping Haiti stabilize after a 
devastating earthquake to civilian and military efforts to strengthen 
governance and security capacity in places battling terrorist groups. 
Human security is a major goal of our budget and a critical part of 
supporting global productivity and prosperity, supporting programs that 
promote health, education, and nutrition, and counteract infectious 
diseases like HIV/AIDS. By funding new technologies and research, we 
increase agricultural productivity and promote food security with the 
goal of preventing economic and political crises that can arise from 
food shortages and price spikes. Finally, we help nations adapt to the 
effects of climate change, efforts meant to ensure that these shifts do 
not disrupt vital trade and economies.
    These goals represent a wise investment for the American taxpayers. 
By supporting diplomacy and development, the nation is able to respond 
to problems before they escalate into crises that require a more 
significant, and usually much more expensive, response. It costs far 
less to deploy a diplomat or development expert than a military 
division. And by using a preventive approach to global issues, we are 
able to stave off potential threats before they become major risks to 
our national security. There have always been moments of temptation in 
our country to resist obligations beyond our borders, but each time we 
have shrunk from global leadership, events have summoned us back to 
reality. We saved money in the short term when we walked away from 
Afghanistan after the cold war, but those savings came at an 
unspeakable cost, one we are still paying 10 years later in money and 
lives.

    Question. As you know, the world has changed dramatically in recent 
years, and the future of high economic growth is shifting from the 
developed to the developing world. Over the past 40 years, trade has 
tripled as a share of our economy, and more than one out of five 
American jobs are tied to international trade. America's fastest 
growing markets--representing roughly half of U.S. exports--are in 
developing countries. Economic engagement must keep the United States 
competitive in the global marketplace.

  <bullet> Can you describe for us the role our International Affairs 
        programs play in helping spur economic growth here at home and 
        creating American jobs?
  <bullet> How do these programs help U.S. businesses and entrepreneurs 
        to remain competitive in the global market place?

    Answer. You have well identified the crucial role that exports play 
in creating U.S. jobs and rebalancing the U.S. economy. That is why the 
Department of State and our embassies and consulates abroad are so 
deeply involved in the work of the President's National Export 
Initiative, helping U.S. manufacturers, services providers, farmers, 
and ranchers achieve more sales outside our domestic market. With 
increased exports, the Nation can create millions of new jobs across 
many sectors and throughout the country. The President has challenged 
the Nation to double overall exports in a 5-year period, and important 
progress was achieved in the 1st year. U.S. exports in 2010 increased 
$261 billion compared to 2009, but in too many markets we are only back 
to 2008 export levels, before the effects of the global financial 
crisis that began in 2008.
    U.S. Ambassadors serving abroad and the country teams they lead at 
their embassies make promotion of U.S. exports of manufactured goods, 
services, and farm goods an important part of their work. The 
Ambassadors are the CEOs of the interagency process at their posts, 
setting priorities for execution by their teams. State Department 
economic officers at embassies and consulates are available to counsel 
U.S. companies about market opportunities and challenges overseas. 
Economic officers and their colleagues also urge policy and regulatory 
reforms by our trading partners, to make economies more open and the 
application of regulations more transparent, predictable and even-
handed, thus assisting U.S. companies' access. Effective protection and 
enforcement of intellectual property rights--the patents, trademarks, 
and copyrights on which so many knowledge-intensive U.S. companies 
rely--is an important focus of work by our embassies and the Department 
of State (particularly the Office of International Intellectual 
Property Enforcement), in conjunction with other agencies in 
Washington. Our embassies also help facilitate the establishment of 
American Chambers of Commerce overseas and seek counsel from and offer 
briefings to such groups. I met with the Business Round Table in 
December 2010 and the President's Export Council on March 11 of this 
year. With input obtained by our diplomatic posts from U.S. exporters 
and U.S. business representatives resident in foreign markets, feedback 
from the Department's Advisory Committee on International Economic 
Policy, and the constructive views offered by many U.S. domestic 
businesses and business organizations such as the Business Round Table 
and President's Export Council, we strive to integrate private sector 
issues into U.S. foreign and economic policy and direct U.S. Government 
resources to assist U.S. business interests overseas.
    State Department consular officers adjudicate millions of 
nonimmigrant visa applications each year, facilitating legitimate 
travel by foreign business people, tourists and students. These 
visitors spend annually tens of billions of dollars in the United 
States, helping to create jobs across the Nation. We provide our 
consular officers with clear guidance to provide business-friendly 
application procedures while adjudicating applications for business 
visas within the bounds of U.S. immigration law.
    I convened U.S. Ambassadors from around the world at the Department 
of State on February 2 and 3 this year, and their great enthusiasm to 
be champions on behalf of U.S. exports and U.S. exporters was quite 
apparent. They are concerned, however, about the resources available to 
our missions abroad, including for export promotion purposes.
    U.S. Ambassadors are eager to explain commercial opportunities in 
their host countries to U.S. business audiences. One, but by no means 
the only, recent example: the Department of State's Bureau of Economic, 
Energy and Business Affairs and the Bureau of Near East Affairs worked 
with the Business Council for International Understanding to program 
meetings with U.S. domestic business groups for nine U.S. Ambassadors 
from the Middle East and North Africa in October of last year. The 
Ambassadors made presentations to business associations from New York 
to Seattle and San Francisco and Milwaukee to New Orleans. Other U.S. 
Ambassadors have made similar presentations to U.S. audiences, and in 
this year in which the United States will be host to the APEC summit, 
many more such events will occur. All of these activities are designed 
to help U.S. companies understand the export opportunities in often 
unfamiliar foreign markets.
    I and other senior officials of the Department of State regularly 
advocate on behalf of U.S. bidders on foreign government and foreign 
military procurements, in meetings abroad, on the margins of 
international conferences, and in diplomatic correspondence to foreign 
government officials. Those efforts, and similar efforts by other 
Cabinet members and their senior officials, White House officials, and 
the ongoing advocacy by our embassy teams abroad, have resulted in 
important, sizable export wins for U.S. businesses. You will recall, 
for instance, the multibillion dollar contracts for Boeing jets and 
other items announced during President Obama's visit to India in 
November and during the January state visit of Chinese President Hu 
Jintao to the United States. It is important to emphasize that it is 
not just our biggest companies and their supply chains that benefit 
from commercial advocacy, however large or important those contracts 
may be. The day-to-day work of our country desk officers, regional 
bureaus, the Bureau of Economic, Energy and Business Affairs, and our 
Ambassadors and embassy teams overseas reap important accomplishments 
for U.S. businesses of all sizes across the Nation. For example:

  <bullet> Embassy Manila played a crucial role in the successful bid 
        of the largest North American producer of solid zinc strip and 
        zinc-based products, Jarden Zinc Products of Greenville, TN, to 
        supply coin blanks to the Philippines Central Bank. The 
        contract value exceeded $20 million.
  <bullet> One of our smallest posts in terms of staffing, the American 
        Presence Post in Rennes, France, recently helped a Maryland 
        firm secure a contract for at-sea refueling systems for 
        European naval frigates.
  <bullet> The U.S. Embassy in Tirana recently brokered an 
        understanding with Albanian Customs and National Food Authority 
        officials, who had differing interpretations of the 
        requirements of an ambiguous Albanian law. The Embassy's 
        intervention allowed release of U.S. meat shipments that had 
        been delayed in an Albanian port because of those bureaucratic 
        disputes.
  <bullet> Embassy Asuncion officers counseled a southern California 
        firm in its successful bid to lay 1,000 kilometers of high 
        temperature, low-sag transmission cable for the Paraguayan 
        National Electricity Administration, a contract valued at more 
        than $10 million.
  <bullet> State's International Communications and Information Policy 
        Office (CIP) has promoted the benefits of holding wireless 
        spectrum auctions to other countries. Brazil, India, Costa 
        Rica, and Mexico have held these auctions with our 
        encouragement. In Brazil, U.S.-based Nextel won 11 3G (third 
        generation) wireless licenses, as well as other licenses, 
        resulting in Nextel Brazil becoming the fifth mobile carrier 
        with almost 100 percent national coverage there.

    The work of many of the offices in State's Bureau of Economic, 
Energy and Business Affairs (EEB) actively support the goals of the 
President's National Export Initiative or otherwise contribute to U.S. 
economic prosperity.

  <bullet> EEB administers a Business Facilitation Incentive Fund for 
        export promotion activities that is used by dozens of posts 
        without a Commercial Service presence.
  <bullet> EEB/CIP works with foreign governments and U.S. industry to 
        encourage regulatory reform and market access for the 
        information and communications technology (ICT) sector. Through 
        public-private partnerships CIP promotes U.S. ICT industry 
        instruction of visiting foreign officials on best practices, 
        regulatory reform, international standards, and 
        telecommunications competition.
  <bullet> EEB's Office of Aviation Negotiations expands markets for 
        our airlines, which benefits U.S. exporters, the travel and 
        tourism industries, and the express delivery industry, and 
        creates demand for long-haul aircraft to fly these new routes.
  <bullet> EEB's Office of Development Finance helps the Millennium 
        Challenge Corporation increase private sector awareness of 
        procurement opportunities offered there.
  <bullet> EEB's Office of Trade Policy and Programs represents State 
        and supports officials of the Office of the United States Trade 
        Representative in numerous bilateral and multilateral trade 
        negotiations with the express goal of opening markets and 
        creating a level playing field for our firms.
  <bullet> EEB's Office of Investment Affairs joins with USTR in 
        negotiating protections for overseas investors against 
        expropriation. The United States is the world's largest outward 
        investor, and an estimated 21 percent of U.S. exports are 
        intracompany transfers from U.S. parents to their overseas 
        subsidiaries. The annual Investment Climate Statement produced 
        by our embassies and published on the State Department Web site 
        is a key tool used by many American companies to evaluate risk 
        associated with their overseas investment plans.
  <bullet> EEB's Office of Investment Affairs and Commerce's Invest in 
        America program cooperate to attract foreign investment to the 
        United States that creates thousands of high-value jobs in our 
        economy. In October, we sent a joint State-Commerce instruction 
        to all diplomatic and consular posts stressing the importance 
        of attracting investment to the United States. The United 
        States is the world's No. 1 recipient of inward foreign direct 
        investment, and foreign subsidiaries in the United States 
        provide approximately 19 percent of all U.S. exports.

    In sum, International Affairs funding is crucial for the foreign 
policy of the United States, but also for our international economic 
policies and the creation of a more prosperous economic future for our 
workers and companies in an increasingly connected and competitive 
global marketplace.

    Question. I am pleased with USAID reform efforts to strengthen the 
monitoring and evaluation across all programs, particularly in light of 
the emphasis my colleagues and I placed on this in the Foreign 
Assistance Reform and Revitalization Act last Congress. Could you 
explain what is currently being done to shift toward the impact 
measuring, outcome-oriented approach in all assistance and development 
programs? What progress has been made in building in-house staff 
expertise and filling the mid-level staff that the agency currently 
lacks to effectively perform the monitoring and evaluation mission?

    Answer. On January 19, 2011, USAID released a new evaluation 
policy. One of the policy's primary goals is to promote the objective 
and unbiased evaluation of USAID-funded programs. To that end, the 
policy includes two firm requirements--namely, that all large projects 
undergo a methodologically rigorous evaluation; and that all pilot (or 
``proof of concept'') projects undergo a rigorous evaluation. The 
policy establishes firm protocols and procedures for ensuring that all 
USAID evaluations will be transparently conducted, unbiased, integrated 
into project design, relevant for decisionmaking, methodologically 
sound, and oriented toward reinforcing local capacity.
    To ensure that evaluations are conducted in an unbiased manner, 
USAID's evaluation policy stipulates that most evaluations will be 
conducted by external third-party evaluators who are not directly 
involved in project implementation. To promote unbiased evaluation work 
at USAID missions, these evaluations will be managed by the Program 
Office (which has multiple responsibilities but does not generally 
manage projects directly) rather than the offices that manage the 
projects.
    USAID expects that the majority of these evaluations will be 
conducted by externally contracted organizations that have specialized 
expertise in evaluation. Recognizing, however, that USAID 
simultaneously needs to build in-house evaluation capacity, the Agency 
is training its staff in evaluation design, methods, and management. 
Between January and April of this year, more than 100 individuals 
completed the courses.
    USAID staff and/or implementing partners will conduct evaluations 
when this serves the evaluation purpose, is cost-effective and does not 
compromise objectivity. However, it is anticipated that all evaluation 
teams will be led by an external expert.
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
               Submitted by Senator Robert P. Casey, Jr.

    Question. I have been a longtime supporter of strengthening 
institutions in Pakistan and believe that we should be doing all in our 
power to enhance our relationship not only with the Pakistani 
Government and the Pakistani military, but also with the Pakistani 
people. A central element to this relationship is enlisting the talent 
and dedication of the Pakistani American community. As the Enhanced 
Partnership with Pakistan Act was being formulated, I offered an 
amendment which called for an active role for the Pakistani-American 
community.
    I know that the Office of the Special Representative for 
Afghanistan and Pakistan (SRAP) has attempted to engage Muslim-
Americans in general and Pakistani-Americans specifically. What is the 
United States currently doing to ensure that the talents and knowledge 
of Pakistani-Americans are brought to bear in enhancing our relations 
with Pakistan? What more can we be doing in the Senate to help?

    Answer. The U.S. Department of State and USAID have been actively 
engaged with the Pakistani-American community to discuss relations 
between the United States and Pakistan, the successes and challenges of 
civilian assistance, and to gain support for U.S. Government programs 
as well as receive feedback on areas of improvement.
    One key concern of the Pakistani-American community has been the 
effectiveness of U.S. assistance and ensuring that aid reaches those 
who need it the most. We have helped address some of these concerns in 
changes we have made to the mechanics of how assistance is 
distributed--for example, in increasingly working through local 
implementers and those with a record of strong fiscal oversight.
    We have discussed these policy changes directly with the diaspora 
community, through formal organizations such as the Pakistani American 
Liaison Council, the American Pakistan Foundation, the Pakistan League 
of America, and the Association of Pakistani Physicians of North 
America. In the wake of last year's floods, SRAP led weekly conference 
calls with the Pakistani-American diaspora community. Sometimes 
including several hundred participants, these calls were a critical 
channel for exchange of information.
    The U.S. Government has also actively engaged with local and 
regional leaders by hosting townhall style forums in several states as 
well as participating in community functions such as parades and 
rallies. We would be happy to help organize such a forum in 
Pennsylvania and send a representative to participate, as part of our 
ongoing effort to build diaspora support for U.S. objectives in 
Pakistan and better communicate U.S. policies.

    Question. I want to thank the administration for your commitment to 
enforcing existing Iran sanctions as evidenced by the recent 
designation of the two Iranian Government officials as human rights 
violators on February 23: Abbas Jafari Dolatabadi and Mohammed Reza 
Naqdi. I was very supportive of Senators McCain and Lieberman's efforts 
to ensure that human rights violators would be sanctioned under CISADA.
    While this is a welcome development, I am concerned that the 
administration has not designated enough companies and/or individuals 
under current authorities. Does the State Department have enough 
personnel devoted to sanctions enforcement on Iran and around the 
world?
    Given your public statements after Istanbul, I understand that the 
administration intends to ramp up enforcement of the existing sanctions 
regime. What concrete steps do you plan to take along those lines to 
induce Iran to stop enriching uranium and comply with the NPT and IAEA 
monitoring?

    Answer. I appreciate your support of our efforts to designate 
Iranian officials for serious human rights abuses. These designations 
underscore our continued support for Iranians seeking to exercise their 
universal human rights, demonstrate our solidarity with Iranian victims 
of abuse, and hold Iranian officials accountable for human rights 
violations they commit against their own people.
    The State Department and Treasury Department continue to work 
closely with human rights defenders, NGOs, and the Intelligence 
Community to collect and assess evidence about persons and entities who 
might meet the legal requirements for designation. We will continue to 
designate persons and entities as new information becomes available and 
as developments unfold in Iran.
    The threat Iran's nuclear program poses is one of our greatest 
global concerns. The Iranian leadership continues to refuse to address 
the serious concerns of the international community about its nuclear 
activities program, instead using last January's talks in Istanbul to 
deliver unacceptable preconditions. Iran is more isolated 
internationally than it has been in years.
    U.N. Security Council Resolution 1929 dramatically expanded the 
breadth of existing multilateral sanctions on Iran and helped to 
reinforce international efforts to convince Iran to change its calculus 
and negotiate seriously to resolve concerns over its nuclear program. 
We worked with our friends and allies to implement additional 
autonomous measures, such as those taken by Australia, Canada, the 
European Union, Japan, the Republic of Korea, and Switzerland. 
Following the discussions in Istanbul, we began looking at what other 
steps, possibly in coordination with other countries, could be taken to 
increase pressure on Iranian leadership. We will keep the committee 
abreast of developments as we move forward in this regard.
    As I noted in my testimony, we are pleased that we have been able 
to use CISADA to secure the withdrawal of five major international 
energy companies from Iran. As you know, we have designated one firm 
for targeted sanctions, Iranian owned NICO, thereby further inhibiting 
Iran's ability to secure investment and collaboration for its energy 
interests and signaling to other companies that we are prepared to use 
these sanctions.
    This is not the end of the story. We have moved carefully and 
deliberately, collecting information, determining the reliability of 
data and making careful judgments about the impact of potential 
sanctions on our own economy and our international interests. We will 
keep Congress apprised as this ongoing process develops and we take 
additional actions. Very soon, for example, we expect to provide 
Congress with information on a number of cases of sanctionable economic 
activities undertaken by entities in a variety of countries.
    That said, our accomplishments have been made thanks to the hard 
work of a rather small group of staff, whose numbers we have augmented 
by temporary means and who have been supported by technical experts in 
specialized fields. I am pleased that we are hiring new staff to assist 
this effort, particularly since sanctions enforcement becomes ever more 
complex and difficult as violators learn to ``game the system.''
                                 ______
                                 

  Responses of Secretary of State Hillary Rodham Clinton to Questions 
                     Submitted by Senator Mike Lee

    Question. President Obama proposed to freeze ``nonsecurity 
discretionary spending'' for FY 2011-13 at FY 2010 nominal levels. 
Nonsecurity discretionary spending is defined as discretionary spending 
outside of defense, homeland security, veterans' affairs, and 
international affairs.

  <bullet> Does the administration consider all the programs in this 
        budget to be ``security'' programs that are outside the reach 
        of the nonsecurity spending freeze?
  <bullet> If so, please explain how post-earthquake assistance to 
        Haiti, the Feed the Future Initiative, Global Health 
        Initiative, and Global Climate Change Initiative (worthy 
        programs though they may be) are related to the national 
        security of the United States.

    Answer. The administration considers the Department of State and 
U.S. Agency for International Development (USAID)--as well as all other 
Function 150 international affairs agencies--to be part of the national 
security budget and, therefore, not subject to the nonsecurity spending 
freeze. National security is a fundamental objective of development and 
diplomacy. By protecting our interests and promoting security and 
prosperity abroad, we shape the world in a way that ensures the 
security and prosperity of Americans at home.
    Generations of Americans have grown up successful and safe because 
we chose to lead the world in tackling its greatest challenges. We 
invested the resources to build up democratic allies and vibrant 
trading partners in every region. Whether negotiating arms treaties, 
brokering talks with belligerent states, fostering stability through 
development projects, helping to rebuild countries shattered by war, 
countering nuclear proliferation, enhancing economic opportunity for 
U.S. businesses abroad in order to create jobs here at home, protecting 
our Nation's borders and Americans abroad, or serving as the platform 
from which the entire U.S. Government operates overseas, our diplomatic 
and development work is dedicated to strengthening national security.
    The FY 2012 budget request for the Department of State and USAID 
clearly reflects this essential mission. Our work in Iraq, Afghanistan, 
and Pakistan is focused on promoting stability in these three nations, 
to keep them from becoming havens for extremists who threaten the 
United States. The request promotes conflict prevention and crisis 
response in other fragile states, from helping Haiti stabilize after a 
devastating earthquake to civilian and military efforts to strengthen 
governance and security capacity in places battling terrorist groups. 
Human security is a major goal of our budget and a critical part of 
supporting global productivity and prosperity, supporting programs that 
promote health, education, and nutrition and counteract infectious 
diseases, like pandemic flu, tuberculosis, and HIV/AIDS, which directly 
threaten America. By funding new technologies and research, we increase 
agricultural productivity and promote food security with the goal of 
preventing economic and political crises that can arise from food 
shortages and price spikes. Finally, we help nations adapt to the 
effects of climate change, efforts meant to ensure that these shifts do 
not disrupt vital trade and economies.
    These goals represent a wise investment for the American taxpayers. 
By supporting diplomacy and development, the nation is able to respond 
to problems before they escalate into crises that require a more 
significant, and usually much more expensive, response. It costs far 
less to deploy a diplomat or development expert than a military 
division. And by using a preventive approach to global issues, we are 
able to stave off potential threats before they become major risks to 
our national security. There have always been moments of temptation in 
our country to resist obligations beyond our borders, but each time we 
have shrunk from global leadership, events have summoned us back to 
reality. We saved money in the short term when we walked away from 
Afghanistan after the cold war, but those savings came at an 
unspeakable cost, one we are still paying 10 years later in money and 
lives.
    Post-earthquake assistance to Haiti, as well as the Feed the 
Future, Global Health, and Global Climate Change Initiatives are prime 
examples of using the combined assets of smart power, diplomacy, 
development, and defense to protect our interests and advance our 
values. The challenges of humanitarian emergencies, disease, food 
insecurity, and climate change threaten the security of individuals, 
and increasingly in our world, individuals here at home. They are also 
the seeds of future conflict, which will require much larger infusions 
of U.S. resources and power to address if we ignore them now.
    Haiti suffered devastating losses during the earthquake--losses 
that can quickly develop into staggering levels of poverty, suffering, 
and lawlessness without substantial interventions. Our post-earthquake 
assistance is helping to stabilize the country, restore livelihoods, 
and lay the foundation for political and economic stability--efforts 
that are essential to building regional stability and securing the 
borders of the United States.
    Food security is a cornerstone of global stability. With global 
food prices approaching an all-time high, it is more important than 
ever for the United States to help countries achieve long-term food 
security and forestall short-term food crises. Three years ago, it was 
the spike of food prices that led to protests and riots in dozens of 
countries. Through Feed the Future, we are helping farmers to grow more 
food, drive economic growth, and turn aid recipients into trading 
partners, which creates opportunities for U.S. farmers and agricultural 
businesses.
    Our largest investment is in global health programs, including 
those launched and led by President George W. Bush. In addition to 
saving and improving individual lives, these programs stabilize entire 
societies that have been devastated by HIV, malaria, tuberculosis, 
malnutrition, and other diseases, thereby reducing the need for 
international relief or intervention. These programs also limit the 
global spread of diseases that might otherwise reach Americans, such as 
pandemic influenza, HIV, and tuberculosis.
    Climate change threatens food security, human security, and 
national security. Through the Global Climate Change Initiative we help 
to build resilience against droughts, floods, and other weather 
disasters; we promote clean energy; and we preserve tropical forests. 
This also gives leverage to us to persuade China, India, and other 
nations to do their part as well. Our efforts also help to expand the 
markets and reach of U.S. clean energy technologies.
    Assistance that addresses global climate change, food security, and 
health challenges helps to create the conditions in developing 
countries for the growth of democracy, economic expansion, and 
ultimately, increased stability. If we want to lighten the burden on 
future generations, we have to make the investments that will make our 
world more secure. And in order to maintain U.S. global leadership, it 
would be a mistake to retreat on these critical issues in a world where 
we are competing with countries like Iran and China that seek to 
promote their own influence in a way that may not meet our own global 
interests.

    Question. How closely does the administration work with private, 
nonprofit agencies to implement certain administration initiatives 
including The Feed the Future Initiative, Global Health Initiative, and 
Global Climate Change Initiative?
                       feed the future initiative
    Answer. The administration's Feed the Future initiative supports 
national and regional efforts to engage the private sector, private 
voluntary organizations, research organizations, and other stakeholders 
in the planning and implementation of country and regional agriculture 
and food security investment plans. Here in Washington, Feed the Future 
has an office that is focused on leveraging the skills and resources of 
both the private sector and humanitarian nongovernmental organizations 
through partnerships focused on increasing agricultural productivity 
and market access. In addition to the programming of Community 
Development Funds (funds requested to complement private voluntary 
organizations' nonemergency title II agreements and reduce their 
reliance on monetization), this office is developing a new innovation 
grant to address risk reduction and economic resilience in vulnerable 
communities--a mechanism which will be available to private voluntary 
organizations involved in food security programming.
    Our USAID missions are using a variety of procurement mechanisms, 
including grants and cooperative agreements to implement Feed the 
Future at a country-level, and consistent with USAID Forward, are 
prioritizing agreements that strengthen local institutions--both public 
and private--and contribute to country ownership and the sustainability 
of country-led food security efforts.
    Here in Washington we have developed a Feed the Future civil 
society stakeholder network that includes representatives from more 
than a hundred different private sector, private voluntary 
organizations, and research institutions both here and overseas. We 
have brought the group together through webinars for consultation on 
various aspects of Feed the Future's implementation, including 
nutrition, gender, food assistance, and monitoring and evaluation. In 
April this group will examine the intersection of food security and 
global climate change--identifying best practices in programming which 
addresses both.
                        global health initiative
    Private, nonprofit agencies and other civil society actors are 
critical partners in the administration's implementation of the Global 
Health Initiative (GHI).
    Together with our partners, the GHI has set ambitious goals for 
achieving improved health outcomes for HIV, malaria, TB, reproductive, 
maternal and child health, and nutrition in developing countries. The 
success of the initiative in meeting these goals is predicated upon 
building and leaving behind sustainable, country-led platforms to 
manage, oversee, and operate basic care and health services in partner 
countries. Ultimately, to sustain these efforts, it is our partner 
governments--together with private, nonprofit agencies, civil society 
organizations (CSOs) including affected communities, faith-based 
organizations (FBOs), the private sector and others in countries--that 
must manage and implement health programs based upon their countries' 
health needs and strategies.
    Accordingly, the USG has engaged in extensive consultations on GHI 
with government and nonprofit civil society organizations, and these 
partners remain critical to our implementation efforts. Private, 
nonprofit partners work in-country with long-established relationships 
with community leaders and health workers, deploying their technical 
expertise at the community level. They are important advocates, both in 
the United States and in partner countries, working to ensure 
transparency and accountability in our mutual efforts.
    Part of the administration's GHI strategy includes a focus on 
developing new partnerships with a variety of civil society actors, 
both nonprofit and for-profit private sector, to promote 
sustainability, leverage funding, and create synergies and efficiencies 
to achieve our mutual global health goals.
                    global climate change initiative
    Under the Global Climate Change Initiative, the administration 
works with a wide range of partners, including private, nonprofit 
organizations, other U.S. Government agencies, private, for-private 
groups, and institutes of higher learning. Private voluntary 
organizations, especially host country groups, play critical roles in 
advocating for accountability, transparency, and inclusiveness in 
national consultation and planning processes around climate change, in 
monitoring country commitments to emission reductions, and in ensuring 
equitable access to benefits from payments for environmental services 
such as carbon sequestration. NGOs both in the United States and abroad 
are also at the forefront in piloting new approaches to mitigation and 
adaptation. USAID is tapping into this knowledge by hosting knowledge 
sharing events, such as a recent, one-day public meeting on Low 
Emissions Development strategies and a workshop on monitoring 
performance of adaptation programs.

    Question. Within the State Operations & Broadcasting budget, $767 
million is requested for International Broadcasting (including Voice of 
America). The recent pro-democracy protests in Egypt were begun and 
spread, in part, by the influence of social media.

  <bullet> At this time, how relevant is Voice of America to the spread 
        of democracy?

    Answer. The U.S. international broadcasting services under the 
supervision of the Broadcasting Board of Governors (BBG), among them 
the Voice of America (VOA), are charged with promoting freedom and 
democracy and enhancing understanding through news, information and 
other programming. The Middle East Broadcasting Networks (Alhurra TV 
and Radio Sawa), a BBG grantee, broadcasts in Arabic to the Middle 
East. While BBG services have a respected track record of breaking the 
information stranglehold of repressive regimes on their own people--
including during the cold war--it is difficult to gauge the degree to 
which they can be credited with influencing specific events, such as 
the pro-democracy demonstrations in the Middle East.
    But it is possible to document increases in viewership and 
listenership during such events, since the BBG tracks in detail each of 
its networks' performance in reaching audiences with accurate, 
objective news and information that empowers citizens and supports 
democratic values.
    For example, following the outbreak of protests in Egypt that led 
to the eventual ouster of President Mubarak, a BBG-commissioned 
telephone poll of Egyptians in Cairo and Alexandria indicated that 
Egyptians had turned heavily to satellite television to keep up with 
the events in their country. And while some other broadcasters had been 
blocked, 25 percent of the 500 respondents said they had watched 
Alhurra TV to follow the events.
    In addition to their broadcast signals, the BBG's language services 
have a robust Internet presence and are expanding their social media 
activities, including through the use of Facebook, Twitter, and mobile 
platforms.

    Question. Under the Taiwan Relations Act, ``Meetings between United 
States Government officials and Taiwan authorities within and outside 
the United States must be held outside United States Government and 
Taiwan offices.''

  <bullet> Has the administration considered proposing or supporting 
        changes to allow greater visitation between Taiwanese and 
        American Government officials?

    Answer. The Taiwan Relations Act (TRA) authorizes ``the 
continuation of commercial, cultural, and other relations between the 
people of the United States and the people on Taiwan.'' Relations with 
Taiwan are unofficial in nature, and meetings and contacts between 
executive branch personnel and representatives of Taiwan are by 
definition unofficial. Executive branch guidelines provide that such 
meetings may take place in most U.S. Government office buildings, with 
the exception of the State Department, the White House, and the 
Eisenhower Executive Office Building. Nevertheless, the United States 
continues to have wide-ranging, continuous contact with Taiwan on a 
broad range of issues.

  <bullet> How are we utilizing Taiwan to address security concerns in 
        the region, especially from North Korea?

    Answer. The United States has wide-ranging, continuous contact with 
Taiwan in the security realm. United States-Taiwan military-to-military 
interactions are considerable, through academic courses and training, 
through the mutual observation of the others' military exercises, and 
through conferences and visits. This interaction is important to the 
overall U.S. security strategy in the region.
    Taiwan's high-tech manufacturing base makes it an attractive source 
of sensitive materials to a number of countries of concern, and its 
location and infrastructure make it a potential market and 
transshipment point for strategic goods to North Korea and elsewhere. 
By working with Taiwan, the administration has been able to 
consistently raise Taiwan's awareness and ability to combat 
proliferation, building Taiwan's capacity to adopt and implement export 
controls consistent with international standards.
    Taiwan has adopted unilateral controls over sensitive items that 
could be exported to North Korea. This Sensitive Commodities List was 
developed in consultation with the United States. The United States has 
also consulted with Taiwan on its development of an interagency license 
review mechanism, which is expected to be implemented this year.

    Question. The administration has said that it is unacceptable for 
Iran to have a nuclear weapons capability. With the eyes of the world 
focused on Egypt and Libya, I am concerned that Iran continues to feel 
pressure to abandon any plans for nuclear weapons capabilities.

  <bullet> How is our policy of ``no nuclear weapons'' in Iran 
        reflected in this budget?
  <bullet> Are we prepared to impose additional sanctions on Iran if 
        they move ahead with development of nuclear weapons?
  <bullet> If our policy of sanctions fails, and Iran moves ahead with 
        development of nuclear weapons, what is our next step in United 
        States-Iran relations?

    Answer. We are continuing to work on a global scale to secure the 
broadest enforcement of sanctions against Iran, robustly implementing 
the existing U.N. Security Council resolutions, including most recently 
Resolution 1929 (2010), and making full use of our own new national 
laws in coordination with autonomous measures imposed by Australia, 
Canada, the European Union, Japan, Norway, the Republic of Korea, and 
Switzerland. We are also leading the effort to strengthen the 
international nonproliferation regime through support for the 
International Atomic Energy Agency (IAEA) and international safeguards 
application.
    The administration remains committed to its dual-track strategy, 
which presents Iran with two choices: It can rejoin the international 
community by fulfilling its international obligations under the Nuclear 
Non-Proliferation Treaty and to the U.N. Security Council and the IAEA, 
or it can face increasing pressure and economic and political isolation 
for its activities.
    Following disappointing talks in Istanbul last January, our focus 
has been on increasing pressure on Iran by enhancing implementation of 
existing sanctions. We continue to work independently and with our 
allies to deny Iran access to the technology and know-how it needs to 
develop further its nuclear program. We are working with our partners 
to eliminate Iran's ability to abuse the international financial system 
and to fund its proliferation activities. Ultimately, should Iran 
continue to act in contravention of its international obligations, as 
the administration has said before, all options are on the table.
    Preventing Iran's development of nuclear weapons is one of the 
administration's top foreign policy objectives. Our efforts against 
Iran's nuclear activities are made across a large cross-section of the 
Department, as well as the interagency, making it difficult to identify 
a specific budget figure for our work. The Department has mobilized 
existing and secured additional personnel and resources to address this 
high policy priority. Recognizing the importance of aligning policy and 
resources to this important task, I have called on Special Advisor for 
Nonproliferation and Arms Control Robert Einhorn to serve as the U.S. 
coordinator for the implementation of sanctions related to Iran and 
North Korea. Mr. Einhorn is leading U.S. efforts with partners and 
allies around the world to strengthen multilateral and national 
measures to impede Iranian proliferation activities.

    Question. In light of recent events in the Middle East, how closely 
is the administration working with the Government of Israel to ensure 
Israel maintains a qualitative military edge in the region?

    Answer. This administration is closely monitoring the situation 
throughout the region and we hold regular confidential consultations 
with the Government of Israel, as evidenced by recent visits to Israel 
by Secretary of Defense Gates and Assistant Secretary for Political-
Military Affairs Andrew Shapiro. Our commitment to Israel's security is 
unwavering and any developments we believe pose a threat to Israel's 
qualitative military edge (QME) will be carefully considered and 
responded to appropriately. We are taking full advantage of the 
consultative and political mechanisms currently in place to respond to 
and act on Israel's concerns and to ensure the region's unrest does not 
negatively impact Israel's QME.
    Since the Reagan administration, official U.S. policy has been to 
safeguard Israel's Qualitative Military Edge (QME), defined as ``the 
ability to counter and defeat any credible military threat from any 
individual state or possible coalition of states or from nonstate 
actors, while sustaining minimal damages and casualties.''
    In 2008, Congress passed legislation (section 201(d) of P.L. 110-
429, or the ``Naval Transfer Act of 2008'') requiring quadrennial 
reports on the U.S. Government's assessment of Israel's QME. The first 
of these reports was submitted in September 2009.
    The law stipulates that any arms sale to the Middle East subject to 
congressional notification must include a certification that the sale 
does not adversely impact Israel's QME. Indeed, we will not proceed 
with the release of any military equipment or services that could pose 
a risk to our allies or compromise regional security in the Middle 
East.
    The United States also protects Israel's qualitative military edge 
in a number of other important ways: (1) Currently, Israel receives 
nearly $3 billion per year in U.S. security assistance for training and 
equipment under the Foreign Military Financing Program (FMF). For FY 
2010 (which marked the second year of a 10-year, $30 billion FMF 
memorandum of understanding with Israel), the administration requested 
$2.775 billion in security assistance funding for Israel (the largest 
such request in U.S. history, and an increase of $225 million from the 
previous year), which helps Israel to: purchase the advanced military 
equipment it requires for its defense; deter potential aggressors; and 
maintain its conventional military superiority; (2) We committed to 
requesting $205 million from Congress to support Israel's Iron Dome 
short- to medium-range counterrocket system in addition to our FY 2011 
FMF request for Israel; and (3) Providing Israel with privileged access 
to advanced U.S. military equipment, such as the F-35 Joint Strike 
Fighter.

    Question. How is the administration ensuring that U.S. interests 
are protected during the period of transition in Egypt? Specifically, 
has the administration received any indication from emerging leaders in 
Egypt that peace between Egypt and Israel will be maintained, the Suez 
Canal will remain open, and that the Egyptian Army will provide 
security on the Gaza border?

  <bullet> What can we do to ensure that democracy in Egypt is not used 
        to advance the interests of the Muslim Brotherhood?

    Answer. The Supreme Council of the Armed Forces (SCAF) has 
explicitly affirmed Egypt's commitment to honor all existing 
international agreements to which it is a party. We will continue to 
encourage both Israel and Egypt to abide by their treaty obligations, 
and we will continue to communicate this message to Egypt's new 
government. The border between Israel and Egypt remains secure thanks 
to the efforts of both countries as well as our strong support for the 
Multinational Force and Observers (MFO) contingent in the Sinai.
    The Egyptian Armed Forces have taken very seriously their 
responsibility to maintain the security of the Suez Canal and the Suez-
Mediterranean Pipeline. Both of these key pieces of infrastructure 
continue to operate and we expect that the Egyptian military will 
continue to ensure their security.
    We are willing to work with any elected, peaceful group, provided 
they operate through democratic institutions and the rule of law, 
respect equal rights for all, and reject violence as a way to achieve 
their political goals. We believe that Egypt's transition must be a 
locally owned process. To assist the transition to democracy, we will 
engage directly with a wide range of critical actors, including civil 
society organizations, youth, political party representatives, labor, 
and others who have been mobilized by recent events. If appropriate, we 
will also work with government-related institutions that have a role in 
supporting the organization and implementation of democratic elections, 
and for other purposes related to a democratic transition.
    What is important here is not a particular group--it is a process 
that allows the Egyptian people to have their aspirations genuinely 
met. There is a whole range of voices that need to be included in the 
discussion on how to get there. What was also clear throughout the 
protests is that Egyptian society is far broader than any one group. We 
saw people of all ages, walks of life, and even different religions.

    Question. How will the recent events in Egypt affect future U.S. 
aid to that country?

    Answer. USAID will continue to provide assistance to pursue a 
credible transition to a democracy and to meet expressed social and 
economic needs. Given the historic situation, we are drawing on all 
resources and expertise to respond effectively and efficiently to 
Egyptian needs. This includes adapting ongoing programs to the current 
political, social, and economic context; mobilizing $15m in existing FY 
2010 initiatives to immediately support civil society; and 
reprogramming $150m in prior year resources to support the transition 
process.
    At the same time, other critical, long-term development programs 
are proceeding without interruption in health, education, economic 
growth, and democracy to ensure that endemic problems that Egypt faced 
before the recent transition are continuing to be addressed.
    With the $150 million announced by Secretary Clinton to support the 
transition process, USAID will engage directly with a wide range of 
critical actors, including civil society organizations, youth, 
political party representatives, labor, and others who have been 
mobilized by recent events. Transition programs will be demand-driven, 
but are expected to cover needs related to the political transition, 
youth engagement, economic recovery, and rebuilding social networks and 
support institutions.

    Question. Is the administration considering increasing economic aid 
to Egypt?

    Answer. In the critical days and months ahead, the United States 
will work to ensure that the economic gains Egypt has forged in recent 
years continue, and that all parts of Egyptian society benefit from 
these gains. As the situation evolves, we will continue reviewing how 
best to use our assistance to address Egypt's economic recovery.
    The Obama administration is working with a bypartisan group of 
Members of Congress to establish an Egypt-American Enterprise Fund that 
will stimulate private sector investment, support competitive markets, 
and provide business with access to low-cost capital. Pending 
congressional approval, the Fund will be a not-for-profit, privately 
managed corporation launched with U.S. grant assistance and governed by 
a joint American-Egyptian board of directors. The United States plans 
to initiate the Fund with up to $60 million in funding from the Egypt 
program. In addition to the U.S. grant capitalizing the Fund, the 
Overseas Private Investment Corporation (OPIC) would then be able to 
partner with the Fund to offer cofinancing downstream for OPIC-eligible 
investments.
    We recognize the need, especially in the current budget 
environment, to consult early and often with the Congress. At this 
time, we have not identified the need for additional assistance. We 
look forward to working with Congress to ensure that we have the 
funding and authorities necessary to support the Egyptian people in 
this transition to provide whatever assistance is necessary, 
appropriate, and requested.

    Question. Are there any real secular, democratic parties operating 
in Egypt today that the United States could support?

    Answer. Real secular, democratic parties operate in Egypt today. 
Even before the recent upheaval and transition, there were liberal 
secular parties registered in Egypt, including the Wafd, Democratic 
Front, and Tagammu, but these parties had a limited base of support. 
Indications are that a number of new democratic actors and groupings 
will take advantage of the opening political space and register as 
political parties. USAID is prepared to assist these newly emerging 
democratic parties.
    USAID's political party policy is governed by two principles: USAID 
programs support representative, multiparty systems; and USAID programs 
do not seek to determine election outcomes. Consistent with our policy, 
we make every effort to support all democratic parties that support 
nonviolence; democratic institutions and values; equal rights for all, 
including women and minorities; and a tolerant, pluralistic society.

    Question. I understand that the administration is reviewing U.S. 
assistance to Lebanon. What is the status of this review and how is it 
being carried out?

  <bullet> Are you concerned that Hezbollah is gaining influence in the 
        Lebanese Government?

    Answer. PM-designate Najib Mikati is still in the process of 
forming his government. He has publicly indicated that he will take as 
long as needed to ensure his government represents all of Lebanon.
    When the new government is formed, we will review its composition, 
policies, and behavior. Since this government has not yet been formed, 
it is premature to judge the next government and make any 
determinations about the future of U.S. assistance to Lebanon. It is 
important that we continue to plan for ongoing assistance through FY 
2012 in order to leave all options open.
    Additional information in response to this question will be made 
available in a classified response.

                                  <all>

</pre></body></html>
